No. 19-_____
IN THE

Supreme Court of the United States
CHRISTA GAIL PIKE,

Petitioner,

v.
GLORIA GROSS,
WARDEN,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit
PETITION FOR A WRIT OF CERTIORARI

STEPHEN FERRELL
FEDERAL DEFENDER SERVICES OF
EASTERN TENNESSEE, INC.
800 S. Gay Street, Suite 2400
Knoxville, TN 37929-9714

ELAINE J. GOLDENBERG
Counsel of Record
MUNGER, TOLLES & OLSON LLP
1155 F Street NW, Seventh Floor
Washington, DC 20004-1357
(202) 220-1100
Elaine.Goldenberg@mto.com
MARKUS A. BRAZILL
DAVID FREENOCK*
MUNGER, TOLLES & OLSON LLP
350 S. Grand Avenue
Fiftieth Floor
Los Angeles, CA 90071-3426
(213) 683-9100

Counsel for Petitioner

* Admitted in the District of Columbia and admission
pending in California.

i
CAPITAL CASE
QUESTIONS PRESENTED
The questions presented are:
1. Whether a defendant who asserts that trial counsel failed to present key evidence is precluded from
showing prejudice under Strickland v. Washington,
466 U.S. 668 (1984), unless the evidence omitted at
trial differs substantially in subject matter from the
evidence actually presented.
2. Whether the Eighth and Fourteenth Amendments prohibit condemning to death a defendant who
was eighteen years old at the time of the offense.

ii
PARTIES TO THE PROCEEDING
Petitioner Christa Gail Pike was the petitioner below.
Respondent Gloria Gross, Warden, was the respondent below.

iii
RELATED PROCEEDINGS
The proceedings directly related to this petition
are:
Pike v. Gross, No. 16-5854 (6th Cir. Aug. 22, 2019),
rehearing en banc denied (Sept. 26, 2019)
Pike v. Freeman, No. 1:12-CV-35 (E.D. Tenn. Mar.
11, 2016)
Pike v. State, No. E2009-00016-CCA-R3-PD (Tenn.
Crim. App. Apr. 25, 2011), application for permission to appeal denied (Nov. 15, 2011)
Pike v. State, No. E2003-00766-SC-R11-PD (Tenn.
May 12, 2005)
Pike v. State, No. E2002-00766-CCA-R3-PD (Tenn.
Crim. App. July 15, 2004)
Pike v. State, No. 68280 (Knox Cty. Crim. Ct.)
State v. Pike, No. 03S01-9712-CR-00147 (Tenn.
Oct. 5, 1998), rehearing denied (Nov. 23 1998)
State v. Pike, No. 03C01-9611-CR-00408 (Tenn.
Crim. App. Nov. 26, 1997)
State v. Pike, No. 58183A (Knox Cty. Crim. Ct.)

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ......................................... i
PARTIES TO THE PROCEEDING ............................ ii
RELATED PROCEEDINGS....................................... iii
OPINIONS BELOW .................................................... 1
JURISDICTION .......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ............................... 1
INTRODUCTION ........................................................ 2
STATEMENT OF THE CASE..................................... 3
REASONS FOR GRANTING THE PETITION ........ 18
I.

II.

This Court Should Resolve A Deep
Conflict Among The Courts Of Appeals
Regarding When Omitted Mitigation
Evidence Is Cumulative Of Evidence
Presented At Trial........................................... 19
A.

The Decision Below Conflicts
With Decisions Of Other Courts
Of Appeals ............................................ 19

B.

The Decision Below Is Wrong. ............. 26

This Court’s Review Is Warranted To
Determine Whether The Death Penalty
May Be Imposed On A Defendant Who
Committed The Offense At Age 18 ................. 30

CONCLUSION .......................................................... 34
APPENDIX

v
Appendix A: Opinion of the United States
Court of Appeals for the Sixth Circuit
(August 22, 2019) ...................................................... 1a
Appendix B: Opinion of the United States
District Court for the Eastern District of
Tennessee (March 11, 2016) ................................... 28a
Appendix C: Order of the Supreme Court of
Tennessee Denying Certiorari
(November 21, 2011) ............................................. 107a
Appendix D: Opinion of the Court of Criminal
Appeals of Tenneessee (April 25, 2011) ............... 108a
Appendix E: Order of the United States Court
of Appeals for the Sixth Circuit Granting in
Part and Denying in Part a Certificate of
Appealability (March 30, 2017) ............................. 254a
Appendix F: Order of the United States Court
of Appeals for the Sixth Circuit Denying
Rehearing ............................................................... 257a
Appendix G: Constitutional Provisions ................ 258a
Appendix H: Relevant Statutory Provisions ........ 261a

vi
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Abdul-Salaam v. Sec’y of Pennsylvania
Dep’t of Corr.,
895 F.3d 254 (3d Cir. 2018) ............................ 22, 23
Anderson v. Kelley,
938 F.3d 949 (8th Cir. 2019) ................................ 22
Ayestas v. Davis,
138 S. Ct. 1080 (2018) .......................................... 30
Beuke v. Houk,
537 F.3d 618 (6th Cir. 2008) .......................... 20, 21
Bond v. Beard,
539 F.3d 256 (3d Cir. 2008) .................................. 23
Brewer v. Quarterman,
550 U.S. 286 (2007) ................................................ 2
Busby v. Davis,
925 F.3d 699 (5th Cir. 2019) ................................ 21
Clark v. Mitchell,
425 F.3d 270 (6th Cir. 2005) .......................... 16, 17
Cruz v. United States,
2018 WL 1541898 (D. Conn. Mar. 29,
2018)...................................................................... 31
Cullen v. Pinholster,
563 U.S. 170 (2011) .............................................. 21

vii
TABLE OF AUTHORITIES
(continued)
Page(s)

Furman v. Georgia,
408 U.S. 238 (1972) ................................................ 3

Greene v. Fisher,
565 U.S. 34 (2011) ................................................ 30
Griffin v. Pierce,
622 F.3d 831 (7th Cir. 2010) .......................... 23, 24
Hill v. Mitchell,
400 F.3d 308 (6th Cir. 2005) .......................... 20, 27
Holsey v. Warden,
694 F.3d 1230 (11th Cir. 2012) ............................ 20
Jermyn v. Horn,
266 F.3d 257 (3d Cir. 2001) ............................ 22, 23
Kayer v. Ryan,
923 F.3d 692 (9th Cir. 2019) .......................... 24, 25
Lockett v. Ohio,
438 U.S. 586 (1978) .............................................. 13
Martinez v. Ryan,
566 U.S. 1 (2012) .................................................... 2
Miller v. Alabama,
567 U.S. 460 (2012) .............................................. 17
Montgomery v. Louisiana,
136 S. Ct. 718 (2016) ...................................... 17, 30

viii
TABLE OF AUTHORITIES
(continued)
Page(s)

Newbury v. Stephens,
756 F.3d 850 (5th Cir. 2014) ................................ 21
NRA v. ATF,
700 F.3d 185 (5th Cir. 2012) ................................ 32
Panetti v. Quarterman,
551 U.S. 930 (2007) .............................................. 29
Porter v. McCollum,
558 U.S. 30 (2009) .......................................... 26, 27
Pruitt v. Neal,
788 F.3d 248 (7th Cir. 2015) ................................ 24
Rompilla v. Beard,
545 U.S. 374 (2005) .............................................. 27
Roper v. Simmons,
543 U.S. 551 (2005) .......................................passim
Sears v. Upton,
561 U.S. 945 (2010) .............................................. 26
Stankewitz v. Wong,
698 F.3d 1163 (9th Cir. 2012) .............................. 25
Stevens v. McBride,
489 F.3d 883 (7th Cir. 2007) ................................ 24
Strickland v. Washington,
466 U.S. 668 (1984) .......................................passim

ix
TABLE OF AUTHORITIES
(continued)
Page(s)

Tanzi v. Sec’y, Fla. Dep’t of Corr.,
772 F.3d 644 (11th Cir. 2014) .............................. 20
Teague v. Lane,
489 U.S. 288 (1989) .............................................. 30
Thompson v. Oklahoma,
487 U.S. 815 (1988) .............................................. 31
Trevino v. Davis,
861 F.3d 545 (5th Cir. 2017) ................................ 21
White v. Ryan,
895 F.3d 641 (9th Cir. 2018) ................................ 25
Wiggins v. Smith,
539 U.S. 510 (2003) .......................................passim
Williams v. Stirling,
914 F.3d 302 (4th Cir. 2019) ................................ 28
Williams v. Taylor,
529 U.S. 362 (2000) .................................. 26, 27, 30
Wilson v. Sellers,
138 S. Ct. 1188 (2018) .......................................... 29
Wong v. Belmontes,
558 U.S. 15 (2009) ................................................ 21
FEDERAL STATUTES
28 U.S.C. 2254 ............................................................. 1

x
TABLE OF AUTHORITIES
(continued)
Page(s)
28 U.S.C. 2254(d) ................................................. 29, 30
Antiterrorism and Effective Death
Penalty Act of 1996 .............................................. 29
STATE STATUTES
Tenn. Code § 39-13-204(f)(2) ..................................... 26
Tenn. Code § 39-13-204(g) ......................................... 13
Tenn. Code § 39-13-204(j)(7) ..................................... 13
Tenn. Code § 39-13-204(j)(9) ..................................... 13
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. VIII .....................................passim
U.S. Const. amend. XIV............................. 1, 14, 30, 31
OTHER AUTHORITIES
John H. Blume & Hannah Freedman et
al., Death by Numbers: Why Evolving
Standards Compel Extending Roper’s
Categorical Ban Against Executing
Juveniles From 18 to 21 (June 2,
2019) (forthcoming Texas Law
Review), https://tinyurl.com/vo6y5hq .................. 33
B.J. Casey et al., The Adolescent Brain,
28 Dev. Rev. 62 (2008) .......................................... 32

xi
TABLE OF AUTHORITIES
(continued)
Page(s)

Alexandra O. Cohen et al., When Is an
Adolescent an Adult? Assessing
Cognitive Control in Emotional and
Nonemotional Contexts, 27 Psychol.
Sci. 549 (2016) ...................................................... 32
Nitin Gogtay et al., Dynamic Mapping of
Human Cortical Development During
Childhood Through Early Adulthood,
101:21 Proceedings of the National
Academy Of Science 8174 (2004) ......................... 32
Elizabeth P. Shulman et al., The Dual
Systems Model: Review, Reappraisal,
and Reaffirmation, 17 Developmental
Cognitive Neuroscience 103 (2016)...................... 32

1
Petitioner Christa Gail Pike respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Sixth Circuit.
OPINIONS BELOW
The opinion of the court of appeals affirming the district court’s denial of habeas corpus relief (Pet. App.
1a) is published at 936 F.3d 372. The court of appeals’
orders denying rehearing en banc (Pet. App. 257a) and
granting in part a certificate of appealability (Pet. App.
254a) are unpublished. The district court’s opinion
denying a petition for habeas corpus (Pet. App. 28a),
the Tennessee Court of Criminal Appeals’ order affirming the denial of post-conviction relief (Pet. App.
108a), and the Tennessee Supreme Court’s decision
denying review of that order (Pet. App. 107a) are unpublished.
JURISDICTION
The judgment of the court of appeals was entered on
August 22, 2019. Pet. App. 1a. The court of appeals
denied rehearing en banc on September 26, 2019. Pet.
App. 257a. On December 17, 2019, Justice Sotomayor
extended the time within which to file a petition for a
writ of certiorari to and including February 24, 2020.
This Court’s jurisdiction is invoked under 28 U.S.C.
1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The relevant statutory provision, 28 U.S.C. 2254, is
reproduced in the appendix to this petition, Pet. App.
261a, as are the Sixth, Eighth, and Fourteenth
Amendments to the U.S. Constitution, Pet. App. 258a.

2
INTRODUCTION
In this capital case, the Sixth Circuit held that a defendant claiming that her counsel ineffectively failed
to present key evidence to the jury at her trial cannot
show that the omission of the evidence was prejudicial
under Strickland v. Washington, 466 U.S. 668 (1984),
unless the evidence omitted at trial differs substantially in subject matter from the evidence actually presented. That holding cannot be reconciled with the decisions of a number of other circuits, which recognize
that such an omission can be prejudicial if the omitted
evidence relates to the same subject matter as the evidence that was presented, but is different in quality
because it is more detailed, more expansive, or more
compelling. Indeed, the issue is now the subject of a 43 split among the circuits. And the Sixth Circuit’s decision is wrong. A juror hearing graphic evidence of a
particular mitigating circumstance—such as the horrific childhood experienced by petitioner in this case—
may reasonably reach a different conclusion as to the
appropriate penalty than a juror who has heard only
meager or highly general evidence involving the same
or similar topics. See Brewer v. Quarterman, 550 U.S.
286, 289 (2007) (in a death-penalty case, sentencing
jury must be able to give “reasoned moral response” to
“defendant’s mitigating evidence”) (citation omitted).
This Court’s review is warranted to bring clarity to the
law in this critically important area. See Martinez v.
Ryan, 566 U.S. 1, 12 (2012) (“The right to the effective
assistance of counsel at trial is a bedrock principle in
our justice system.”).
The Sixth Circuit’s decision is also wrong in another
respect that warrants this Court’s review: it approves
imposition of the death penalty on an offender who was
only 18 years old at the time of the offense. All of the
reasons set forth by this Court in Roper v. Simmons,

3
543 U.S. 551 (2005), for deeming 17-year-olds ineligible for the death penalty under the Constitution apply
equally to 18-year-olds, who have immature and undeveloped brains and who therefore have “lesser blameworthiness” for their acts than an older offender
would. Pet. App. 23a (Stranch, J., concurring). This
case presents the issue starkly, since petitioner’s 17year-old co-defendant avoided the death penalty while
she did not. This Court should make clear that Roper
extends to defendants like petitioner, who is the
youngest woman condemned to die in the United
States since this Court decided Furman v. Georgia,
408 U.S. 238 (1972), and one of only a few defendants
sentenced to death each year for offenses committed as
an 18-year-old.
STATEMENT OF THE CASE
1. Despite learning that Pike had a childhood rife
with trauma, counsel at her trial for first-degree murder failed to pursue any of the mitigation witnesses
recommended by the court-appointed psychologist, Dr.
Diana McCoy, deciding instead to call Dr. McCoy alone
as a witness to present Pike’s entire mitigation case.
Then, on the night before the trial’s penalty phase,
counsel inexplicably decided not to call Dr. McCoy after all. In her place, counsel called three of Pike’s relatives who happened to attend court the following
day—two of whom bore responsibility for, and therefore had an incentive to minimize, Pike’s wretched upbringing. The outcome of counsel’s impromptu mitigation presentation was predictable. Having heard only
a vague account of “a dysfunctional family,” Dkt. No.
8-11, at 3135, No. 12-CV-00035 (E.D. Tenn. 2016)
(Dkt. No.)—even though far stronger mitigation evidence was available—the jury sentenced Pike to death
by electrocution.

4
2. Before her arrest at age eighteen, Pike had a horrific childhood. Born with brain damage, she endured
abuse, neglect, multiple violent rapes, and mental illness.
a. Christa Pike was born to two alcoholics, Carissa
and Glenn. Dkt. No. 9-9, at 4912; Dkt. No. 11-3, at
7490. While pregnant, Carissa continued drinking alcohol, causing brain damage in utero to Pike’s frontal
lobe, the region in the brain that controls executive
functioning and behavioral regulation. Dkt. No. 9-8,
at 4772-4773, 4778-4779; Dkt. No. 10-4, at 6788-89,
6793. Pike’s brain damage is so severe that—unlike
most damage of a similar nature—it is visible on an
MRI. Dkt. No. 9-8, at 4774-4775. A well-respected
neurologist and clinical psychiatrist confirmed Pike’s
brain damage at her post-conviction hearing. Dkt. No.
9-8, at 4778-4779; Dkt. No. 10-4, at 6788-6789. Such
brain damage increases the likelihood of developing bipolar disorder, as Pike ultimately did. Dkt. No. 10-4,
at 6788-6789.
b. Pike’s mother, Carissa, was seriously troubled.
She suffered from depression, attempted suicide when
Pike was three years old, and drank heavily throughout Pike’s childhood. Dkt. No. 11-3, at 7536; Dkt. No.
9-9, at 4912. She preoccupied herself with partying
and her latest suitor, leaving her children with only
whatever “was left.” Dkt. No. 9-7, at 4702-03. Loath
to care for Pike, Carissa left her with relatives whenever she became inconvenient, including for almost all
of the first three years of her life. Dkt. No. 9-7, 46964698; Dkt. No. 11-3, at 7489, 7497; Dkt. No. 9-7, at
4698, 4708-10; Dkt. No. 9-9, at 4901-4902; Dkt. No. 112, at 7343-7344. In perhaps the cruelest episode,
Carissa sent Pike away when she was eight years old,

5
after Carissa’s fourth husband indicated he “didn’t like
children.” Dkt. No. 9-7, at 4696-4697. 1
Carissa’s romantic partners visited further neglect
and abuse on Pike. Her fourth husband whipped Pike
and her sister regularly with a leather strap on a
wooden handle. Dkt. No. 11-3, at 7499. Carissa’s subsequent boyfriend, Steve Kyaw, beat Pike with a belt,
sometimes awaking her in the dead of night to do so.
Id. at 7485. Other times, he twisted Pike’s nipples and
“fe[lt] her up” while wrestling with her. Id. at 74847485; see Dkt. No. 11-2, at 7343. Kyaw’s abuse persisted until he was charged for punching Pike in the
nose, after which child protective services ordered him
not to be alone with Pike. Dkt. No. 9-11, at 5107-5108.
The relatives with whom Carissa left Pike provided
no refuge. Pike has scars on her back from her father’s
whippings, which he meted out five or six times in a
single day at least once. Dkt. No. 11-2, at 7344. Beyond that, Glenn generally ignored his daughter. Dkt.
11-3, at 7490. Pike’s maternal grandmother, meanwhile, resented caring for Pike “because it took away
some of that alcohol time”; she physically and verbally
abused Pike before dying of alcoholic hepatitis. Dkt.
No. 9-7, at 4698, 4708-4710; Dkt. No. 9-9, at 49014902.
The only relative who exerted a positive influence
was Pike’s paternal grandmother, who died when Pike
was twelve. Dkt. No. 11-3, at 7488, 7499. Watching
Pike’s familial instability upended her education as well. Constantly relocating, Pike never spent more than a few years—at
most—at the same school. Dkt. No. 9-24, at 6325, 6360, 6462.
Pike failed third grade and seventh grade, and she did not complete any formal schooling beyond ninth grade. Dkt. No. 9-25, at
6462; Dkt. No. 11-3, at 7532.
1

6
her grandmother gradually succumb to cancer devastated Pike; she felt she had lost “the only person who
really loved her.” Ibid. Afterward, her sister remarked, Pike “virtually had to raise [herself].” Dkt.
No. 11-2, at 7336, 7343.
c. When Pike was a pre-teen, a neighbor pushed her
into a weed patch, where he held her down and raped
her while she screamed. Dkt. No. 9-8, at 4787-4788;
Dkt. No. 11-3, at 7515. After reporting the incident
the next day to a classmate and a teacher’s aide, Pike
identified the perpetrator from a lineup. Ibid. He was
indicted and ultimately pleaded no contest to a reduced offense. Dkt. No. 12-5, at 8736-8738. Yet
Carissa refused to believe that Pike had been attacked,
causing Pike to attempt suicide. Dkt. No. 12-2, at
8315; Dkt. No. 11-4, at 7693, 7696.
At seventeen, Pike was raped again by a stranger
she encountered while walking down the street at
night. Dkt. No. 11-3, at 7515. She tried to run, but the
man dragged her away, causing her to hit her head on
a rock, before pulling her up a hill by her hair and
shirt. Ibid. While raping her, the stranger continued
to hit Pike’s head against a rock, held his hand over
her mouth, and cursed at her. Ibid. After a car approached, he fled. Ibid. Pike ran to a friend’s home,
where the police were called. Ibid. Hospital records
confirm the rape. Dkt. No. 12-7, at 8759-8770.
d. Records from Pike’s childhood reveal that Pike
suffered from severe sleep deprivation, frenetic behavior, impulsivity, and feelings of invincibility, all of
which indicate early-onset bipolar disorder. Dkt. No.
10-4, at 6774-6779, 6814. After reviewing those records and interviewing Pike several times, Dr. William
Kenner, a clinical psychologist, testified at Pike’s post-

7
conviction hearing that she suffers from bipolar II disorder, disassociation, and post-traumatic stress disorder. Each of those conditions, he explained, can flow
from complex trauma in childhood. Ibid.; Dkt. No. 105, at 6854, 6881, 6891-6895.
Individuals with bipolar II disorder, like Pike, suffer episodes of hypomania, typified by racing thoughts
and sleep deprivation, which produce “extremely poor
judgment.” Dkt. No. 10-4, at 6799, 6804. In unstructured environments, let alone abusive or neglectful
ones, people with bipolar disorder seem “out of control.” Dkt. No. 10-5, at 6889, 6916. For Pike, that poor
executive functioning was worsened by organic brain
damage and PTSD. Id. at 6889.
e. Abused, neglected, and mentally ill, Pike was vulnerable to bad influences. At seventeen, she became
enthralled by a severely disturbed former psychiatric
patient. After Carissa and her fifth husband kicked
that boyfriend out of their house, Pike followed him
onto the streets, living homeless for months. Dkt. No.
11-3, at 7505-7506. Such “very intense attachments,”
Dr. Kenner testified, can occur in people who “missed
out on early parenting experiences.” Dkt. No. 10-5, at
6892.
Pike’s relationship with her codefendant in this
case, Tadaryl Shipp, fit the same pattern. Dkt. No. 105, at 6911. Pike met Tadaryl at a program for disaffected youth in which the other participants created a
dangerous environment. Dkt. No. 9-12, at 5219; Dkt.
No. 9-13, at 5339. She considered Tadaryl her protector and the first person to care about her well-being
since her grandmother’s death—and she therefore ob-

8
sessed about pleasing him, even though he was a violent gang member who slapped her. Dkt. No. 9-12, at
5221; Dkt. No. 9-15, at 5533-5537, 5545.
f. Despite her extraordinarily difficult circumstances, Pike displayed positive attributes. An attorney who interacted with Pike when she was sent off to
training school as a young teenager described her as
“a sweet, bright, and inquisitive girl.” Dkt. No. 9-11,
at 5107, 5117-5118. And several other adults recognized that Pike’s childhood misbehavior resulted from
her tumultuous childhood and her mother’s neglect.
Dkt. No. 11-2, at 7336-7337. A psychologist told Dr.
McCoy that Pike “was really a pretty scared little kid”
who “project[ed] this tough girl image because of how
scared she really was.” Dkt. No. 9-25, at 6374.
3. a. In January 1995, eighteen-year-old Pike, seventeen-year-old Shipp, and nineteen-year-old Shadolla
Peterson were charged in the Criminal Court for Knox
County, Tennessee with the murder of another participant in the youth program, Colleen Slemmer. Dkt.
No. 8-8, at 2761. The three defendants invited Slemmer with them to a secluded area, where her throat
was cut multiple times and her head was struck with
a large piece of asphalt. Dkt. No. 8-2, at 2232-2236,
2288-2291, 2321.
b. William Talman, who had never tried a deathpenalty case, was appointed as lead trial counsel for
Pike. 2 Dkt. No. 9-19, at 5909. As the presiding judge
later acknowledged, “we all knew Talman had his own
The trial court appointed Julie Rice as Talman’s co-counsel just
55 days before Pike’s trial, after Rice agreed not to seek a continuance. Dkt. No. 11-2, at 7325-7326. Rice had been practicing law
for only three years and had never handled anything more serious
than a non-violent felony. Dkt. No. 9-17, at 5677-5681.
2

9
problems.” Dkt. No. 10-7, at 1083. Around that time,
Talman was under investigation by several law enforcement agencies for overbilling the state’s Indigent
Defense Fund—a Class B felony. See Dkt. No. 11-2, at
7257; Dkt. No. 12-3, at 8441. The investigation, which
attracted widespread local news coverage, revealed
that Talman repeatedly billed over 24 hours per day
and apparently manipulated time entries to avoid detection. Id. at 8455; see Dkt. No. 11-2, at 7268-7275.
Talman eventually pleaded guilty to two ethics
charges, and the Tennessee Supreme Court imposed
an approximately one-year suspended revocation of
Talman’s license. Dkt. No. 12-3, at 8487.
Before trial, the court-appointed psychologist, Dr.
McCoy, interviewed witnesses about Pike’s upbringing
and located corroborating records, compiling what
would eventually become a three-volume social history
of Pike’s wretched childhood. Dkt. No. 9-24, at 62956296, 6322, 6330, 6341. Based on that investigation,
Dr. McCoy—who was part of the defense team—provided Talman with recommendations for potential witnesses and mitigation themes. Dkt. No. 9-24, at 6300;
see Dkt. No. 11-2, at 7336. But even though he recognized that the penalty phase was likely to be the most
important part of Pike’s case, Dkt. No. 9-20, at 5982,
Talman did not prepare to call any of the potential witnesses that Dr. McCoy had recommended. Dkt. No. 925, at 6388. Instead, he intended to present only Dr.
McCoy’s testimony. Ibid.
c. During the guilt phase of Pike’s trial, Talman
called Dr. Eric Engum, a clinical psychologist who
opined that Pike had not acted deliberately or with
premeditation. Dkt. No. 8-7, at 2722, 2738. As a guiltphase witness, Dr. Engum’s testimony was very nar-

10
row: although he diagnosed Pike with borderline personality disorder, he did not discuss Pike’s childhood,
much less explain how it could have induced her mental illness. Id. at 2744-2745. On cross-examination,
he conceded that his opinion derived entirely from
Pike’s statements about the offense and the psychological tests he conducted. Id. at 2772. Although he was
not a neurologist and did not review any neuroimaging, Dr. Engum testified that his own tests “unequivocally showed that she did not suffer any signs of brain
damage.” Id. at 2738.
After hearing the evidence, the jury convicted Pike
of first-degree murder and conspiracy to commit murder in the first degree. Dkt. No. 8-10, at 3027-3028.
d. When the guilt phase of the trial was complete,
the trial court convened a conference with counsel at
which Talman produced all three volumes of Dr.
McCoy’s social history to the prosecution. See Dkt. No.
8-10, at 3029-30. Later that day, Talman told Dr.
McCoy that when the prosecutor objected to the late
disclosure, he had falsely represented that she had
provided her social history only a day earlier, and he
implored her to corroborate his lie. Dkt. No. 9-25, at
6412-6413. Put to this “terrible dilemma,” Dr. McCoy
refused to lie under oath. Ibid. Talman also expressed
alarm that the prosecutor had objected to Dr. McCoy’s
report as “all hearsay,” even after Dr. McCoy assured
him that she “testif[ies] about hearsay often.” Ibid.
After speaking to Dr. McCoy, Talman decided not to
call her as a witness at the penalty phase of Pike’s
trial, which was scheduled to begin the very next day—
even though he had long planned for her to be the sole
witness. Dkt. No. 9-25, at 6415-6416. Talman later

11
offered several “post hoc rationalization[s]” for his failure to call Dr. McCoy, Wiggins v. Smith, 539 U.S. 510,
526-527 (2003), which do not accord with the facts. For
instance, Talman claimed that Dr. McCoy suddenly retreated from Dr. Engum’s diagnosis of borderline personality diagnosis. Dkt. No. 9-20, at 6010. That account conflicted with contemporaneous records in
which Dr. McCoy identified borderline personality disorder as a key mitigation theme. Dkt. No. 11-2, at
7340.
e. After jettisoning the only witness the night before
the penalty phase, Talman did not seek a continuance.
Dkt. No. 8-10, at 3035. Instead, with minimal preparation the morning the penalty phase began, he called
as witnesses three of Pike’s relatives who were present
in court that day: her mother, father, and aunt. Dkt.
No. 9-20, at 6416. Opening statements in the penalty
phase and Pike’s entire mitigation case took only two
hours and 15 minutes, much of which the prosecution
spent cross-examining Pike’s relatives. Dkt. No. 8-10,
at 3035; Dkt. No. 8-11, at 3112.
Not surprisingly, Pike’s counsel struggled to elicit
testimony. In response to the prosecution’s repeated
objections, the court had to instruct counsel about the
basics of examining witnesses. E.g., Dkt. No. 8-10, at
3050 (“more specific questions * * * might help”); id.
at 3053 (“You can’t lead”); id. at 3058 (“You need to
connect these problems directly to Ms. Pike.”); Dkt. No.
8-10, at 3081 (“Could you lay a foundation for that?”).
And the trial court cut off entirely certain areas of inquiry, such as substance abuse and lack of maternal
bonding, because Pike’s relatives lacked the requisite
expertise. Dkt. No. 8-10, at 3050, 3058.

12
The halting testimony presented a woefully incomplete portrait of Pike’s background. The jury did hear,
in general terms, about her parents’ neglect and rejection of Pike. Pet. App. 14a-17a. But there was no evidence at all during the mitigation phase about the two
rapes suffered by Pike (which were corroborated by
contemporaneous records), her brain damage and history of mental illness, the abuse Pike’s relatives and
her mother’s boyfriends and husbands inflicted on her,
the complete disruption of Pike’s education, Pike’s extreme dependence on unstable and violent men, or her
redeeming qualities. Dkt. No. 8-10, at 3049; Dkt. No.
8-11, at 3111. Without an expert, Pike’s counsel could
not connect Pike’s brain damage, mental illness, or
childhood trauma to Pike’s subsequent conduct. Dkt.
No. 9-24, at 6308. And Pike’s father and mother
tended to downplay Pike’s childhood trauma, for which
they bore responsibility. Dkt. No. 8-11, at 3083; Dkt.
No. 11-2, at 7338-7344.
Worse still, much of the testimony misportrayed
Pike’s childhood. The testimony of Pike’s father was
misleading in several respects. While cross-examining
him, the prosecution raised “an allegation” that Pike
had sexually abused her infant half-sister. Dkt. No. 811, at 3087. Pike’s father did not meaningfully rebut
that allegation. Ibid. But the post-conviction court
later found, consistent with Dr. McCoy’s thorough investigation, that “there is no proof in the record that
Ms. Pike was in any way abusive to any children in her
family, or otherwise.” Dkt. No. 9-5, at 4413. Pike’s
father also described himself as a “disciplinarian,” suggesting that he provided Pike much-needed structure,
when in fact he regularly beat Pike and otherwise ignored her. Dkt. No. 8-11, at 3083.

13
The testimony from Pike’s mother was similarly unhelpful and incomplete. During her cross-examination, the prosecution asked about an incident in which
Pike had chased Carissa’s boyfriend Kyaw with a
knife. Dkt. No. 8-11, at 3102-3103. The prosecution
implied, without contradiction from Carissa, that Pike
had acted without provocation. Ibid. But the jury
never learned that Kyaw regularly assaulted Pike, including on that particular occasion. Dkt. No. 9-11, at
5076-5077. As a childhood friend testified at Pike’s
post-conviction hearing, Pike grabbed a knife only after Kyaw had attacked her, and she then ran out of the
house “panicked” with the knife while also struggling
to adjust her pants. Id. at 5077.
Defense counsel’s argument to the jury during the
penalty phase did not mention Pike’s mental illness or
inform the jury that her age qualified as a statutory
mitigating circumstance.
Tenn. Code § 39-13204(j)(7); see Dkt. No. 8-10, at 3042-3046; Dkt. No. 811, at 3128-3133. 3 Instead, counsel confusingly urged
the jury to impose a lesser sentence so that she would
not become “fam[ous]” as a result of a death sentence.
Dkt. No. 8-10, at 3045-46.
f. Offered a superficial and, at times, misleading account of Pike’s childhood, the jury sentenced Pike to
death. Dkt. No 8-11, at 3155. Had she been slightly
3 Under Tennessee law, to impose the death penalty a jury must
unanimously find beyond a reasonable doubt at least one statutory aggravating factor and that any aggravating factors outweigh all mitigating circumstances. Tenn. Code § 39-13-204(g).
In addition to considering statutory mitigating circumstances, a
the jury must consider “any aspect of a defendant’s character or
record * * * that the defendant proffers as a basis for a sentence
less than death.” Lockett v. Ohio, 438 U.S. 586, 604 (1978); see
Tenn. Code § 39-13-204(j)(9).

14
younger at the time of the crime, like her codefendant,
Pike would have been ineligible for the death penalty.
4. In June 1999, Pike filed a timely pro se petition
for post-conviction review in state court, bringing
claims for ineffective assistance of counsel. Dkt. No. 91, at 3781-3788; see Strickland v. Washington, 466
U.S. 668, 688, 694 (1984) (to prove ineffective assistance, defendant must show that trial lawyer’s performance fell below an “objective standard of reasonableness” and that there is “a reasonable probability that,
but for counsel’s unprofessional errors, the result of
the proceeding would have been different”). After
counsel was appointed, she supplemented her petition
to include claims that her death sentence contravened
the Eighth and Fourteenth Amendments. See, e.g.,
Dkt. No. 9-3, at 4100 (citing, inter alia, Roper v. Simmons, 543 U.S. 551 (2005)).
The state court held several evidentiary hearings
between January 2007 and April 2008—and Pike’s
mitigation case finally emerged. More than 30 witnesses—including several medical experts—testified,
and they set forth the detailed facts about Pike’s upbringing and medical history that are described above.
See pp. 4-8, supra; Dkt. Nos. 9-10.
Nevertheless, the Tennessee trial court denied relief, and the Tennessee Court of Criminal Appeals affirmed. Pet. App. 108a. The appellate court concluded
that relief was unwarranted because Talman’s conduct
did not give rise to prejudice within the meaning of
Strickland. Pet. App. 91a-92a. The court deemed Talman’s initial decision not to call any of the recommended witnesses “understandable” because “lay witnesses * * * could not explain the petitioner’s behavior.” Pet. App. 214a (quoting trial court). The court

15
did not explain how Dr. McCoy could have discussed
Pike’s childhood without foundational testimony from
lay witnesses or why Talman could not have called
both lay and expert witnesses. And as for Talman’s
decision not to call Dr. McCoy, the court posited that
“this could easily be explained as a misunderstanding.” Pet. App. 215a. The court did not explain how a
“misunderstanding” without further inquiry could justify abandoning the sole witness prepared to testify at
the penalty phase. Nor did the court address the evidence that Talman’s decision was based not on a misunderstanding but on a desire to cover up his own mistakes.
The state appellate court also stated that Pike was
“essentially precluded from establishing prejudice” because the trial court had asserted that “the mitigation
evidence which was omitted would not have outweighed the aggravating factors.” Pet. App. 216a. The
only evidence the appellate court mentioned was Talman’s dubious opinion that “he was not sure” additional witnesses would have produced a different outcome. Ibid.
Finally, the state appellate court addressed Pike’s
Eighth Amendment claim on the merits and rejected
it. The court simply asserted that “this court has not
been able to discern that there is a national consensus”
against executing 18- to 20-year-olds. Pet. App. 246a.
5. a. After exhausting state-court remedies, Pike
filed a timely federal petition for writ of habeas corpus
in 2012. Dkt. No. 23, at 10307. The district court denied habeas relief. Dkt. No. 94.
b. Having granted a certificate of appealability on
whether Pike received ineffective assistance during
the penalty phase of her trial, the Sixth Circuit denied

16
habeas relief for lack of Strickland prejudice.
App. 21a.

Pet.

The court of appeals acknowledged that “[c]ounsel’s
failure to either present mitigating evidence at sentencing * * * or discover all reasonably available mitigating evidence * * * can support a finding of ineffective assistance.” Pet. App. 12a. And the court likewise
acknowledged that the kind of childhood trauma Pike
experienced is “relevant” and “powerful” mitigating evidence. Pet. App. 16a (noting cases involving “verbal
and physical parental abuse, inappropriate parental
discipline, * * * behavioral disorders, * * * early
childhood privation * * * , an alcoholic and absentee
mother,” and “physical abuse”).
The court of appeals held, however, that a petitioner
cannot show prejudice from counsel’s failure to present
evidence unless the omitted evidence “differ[s] in a
substantial way—in strength and subject matter—
from the evidence actually presented.” Pet. App. 12a
(emphasis added) (quoting Clark v. Mitchell, 425 F.3d
270, 286 (6th Cir. 2005)). In other words, the court
stated that Pike could not establish prejudice unless
she could show that, as compared to the evidence the
jury heard at the penalty phase of the criminal trial,
the omitted evidence was both substantially stronger
and concerned a substantially different subject matter. Ibid.; see ibid. (“the failure to present additional
mitigating evidence that is ‘merely cumulative’ of that
already presented does not rise to the level of a constitutional violation”) (citation omitted).
Applying that rule (which the Tennessee courts had
not), the Sixth Circuit concluded that Pike could not
demonstrate a reasonable probability that the result
of the penalty proceeding would have been different

17
had the omitted evidence been presented. Pet. App.
20a-21a. Because the jury had heard the “general content” of Pike’s social history through three lay witnesses, the Sixth Circuit stated, Pike could not show
that Talman’s failure to call Dr. McCoy prejudiced her.
Pet. App. 14a-17a. The court thought that the testimony that “Pike’s childhood and upbringing were very
difficult,” Pet. App. 16a, erased any “reasonable probability that at least one juror,” Wiggins v. Smith, 539
U.S. 510, 537 (2003), would have been swayed by omitted evidence about the horrific specifics of those difficulties. The court also discounted counsel’s failure to
present any evidence or argument about Pike’s organic
brain damage or mental illness during the penalty
phase. In the court’s view, it sufficed that the jury had
heard some limited testimony during the guilt phase
about Dr. Engum’s borderline personality disorder diagnosis. Pet. App. 18a-19a. Finally, although no one
testified about Pike’s redeeming attributes at trial, the
Sixth Circuit considered that gap in the evidence to be
immaterial, particularly in light of what it described
as the aggravating circumstances of the crime. Id. at
19a (citing Clark, 425 F.3d at 286).
Judge Stranch concurred. She expressed the view
that, because Pike was 18 years old at the time of the
crime, the death sentence “likely” violates the Eighth
Amendment under this Court’s “precedent focusing on
the lesser blameworthiness and greater prospect for
reform that is characteristic of youth.” Pet. App. 23a26a (citing Roper v. Simmons, 543 U.S. 551 (2005),
Miller v. Alabama, 567 U.S. 460 (2012), and Montgomery v. Louisiana, 136 S. Ct. 718 (2016)). Just like children under age 18, Judge Stranch observed, 18- to 20year-olds exhibit a “lack of maturity and an underde-

18
veloped sense of responsibility,” a greater susceptibility to influence, and an unformed character. Id. at
24a-26a. Indeed, Judge Stranch observed, it is precisely because of those characteristics that society has
set the age of majority at 21 in many circumstances.
Id. at 26a. But Judge Stranch “reluctantly” concurred
in the denial of habeas relief on the ground that this
Court has “not extended Roper to 18-year-olds.” Id. at
27a.
REASONS FOR GRANTING THE PETITION
The circuits are deeply divided about how to assess
whether evidence that trial counsel failed to present at
trial is merely cumulative of the evidence that was actually presented. The court of appeals in this case entrenched that division of authority, applying a rigid
rule that forecloses the possibility of a Strickland prejudice determination when the omitted evidence and
the presented evidence cover substantially the same
subject matter. In the process, that court withheld relief from a death-penalty petitioner who plainly received ineffective assistance at the penalty phase of
her trial. This Court’s review is warranted to resolve
that conflict among the circuits. Moreover, this case
presents an opportunity for this Court to consider
whether to extend its decision in Roper v. Simmons,
543 U.S. 551 (2005), to offenders who were only 18
years old—and therefore not meaningfully distinct
from the 17-year-olds that Roper deemed death-ineligible—at the time of their offenses.

19
I. This Court Should Resolve A Deep Conflict
Among The Courts Of Appeals Regarding
When Omitted Mitigation Evidence Is
Cumulative Of Evidence Presented At Trial
A. The Decision Below Conflicts With
Decisions Of Other Courts Of Appeals
The Sixth Circuit’s test for assessing prejudice under Strickland places that court on the majority side of
a meaningful and entrenched 4-3 circuit split. In the
Sixth Circuit, if mitigation evidence that trial counsel
improperly failed to present during the penalty phase
of a capital case concerns the same subject matter as
evidence actually presented to the jury during that
phase, the omitted evidence is necessarily cumulative
and cannot establish prejudice. Under the Sixth Circuit’s test, that is true regardless of whether the omitted evidence is of higher quality—for instance, more
detailed, more extensive, or more likely to sway a
jury—than the penalty-phase evidence that the jury
actually heard. The Fifth, Eighth, and Eleventh Circuits have adopted the same rule. But the Third, Seventh, and Ninth Circuits have taken the opposite approach, holding that omitted mitigation evidence, even
where it concerns the same subject matter as penaltyphase evidence, is not cumulative if it is of greater
quality—and that counsel’s failure to present that evidence therefore can establish prejudice.
Given that split in authority, defendants with similar ineffective assistance of counsel claims will get different results based solely on a happenstance of geography. This Court’s review is manifestly warranted.
1. In the decision below, the Sixth Circuit held that
mitigation evidence that trial counsel failed to present
to the jury is per se cumulative if it does not “differ in

20
a substantial way—in strength and subject matter—
from the evidence actually presented at sentencing.”
Pet. App. 12a (emphasis added; citation omitted); see,
e.g., Hill v. Mitchell, 400 F.3d 308, 319 (6th Cir. 2005).
While acknowledging that the mitigation evidence ultimately set forth at the post-conviction hearing was
more “in-depth” than—and even inconsistent with—
the evidence presented during the penalty phase, the
Sixth Circuit nevertheless concluded that the evidence
the jury never had an opportunity to consider was
merely cumulative, on the ground that the jury had
“heard largely the same” general “narrative” of a “difficult” childhood that the omitted evidence supported.
Pet. App. 16a. According to the Sixth Circuit, then, so
long as “the evidence counsel presented to the jury encompassed the types of mitigating evidence the Supreme Court has found valuable in other cases,” any
additional evidence of the same type (regardless of its
greater quality) is necessarily cumulative. Id. (emphasis added).
The Eleventh Circuit has adopted the same approach to post-conviction mitigation evidence in capital cases. Relying on Sixth Circuit precedent, that
court holds that “evidence presented in postconviction
proceedings is ‘cumulative’ or ‘largely cumulative’ to or
‘duplicative’ of that presented at trial when it tells a
more detailed version of the same story told at trial or
provides more or better examples or amplifies the
themes presented to the jury.” Tanzi v. Sec’y, Fla.
Dep’t of Corr., 772 F.3d 644, 660 (11th Cir. 2014) (quoting Holsey v. Warden, 694 F.3d 1230, 1260-1261 (11th
Cir. 2012)); see Holsey, 694 F.3d at 1263 (holding that
the postconviction evidence was cumulative because it
“concerned the same ‘subject matter [as] the evidence
actually presented at sentencing’” (quoting Beuke v.

21
Houk, 537 F.3d 618, 645 (6th Cir. 2008) (alteration in
Holsey)). 4
The Fifth Circuit has similarly held “that [post-conviction] evidence ‘of the same genre as that presented
to the jury at trial’ could not outweigh the state’s ‘overwhelming’ evidence of future dangerousness.” Busby
v. Davis, 925 F.3d 699, 726 (5th Cir. 2019) (quoting
Newbury v. Stephens, 756 F.3d 850, 873 (5th Cir.
2014)). In Busby v. Davis, because some evidence of
the defendant’s “unstable childhood” was presented
during the penalty phase, the Fifth Circuit concluded
that far more powerful evidence presented in post-conviction proceedings, which also concerned the defendant’s troubled upbringing, was cumulative. Ibid.; see
Trevino v. Davis, 861 F.3d 545, 550 (5th Cir. 2017)
(holding that expert opinion and diagnosis of fetal alcohol spectrum disorder (FASD) presented during
post-conviction proceedings was cumulative of penalty-phase evidence, because “trial counsel presented
a mitigation witness, [defendant’s] aunt, who covered
his mother’s alcohol problems”).

The Eleventh Circuit has cited this Court’s decisions in Cullen
v. Pinholster, 563 U.S. 170 (2011), and Wong v. Belmontes, 558
U.S. 15 (2009), in support of its approach. But those decisions do
not resolve, or even directly address, the question presented here.
In Pinholster, this Court observed that on the particular facts of
that case “the additional evidence Pinholster presented in his
state habeas proceedings” would not “have changed the jury’s verdict” because it was either “largely duplicat[ive]” of the evidence
presented at trial or had questionable mitigating force. Id. at 200.
The Court did not set forth or address any rule governing which
evidence should be considered cumulative. The same is true of
Wong. See 558 U.S. at 23-24.
4

22
The Eighth Circuit has embraced the same rule,
holding that post-conviction evidence is cumulative of
penalty-phase evidence if both touch on the same topic,
regardless of disparity in quality or strength. In Anderson v. Kelley, 938 F.3d 949 (8th Cir. 2019), the
Eighth Circuit held that expert diagnoses of post-traumatic stress disorder (PTSD) and FASD were cumulative of penalty-phase evidence, even though the PTSD
and FASD diagnoses were presented for the first time
in post-conviction proceedings. Id. at 958. Because
trial counsel presented some evidence relevant to
PTSD and FASD, the Eighth Circuit concluded that
the post-conviction medical diagnoses, despite constituting far more compelling evidence, were merely cumulative and could not support a prejudice determination. Ibid. (“We agree with the district court that [defendant’s] counsel may have ‘missed the label * * * but
they told the story.’”).
2. The Third, Seventh, and Ninth Circuits have
adopted exactly the opposite approach. In those circuits, omitted evidence is not cumulative if it is of
greater quality than penalty-phase evidence, regardless of whether both concern the same subject matter.
The Third Circuit has squarely held that omitted
“evidence of ‘an entirely different weight and quality’”
is not cumulative, “even where that evidence supports
the same mitigating factor pursued at trial.” AbdulSalaam v. Sec’y of Pennsylvania Dep’t of Corr., 895
F.3d 254, 269 (3d Cir. 2018) (quoting Jermyn v. Horn,
266 F.3d 257, 310 (3d Cir. 2001)). Put another way, in
the Third Circuit omitted evidence is not cumulative
of evidence presented during the penalty phase, even
where both concern the same subject matter, if the
omitted evidence is “upgraded dramatically in quality

23
and quantity” compared to the penalty-phase evidence. Ibid. (quoting Bond v. Beard, 539 F.3d 256, 291
(3d Cir. 2008)). For instance, in Abdul-Salaam, the
Third Circuit explained that “extensive and detailed”
evidence concerning the defendant’s troubled upbringing that was presented for the first time in post-conviction proceedings presented “a far stronger mitigation case” than the “minimal” evidence of his troubled
upbringing that the jury heard at trial. Id. at 272. Because “the un-presented family member testimony
‘was of a totally different quality’ than the ‘meager evidence’ that had been ‘presented on that issue’ at trial,”
the Third Circuit concluded that the post-conviction
evidence was not cumulative and that the defendant
was entitled to habeas relief. Id. at 270 (quoting
Jermyn, 266 F.3d at 286).
The Seventh Circuit adopted the same rule in Griffin v. Pierce, 622 F.3d 831 (7th Cir. 2010). In that case,
the presentence report, which was presented at trial,
addressed the defendant’s troubled, disadvantaged
childhood to some degree. Id. at 845. But trial counsel
never presented evidence fleshing out defendant’s “father’s alcoholism and abusiveness, [his] mother’s absences from the home, * * * the circumstances of his
mother’s death,” his mental health diagnoses, his suicide attempts, and his “good acts.” Id. at 844-845. The
Seventh Circuit held that the more detailed and compelling omitted evidence concerning the defendant’s
abusive childhood was not cumulative. Id. at 845
(“Some information about [defendant’s] personal history was in the report, but the report was an incomplete and at times inaccurate reflection of [defendant’s] tragic personal history.”). The fact that the postconviction and penalty-phase evidence dealt with the

24
same subject matter made no difference to the result.
Ibid.
Similarly, in Pruitt v. Neal, 788 F.3d 248 (7th Cir.
2015), trial counsel presented expert mental-health
testimony, including a diagnosis of schizotypal personality disorder, to the jury during the penalty phase. Id.
at 273. The Seventh Circuit nevertheless concluded
that omitted mental-health evidence, which included a
diagnosis of schizophrenia, was not cumulative, because the post-conviction testimony was stronger mitigation evidence that might have made a difference to
the jury. Id. at 273-275 (explaining that the post-conviction and penalty-phase testimony was not simply a
“battle of the experts”); see Stevens v. McBride, 489
F.3d 883, 897-898 (7th Cir. 2007) (acknowledging that
expert mental-health testimony was presented during
the penalty phase, but concluding that “[c]ompetent
evidence of [defendant’s] mental illness would have
strengthened the general mitigation evidence presented by defense counsel concerning [defendant’s] difficult background by focusing the jury on the concrete
results of years of abuse”).
The Ninth Circuit took the same approach in Kayer
v. Ryan, 923 F.3d 692 (9th Cir. 2019), holding that detailed expert testimony concerning the defendant’s
history of mental illness and substance abuse, which
was never presented at the penalty phase of trial, was
not cumulative of penalty-phase evidence that addressed the same subject matter. See id. at 718. In
reaching that conclusion, the Ninth Circuit explained
that the “minimal” penalty-phase evidence was “speculative” compared to the concrete expert testimony:
“[i]nstead of being cumulative, the evidence presented
to the [post-conviction relief] court of [defendant’s]
mental impairment established for the first time its

25
very existence.” Ibid; see White v. Ryan, 895 F.3d 641,
672 (9th Cir. 2018) (holding that, although the trial
court considered aspects of defendant’s troubled upbringing, the “graphic description of [his] childhood”
presented post-conviction was not cumulative);
Stankewitz v. Wong, 698 F.3d 1163, 1166 (9th Cir.
2012) (concluding that detailed post-conviction evidence illustrating the defendant’s “deprived and abusive upbringing, potential mental illness, [and] long
history of drug use” was not cumulative of “meager”
evidence concerning the same topics presented during
the penalty phase).
3. Had the instant case arisen in one of those three
circuits, the result would have been different, because
the omitted evidence here—which was significantly
stronger and more compelling than the meager evidence that trial counsel presented—would not have
been deemed per se cumulative. The difference in approaches is especially well illustrated by the Third Circuit’s decision in Abdul-Salaam, which involves a contrast between the omitted and presented evidence that
is highly reminiscent of this case, and in which the
court of appeals granted the defendant habeas relief
instead of holding that no prejudice could be established.
The 4-3 circuit conflict on when evidence is cumulative for purposes of a prejudice analysis is entrenched
and consequential, and it warrants this Court’s review. The resolution of an issue of federal law should
never depend on an accident of geography—and the
need to avoid that kind of geographical disparity is
perhaps greatest of all when the issue involves the ultimate sanction of the death penalty.

26
B.

The Decision Below Is Wrong.

The Sixth Circuit’s draconian approach to the question of when evidence is cumulative for purposes of the
Strickland prejudice inquiry is incorrect.
1. To show Strickland prejudice, Pike needed only
to show “a reasonable probability that at least one juror would” have spared her life had counsel performed
competently. Wiggins v. Smith, 539 U.S. 510, 537
(2003); see Tenn. Code § 39-13-204(f)(2). This Court
has explained that determining whether such a “reasonable probability” exists entails a “probing and factspecific analysis” of all mitigating evidence. Sears v.
Upton, 561 U.S. 945, 955-956 (2010) (per curiam).
The Court has consistently rejected attempts to
“truncate[]” that prejudice injury through simplistic
rules of thumb. 561 U.S. at 955. For instance, in
Sears, this Court rejected a state court’s rule that a
petitioner cannot show prejudice unless counsel presented “little or no mitigation evidence” at trial. Id. at
954-955. The Court explained that “[w]e certainly
have never held that counsel’s effort to present some
mitigation evidence should foreclose an inquiry into
whether a facially deficient mitigation investigation
might have prejudiced the defendant.” Id. at 955; see,
e.g., Williams v. Taylor, 529 U.S. 362, 398 (2000) (petitioner can show prejudice even if omitted mitigation
evidence “does not undermine or rebut the prosecution’s death-eligibility case”).
The detail and quality of the forsaken mitigation evidence can make all the difference in such a prejudice
analysis. A conclusory assertion that a defendant “has
had a difficult life” or “has other handicaps that
weren’t apparent” has little or no prospect of persuading a juror to spare a petitioner’s life. See Porter v.

27
McCollum, 558 U.S. 30, 32 (2009); Wiggins, 539 U.S.
at 536. But “extensive” and “graphic[]” evidence about
a petitioner’s mental defects or background “adds up
to a mitigation case that bears no relation to [a] few
naked pleas for mercy.” Rompilla v. Beard, 545 U.S.
374, 393 (2005); Williams, 529 U.S. at 395 (recognizing
prejudice where counsel failed to uncover “extensive
records graphically describing * * * nightmarish
childhood”); Wiggins, 539 U.S. at 518 (observing that
evidence within counsel’s possession “was neither as
detailed nor as graphic” as evidence that counsel failed
to uncover). That conclusion accords with prevailing
professional standards. See, e.g., ABA Guidelines for
the Appointment and Performance of Counsel in Death
Penalty Cases 11.8.6(D) (1989); see also Wiggins, 539
U.S. at 522, 524.
The Sixth Circuit’s rigid rule requiring a petitioner
to show that omitted mitigation evidence “differ[ed] in
a substantial way—in strength and subject matter—
from the evidence actually presented at sentencing,”
Pet. App. 16a (citation omitted), departs from those
principles. 5 The point of the prejudice inquiry is to assess whether a jury reasonably could have reached a
different conclusion in light of different evidence. If
that different evidence covers the same subject matter
as the evidence actually presented, but is meaningfully stronger in some way—more detailed, or more
evocative, for instance—there is no reason to conclude
that a jury could not have reacted differently to it.
2. The deficiencies in the Sixth Circuit’s rule are illustrated by the anomalous results that rule produced
5 The Sixth Circuit first articulated the rule in Hill v. Mitchell,
400 F.3d 308 (6th Cir. 2005), by overgeneralizing from a string
cite of cases resolving Strickland claims while overlooking others
that did not fit neatly within its paradigm. Id. at 318-319.

28
in this case. Because counsel presented some general,
ad hoc testimony at the penalty phase of trial about
the “subject matter” of Pike’s difficult childhood, the
Sixth Circuit discounted much more compelling evidence about (inter alia) two contemporaneously reported rapes, beatings and abuse by Pike’s father and
her mother’s husbands and boyfriends, brain damage
and mental illness, and vulnerability to manipulation
by violent men. That evidence would have been far
more likely to sway a juror than the abbreviated, generalized, and at times inaccurate presentation that the
jury actually heard.
For instance, the Sixth Circuit’s mistaken approach
to the prejudice inquiry led that court to deem powerful omitted evidence about PTSD, bipolar disorder,
and especially organic brain damage to be “cumulative” as compared to limited guilt-phase testimony
about borderline personality disorder. As other circuits have concluded, however, evidence of organic
brain damage from birth is “substantively different
from * * * other mental illnesses and behavioral issues because [it] could have established both cause
and effect for [a defendant’s] criminal acts[,] whereas
* * * other mitigation evidence went more to effects on
behavior.” Williams v. Stirling, 914 F.3d 302, 315 (4th
Cir. 2019). And, unlike a personality-disorder diagnosis, which the prosecution attacked as unverifiable,
Dkt. No. 8-8, at 2775 (“[Y]ou can’t take a[n] instrument
and look at Ms. Pike and see that disorder.”), organic
brain damage is diagnosed through neuroimaging.
The fact that both categories of evidence covered the
same “subject matter” at a high level of generality
therefore says nothing about whether there is a reasonable probability that a juror hearing the more compelling evidence might have reached a different result.

29
3. Deference under the Antiterrorism and Effective
Death Penalty Act of 1996 (AEDPA) cannot salvage
the Sixth Circuit’s decision. Under AEDPA, as relevant here, “[a]n application for a writ of habeas corpus”
filed by a state prisoner “shall not be granted with respect to any claim that was adjudicated on the merits
in State court proceedings unless the adjudication of
the claim * * * resulted in a decision that was contrary
to, or involved an unreasonable application of, clearly
established Federal law, as determined by” this Court.
28 U.S.C. 2254(d).
Here, however, the court of appeals did not examine
the relevant state court’s reasoning. Rather, the Sixth
Circuit simply noted the Tennessee Court of Criminal
Appeals’ bottom-line “conclusion” that Pike suffered no
prejudice, and then replaced the state court’s
equally—but differently—flawed analysis with the
Sixth Circuit’s own special rule on cumulativeness,
which the Tennessee courts never mentioned or applied. See Pet. App. 17a, 20a-21a.
As this Court has “affirmed * * * time and again,”
AEDPA deference attends “the specific reasons given
by the state court.” Wilson v. Sellers, 138 S. Ct. 1188,
1192 (2018); see Panetti v. Quarterman, 551 U.S. 930,
954 (2007) (if state court’s reasons do not withstand
scrutiny, federal court addresses the claim de novo).
Because the Tennessee state court did not employ or
endorse the Sixth Circuit’s rigid test, Section 2254(d)
does not apply to the Sixth Circuit’s flawed analysis. 6

Moreover, without the Sixth Circuit’s flawed test as a barrier,
Pike could satisfy the requirements of Section 2254(d). The Tennessee Court of Criminal Appeals “mischaracterized at best the
appropriate rule” under Strickland, “ignored or overlooked” important mitigating evidence, and provided contradictory reasons
6

30
II. This Court’s Review Is Warranted To
Determine Whether The Death Penalty May
Be Imposed On A Defendant Who Committed
The Offense At Age 18
The Sixth Circuit’s decision also warrants this
Court’s review for the reason set forth in Judge
Stranch’s concurrence: to determine whether imposition of the death penalty on a defendant who committed an offense at age 18 violates the Eighth and Fourteenth Amendments. 7 Pet. App. 26a (Stranch, J., concurring).
for rejecting Pike’s ineffective-assistance claim. Williams, 529
U.S. at 373 n.5, 397. Under those circumstances, Section 2254(d)
poses no barrier to federal habeas relief. See ibid.; see also Wiggins, 539 U.S. at 526.
7 While Judge Stranch felt constrained by Section 2254(d) to tolerate that “likely” constitutional violation, Pet. App. 26a-27a
(Stranch, J., concurring), this Court would face no such constraint. Any constitutional ruling by this Court forbidding the
imposition of the death penalty on 18-year-old offenders would
qualify as a “substantive” rule that would be retroactive under
Teague v. Lane, 489 U.S. 288 (1989). After reserving the question
whether Section 2254(d) abrogates Teague’s exception for substantive rules, see Greene v. Fisher, 565 U.S. 34, 39 n.* (2011),
this Court ruled in Montgomery v. Louisiana, 136 S. Ct. 718
(2016), that a state court must “give retroactive effect to a substantive constitutional right” because “state collateral review
courts have no greater power than federal habeas courts to mandate that a prisoner continue to suffer punishment barred by the
Constitution.” Id. at 731-732. As the Montgomery dissent noted,
that logic equally dictates that substantive rules should apply retroactively to habeas petitions subject to Section 2254(d). Id. at
741 (Scalia, J., dissenting).
Moreover, while the court of appeals did not grant a certificate
of appealability on the Eighth Amendment issue, Judge Stranch
addressed that issue, and in any event this Court has jurisdiction
over the denial of the certificate. See Ayestas v. Davis, 138 S. Ct.
1080, 1089 n.1 (2018).

31
In Roper v. Simmons, 543 U.S. 551 (2005), this
Court recognized that executing juvenile offenders—
i.e., those who had not reached age 18 when they committed their offenses—contravenes the Eighth and
Fourteenth Amendments. See id. at 555-556, 578. Examining precedent and recent scientific advances,
Roper identified three distinguishing features of
youth: “[a] lack of maturity and an underdeveloped
sense of responsibility,” resulting in “impetuous and
ill-considered actions and decisions”; vulnerability “to
influence and to psychological damage”; and a mutable
character. Id. at 569-570 (citations omitted). Those
characteristics undercut the twin justifications for the
death penalty: retribution and deterrence. Specifically, the Court explained, the death penalty does not
exact a proportional retribution if an offender’s “culpability or blameworthiness is diminished, to a substantial degree, by reason of youth and immaturity.” Id. at
571. In addition, “[t]he likelihood that the teenage offender has made the kind of cost-benefit analysis that
attaches any weight to the possibility of execution is so
remote as to be virtually nonexistent.” Id. at 572
(quoting Thompson v. Oklahoma, 487 U.S. 815, 837
(1988) (plurality opinion)).
In foreclosing the death penalty for juveniles, Roper
did not by implication endorse its use for all offenders
who have reached age 18. See, e.g., Cruz v. United
States, 2018 WL 1541898, at *15 (D. Conn. Mar. 29,
2018). And Roper’s logic extends to 18-year-olds, since
“[r]ecent research in neuroscience and developmental
psychology indicates that individuals between the ages
of 18 and 21 share many of the[] same characteristics”
identified in Roper. Pet. App. 25a (Stranch, J., concurring). Neuroimaging has revealed that the reward
pathways of the brain develop early in adolescence,

32
while the prefrontal cortex, which plays a central role
in higher cognitive abilities (such as cognitive control
and behavioral regulation), gradually matures until
the early twenties. See, e.g., B.J. Casey et al., The Adolescent Brain, 28 Dev. Rev. 62, 64-65, 70 (2008); Elizabeth P. Shulman et al., The Dual Systems Model: Review, Reappraisal, and Reaffirmation, 17 Developmental Cognitive Neuroscience 103, 103, 111, 114
(2016) (collecting studies); Nitin Gogtay et al., Dynamic Mapping of Human Cortical Development During Childhood Through Early Adulthood, 101:21 Proceedings of the National Academy Of Science 8174,
8177 (2004). Consistent with that neuroimaging, 18to 20-year-olds “show[] diminished cognitive control
under both brief and prolonged negative emotional
arousal relative to slightly older adults.” Alexandra O.
Cohen et al., When Is an Adolescent an Adult? Assessing Cognitive Control in Emotional and Nonemotional Contexts, 27 Psychol. Sci. 549, 559 (2016).
Those differences manifest in how society treats 18to 20-year-olds—both generally and as criminal offenders. States and the federal government “recognize
21 as the age of majority in a number of contexts,” including with respect to purchase of alcohol, purchase
of firearms, and secure immigration status. Pet. App.
26a (Stranch, J., concurring). Indeed, “the age of majority at common law was 21, and it was not until the
1970s that States enacted legislation to lower the age
of majority to 18.” Ibid. (quoting NRA v. ATF, 700 F.3d
185, 201 (5th Cir. 2012)) (internal quotation marks
omitted). Society increasingly eschews the death penalty for offenders in that age category as well. Since
Roper, the number of 18- to 20-year-olds receiving
death sentences per 100 homicides with known offenders has declined from approximately 0.8 to less than

33
0.2. See John H. Blume & Hannah Freedman et al.,
Death by Numbers: Why Evolving Standards Compel
Extending Roper’s Categorical Ban Against Executing
Juveniles From 18 to 21, at 21 (June 2, 2019) (forthcoming
Texas
Law
Review),
https://tinyurl.com/vo6y5hq; see also Roper, 543 U.S. at 567 (relying on “infrequency of * * * use” of death penalty
against certain offenders). And the number of States
sentencing at least one 18- to 20-year-old to death each
year dropped from 12 in 2005 to 5 or below by 2013.
Blume, supra, at 22.
There is thus no basis for distinguishing, as a constitutional matter, between a 17-year-old offender and
an 18-year-old offender. Pet. App. 22a (Stranch, J.,
concurring). And the issue is an important one, not
only for petitioner here but for all of the other defendants in the same situation. This Court should take up
this case to make clear that 18-year-old offenders, like
17-year-old offenders, are not eligible for the death
penalty.

34
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
STEPHEN FERRELL
FEDERAL DEFENDER SERVICES OF
EASTERN TENNESSEE, INC.
800 S. Gay Street, Suite 2400
Knoxville, TN 37929-9714

ELAINE J. GOLDENBERG
Counsel of Record
MUNGER, TOLLES & OLSON LLP
1155 F Street NW, Seventh Floor
Washington, DC 20004-1357
(202) 220-1100
Elaine.Goldenberg@mto.com
MARKUS A. BRAZILL
DAVID FREENOCK*
MUNGER, TOLLES & OLSON LLP
350 S. Grand Avenue
Fiftieth Floor
Los Angeles, CA 90071-3426
(213) 683-9100

Counsel for Petitioner

February 21, 2020

* Admitted in the District of Columbia and admission
pending in California.

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 16-5854
CHRISTA GAIL PIKE,
Petitioner-Appellant,
v.
GLORIA GROSS, WARDEN,
Respondent-Appellee.
Appeal from the United States District Court for
the Eastern District of Tennessee at Chattanooga.
No. 1:12-cv-00035—Harry S. Mattice, Jr., District
Judge.
Decided and Filed: August 22, 2019
Rehearing En Banc Denied September 26, 2019
Before: COOK, GRIFFIN, and STRANCH, Circuit
Judges.
GRIFFIN, J., delivered the opinion of the court in
which COOK and STRANCH, JJ., joined. STRANCH,
J. (pp. 383–86), delivered a separate concurring
opinion.
OPINION
GRIFFIN, Circuit Judge.
Petitioner Christa Gail Pike, a Tennessee deathrow inmate, appeals the district court’s denial of her
petition for habeas corpus under 28 U.S.C. § 2254.
Because we conclude that the state court’s
determination that she is unable to establish
prejudice on her claims of ineffective assistance of
counsel during the penalty phase of her capital trial

2a
was not an unreasonable application of clearly
established federal law, we affirm.
I.
A.
This case began with the horrific and brutal 1995
murder of Colleen Slemmer. Pike and Slemmer were
both students at the Job Corps Center in Knoxville,
Tennessee at the time. State v. Pike, 978 S.W.2d 904,
907–08 (Tenn. 1998). They had a strained
relationship; Pike claimed that Slemmer “had been
‘trying to get [her] boyfriend’ and ... ‘running her
mouth’ everywhere.” Id. at 909. These bad feelings
unfortunately resulted in the following events, as the
Tennessee Supreme Court explained in a detailed
opinion:
[O]n January 11, 1995, [Pike], a student
at the Job Corps Center in Knoxville,
told her friend Kim Iloilo, who was also
a student at the facility, that she
intended to kill another student,
Colleen Slemmer, because she “had just
felt mean that day.” The next day,
January 12, 1995, at approximately 8:00
p.m., Iloilo observed Pike, along with
Slemmer, and two other Job Corps
students,
Shadolla
Peterson
and
Tadaryl
Shipp,
Pike’s
boyfriend,
walking away from the Job Corps center
toward 17th Street. At approximately
10:15 p.m., Iloilo observed Pike,
Peterson, and Shipp return to the
Center. Slemmer was not with them.
Later that night, Pike went to Iloilo’s
room and told Iloilo that she had just

3a
killed Slemmer and that she had
brought back a piece of the victim’s
skull as a souvenir. Pike showed Iloilo
the piece of skull and told her that she
had cut the victim’s throat six times,
beaten her, and thrown asphalt at the
victim’s head. Pike told Iloilo that the
victim had begged “them” to stop
cutting and beating her, but Pike did
not stop because the victim continued to
talk. Pike told Iloilo that she had
thrown a large piece of asphalt at the
victim’s head, and when it broke into
smaller pieces, she had thrown those at
the victim as well. Pike told Iloilo that a
meat cleaver had been used to cut the
victim’s back and a box cutter had been
used to cut her throat. Finally, Pike said
that a pentagram had been carved onto
the victim’s forehead and chest. Iloilo
said that Pike was dancing in a circle,
smiling, and singing “la, la, la” while
she related these details about the
murder. When Iloilo saw Pike at
breakfast the next morning she asked
Pike what she had done with the piece
of the victim’s skull. Pike replied that it
was in her pocket and then said, “And,
yes, I’m eating breakfast with it.”
During a class later that morning, Pike
made a similar statement to Stephanie
Wilson, another Job Corps student. Pike
pointed to brown spots on her shoes and
said, “that ain’t mud on my shoes, that’s
blood.” Pike then pulled a napkin from

4a
her pocket and showed Wilson a piece of
bone which Pike said was a piece of
Slemmer’s skull. Pike also told Wilson
that she had slashed Slemmer’s throat
six times and had beaten Slemmer in
the head with a rock. Pike told Wilson
that the victim’s blood and brains had
been pouring out and that she had
picked up the piece of skull when she
left the scene.
Id. at 907–08.
None of Pike’s friends or colleagues reported the
crime to the police, but a University of Tennessee
Grounds Department employee nonetheless found
Slemmer’s body on January 13. Id. at 908. That
employee later “testified that the body was so badly
beaten that he had first mistaken it for the corpse of
an animal,” before realizing it was a human female
when he saw the victim’s clothes and her exposed
breast. Id. The investigating police quickly discovered
Pike’s connection to the crime and interviewed her on
January 14. Id. at 909. Pike waived her Miranda
rights and gave a complete statement to the police
about her involvement in the murder. As recounted
by the Tennessee Supreme Court:
Pike claimed that she had not planned
to kill Slemmer, but she had instead
planned only to fight Slemmer and let
her know “to leave me the hell alone.”
However, Pike admitted that she had
taken a box cutter and a miniature
meat cleaver with her when she and the
victim left the Job Corps Center. Pike
said she had borrowed the miniature

5a
meat cleaver, but refused to identify the
person who had loaned it to her.
According to Pike, she asked Slemmer
to accompany her to the Blockbuster
Music Store, and as they were walking,
Pike told Slemmer that she had a bag of
“weed” hidden in Tyson Park. Though
Pike refused to name the other parties
involved in the incident, she said the
group began walking toward the
[University of Tennessee] campus. Upon
arriving at the steam plant on [the
University of Tennessee]’s agricultural
campus, Pike and Slemmer exchanged
words. Pike then began hitting Slemmer
and banging Slemmer’s head on her
knee. Pike threw Slemmer to the
ground and kicked her repeatedly.
According to Pike, as she slammed
Slemmer’s head against the concrete,
Slemmer repeatedly asked, “Why are
you doing this to me?” When Slemmer
threatened to report Pike so she would
be terminated from the Job Corps
program, Pike again repeatedly kicked
Slemmer in the face and side. Slemmer
lay on the ground and cried for a time
and then tried to run away, but another
person with Pike caught Slemmer and
pushed her to the ground.
Pike and the other person, who Pike
referred to as “he,” held Slemmer down
until she stopped struggling, then
dragged her to another area where Pike
cut Slemmer’s stomach with the box

6a
cutter. As Slemmer “screamed and
screamed,” Pike recounted how she
began to hear voices telling her that she
had to do something to prevent
Slemmer from telling on her and
sending her to prison for attempted
murder.
At this point Pike said she was just
looking at Slemmer and “just watching
her bleed.” When Slemmer rolled over,
stood up and tried to run away again,
Pike cut Slemmer’s back, “the big long
cut on her back.” Pike said Slemmer
repeatedly tried to get up and run. Pike
recounted how Slemmer bargained for
her life, begging Pike to talk to her and
telling Pike that if she would just let her
go, she would walk back to her home in
Florida without returning to the Job
Corps facility for her belongings. Pike
told Slemmer to “shut up” because it
“was harder to hurt somebody when
they’re talking to you.” Pike said the
more Slemmer talked, the more she
kicked Slemmer in the face.
Slemmer asked Pike what she was
going to do to her, at which point Pike
thought she heard a noise. Pike left the
scene to check out the surrounding area
to make sure no one was around. When
she returned, Pike began cutting
Slemmer across the throat. When
Slemmer continued to talk and beg for
her life, Pike cut Slemmer’s throat
several other times. Pike said that

7a
Slemmer continued to talk and tried to
sit up even though her throat had been
cut several times, and that Pike and the
other person would push her back on
the ground.
Slemmer attempted to run away again,
and Pike threw a rock which hit
Slemmer in the back of the head. Pike
stated that “the other person” also hit
Slemmer in the head with a rock. When
Slemmer fell to the ground, Pike
continued to hit her. Eventually Pike
said she could hear Slemmer “breathing
blood in and out,” and she could see
Slemmer “jerking,” but Pike “kept
hitting her and hitting her and hitting
her.” Pike eventually asked Slemmer,
“Colleen, do you know who’s doing this
to you?” Slemmer’s only response was
groaning noises. At this point, Pike said
she and the other person each grabbed
one of Slemmer’s feet and dragged her
to an area near some trees, leaving her
body on a pile of dirt and debris. They
left
Slemmer’s
clothing
in
the
surrounding bushes. Pike said the
episode lasted “for about thirty minutes
to an hour.” Pike admitted that she and
the other person had forced the victim
to remove her blouse and bra during the
incident to keep Slemmer from running
away. Pike also admitted that she had
removed a rag from her hair and tied it
around Slemmer’s mouth at one point to
prevent Slemmer from talking. Pike

8a
denied carving a pentagram in the
victim’s chest, but said that the other
person had cut the victim on her chest.
Id. at 909–10.
B.
The state of Tennessee prosecuted Pike for
Slemmer’s murder. At trial, much of Pike’s
unsuccessful defense centered on her mental health.
Dr. Eric Engum testified that he had examined Pike
and, although she suffered from no symptoms of
brain damage or insanity, she did suffer from “very
severe borderline personality disorder” and exhibited
signs of cannabis dependence and a depressive
disorder. On this basis, Dr. Engum testified that,
while there was no question Pike killed Slemmer, it
was his opinion that she did not act with deliberation
or premeditation and simply lost control, consistent
with Pike’s diagnosis of borderline personality
disorder. Additionally, Dr. William Bernet, a forensic
psychiatrist with a specialty in satanic rituals,
testified that he reviewed Pike’s statements and the
medical/psychological reports prepared by the other
professionals involved in the case, and concluded that
though the crime had “satanic elements,” it appeared
more indicative of “an adolescent dabbling in
Satanism.” He also discussed the phenomenon of
collective aggression, in which a group of people
become emotionally aroused and “the end result is
that they engage in some kind of violent, extremely
violent activity.” It was his opinion that Slemmer’s
murder was consistent with that phenomenon.
The jury convicted Pike of premeditated firstdegree murder and conspiracy to commit first-degree
murder under Tennessee law. The Tennessee trial

9a
judge sentenced Pike to twenty-five years’
imprisonment on the conspiracy conviction and held a
sentencing hearing to allow the jury to determine
whether to sentence Pike to death for the murder
conviction. Pike’s attorney, William Talman,
originally intended to rely solely on the testimony of
Dr. Diana McCoy, a mitigation expert hired by the
defense. But shortly before the sentencing hearing,
Talman switched his plan and called only Pike’s aunt,
father, and mother. All three testified about Pike’s
difficult childhood, and her exhibition of behavioral
problems throughout her adolescence. Ultimately, the
jury sentenced Pike to death by electrocution, finding
that “[t]he murder was especially heinous, atrocious
or cruel in that it involved torture or serious physical
abuse beyond that necessary to produce death,” and
“[t]he murder was committed for the purpose of
avoiding, interfering with or preventing a lawful
arrest or prosecution of the defendant or another.”
See Tenn. Code Ann. § 39–13–204(i)(5), (6) (listing
aggravating circumstances a jury must find to
sentence a person to death).
Pike appealed her convictions and sentences, but
both the Tennessee Court of Criminal Appeals, State
v. Pike, No. 03C01-CR-00408, 1997 WL 732511, at *1
(Tenn. Crim. App. 1997), and the Tennessee Supreme
Court, Pike, 978 S.W.2d at 907, affirmed. Pike then
filed a petition for postconviction relief in the state
trial court. The postconviction court denied relief,
concluding as relevant to this appeal that Pike’s trial
counsel was not ineffective for failing to present
alternative expert testimony or additional lay
testimony on compelling mitigation in her life history.
The Tennessee Court of Criminal Appeals affirmed
the denial of Pike’s postconviction petition.

10a
State, No. E2009-00016-CCA-R3-PD, 2011 WL
1544207, at *1 (Tenn. Crim. App. 2011). The
Tennessee Supreme Court denied her application for
permission to appeal, id., and the United States
Supreme Court denied certiorari, Pike v. Tennessee,
568 U.S. 827, 133 S.Ct. 103, 184 L.Ed.2d 47 (2012).
C.
This habeas petition followed. Pike argues that
her trial counsel was ineffective during the penalty
phase of trial for failing to present mitigating
evidence he discovered during the investigation and
for failing to discover other relevant and compelling
mitigating evidence, among other reasons. The
parties filed cross-motions for summary judgment,
and the district court held a two-day evidentiary
hearing on Pike’s petition and the parties’ motions.
The district court granted respondent’s motion for
summary judgment and dismissed Pike’s habeas
petition. We granted her a limited certificate of
appealability, restricted to whether she received
ineffective assistance of counsel during the penalty
phase of her trial.
II.
“In an appeal from the denial of habeas relief, we
review the district court’s legal conclusions de novo
and its factual findings for clear error.” Scott v. Houk,
760 F.3d 497, 503 (6th Cir. 2014). Under the
Antiterrorism and Effective Death Penalty Act of
1996 (AEDPA), we may only overturn a state
conviction for an issue adjudicated on the merits if it
(1) “was contrary to, or involved an unreasonable
application of, clearly established Federal law, as
determined by the Supreme Court of the United
States;” or (2) “was based on an unreasonable

11a
determination of the facts in light of the evidence
presented” to the state court. 28 U.S.C. § 2254(d). A
claim for habeas relief based on the “unreasonable
application” prong must show more than that the
state court’s ruling was merely incorrect—“an
unreasonable application of federal law is different
from an incorrect application of federal law.”
Harrington v. Richter, 562 U.S. 86, 101, 131 S.Ct.
770, 178 L.Ed.2d 624 (2011) (quoting Williams v.
Taylor, 529 U.S. 362, 410, 120 S.Ct. 1495, 146
L.Ed.2d 389 (2000)). Indeed, “[a] state court’s
determination that a claim lacks merit precludes
federal habeas relief so long as ‘fairminded jurists
could disagree’ on the correctness of the state court’s
decision.” Id. (quoting Yarborough v. Alvarado, 541
U.S. 652, 664, 124 S.Ct. 2140, 158 L.Ed.2d 938
(2004)). “This is a difficult to meet and highly
deferential standard for evaluating state-court
rulings, which demands that state-court decisions be
given the benefit of the doubt.” Cullen v. Pinholster,
563 U.S. 170, 181, 131 S.Ct. 1388, 179 L.Ed.2d 557
(2011) (internal quotation marks and citations
omitted).
III.
As in all cases alleging ineffective assistance of
counsel, we turn to Strickland v. Washington’s twopart framework: a criminal defendant claiming
ineffective assistance must prove that (1) counsel’s
performance was objectively unreasonable, and (2)
the deficient performance actually prejudiced the
defense. 466 U.S. 668, 687, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984). Because a party alleging that
claim has the burden of proof on both prongs and her
failure on either thwarts relief, we can address an
ineffective-assistance claim in any order we choose.

12a
See Smith v. Spisak, 558 U.S. 139, 151, 130 S.Ct. 676,
175 L.Ed.2d 595 (2010) (assuming deficient
performance but denying relief for lack of prejudice).
In this case, “[w]e choose to focus on the prejudice
prong of the Strickland test because it is easier to
resolve, and there can be no finding of ineffective
assistance of counsel without prejudice.” Phillips v.
Bradshaw, 607 F.3d 199, 216 (6th Cir. 2010) (citation
omitted). Under Strickland’s prejudice prong, “[t]he
defendant must show that there is a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” 466 U.S. at 694, 104 S.Ct. 2052. Put
differently, Pike bears the burden of showing that a
reasonable probability exists that, but for counsel’s
deficient performance, the jury would have selected a
different sentence. Wong v. Belmontes, 558 U.S. 15,
19–20, 130 S.Ct. 383, 175 L.Ed.2d 328 (2009) (per
curiam).
Counsel’s failure to either present mitigating
evidence at sentencing, Williams, 529 U.S. at 394–96,
120 S.Ct. 1495, or discover all reasonably available
mitigating evidence, Wiggins v. Smith, 539 U.S. 510,
521–24, 123 S.Ct. 2527, 156 L.Ed.2d 471 (2003), can
support a finding of ineffective assistance. But “the
failure to present additional mitigating evidence that
is ‘merely cumulative’ of that already presented does
not rise to the level of a constitutional violation.”
Broom v. Mitchell, 441 F.3d 392, 410 (6th Cir. 2006).
“[T]he new evidence that a habeas petitioner presents
must differ in a substantial way—in strength and
subject matter—from the evidence actually presented
at sentencing.” Clark v. Mitchell, 425 F.3d 270, 286
(6th Cir. 2005) (quoting Hill v. Mitchell, 400 F.3d 308,
319 (6th Cir. 2005)); see also Sears v. Upton, 561 U.S.

13a
945, 954, 130 S.Ct. 3259, 177 L.Ed.2d 1025 (2010)
(per curiam) (“[T]here is no prejudice when the new
mitigating evidence ‘would barely have altered the
sentencing profile presented’ to the decisionmaker
....”).
Pike’s claim really presents two separate issues.
First, she argues that her trial counsel was
ineffective for failing to present the testimony of her
mitigation expert, Dr. McCoy, at her sentencing
hearing. Second, she contends that counsel was
ineffective for failing to discover other compelling
mitigation evidence, such as Pike’s organic brain
damage, bipolar disorder, post-traumatic stress
disorder, and lay witnesses who could have provided
a more-complete picture of Pike’s humanity.
A.
Turning first to Dr. McCoy, it is unclear what
substantially different mitigating evidence she would
have offered by way of her testimony and the “social
history” that she prepared of Pike. Dr. McCoy’s social
history provided an extensive examination of Pike’s
entire life and explained many of the life events and
childhood difficulties that led her to the murder. For
example, Dr. McCoy’s report notes that “[i]t ha[d]
been suggested that [the boyfriend of Pike’s
grandmother] may have sexually abused [Pike]” as a
child, though other members of Pike’s family,
including her father, questioned the truthfulness of
that accusation. The social history also noted that
Pike’s mother had a number of boyfriends and
relationships in Pike’s youth, with many of the men
treating Pike in an abusive or sexually inappropriate
manner. But, again, Pike’s accusations were met with
doubt and outright opposition by members of her

14a
family. The social history also noted that Pike
believed her paternal grandmother was the only
person that ever loved her, was inconsolable for days
after her grandmother’s death, and actually
attempted suicide for the first time after her
grandmother passed away. In sum, the social history
laid out an upbringing of substantial difficulty and
strife.
While that “social history” document was certainly
thorough, and we will assume for the sake of
argument that Dr. McCoy would have been able to
testify consistently with the evidence she
accumulated and compiled therein, the jury already
got much of the social history’s general content
during the penalty phase of the trial. Pike’s mother,
Carissa Hansen, testified that Pike spent much of her
childhood with her paternal grandmother because
neither Hansen nor her husband were ever really
home. Hansen testified that she was a drug abuser
and heavy drinker during Pike’s childhood, which
also contributed to Pike spending time with her
grandmother. Hansen also testified that Pike first
attempted suicide after her grandmother’s death in
1988, but that Hansen had not gotten her much
psychiatric or psychological help in the aftermath. At
least once Hansen chose one of her husbands over
Pike, sending Pike away when there was conflict
between them. She also admitted to smoking
marijuana both in front of and, on at least one
occasion, with Pike during her teenage years. On
cross-examination, Hansen testified that when Pike
was twelve years old she threatened one of Hansen’s
boyfriends with a butcher knife and that Pike had
been a troubled child for years. But Hansen did state
that Pike’s “troubles” were Hansen’s fault, and she

15a
blamed herself for Pike’s behavior.
Pike’s father, Glenn Pike, also testified on her
behalf. Glenn admitted rejecting Pike during her
childhood and telling her that she could no longer
come to his home where he lived with a new wife and
family. He testified that he had picked his new wife
and children over Pike and sent her away when there
was conflict between them. He testified that, another
time, he kicked Pike out of his home for doing poorly
in school. And yet another time Glenn “rejected” Pike
and even signed adoption papers to allow her to be
adopted, though this was shortly before her
eighteenth birthday and an adoption never came to
fruition.
Pike’s aunt, Carrie Ross, also testified. Ross noted
that Pike’s care and upbringing fell mostly on the
shoulders of her paternal grandmother and that the
two were inseparable. She noted that Pike’s childhood
home was constantly filthy to the point that Pike, as
a baby, would be “crawling around through piles of
dog stool all over the house.” Ross also testified that
Pike “was not brought up by” her mother because her
mother was never at home, instead always working
or choosing to be “out partying.” Ross noted that, on
one occasion, Ross and Hansen were out at a bar
when Hansen received a phone call that Pike, then a
toddler, was experiencing severe seizures that
eventually required hospitalization. While Ross
thought they should return home to care for Pike,
Hansen was unconcerned and wanted to remain at
the bar. This was merely indicative of the constant
relationship between Hansen and Pike—whenever
Hansen had to act in either her own interest or
Pike’s, Hansen always put herself first. Ross also
discussed the frequency with which Pike’s extended

16a
family all faced issues with substance abuse, as well
as numerous family members who were either
physically or verbally abusive to their children and
grandchildren, including Pike.
All in all, the jury heard a clear story: Pike’s
childhood and upbringing were very difficult and, in
some ways, explained how she became a person
capable of such a brutal murder.
Pike now claims the jury should have received the
more in-depth testimony on these points that Dr.
McCoy could have provided, but she fails to
adequately explain how Dr. McCoy’s testimony would
“differ in a substantial way—in strength and subject
matter—from the evidence actually presented at
sentencing.” Clark, 425 F.3d at 286. Although she
argues on appeal that the jury never heard that
Pike’s parents’ inconsistency and lack of attention to
her well-being caused her “out of control” behavior,
that point was made multiple times at the penaltyphase hearing, with her mother even explicitly
blaming herself for Pike’s behavior. Thus, the
evidence counsel presented to the jury encompassed
the types of mitigating evidence the Supreme Court
has found valuable in other cases. See Sears, 561 U.S.
at 948, 130 S.Ct. 3259 (finding relevant mitigating
evidence in verbal and physical parental abuse,
inappropriate parental discipline, and behavioral
disorders); Wiggins, 539 U.S. at 534–35, 123 S.Ct.
2527 (finding “powerful” mitigating evidence in the
defendant’s early childhood privation and abuse, an
alcoholic and absentee mother, and the physical
abuse the defendant experienced). And, because the
jury heard largely the same narrative as Pike now
presents, the Tennessee Court of Criminal Appeals’
conclusion that Pike failed to establish prejudice from

17a
Talman’s decision not to call Dr. McCoy at the
penalty-phase hearing, Pike, 2011 WL 1544207, at
*51–52, was not an unreasonable application of
federal law under AEDPA. 28 U.S.C. § 2254(d).
B.
Pike next challenges Talman’s failure to
investigate and discover other mitigating evidence.
The first evidence Pike claims Talman failed to
discover was her diagnoses of bipolar disorder,
organic brain damage, and post-traumatic stress
disorder (PTSD). She bases this argument on her
post-sentencing examination by Dr. Jonathan Pincus,
who determined that she actually suffered from
organic brain damage, bipolar disorder and PTSD,
rather than the borderline personality disorder Dr.
Engum diagnosed. Her argument fails for multiple
reasons.
First, “[a]bsent a showing that trial counsel
reasonably believed that [the expert] was somehow
incompetent or that additional testing should have
occurred, simply introducing the contrary opinion of
another mental health expert during habeas review is
not sufficient to demonstrate the ineffectiveness of
trial counsel.” Hill v. Mitchell, 842 F.3d 910, 944 (6th
Cir. 2016) (alterations in original) (quoting McGuire
v. Warden, Chillicothe Corr. Inst., 738 F.3d 741, 758
(6th Cir. 2013)). Here, Dr. Engum testified that his
expert opinion, after numerous meetings with Pike
and “fairly lengthy testing,” was that she suffered
from “very severe borderline personality disorder.”
And he specifically testified that he tested Pike for
brain damage and his testing “unequivocally showed
that she did not suffer any signs of brain damage.”
Dr. McCoy also testified at a postconviction hearing

18a
that she concurred in Dr. Engum’s medical
assessment throughout her mitigation work on Pike’s
case. So Talman had two separate experts tell him
that the correct diagnosis was borderline personality
disorder. Even assuming, for the sake of argument,
that Dr. Pincus’s diagnoses of organic brain damage,
bipolar disorder, and PTSD are contrary to Dr.
Engum’s diagnosis of borderline personality disorder,
nothing in the record shows that Talman should have
reasonably believed that additional testing was
necessary. See id.
Furthermore, it is difficult to see how this alleged
failure prejudiced Pike, when the jury considered Dr.
Engum’s testimony that Pike suffered from
borderline personality disorder. Pike does not
specifically argue that the particular medical
differences between borderline personality disorder,
bipolar disorder, PTSD, and organic brain damage
would have influenced the jury in its decision to
sentence her to death. Instead, Pike argues that the
presentation of evidence of bipolar disorder and
organic brain damage would have been relevant to
prove to the jury that Pike’s moral reasoning and
impulse control were impaired—two deficits typically
caused by both organic brain damage and bipolar
disorder. But the jury heard Dr. Engum testify that
Pike “did not act with deliberation, with
premeditation, but instead, acted in a manner
consistent with her diagnosis, borderline personality
disorder, which meant that she basically went out of
control. She basically lost any sense of what she was
doing.” (Emphasis added). In other words, the jury
was already well aware of a medical expert’s opinion
that her moral reasoning and impulse control were
not present during the murder of Colleen Slemmer.

19a
We doubt that the substitution of bipolar disorder,
PTSD, and organic brain damage for borderline
personality disorder would have affected the jury’s
deliberations on this point. See Clark, 425 F.3d at
286; Sears, 561 U.S. at 954, 130 S.Ct. 3259.
Pike also argues that her trial counsel was
ineffective for failing to present various other lay
witnesses who could have testified about their
relationships with Pike, what they thought of her,
and how she had described her tumultuous childhood
in conversations. For example, she argues that
counsel should have presented the testimony of
Marshall Muse, Pike’s teacher, who would have
testified that he saw “flashes [of] something special”
in her. Or counsel should have called an acquaintance
named Onas Perry, who could have testified about
her late-night talks with Pike and how Pike had
described a difficult childhood and home life. But, as
noted above, Pike has not persuaded us that this
other testimony would have been significantly
different in strength or subject matter from the
testimony of Pike’s mother, father, and aunt. Clark,
425 F.3d at 286. In sum, none of the evidence Pike
now points to substantially differs from the
mitigation case that was presented to the jury.
C.
Finally, our conclusion is bolstered by the
aggravating evidence before the jury. See Bobby v.
Van Hook, 558 U.S. 4, 12–13, 130 S.Ct. 13, 175
L.Ed.2d 255 (2009) (per curiam) (noting that the
strength of the aggravating evidence against the
defendant significantly diminished any effect
additional mitigating evidence might have had). The
jury heard evidence that Pike and her accomplices

20a
lured the victim into a lethal trap before torturing
and taunting the victim until they killed her. Pike
left Slemmer’s body so badly beaten that the person
who discovered it thought it was the corpse of an
animal before realizing it was a human body. Pike,
978 S.W.2d at 908. The jury also heard Pike’s
confession in which she admitted to slashing
Slemmer’s throat multiple times, throwing asphalt at
her head, and even keeping a piece of her skull as a
souvenir. Id. Tennessee law allows a jury to impose a
death sentence when a “murder [i]s especially
heinous, atrocious or cruel in that it involved torture
or serious physical abuse beyond that necessary to
produce death,” see Tenn. Code Ann. § 39–13–
204(i)(5). This crime fits that description. 1
It is true that “[t]he prejudice prong is satisfied if
‘there is a reasonable probability that at least one
juror would have struck a different balance.’”
Dickerson v. Bagley, 453 F.3d 690, 699 (6th Cir. 2006)
(quoting Wiggins, 539 U.S. at 537, 123 S.Ct. 2527),
abrogated in part on other grounds by Bobby, 558
U.S. at 8–9, 130 S.Ct. 13. But a fairminded jurist
could conclude that there is no such probability here,
where Pike’s desired evidence was mostly cumulative
and insufficient to overcome the heinous nature of
her crime. Even were the jury to hear everything that
The jury also found that death was warranted because “[t]he
murder was committed for the purpose of avoiding, interfering
with or preventing a lawful arrest or prosecution of the
defendant or another.” See Tenn. Code Ann. § 39–13–204(i)(6).
Presumably, the jury came to this conclusion based upon Pike’s
confession that she heard “voices telling her that she had to do
something to prevent Slemmer from telling on her and sending
her to prison for attempted murder.” Pike, 978 S.W.2d at 909.
Pike did not refute this evidence, and this serves as another
basis for the death sentence.

1

21a
Pike now wishes had been presented, a fairminded
jurist could conclude that the sheer weight and
degree of aggravation evidence before the jury
outweighs the mitigation evidence raised on appeal.
Cf. Porter v. McCollum, 558 U.S. 30, 41, 130 S.Ct.
447, 175 L.Ed.2d 398 (2009) (per curiam). Thus, the
state court’s conclusion that Pike could not establish
Strickland prejudice, Pike, 2011 WL 1544207, at *51–
52, was not an unreasonable application of federal
law. See Harrington, 562 U.S. at 101–03, 131 S.Ct.
770. In short, because Pike fails to meet AEDPA’s
stringent requirements, see 28 U.S.C. § 2254(d), she
is ineligible for habeas relief.
IV.
Because Petitioner cannot establish that the
Tennessee Court of Criminal Appeals’ adjudication of
her claims of ineffective assistance of counsel was an
unreasonable application of clearly established
federal law, we affirm the judgment of the district
court.

22a
CONCURRENCE
JANE B. STRANCH, Circuit Judge, concurring.
I join the opinion in this case but write separately
because it presents an issue with which our society
must be concerned—whether 18-year-olds should be
sentenced to death. Had she been 17 rather than 18
at the time of her crime, like her codefendant Tadaryl
Shipp, Christa Pike would not be eligible for the
death penalty.
The difficulty of this case is not just age; the
gravest concern arises from the combination of Pike’s
youth and the nature of her crime. Capital cases
involve heinous and inexplicable crimes, and Pike’s
case presents no exception. But in sentencing Pike to
death, we rule out the possibility that her crime was
a product of the immature mind of youth rather than
fixed depravity. And we presume that she is
incapable of reform even though the stories of other
teenage killers, many of whom have been
rehabilitated behind bars, reveal other possibilities. 1
1 A few examples of teenagers initially sentenced to life in prison
help explain the point.

Andrew Hundley was 15 years old when he killed a 14-year-old
girl “whose body was found burned and badly beaten behind a
grocery store.” Grace Toohey, The Power of Second Chances:
How this 37-year-old, Once in Prison, Is Now an LSU Grad, The
Advocate,
May
10,
2019,
https://www.theadvocate.com/baton_rouge/news/crime_police/art
icle_03c590ae-72a9-11e9-8d2b-4b78d19fcd5b.html.
Now
37,
Hundley helped found the Louisiana Parole Project and
completed college coursework while in prison; he finished his
bachelor’s degree in sociology after being released on parole and
plans to pursue a master’s degree in criminology. Id.
Bosie Smith was 16 when he stabbed another youth to death
after an argument. Ted Roelofs, In Prison for Decades, One

23a
The judgment that she merits the most severe
punishment is in tension with Supreme Court
precedent focusing on the lesser blameworthiness and
greater prospect for reform that is characteristic of
youth.
In a series of cases starting with Roper v.
Simmons, 543 U.S. 551, 125 S.Ct. 1183, 161 L.Ed.2d
1 (2005), the Supreme Court made clear that children
are different from adults for purposes of the Eighth
Amendment. First, in Roper, the Court held that the
Eighth Amendment’s “evolving standards of decency”
Juvenile Lifer’s Quest for Redemption, Bridge Magazine, Aug.
26,
2016,
https://www.mlive.com/politics/2016/08/in_prison_for_decades_o
ne_juve.html. Once in prison, Smith took advantage of every
rehabilitative program available to him, training Greyhounds so
that they can be adopted by families and winning the warden’s
support for his release. Id.
When he was 16 years old, Kempis Songster stabbed another
teenage runaway to death; after nearly three decades in prison,
he “is training to be a yoga instructor, leading workshops in
cultural awareness, studying philosophy and history .... He is
doing everything, anything, really, to better himself, create a
persona separate from his crime and crushing sentence. He
wants to make amends.” Amy S. Rosenberg, Teen Killers, Prison
Lifers, Given a Ray of Hope, Philadelphia Inquirer, Feb. 7, 2016,
https://www.inquirer.com/news/inq/teen-killers-prison-lifersgiven-ray-hope-20160206.html.
Amaury Rosario was 17 when he, along with his codefendants,
shot and killed four unarmed people during a robbery gone
wrong. United States v. Rosario, 99-cr-533, 12-cv-3432, 2018 WL
3785095, at *2 (E.D.N.Y. Aug. 9, 2018). After two decades in
prison, guards as well as inmates attested to his character and
positive influence; moreover, mental-health experts working for
both the defense and the prosecution at his resentencing agreed
that “he had been rehabilitated and ... no longer poses a
significant risk to the public.” Id. at *4.

24a
prohibit the imposition of death sentences on those
who were under 18 at the time of their crimes. Id. at
561, 571, 125 S.Ct. 1183. Next, in Graham v. Florida,
the Court concluded that juvenile offenders who
commit
non-homicide
offenses
could
not
constitutionally be sentenced to life without parole.
560 U.S. 48, 74–75, 130 S.Ct. 2011, 176 L.Ed.2d 825
(2010). Then, in Miller v. Alabama, the Court
determined that even juvenile homicide offenders
could be sentenced to life without parole only after an
individualized sentencing hearing and a finding that
their crime was not the product of “unfortunate yet
transient immaturity.” 567 U.S. 460, 479–80, 132
S.Ct. 2455, 183 L.Ed.2d 407 (2012). Finally, in
Montgomery v. Louisiana, the Court held that Miller
was retroactively applicable because it announced a
new substantive rule—namely, “that sentencing a
child to life without parole is excessive for all but ‘the
rare juvenile offender whose crime reflects
irreparable corruption.’” ––– U.S. ––––, 136 S. Ct.
718, 734, 193 L.Ed.2d 599 (2016) (quoting Miller, 567
U.S. at 479–80, 132 S.Ct. 2455). Taken as a whole,
these cases stand for the principle that “[b]ecause
juveniles have diminished culpability and greater
prospects for reform ..., ‘they are less deserving of the
most severe punishments.’” Miller, 567 U.S. at 471,
132 S.Ct. 2455 (quoting Graham, 560 U.S. at 68, 130
S.Ct. 2011).
This line of cases relied on three findings about
the “significant gaps between juveniles and adults”
that make children “constitutionally different from
adults for purposes of sentencing.” Id. “First, children
have a ‘lack of maturity and an underdeveloped sense
of responsibility,’ leading to recklessness, impulsivity,
and heedless risk-taking. Second, children ‘are more

25a
vulnerable ... to negative influences and outside
pressures’ .... And third, a child’s character is not as
‘well formed’ as an adult’s ....” Id. (quoting Roper, 543
U.S. at 569–70, 125 S.Ct. 1183). These conclusions
“rested not only on common sense ... but on science
and social science as well.” Id.; see also id. at 472 n.5,
132 S.Ct. 2455 (“The evidence presented to us in
[Miller] indicates that the science and social science
supporting Roper’s and Graham’s conclusions have
become even stronger.”).
Recent
research
in
neuroscience
and
developmental psychology indicates that individuals
between the ages of 18 and 21 share many of these
same characteristics. Since Roper was decided,
scientists have established that “biological and
psychological development continues into the early
twenties.” Elizabeth S. Scott et al., Young Adulthood
as a Transitional Legal Category: Science, Social
Change, and Justice Policy, 85 Fordham L. Rev. 641,
642 (2016). Brain-imaging studies “have shown
continued regional development of the prefrontal
cortex, implicated in judgment and self-control[,]
beyond the teen years and into the twenties.”
Alexandra O. Cohen et al., When Does a Juvenile
Become an Adult?, 88 Temp. L. Rev. 769, 783 & n.63
(2016) (collecting articles). Researchers have found
that in “negative emotional situations,” such as
conditions of threat, young adults between the ages of
18 and 21 perform significantly worse than adults in
their mid-20s—and more like those under 18.
Alexandra O. Cohen et al., When Is an Adolescent an
Adult? Assessing Cognitive Control in Emotional and
Nonemotional Contexts, 27 Psychol. Sci. 549, 559–60
(2016). “It is also well established that young adults,
like teenagers, engage in risky behavior, such as ...

26a
criminal activity, to a greater extent than older
adults.” Scott et al., supra, at 642. In short, empirical
research has found that “[a]lthough eighteen to
twenty-one-year-olds are in some ways similar to
individuals in their midtwenties, in other ways,
young adults are more like adolescents in their
behavior, psychological functioning, and brain
development.” Id. at 646.
Reflecting a long-held societal understanding of
this point, we already recognize 21 as the age of
majority in a number of contexts. Individuals are
required to be 21 to consume alcohol or marijuana
(where legal), purchase tobacco in many jurisdictions,
or to rent a car. Similarly, federal law prohibits
licensed gun dealers from selling handguns and
ammunition to those under 21, see 18 U.S.C. §
922(b)(1), (c)(1), while immigration law allows U.S.
citizens to request immigrant visas for unmarried
children under the age of 21, see 8 U.S.C. §§
1101(b)(1), 1151(b)(2)(A)(i). In fact, 21 has
traditionally marked the ascension to full adulthood:
“[T]he term ‘minor’ or ‘infant’—as those terms were
historically understood—applied to persons under the
age of 21 .... The age of majority at common law was
21, and it was not until the 1970s that States enacted
legislation to lower the age of majority to 18.” NRA v.
ATF, 700 F.3d 185, 201 (5th Cir. 2012).
For these reasons, I believe that society’s evolving
standards of decency likely do not permit the
execution of individuals who were under 21 at the
time of their offense. But, because we review this case
under the strictures of AEDPA, we may grant Pike
relief only if the state court’s adjudication of her case
was either (1) contrary to or unreasonably applied
Supreme Court precedent, or (2) “resulted in a

27a
decision that was based on an unreasonable
determination of the facts.” 28 U.S.C. § 2254(d). And
the Supreme Court has not extended Roper to 18year-olds. I therefore reluctantly concur because I
agree that the state court’s decision denying Pike’s
postconviction petition did not unreasonably apply
Strickland’s prejudice prong.

28a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TENNESSEE
AT CHATTANOOGA
No: 1:12-cv-35
CHRISTA GAIL PIKE, Petitioner,
v.
VICKI FREEMAN, WARDEN, Respondent.
Filed March 11, 2016
MEMORANDUM OPINION
HARRY S. MATTICE,
DISTRICT JUDGE

JR.,

UNITED

STATES

This is a petition for the writ of habeas corpus
pursuant to 28 U.S.C. § 2254. Petitioner Christa Gail
Pike (“Petitioner”) is a Tennessee death row inmate
incarcerated in the Tennessee Prison for Women. The
matter is now before the Court on Respondent’s
motion for summary judgment (Doc. 42), and
Petitioner’s cross motion for partial summary
judgment (Doc. 45). Petitioner has filed a response to
Respondent’s motion and a reply to Respondent’s
response (Docs. 51, 56), and Respondent has filed a
corresponding response and reply (Doc. 50, 55).
Petitioner also filed a motion for an evidentiary
hearing (Doc. 51), which this Court granted (Doc. 58),
and a hearing was held on May 26th, 2015 and May
27th, 2015 (Doc. 81). For the reasons that follow,
Petitioner’s motion for partial summary judgment
(Doc. 45) will be DENIED, and Respondent’s motion
for summary judgment (Doc. 42) will be GRANTED.
The petition for habeas corpus relief will be
DENIED.

29a
I. FACTUAL BACKGROUND AND
PROCEDURAL HISTORY
Respondent has provided the Court with copies of
the relevant documents as to Petitioner’s trial, direct
appeal, and post-conviction proceedings (Docs. 7–13).
Petitioner was convicted by a Knox County,
Tennessee jury of conspiracy to commit the murder of
Colleen Slemmer, and the first degree murder of
Colleen Slemmer. Petitioner was sentenced to death
for the murder charge, and a consecutive twenty-five
year prison sentence for the conspiracy charge.
Petitioner’s conviction and sentence were affirmed on
direct appeal by the Tennessee Court of Criminal
Appeals (“TCCA”) and the Tennessee Supreme Court
(“TSC”). State v. Pike, 978 S.W.2d 904 (Tenn. 1998),
cert denied, 526 U.S. 1147 (1999). The facts that led
to the conviction of Petitioner are set forth in detail in
the opinion of the TSC:
The proof presented by the State at the
guilt phase of the trial established that
on January 11, 1995, the [Petitioner],
Christa Gail Pike, a student at the Job
Corps Center in Knoxville, told her
friend Kim Iloilo, who was also a
student at the facility, that she intended
to kill another student, Colleen
Slemmer, because she “had just felt
mean that day.” The next day, January
12, 1995, at approximately 8:00 p.m.,
Iloilo observed Pike, along with
Slemmer, and two other Job Corps
students,
Shadolla
Peterson
and
Tadaryl
Shipp,
Pike’s
boyfriend,
walking away from the Job Corps center
toward 17th Street. At approximately

30a
10:15 p.m., Iloilo observed Pike,
Peterson, and Shipp return to the
Center. Slemmer was not with them.
Later that night, Pike went to Iloilo’s
room and told Iloilo that she had just
killed Slemmer and that she had
brought back a piece of the victim’s
skull as a souvenir. Pike showed Iloilo
the piece of skull and told her that she
had cut the victim’s throat six times,
beaten her, and thrown asphalt at the
victim’s head. Pike told Iloilo that the
victim had begged “them” to stop
cutting and beating her, but Pike did
not stop because the victim continued to
talk. Pike told Iloilo that she had
thrown a large piece of asphalt at the
victim’s head, and when it broke into
smaller pieces, she had thrown those at
the victim as well. Pike told Iloilo that a
meat cleaver had been used to cut the
victim’s back and a box cutter had been
used to cut her throat. Finally, Pike said
that a pentagram had been carved onto
the victim’s forehead and chest. Iloilo
said that Pike was dancing in a circle,
smiling, and singing “la, la, la” while
she related these details about the
murder. When Iloilo saw Pike at
breakfast the next morning she asked
Pike what she had done with the piece
of the victim’s skull. Pike replied that it
was in her pocket and then said, “And
yes, I’m eating breakfast with it.”
During a class later that morning, Pike

31a
made a similar statement to Stephanie
Wilson, another Job Corps student. Pike
pointed to brown spots on her shoes and
said, “that ain’t mud on my shoes, that’s
blood.” Pike then pulled a napkin from
her pocket and showed Wilson a piece of
bone which Pike said was a piece of
Slemmer’s skull. Pike also told Wilson
that she had slashed Slemmer’s throat
six times and had beaten Slemmer in
the head with a rock. Pike told Wilson
that the victim’s blood and brains had
been pouring out and that she had
picked up the piece of skull when she
left the scene.
Though neither Iloilo nor Wilson
immediately reported Pike’s statements
to police, on the day after the murder,
January 13, at approximately 8:05 a.m.,
an employee of the University of
Tennessee
Grounds
Department,
discovered
Slemmer’s
semi-nude,
slashed, and badly beaten body near the
greenhouses
on
the
agricultural
campus. He testified that the body was
so badly beaten that he had first
mistaken it for the corpse of an animal.
Upon closer inspection, he saw the
victim’s clothes and her nude breast and
realized it was the body of a human
female. He immediately notified law
enforcement officials.
Officers from the Knoxville Police
Department and the U.T. Police
Department were summoned to the

32a
scene. Officer John Terry Johnson
testified at trial that the body he found
was lying on debris and was nude from
the waist up. Blood and dirt covered the
body and remaining clothing. The
victim’s head had been bludgeoned.
Multiple cuts and slashes appeared on
her torso. Officer Johnson stated that he
thought he was looking at the victim’s
face but he could not be sure because it
was extremely mutilated. Johnson
removed all civilians from the area and
secured the scene surrounding the body.
As other officers arrived, they began
securing the crime area. As officers
discovered other areas of blood, articles
of clothing, footprints, and broken
foliage, the crime scene tripled in size,
eventually encompassing an area 100
feet long by 60 feet wide. The crime
scene was wet and muddy, and there
was evidence of a scuffle, with trampled
bushes, hand and knee prints in the
mud, and drag marks. A large pool of
blood was found about 30 feet from the
victim’s body.
The victim’s body was actually lying
face down on a pile of debris. When
officers turned the body over, they
discovered that the victim’s throat had
been slashed. A bloody rag was around
her neck. Detective Donald R. Cook, of
the
U.T.
Police
Department,
accompanied the body to the morgue.
He observed the body after it had been

33a
cleaned and noticed that a five pointed
star in a circle, commonly known as a
pentagram, had been carved onto the
victim’s chest.
Randy York, a criminal investigator
with the Knoxville Police Department,
began investigating this case on
January 13, the day the victim’s body
was
discovered.
York
separately
interviewed the [Petitioner] and Shipp
at the Knoxville Police Department on
January
14th.
Investigator
York
advised [Petitioner] Pike of her
Miranda rights, but she chose to waive
them and make a statement. Pike
explained in detail how the killing had
occurred. Pike’s statement was taperecorded and transcribed in some fortysix pages. Copies of the transcription
were given to the jury, and the jurors
were allowed to listen to the tape
through individual headphones.
In her statement, Pike said that she and
Slemmer had been having problems for
some time. Pike claimed to have
awakened one night to find Slemmer
standing over her with a box cutter.
Pike told Investigator York that
Slemmer had been “trying to get her
boyfriend” and had been “running her
mouth” everywhere. Pike said that
Slemmer had deliberately provoked her
because Slemmer realized that Pike
would be terminated from the Job Corps
program the next time she became

34a
involved in a fight or similar incident.
Pike claimed that she had not planned
to kill Slemmer, but she had instead
planned only to fight Slemmer and let
her know “to leave me the hell alone.”
However, Pike admitted that she had
taken a box cutter and a miniature
meat cleaver with her when she and the
victim left the Job Corps Center. Pike
said she had borrowed the miniature
meat cleaver, but refused to identify the
person who had loaned it to her.
According to Pike, she asked Slemmer
to accompany her to the Blockbuster
Music Store, and as they were walking,
Pike told Slemmer that she had a bag of
“weed” hidden in Tyson Park. Though
Pike refused to name the other parties
involved in the incident, she said the
group began walking toward the U.T.
Campus. Upon arriving at the steam
plant on U.T.’s agricultural campus,
Pike and Slemmer exchanged words.
Pike then began hitting Slemmer and
banging Slemmer’s head on her knee.
Pike threw Slemmer to the ground and
kicked her repeatedly. According to
Pike, as she slammed Slemmer’s head
against
the
concrete,
Slemmer
repeatedly asked, “Why are you doing
this to me?” When Slemmer threated to
report Pike so she would be terminated
from the Job Corps program, Pike again
repeatedly kicked Slemmer in the face
and side. Slemmer lay on the ground

35a
and cried for a time and then tried to
run away, but another person with Pike
caught Slemmer and pushed her to the
ground.
Pike and the other person, who Pike
referred to as “he,” held Slemmer down
until she stopped struggling, then
dragged her to another area where Pike
cut Slemmer’s stomach with the box
cutter. As Slemmer “screamed and
screamed,” Pike recounted how she
began to hear voices telling her that she
had to do something to prevent
Slemmer from telling on her and
sending her to prison for attempted
murder.
At this point Pike said she was just
looking at Slemmer and “just watching
her bleed.” When Slemmer rolled over,
stood up and tried to run away again,
Pike cut Slemmer’s back, “the big long
cut on her back.” Pike said Slemmer
repeatedly tried to get up and run. Pike
recounted how Slemmer bargained for
her life, begging Pike to talk to her and
telling Pike that if she would just let her
go, she would walk back to her home in
Florida without returning to the Job
Corps facility for her belongings. Pike
told Slemmer to “shut up” because it
“was harder to hurt somebody when
they’re talking to you.” Pike said the
more Slemmer talked, the more she
kicked Slemmer in the face.

36a
Slemmer asked Pike what she was
going to do to her, at which point Pike
thought she heard a noise. Pike left the
scene to check out the surrounding area
to make sure no one was around. When
she returned, Pike began cutting
Slemmer across the throat. When
Slemmer continued to talk and beg for
her life, Pike cut Slemmer’s throat
several other times. Pike said that
Slemmer continued to talk and tried to
sit up even though her throat had been
cut several times, and that Pike and the
other person would push her back on
the ground.
Slemmer attempted to run away again,
and Pike threw a rock which hit
Slemmer in the back of the head. Pike
stated that “the other person” also hit
Slemmer in the head with a rock. When
Slemmer fell to the ground, Pike
continued to hit her. Eventually Pike
said she could hear Slemmer “breathing
blood in and out,” and she could see
Slemmer “jerking,” but Pike “kept
hitting her and hitting her and hitting
her.” Pike eventually asked Slemmer,
“Colleen, do you know who’s doing this
to you?” Slemmer’s only response was
groaning noises. At this point, Pike said
she and the other person each grabbed
one of Slemmer’s feet and dragged her
to an area near some trees, leaving her
body on a pile of dirt and debris. They
left
Slemmer’s
clothing
in
the

37a
surrounding bushes. Pike said the
episode lasted “for about thirty minutes
to an hour.” Pike admitted that she and
the other person had forced the victim
to remove her blouse and her bra during
the incident to keep Slemmer from
running away. Pike also admitted that
she had removed a rag from her hair
and tied it around Slemmer’s mouth at
one point to prevent Slemmer from
talking.
Pike denied carving
a
pentagram in the victim’s chest, but
said that the other person had cut the
victim on her chest.
After disposing of Slemmer’s body, Pike
and the other person washed their
hands and shoes in a mud puddle. They
discarded the box cutter, and Pike
returned the miniature meat cleaver to
the person at the Job Corps from whom
she had borrowed it. Pike never
identified that individual. Pike told
Investigator York that the bloodstained
jeans she had worn during the incident
were still in her room. She said they
were covered in mud because she had
rubbed the mud from the bottom of her
shoes onto the jeans to conceal the
blood. Pike also admitted to Investigator
York that she had discarded two forms
of identification belonging to the victim
and the victim’s black gloves in a trash
can at a Texaco station on Cumberland
Avenue. Pike gave Investigator York
consent to search her room and then

38a
accompanied him to the Job Corps
center. From there Pike retraced her
steps, describing what had occurred on
the night of the killing. Investigator
York testified that Pike eventually
directed him to the exact location where
the victim’s body was found.
After Pike’s statement was played for
the jury, the state introduced pictures of
Pike and Shipp taken at the Knoxville
Police Department on the day the
statement was given, January 14, 1995,
two days after the murder. In the
pictures, both Pike and Shipp were
wearing pentagram necklaces.
Mark A. Waggoner, an officer with the
Knoxville Police Department, testified
that he had retrieved a pair of black
gloves and two of Slemmer’s I.D. cards
from the Texaco station on Cumberland
Avenue. These items were also made
exhibits.
Another
officer,
Lanny
Janeway, used a chart to illustrate each
of the locations where blood or evidence
was found. Photographs of bloody
chunks of asphalt, blood drippings on
leaves, and pools of blood were
introduced into evidence. The bloody
piece of asphalt and the victim’s bloody
clothing were also introduced into
evidence.
Special agent Raymond A. DePriest, a
forensic scientist employed by the
Tennessee Bureau of Investigation,

39a
testified that he had received blood
samples taken from the shoes and
clothing of Pike and Shipp. Those items
that he determined had human blood on
them were sent to the DNA unit.
Margaret Bush, an employee of the
Tennessee Bureau of Investigation
assigned to the DNA unit, testified that
she had been unable to perform a DNA
analysis on the blood taken from the
shoes of Pike and Shipp, but she had
determined that the blood samples
taken from the clothing of both Pike and
Shipp matched the DNA profile of the
victim.
Dr. Sandra Elkins, the Knox County
Medical Examiner, performed the
autopsy on the victim, who was later
identified by dental records as Colleen
Slemmer, a nineteen-year-old Job Corps
student. Dr. Elkins described the
victim’s body as covered with dirt and
twigs. Slemmer was nude from the
waist up clothed only with jeans, socks,
and shoes. After removing the victim’s
clothing and cleaning the body, Dr.
Elkins had attempted to catalog the
slash and stab wounds on the victim’s
torso by assigning a letter of the
alphabet. There were so many wounds
that eventually Dr. Elkins decided to
catalog only the most serious and major
wounds. Dr. Elkins explained that to
catalog every wound she would have
been required to go through the

40a
alphabet again, and stay in the morgue
for “three days.” Eventually, Dr. Elkins
said she “basically threw up her hands
and just said, [innumerable] more
superficial slash wounds on the back,
arms and chest.” In addition, Dr. Elkins
said the victim had purple contusions on
her knees, indicating fresh bruising
consistent with crawling, and defense
wounds on her right arm.
Dr. Elkins described the major slash
and stab wounds she had cataloged on
the victim’s back, arms, abdomen, and
chest. She found a six inch gaping
wound across the middle of the victim’s
neck which had penetrated the fat and
muscles of the neck. In addition, Dr.
Elkins had found ten other slash
wounds on the victim’s throat. Other
slash wounds were on the victim’s face,
and Dr. Elkins observed what appeared
to be a pentagram carved onto the
victim’s chest. Because the area around
each wound was red in appearance, Dr.
Elkins concluded that the victim’s heart
had been beating when the wounds
were inflicted and she said the victim
would not have been rendered
unconscious by any of the stab or slash
wounds.
Dr. Elkins determined that the victim’s
death was caused by blunt force injuries
to the head. The victim had suffered
multiple and extensive skull fractures.
From
the
autopsy,
Dr.
Elkins

41a
determined that the victim had
sustained a minimum of four blows to
her head; two to the left side of the
head, one over the right eye, and one in
the nose area. The right frontal area of
the victim’s skull had been fractured as
had the bridge of her nose. However, the
major wound, labeled as injury “W”,
involved most of the left side of the
victim’s head. Dr. Elkins said that this
injury, caused by blunt force to the left
side of the victim’s head while the right
side of the victim’s head was against a
firm surface, also had fractured the
right side of the skull and imbedded a
portion of the skull into the victim’s
brain. Dr. Elkins found small divots in
the victim’s skull containing black
particles from an asphalt chunk which
was later determined to have been used
to administer the blows. Finally, Dr.
Elkins testified that blood in the
victim’s sinus cavity indicated she had
been alive and probably conscious when
the injuries were inflicted.
During her testimony, Dr. Elkins
utilized the victim’s skull to describe the
injuries. She testified that in order to
determine the cause of death, it was
necessary to remove the head of the
victim and have the skull prepared by
Dr.
Murray
Marks,
a
forensic
anthropologist at the University of
Tennessee. She explained that she had
removed the top of the victim’s skull in

42a
order to remove the brain. Embedded
inside the victim’s brain as a result of
the blunt force were portions of the
victim’s skull. Dr. Elkins removed those
embedded pieces and forwarded them to
Dr. Marks. Dr. Marks reconstructed the
skull, fitting those loose portions into
the left side area of the skull. However,
those pieces had not completely filled
one area on the left side of the victim’s
skull. Dr. Elkins then showed the jury a
piece of skull that had been given to her
shortly
before
the
trial
and
demonstrated that it fit perfectly into
the remaining area of the victim’s skull.
The piece of skull utilized by Dr. Elkins
had been taken from the pocket of a
jacket which witnesses identified as
belonging to Pike.
Pike’s jacket had been turned over to
the law enforcement officials by Job
Corps employees. Robert A. Pollock,
orientation specialist at Knoxville Job
Corps, testified that he had spoken with
Pike on January 13, 1995, concerning a
misplaced I.D. card. After Pike left his
office, Pollock noticed a black leather
jacket hanging on the chair where she
had sat. The jacket had been hanging on
the chair when Pollock locked the room
at approximately 4:00 p.m. on January
13th, and it was still there when he
returned at 7:30 a.m. on January 17th.
Because he had heard over the weekend
that Pike was a suspect in this murder

43a
investigation,
Pollock
immediately
turned the jacket over to the Job Corps’
Safety and Security Captain, William
Hudson. Hudson called the Knoxville
Police Department and turned the
jacket over to Officer Arthur Bohanan
when he arrived a short time later.
Officer Bohanan identified the jacket,
and it was introduced into evidence. He
testified that he had discovered a small
piece of bone in the inside pocket of the
jacket and had immediately taken it to
Dr. Marks at the University of
Tennessee.
Dr.
Marks
testified
concerning the process by which the
victim’s skull had been prepared and
again demonstrated that the bone
fragment given to him by Officer
Bohanan fit perfectly into the bone
reconstruction of the skull of the victim.
Following the introduction into evidence
of the victim’s skull, numerous
photographs, and items of the victim’s
clothing, the State rested its case-inchief.
Dr. Eric Engum, a clinical psychologist,
testified for the defense and stated that
he had conducted a clinical interview
and had administered a battery of tests
to the [Petitioner]. Dr. Engum described
Pike as an “extremely bright young
woman.” Dr. Engum explained that
Pike “is excellent in problem solving,
reasoning, analysis, ah, can pay

44a
attention, sustains concentration, can
sequence, ah, has excellent receptive
and expressive language skills.” Pike
had a full scale IQ score of 111 which is
in the 77th percentile and which was
characterized as “remarkable” by Dr.
Engum since she had only completed
the ninth grade. According to Dr.
Engum, the tests unequivocally showed
that Pike had no symptoms of brain
damage and that she was not insane.
However, Dr. Engum concluded that the
[Petitioner] suffers from a very severe
borderline personality disorder and
exhibits signs of cannabis (marijuana)
dependence and inhalant abuse. He
testified that the [Petitioner] is not so
dysfunctional that she needs to be
institutionalized, but instead opined
that she has a multiplicity of problems
in interpersonal relationships, in
controlling her behavior, and in
achieving vocational and academic
goals.
During direct examination, Dr. Engum
opined that the [Petitioner] had not
acted with deliberation or premeditation
in killing Slemmer. Instead, Dr. Engum
said she had acted in a manner
consistent with his diagnosis of
borderline personality disorder; she had
lost control. He explained that she had
danced around when relating the
murder to Iloilo because of the
emotional release she experienced from

45a
having assured through the killing of
Slemmer that she could maintain her
relationship
with
Shipp.
When
questioned about the piece of skull
found in the [Petitioner’s] coat, Dr.
Engum explained that the [Petitioner]
actually has no identity and the action
of taking and displaying a piece of
Slemmer’s skull to her friends was the
[Petitioner’s] way of getting recognition,
“no
matter
how
distorted”
the
recognition.
On cross examination, Dr. Engum
stated that there was no question that
the [Petitioner] had killed Slemmer. He
reiterated that his opinion that once the
attack began, Pike had literally lost
control. However, Dr. Engum admitted
that Pike had deliberately enticed
Slemmer to the park, carved a
pentagram onto Slemmer’s chest,
bashed Slemmer’s head against the
concrete, and beaten Slemmer’s head
with the asphalt. Dr. Engum agreed
that Pike’s act of carrying weapons with
her indicates deliberation. Finally, Dr.
Engum conceded that Pike had time to
calm down and consider her actions
when she left Slemmer during the
attack to investigate a noise and
determine whether anyone else was in
the area.
William Bernet, medical director of the
psychiatric hospital at Vanderbilt
University, testified that he had

46a
reviewed the statements of the
[Petitioner] and Kimberly Iloilo and the
reports of Dr. Engum, Dr. Elkins, and
Dr. Marks. He concluded that although
there were satanic elements in this
crime, the pattern was that of an
adolescent dabbling in Satanism. He
then described the phenomenon of
collective aggression, whereby a group
of
people
gather
and
become
emotionally aroused and the end result
is that they engage in some kind of
violent behavior. On cross-examination,
Dr. Bernet admitted that he had spoken
neither with the [Petitioner] nor any of
the other witnesses. Dr. Bernet
admitted that he did not have enough
information to offer an expert opinion as
to whether Pike acted with intent or
premeditation in killing the victim.
Based on this evidence offered during
the guilt phase of the trial, the jury
found Pike guilty of first degree murder
and conspiracy to commit first degree
murder.
In the sentencing phase of the trial, the
State relied on the evidence presented
at the guilt phase and presented no
further
proof.
The
defense,
in
mitigation, called Carrie Ross, Pike’s
aunt as a witness. Ross testified that
the [Petitioner] had experienced no
maternal bonding because she was
premature and was raised by her
paternal grandmother until she died in

47a
1988. Ross said that Pike’s family has a
history of substance abuse and that
Pike’s maternal grandmother was an
alcoholic who was verbally abusive to
Pike. Following the death of Pike’s
paternal
grandmother,
Pike
was
shuffled between her mother and father.
According to Ross, Pike’s mother’s home
was very dirty. Pike’s mother set no
rules for her, and on the occasions that
Pike had visited Ross, the [Petitioner]
had behaved as a “little girl,” playing
Barbie and dress-up with her elevenyear-old cousin.
On cross examination, Ross admitted
that she has previously described Pike
as a pathological liar and that she had
been afraid to allow Pike to associate
with her own children. Ross also
admitted that Pike had been out of
control since she was twelve years old.
Glenn Pike, the [Petitioner’s] father,
testified that he had kicked the
[Petitioner] out of his house twice, the
last time in 1989. He admitted that he
had signed adoption papers for the
[Petitioner] prior to her eighteenth
birthday. On cross-examination, he
admitted that he had forced Pike to
leave his home in 1989 because there
had been an allegation that the
[Petitioner] had sexually abused his
two-year old daughter from his second
marriage. According to her father, Pike
had been disobedient, dishonest, and

48a
manipulative when she had lived with
him.
The [Petitioner’s] mother, Carissa
Hansen, a licensed practical nurse,
testified that Pike had lived with her 95
percent of the time since her paternal
grandmother’s death. Hansen admitted
that she had smoked marijuana with
the [Petitioner] in order to “establish a
friendship.” Hansen related that the
[Petitioner] had attempted suicide by
taking an overdose shortly after the
death of her paternal grandmother.
Hansen also testified that one of her
boyfriends had whipped Pike with a
belt. Hansen had the boyfriend
arrested.
On cross-examination, Hansen admitted
that
Pike’s
behavior
had
been
problematic for years. The [Petitioner]
had begun growing marijuana in pots in
her home at age nine. After threatening
to run away from home and live on the
street, Pike had been allowed to have a
live-in boyfriend at age fourteen.
Hansen admitted that Pike had wielded
a “butcher-knife” against the boyfriend,
who had been arrested for whipping
her. Hansen also said Pike had lied to
her and stolen from her on numerous
occasions and had quit high school.
Hansen conceded that Pike had been
out of control since she was eight years
old. Following Hansen’s testimony, the
defense rested its case.

49a
In rebuttal, the State presented the
testimony of Harold James Underwood,
Jr., a University of Tennessee police
officer who was assigned to secure the
crime scene on January 13, 1995.
Underwood
testified
that
the
[Petitioner] came to the scene with
three to five other females between four
and five p.m[.] that day. Pike asked
Underwood why the area had been
marked off and questioned him
concerning the identity of the victim
and whether or not the police had any
suspects. None of the other females
spoke during the fifteen minutes the
group was there. Underwood said Pike
appeared amused and giggled and
moved around. Underwood noticed Pike
was wearing an unusual necklace in the
shape of a pentagram. After learning at
roll call on January 14, 1995, that the
victim of the murder had a pentagram
carved on her chest, he reported Pike’s
strange behavior and unusual necklace
to his superior officers.
Based on the proof submitted at the
sentencing hearing, the jury found the
existence
of
the
following
two
aggravating circumstances beyond a
reasonable doubt: (1) “the murder was
especially heinous, atrocious or cruel in
that it involved torture or serious
physical abuse beyond that necessary to
produce death,” and (2) “the murder was
committed for the purpose of avoiding,

50a
interfering with or preventing a lawful
arrest or prosecution of the defendant or
another.” In addition, the jury found
that the State had proven that the
aggravating circumstances outweighed
any mitigating circumstances beyond a
reasonable doubt. As a result, the jury
sentenced the [Petitioner] to death by
electrocution. The trial court entered a
judgment in accordance with the jury’s
verdict and the Court of Criminal
Appeals affirmed.
Pike, 978 S.W.2d at 907–14. (internal citations
omitted).
After reviewing the record and considering
Petitioner’s claims on appeal, The TSC found that the
evidence supported the conviction and sentence, and
affirmed the TCCA’s decision. Id. at 914. Petitioner
next field a petition for post-conviction relief, which
was denied after an evidentiary hearing. The TCCA
affirmed the denial of post-conviction relief, Pike v.
State, No. E2009-00016-CCA-R3-PD, 2011 WL
1544207 (Tenn. Crim. App. Apr. 25, 2011), and the
TSC denied Petitioner’s application for permission to
appeal. Petitioner then filed the pending motion for
federal habeas corpus relief.
II. STANDARD OF REVIEW
Respondent argues that one of Petitioner’s claims
is procedurally defaulted. As to the remaining claims,
Respondent argues that she is entitled to judgment
as a matter of law based on the findings of the
Tennessee Courts. Petitioner conversely argues that
she is entitled to summary judgment on many of her
claims because the state courts’ decisions were

51a
unreasonable. 1
A. Procedural Default
Procedural default is an extension of the
exhaustion doctrine. A federal court cannot grant a
state prisoner’s petition for a writ of habeas corpus
unless the petitioner has exhausted his available
state court remedies. 28 U.S.C. § 2254. This rule has
been interpreted by the Supreme Court as one of total
of exhaustion. Rose v. Lundy, 455 U.S. 509 (1982).
Thus, each and every claim set forth in the federal
habeas corpus petition must have been presented to
the state appellate court. Picard v. Connor, 404 U.S.
270 (1971); see also Pillette v. Foltz, 824 F.2d 494, 496
(6th Cir. 1987) (stating that exhaustion “generally
entails fairly presenting the legal and factual
substance of every claim to all levels of state court
review.”). Furthermore, the substance of the claim
must have been presented as a federal constitutional
claim. Gray v. Netherland, 518 U.S. 152, 162–63
(1996).
Here, Petitioner has exhausted her state remedies
because there is no other procedure under Tennessee
law for her to present her claims challenging her
convictions and sentence. See Tenn. Code Ann. 40-30102(a). It is well established that a criminal
defendant who fails to comply with state procedural
rules which require the timely presentation of
constitutional claims waives the right to federal
habeas corpus review of those claims “absent a
showing of cause for the non-compliance and some
showing of actual prejudice resulting from the alleged
Petitioner did not seek summary judgment on two of her
claims; instead, Petitioner requested an evidentiary hearing on
these claims, which the Court granted [Docs. 51, 58].
1

52a
constitutional violation.” Wainwright v. Sykes, 433
U.S. 72, 84 (1977); accord Engle v. Isaac, 456 U.S.
107, 129 (1982) (“We reaffirm, therefore, that any
prisoner bringing a constitutional claim to the federal
courthouse after a state procedural default must
demonstrate cause and actual prejudice before
obtaining relief.”)
In all cases in which a state prisoner
has defaulted his federal claims in state
court pursuant to an independent and
adequate state procedural rule, federal
habeas review of the claims is barred
unless the prisoner can demonstrate
cause for the procedural default and
actual prejudice as a result of the
alleged violation of federal law, or
demonstrate that failure to consider the
claims will result in a fundamental
miscarriage of justice.
Coleman v. Thompson, 501 U.S. 722, 750 (1991).
“When a state-law default prevents the state court
from reaching the merits of a federal claim, that
claim can ordinarily not be reviewed in federal court.”
Ylst v. Nunnemaker, 501 U.S. 797, 801 (1991).
Therefore, to excuse her procedural default,
Petitioner must first demonstrate cause for her
failure to present an issue to the state courts. “[T]he
existence of cause for a procedural default must
ordinarily turn on whether the prisoner can show
that some objective factor external to the defense
impeded counsel’s efforts to comply with the State’s
procedural rule.” Murray v. Carrier, 477 U.S. 478,
488 (1986).

53a
B. § 2254(d): State Court Findings
Under the Antiterrorism and Effective Death
Penalty Act (“AEDPA”), the jurisdiction of a federal
court to consider and grant habeas corpus relief to
prisoners is significantly limited.” Pursuant to 28
U.S.C. § 2254(d), as amended by AEDPA, a state
petitioner may not obtain federal habeas corpus relief
with respect to a claim that was adjudicated on the
merits in a state court proceeding unless the state
court decision: (1) was contrary to, or involved an
unreasonable application of, clearly established
federal law; or (2) was not reasonably supported by
the evidence presented to the state court. In addition,
findings of fact by a state court are presumed correct,
and a petitioner may rebut this presumption of
correctness only by clear and convincing evidence. 28
U.S.C. § 2254(e).
A state court decision is “contrary to” Supreme
Court precedent “if the state court arrives at a
conclusion opposite to that reached by [the Supreme
Court] on a question of law or if the state court
decides a case differently than [the Supreme Court]
has on a set of materially indistinguishable facts.”
Williams v. Taylor, 529 U.S. 362, 412 (2000). A state
court decision “involves an unreasonable application
of clearly established federal law” only where “the
state court’s application of clearly established federal
law was objectively unreasonable.” Id. at 409. A
federal habeas court may not find a state
adjudication to be unreasonable “simply because that
court concludes in its independent judgment that the
relevant state-court decision applied clearly
established federal law erroneously or incorrectly.
Rather, that application must also be unreasonable.”
Id. at 411.

54a
A state petitioner seeking federal habeas relief
must meet a very high bar under the standard set by
AEDPA. “A state court’s determination that a claim
lacks merit precludes federal habeas relief so long as
‘fairminded jurists could disagree’ on the correctness
of the state court’s decision.” Harrington v. Richter,
562 U.S. 86, 101 (2011) (quoting Yarborough v.
Alvarado, 541 U.S. 652, 664 (2001)). “[A] habeas court
must determine what arguments or theories
supported or ... could have supported the state court’s
decision; and then it must ask whether it is possible
fairminded jurists could disagree that those
arguments or theories are inconsistent with the
holding in a prior decision of [the Supreme Court].”
Id. at 102. The Supreme Court acknowledges that
this is a very high standard. “If this standard is
difficult to meet, that is because it was meant to be.”
Id.; see also Renico v. Lett, 130 S. Ct. 1855, 1866
(2010) (“AEDPA prevents defendants—and federal
courts—from using federal habeas corpus review as a
vehicle to second-guess the reasonable decisions of
state courts.”); Peak v. Webb, 673 F.3d 465, 472 (6th
Cir. 2012) (citing Richter, 562 U.S. at 101–02) (“[T]he
Supreme Court has very recently made abundantly
clear that the review granted by AEDPA is even more
constricted than AEDPA’s plain language already
suggests.”).
C. Motion for Summary Judgment
It is well established that a motion for summary
judgment pursuant to Rule 56 of the Federal Rules of
Civil Procedure is applicable to habeas corpus
proceedings and allows the court to assess the need
for an evidentiary hearing on the merits of the
habeas petition. See Blackledge v. Allison, 431 U.S.
63, 80–81 (1977). Rule 56(a) provides that “[t]he court

55a
shall grant summary judgment if the movant shows
that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a
matter of law.” The moving party bears the burden of
establishing that no genuine issues of material fact
exits. Celotex Corp. v. Catrett, 477 U.S. 317, 330 n.2
(1986); Moore v. Phillip Morris Cos., 8 F.3d 335, 339
(6th Cir. 1993). All facts and inferences to be drawn
therefrom must be viewed in the light most favorable
to the non-moving party. Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 587 (1986);
Burchett v. Kiefer, 301 F.3d 937, 924 (6th Cir. 2002).
“When reviewing cross-motions for summary
judgment, [the Court] must evaluate each motion on
its own merits and view all facts and inferences in
the light most favorable to the nonmoving party.”
Westfield Ins. Co. v. Tech Dry, Inc., 336 F.3d 503, 506
(6th Cir. 2003).
Once the moving party presents evidence
sufficient to support a motion for summary judgment,
the non-moving party is not entitled to a trial merely
on the basis of allegations. The non-moving party
must present some significant probative evidence to
support its position. White v. Turfway Park Racing
Ass’n, 909 F.2d 941, 943–44 (6th Cir. 1990), overruled
on other grounds by Eyerman v. Mary Kay Cosmetics,
Inc., 967 F.2d 213, 217 n.4 (6th Cir. 1992); Gregg v.
Allen-Bradley Co., 801 F.2d 859, 861 (6th Cir. 1986).
Summary judgment should not be disfavored and
may be an appropriate avenue for the “just, speedy
and inexpensive determination” of an action. Celotex
Corp., 477 U.S. at 327. The moving party is entitled
to judgment as a matter of law “against a party who
fails to make a showing sufficient to establish the
existence of an element essential to that party’s case,

56a
and on which that party will bear the burden of proof
at trial.” Id. at 322.
III. EVIDENTIARY HEARING
The Court held an evidentiary hearing on May
26th, 2015 and May 27th, 2015 (Doc. 81). The hearing
was restricted to evidence concerning Petitioner’s
claims of ineffective assistance of counsel based on a
possible conflict of interest stemming from the
investigation into lead counsel’s billings to the
Indigent Defense Fund, and trial counsel’s
procurement of media rights to Petitioner’s story
(Doc. 58). During the hearing, the Court stated that it
had yet to determine whether Petitioner has cleared
the limitations to receiving new evidence under 28
U.S.C. § 2254(d); however, out of the abundance of
caution and because of the highly extraordinary
nature of the punishment involved, the Court decided
to hold the hearing and determine later if the
evidence received would be considered or not (Doc. 84
p. 6).
A federal habeas petition containing claims that
have been adjudicated on the merits in state
proceedings must meet the § 2254(d) restriction
which prohibits relief unless the adjudication of that
claim resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established federal law, or resulted in a decision that
was based on an unreasonable determination of the
facts in light of the evidence presented in the state
court proceeding. 28 U.S.C. § 2254(d). In Cullen v.
Pinholster, 563 U.S. 170 (2011), the Supreme Court,
while reinforcing that the district court still retains
the discretion to grant an evidentiary hearing, held
that “[i]f a claim has been adjudicated on the merits

57a
by a state court, a federal habeas petitioner must
overcome the limitation of § 2254(d)(1) on the record
that was before that state court.” Id. at 185. “[T]his
means that when the state-court record ‘precludes
habeas relief’ under the limitations of § 2254(d), a
district court is ‘not required to hold an evidentiary
hearing.’” Id. at 183 (quoting Schriro v. Landrigan,
550 U.S. 465, 474 (2007)). As it applies to this case,
until Petitioner has overcome the § 2254(d)
limitation, the Court is not required to consider any
“new” evidence introduced at the evidentiary hearing.
After a thorough review of the state record, the
facts, and Supreme Court precedent applicable to
counts two and six of Petitioner’s petition, the Court
finds that the state court’s adjudication of those
claims did not involve an unreasonable determination
of the facts in light of the evidence before the court.
The Court also notes that in any event, the evidence
presented at the evidentiary hearing did not differ in
any significant way from what was presented to the
state court with regard to these claims. 2 A more indepth analysis of these claims will be presented in
turn with Petitioner’s other claims for relief.
IV. CLAIMS FOR RELIEF
The Court will consider Petitioner’s claims for
relief in the order she has presented them in her
petition for a writ of habeas corpus, and in light of
the pending motions for summary judgment.
2
The Court finds Petitioner’s allegations regarding
inconsistencies in William Talman’s testimony before the state
post-conviction court and before this Court at the May, 2015
evidentiary hearing to be irrelevant and immaterial to the
issues before the court on this petition.

58a
A. Petitioner’s attorneys were
constitutionally ineffective during the
penalty phase of her capital trial and her
rights under the Sixth, Eighth, and
Fourteenth Amendments to the United
States Constitution were violated.
Petitioner alleges that her trial counsel were
ineffective during the penalty phase of her trial, and
that this ineffectiveness led to her eventual death
sentence. Particularly, Petitioner claims that counsel
failed to uncover and present a wealth of mitigating
evidence, and made last-minute decisions that
negatively affected the quality of their penalty phase
arguments.
1. Applicable Law
The Sixth Amendment to the United States
Constitution guarantees that “[i]n all criminal
prosecutions, the accused shall enjoy the right ... to
have the Assistance of Counsel for his defense.” In
Strickland v. Washington, the Supreme Court
established a two-part standard for evaluating claims
of ineffective assistance of counsel. 466 U.S. 668
(1984). To bring a successful claim of ineffective
assistance of counsel,
[f]irst, the defendant must show that
counsel’s performance was deficient.
This requires showing that counsel
made errors so serious that counsel was
not functioning as the “counsel”
guaranteed the defendant by the Sixth
Amendment. Second, the defendant
must
show
that
the
deficient
performance prejudiced the defense.
This requires showing that counsel’s

59a
errors were so serious as to deprive the
defendant of a fair trial, a trial whose
result is reliable.
Id. at 687.
Under the first part of the Strickland test, the
appropriate measure of attorney performance is
“reasonableness
under
prevailing
professional
norms.” Id. at 688. A defendant asserting a claim of
ineffective assistance of counsel must “identify the
acts or omissions of counsel that are alleged to not
have been the result of reasonable professional
judgment.” Id. at 690. The evaluation of the objective
reasonableness of counsel’s performance must be
made “from counsel’s perspective at the time of the
alleged error and in light of all the circumstances,
and the standard of review is highly deferential.”
Kimmelman v. Morrison, 477 U.S. 365, 381 (1986). It
is strongly presumed that counsel’s conduct was
within the wide range of reasonable professional
assistance. Strickland, 466 U.S. at 689.
A finding of serious attorney incompetence will
not justify setting aside a conviction or sentence,
however, absent prejudice to the defendant so as to
render the conviction or sentence unreliable. Id. at
691–92. The question with prejudice is whether
counsel’s performance “was so manifestly ineffective
that defeat was snatched from the hands of probable
victory.” United States v. Morrow, 977 F.2d 222, 229
(6th Cir. 1992). Here, Petitioner must demonstrate “a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceedings
would have been different.” Moss v. United States,
232 F.3d 445, 454 (6th Cir. 2003) (quoting Strickland,
466 U.S. at 694) (internal quotation marks omitted).

60a
“A reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Moss, 323
F.3d at 454–55. Counsel is constitutionally ineffective
only if a performance below professional standards
caused the defendant to lose what he “otherwise
would have won.” Morrow, 977 F.2d at 229. The focus
here, however, should not be solely on outcome
determination:
[A]n analysis focusing solely on mere
outcome
determination,
without
attention to whether the result of the
proceeding was fundamentally unfair or
unreliable is defective. To set aside a
conviction or sentence solely because
the outcome would have been different
but for counsel’s error may grant the
defendant a windfall to which the law
does not entitle him.
Lockhart v. Fretwell, 506 U.S. 364, 369–70 (1993).
2. Discussion
Petitioner challenged the effectiveness of her trial
counsel during the penalty phase, arguing to the
TCCA that the penalty phase verdict was less an
appropriate response to the facts than an indictment
of the performance of defense counsel. Pike, 2011 WL
1544207, at *49. The TCCA, applying Strickland,
concluded that Petitioner had not met her burden of
proving deficient performance or prejudice. Id. at
*49–60. Accordingly, the task before the Court is to
determine whether the state court’s application of
Strickland to the facts of Petitioner’s case was
unreasonable, in light of Petitioner’s claims of
ineffective assistance of counsel at the penalty phase
of her trial.

61a

a. Failure to present mitigating evidence
uncovered during investigation.
Petitioner first alleges that trial counsel’s abrupt
decision to change their penalty phase plans, and not
call their mitigation specialist, Dr. McCoy, led them
to present a very limited case for mitigation and
abandon the compelling mitigation evidence that had
already been discovered.
Failure to present mitigating evidence at
sentencing
generally
constitutes
ineffective
assistance of counsel. See, e.g., Williams v. Taylor,
529 U.S. 362, 393 (2000) (“[I]t is undisputed that
Williams had a right—indeed, a constitutionally
protected right—to provide the jury with the
mitigating evidence that his trial counsel either failed
to discover or failed to offer.”); Skaggs v. Parker, 235
F.3d 261, 269 (6th Cir. 2000) (“We find that Skaggs’s
counsel acted below an objective standard of
reasonableness at sentencing, essentially providing
no legitimate mitigating evidence on Skaggs’s behalf,
and that this failure severely undermines our
confidence in the just outcome of this proceeding.”);
Austin v. Bell, 126 F.3d 843, 848 (6th Cir. 1997)
(holding that the failure of trial counsel “to
investigate and present any mitigating evidence
during the sentencing phase so undermined the
adversarial process that Austin’s death sentence was
not reliable.”).
The state did not present any evidence during the
penalty phase of Petitioner’s trial; rather, they chose
to rest on the evidence that had been presented
during the guilt phase (Addendum No. 2, Doc. 25,
Vol. 25, pp. 2481–83). Petitioner’s evidence consisted

62a
of the testimony of her aunt, her mother, and her
father. Petitioner’s aunt, Carrie Ross, testified that
Petitioner did not have a relationship with her
mother right from birth, and was primarily raised by
her paternal grandmother until her grandmother’s
death in 1988 (Id. at 2487; Addendum No. 2, Doc. 26,
Vol. 26, pp. 2503–05). Ms. Ross also testified that
Petitioner’s mother did not enact any disciplinary
rules with Petitioner, and that she always put her
personal interests ahead of Petitioner’s (Addendum
No. 2, Doc. 25, Vol. 25, pp. 2499–2500). Petitioner’s
father, Glenn Pike, testified that he was not around a
lot, and that he had a long-distance relationship with
Petitioner (Addendum No. 2, Doc. 26, Vol. 26, pp.
2512–13). Mr. Pike also testified that on more than
one occasion, he effectively rejected Petitioner, once
telling her she was no longer welcome in his home,
another time sending her back to live with her
mother, and signing papers for her to be adopted at
one point (Id. at 2513–16).
Finally, Petitioner’s mother, Carissa Hansen,
testified that Petitioner spent majority of her
childhood with her paternal grandmother and first
attempted suicide after her grandmother’s death in
1988 (Id. at 2526, 2528–29). Ms. Hansen also testified
that on one occasion she chose her new husband over
Petitioner, and sent Petitioner off to live with her
father because Petitioner did not get along with the
new husband (Id. at 2525). Ms. Hansen also admitted
to smoking marijuana with Petitioner, in an attempt
to get closer to her and be her friend, and also to
allowing Petitioner’s boyfriend to move into her home
when Petitioner was fourteen years old (Id. at 2527,
2537).
After Petitioner’s mother testified, the Petitioner

63a
rested her case. The state then called a rebuttal
witness, Harold Underwood, a police officer with the
University of Tennessee, to testify to Petitioner’s
demeanor on the day following the murder. Officer
Underwood testified that Petitioner came to the
crime scene with between three and five other girls
and asked questions about who the victim was, and if
any suspects had been identified (Id. at 2551–52).
Officer Underwood also testified that Petitioner
appeared amused, and was giggling and moving
around (Id. at 2252).
In her petition, Petitioner alleges that her lead
counsel initially intended to call Dr. McCoy as the
only witness during the sentencing phase, planning
for her to bring in all the evidence of Petitioner’s
background that she had uncovered, and tie it in with
their medical expert, Dr. Engum’s, diagnosis (Doc. 19,
p. 49). However, after the guilty phase, lead counsel
turned over Dr. McCoy’s entire mitigation report to
the prosecution in and in camera proceeding that was
not put on the record, and subsequently decided not
to call Dr. McCoy to testify during the penalty phase
(Id. at 50). Petitioner alleges that as a result of this
abrupt change in plans, the mitigation evidence
prepared was not properly presented to the jury, the
prosecution was able to use information from Dr.
McCoy’s report to impeach the lay witnesses on cross
examination, and counsel’s planned mitigation plan
completely unraveled (Id.). Petitioner further alleges
that none of the reasons provided by counsel for their
decision to abandon their mitigation plan at the last
minute was supported by the record (Id. at 51).
Dr. McCoy testified at the post-conviction
evidentiary hearing that her role as a mitigation
expert was to “collect information, interview people,

64a
get records and analyze all of this information in an
effort to develop certain themes that the attorneys
would present to a jury in sentencing[,] and also to
identify lay witnesses who could come and talk to the
jury and show them the human side of [Petitioner]
and familiarize them with her history and basically
help them see that life would be an option for her”
(Addendum No. 5, Doc. 18, Vol. 6B, p. 621). Dr.
McCoy also testified that it would have been
detrimental to Petitioner’s case to only have family
members and lay witnesses testify to Petitioner’s
background, without any testimony from an expert
about how it connects to Petitioner’s psycho pathology
(Id. at 638–39).
Petitioner’s trial co-counsel, Julie Martin Rice,
testified during the post-conviction evidentiary
hearing that their decision not to call Dr. McCoy
during the penalty phase of Petitioner’s trial was
based on several theories that were floating around,
but that she was not sure which one precipitated the
ultimate decision (Addendum No. 5, Doc. 12, Vol. 1, p.
77). Ms. Rice testified that at some point, Dr. McCoy
said she could not support part of Dr. Engum’s
testimony or report (Id.); that they had discovered Dr.
McCoy was dating the lead prosecutor on the case,
and that she thought it to be an on-going relationship
(Id.; Addendum 5, Doc. 13, Vol. 2, p. 197); that Dr.
McCoy had also told her at some point that Petitioner
was a liar, and that she did nothing but lie
(Addendum No. 5, Doc. 13, Vol. 2, p. 113); and that on
the morning the penalty phase was set to begin, the
prosecutor had “stickified” Dr. McCoy’s report
(Addendum No. 5, Doc. 12, Vol. 1, p. 77).
Trial lead counsel, Bill Talman, also testified
during Petitioner’s post-conviction hearing. Mr.

65a
Talman testified that the primary reason they
decided not to call Dr. McCoy to testify at the
sentencing phase of Petitioner’s trial was because she
would not corroborate Dr. Engum’s testimony
(Addendum No. 5, Doc. 15, Vol. 4, p. 348). Mr.
Talman also testified that after he received Dr.
McCoy’s report, he was already teetering with
whether he wanted to use it or not because of all the
negative things the report contained about
Petitioner’s history (Id. at 345). According to Mr.
Talman, it became a question of weighing whether he
wanted to have all of the negative things in Dr.
McCoy’s report come into the record over putting Dr.
McCoy on the stand, when all she would testify to
was that she spoke to a number of people (Id. at 348–
49). Mr. Talman testified that he believed they could
get substantially the same testimony in through the
family members (Id. at 349). Mr. Talman admitted
that the decision not to call Dr. McCoy as a witness
was “one of those last minute decisions that ... you
just [make],” and that the decision was, to the best of
his knowledge, made the morning right before the
penalty phase began while they were in “one of those
little huddles outside during a break” (Id. at 351–52).
In addition, Mr. Talman testified that another
reason he was hesitant to call Dr. McCoy as a witness
was because they had found out shortly before trial
that she was involved in a romantic relationship with
William Crabtree, the lead prosecutor on Petitioner’s
case (Id. at 352). According to Mr. Talman, when he
asked Dr. McCoy why she had not initially disclosed
the relationship, she told him that she did not think
that it made a difference, and that she knew that he
would not have retained her as an expert witness on
the case if she had revealed the relationship to him

66a
(Id. at 352; Addendum No. 5, Doc. 16, Vol. 5, pp. 444–
45). Mr. Talman stated that he did not call attention
to the issue when he first found out because he never
doubted Dr. McCoy’s work or Mr. Crabtree’s
integrity, that Dr. McCoy assured him that she had
never talked to Mr. Crabtree about the case, and that
they had already spent a lot of money on Dr. McCoy’s
work at that point (Addendum No. 5, Doc. 15, Vol. 4,
p. 355). Even further, Mr. Talman testified that he
was angered by Dr. McCoy’s actions during jury
selection when she appeared on local television
stations talking about jury selection, although not
specifically about the facts of Petitioner’s case (Id. at
357). Mr. Talman also testified that he did not recall
ever asking Dr. McCoy to lie about the date he
received her report, and that he could not ever
imagine asking a witness to lie (Addendum No. 5,
Doc. 16, Vol. 5, p. 440).
With respect to the claim that trial counsel failed
to present the mitigating evidence they had in their
possession, the TCCA agreed with the finding of the
trial court that Petitioner failed to establish
ineffective assistance of counsel. The trial court
accredited lead counsel’s testimony that he did not
call Dr. McCoy because she could not corroborate Dr.
Engum’s report, and also that he felt uncomfortable
with the use of Dr. McCoy’s materials, as they
contained a lot of information which he did not want
the jury to hear. The TCCA also agreed with the
finding of the trial court that Petitioner could not
prove prejudice because the mitigation evidence
which was omitted would not have outweighed the
aggravating factors. Pike v. State, 2011 WL 1544207,
at *52.
The Sixth Circuit has found ineffective assistance

67a
of counsel in cases where counsel wholly failed to
present any mitigation evidence at trial. See, e.g.,
Glenn v. Tate, 71 F.3d 1204, 1207 (6th Cir. 1995)
(finding that trial counsel rendered deficient
performance where “the jury was given virtually no
information on [defendant’s] history, character,
background and organic brain damage—at least no
information of a sort calculated to raise reasonable
doubt as to whether [he] ought to be put to death.”);
Austin v. Bell, 126 F.3d 843, 849 (6th Cir. 1997)
(finding ineffective assistance where counsel did not
present any mitigating evidence because he did not
think that it would do any good).
These
cases,
however,
are
sufficiently
distinguishable from Petitioner’s case. At the outset,
trial counsel did not fail to present any evidence in
mitigation. Rather, counsel chose to use testimony
from Petitioner’s family members in support of
mitigation, in place of their original plan to call Dr.
McCoy. While the Court notes that counsel admitted
that the decision to forgo Dr. McCoy’s testimony was
a last-minute decision and may not have been the
best choice, the Court is counseled by Strickland’s
direction to focus on counsel’s perspective at the time.
See Strickland, 466 U.S. at 689. As such, the Court
cannot find that the TCCA’s conclusion that counsel’s
decision was a tactical one is an unreasonable
determination of the facts. Even further, the record
supports the TCCA’s finding that much of the
evidence that Dr. McCoy would have provided was
presented in some form in either the guilt phase or
through the family members in the sentencing phase.
Pike, 2011 WL 1544207, at *51–52.
Furthermore, the Court cannot find that the state
court’s conclusion that Petitioner could not establish

68a
prejudice is an unreasonable determination. Under
Strickland, a petitioner challenging a death sentence
must show that there is a reasonable probability that,
absent the errors, the jury would have concluded that
the balance of the aggravating and mitigating
circumstances did not warrant death. Strickland, 466
U.S. at 695. A petitioner cannot establish prejudice
by claiming his counsel failed to present cumulative
mitigation evidence—that is, evidence that was
already presented to the jury. See Beuke v. Houk, 537
F.3d 618, 645 (6th Cir. 2008) (citing Broom v.
Mitchell, 441 F.3d 392, 410 (6th Cir. 2006)). As
previously noted, most of the evidence that Petitioner
claims was not presented by counsel was presented in
some form during either the guilt or penalty phase,
perhaps just not in as comprehensive a way as
Petitioner contends it should have been. Regardless,
Petitioner cannot meet her burden of showing
prejudice.
Accordingly, the court finds that the state court’s
decision that Petitioner has failed to demonstrate
ineffective assistance of counsel for failure to present
mitigating evidence was neither contrary to, nor did
it involve an unreasonable application of, federal law.
b. Failure to discover relevant and compelling
mitigation evidence.
Petitioner next alleges that trial counsel were
ineffective for failing to investigate, discover, and
present evidence of Petitioner’s organic brain damage
and its effects, along with evidence that Petitioner
suffers from bipolar disorder and post-traumatic
stress disorder (Doc. 19). Petitioner also claims that
trial counsel failed to interview many witnesses from
her background that would have provided mitigating

69a
evidence of her positive traits, and witnesses from the
Job Corps program that would have testified to the
dangerous and violent atmosphere there (Doc. 19).
As previously stated, “failure to investigate
possible mitigating factors and failure to present
mitigating evidence at sentencing can constitute
ineffective assistance of counsel under the Sixth
Amendment.” Coleman v. Mitchell, 244 F.3d 533, 545
(6th Cir. 2001). Dr. Pincus, a neurologist, testified as
an expert at Petitioner’s post-conviction evidentiary
hearing. Dr. Pincus testified that Petitioner suffers
from brain damage and that essentially, “her frontal
lobes aren’t put together properly” (Addendum No. 5,
Doc. 3, Vol. 3, p. 243). According to Dr. Pincus, an
important function of the frontal lobe is moral and
ethical standards, “the ability to say, ‘No, don’t say
that; no, don’t do that’ to yourself” (Id.). As such, Dr.
Pincus surmised that Petitioner was under the
influence of a mental disease and defect that
prevented her from being able to consider what she
was doing, and was unable to prevent herself from
giving in to the impulse to kill (Id. at 278). Dr. Pincus
further testified that while Dr. Engum performed all
the right tests for the frontal lobe, the type of frontal
lobe damage that Petitioner suffers is not visible on
those tests (Id. at 285). Dr. Pincus testified that Dr.
Engum’s error was concluding that there was no
brain damage based merely on the tests performed,
and that trial counsel, in his opinion, had a duty to
seek further opinions to put together a credible
defense (Id. at 283–84).
Dr. William Kenner, a specialist in psychiatry,
child psychiatry, and psychoanalysis, also testified on
Petitioner’s behalf. According to Dr. Kenner, there
was significant data at the time of Petitioner’s trial to

70a
suggest early onset bipolar disorder (Addendum No.
5, Doc. 24, Vol. 1, p. 35). Dr. Kenner testified that
there was also data to help the jury understand the
impact of early layered trauma on Petitioner’s
development, as well as Petitioner’s congenital brain
abnormality (Id.). Dr. Kenner also testified that there
was data suggestive of dissociative symptoms that
was available to a psychiatrist back in 1995 and 1996
(Id. at 37–38). Dr. Kenner opined that the structure
of Petitioner’s defense team at trial was odd because
all the lines of communication were to lead counsel,
but there was little to no “cross talk,” especially
among the experts (Id. at 30). According to Dr.
Kenner, this caused problems for Petitioner’s defense
because it limited the psychiatrist, Dr. Bernet, from
testifying to the depth and extent of his knowledge
(Id. at 31).
Based on the testimonies of Drs. Pincus and
Kenner, as well as testimony from several lay
witnesses from Petitioner’s background and the Job
Corps program, Petitioner alleges that trial counsel
should have conducted further investigations into
Petitioner’s mental health and presented such
mitigation evidence to the jury, and trial counsel
should have investigated the lay witnesses and
presented their testimony. In reaching its decision to
deny relief on this claim, the TCCA agreed with the
post-conviction trial court that trial counsel was not
required to question the diagnosis reached by the
multiple experts he retained to examine Petitioner.
Pike, 2011 WL 1544207, at *54.
Sixth Circuit jurisprudence has “distinguished
between counsel’s complete failure to conduct a
mitigation investigation, where we are likely to find
deficient performance, and counsel’s failure to

71a
conduct an adequate investigation, where the
presumption of reasonable performance is more
difficult to overcome.” Beuke v. Houk, 537 F.3d 618,
643 (6th Cir. 2008).
The cases where [the Sixth Circuit] has
granted the writ for failure of counsel to
investigate
potential
mitigating
evidence have been limited to those
situations in which defense counsel
have totally failed to conduct such an
investigation. In contrast, if a habeas
claim does not involve a failure to
investigate but, rather, petitioner’s
dissatisfaction with the degree of his
attorney’s
investigation,
the
presumption of reasonableness imposed
by Strickland will be hard to overcome.
Id. (quoting Campbell v. Coyle, 260 F.3d 531, 552 (6th
Cir. 2001)).
Petitioner’s trial counsel did not totally fail to
conduct a mitigation investigation. The record
indicates the opposite is the case-trial counsel
engaged the services of three different expert
witnesses to assist the defense in different ways. Dr.
Engum, particularly, evaluated Petitioner and at no
time did he recommend that counsel retain any
additional expert for further testing. Dr. McCoy also
testified that it was her belief that if any additional
testing was required, Dr. Engum would make the
call. This Court cannot now fault counsel for relying
on the diagnosis and advice of the expert he retained
to evaluate Petitioner. Furthermore, as the TCCA
noted, even Drs. Pincus and Kenner agreed that the
diagnosis reached by Dr. Engum was reasonable

72a
based on the tests he performed and that bipolar
disorder was often mistaken for borderline
personality disorder. The TCCA also noted that
“[w]hile the actual diagnosis is somewhat varied, the
essential facts, i.e., the concession to premeditation,
are very similar.” Pike, 2011 WL 1544207, at *54. The
record also indicates that trial counsel interviewed a
number people from Petitioner’s background, even
travelling to North Carolina to investigate and
interview witnesses (Addendum No. 5, Doc. 15, Vol. 4,
pp. 339–40). Petitioner has not presented any
evidence to overcome the strong presumption that
counsel’s decision not to call any of these lay
witnesses was anything other than a strategic
decision. See Strickland, 466 U.S. at 689.
As such, the Court cannot find that Petitioner has
demonstrated ineffective assistance of counsel for
failure to investigate mitigating evidence. The
decision of the TCCA was neither contrary to, nor did
it involve an unreasonable application of federal law,
and Petitioner is not entitled to relief on this claim.
c. Disclosure of protected work product to the
prosecution
Petitioner’s next claim of ineffective assistance of
counsel alleges that her trial counsel were ineffective
for turning over all three volumes of Dr. McCoy’s
work product, without ensuring that the record
reflected the possible issuance of a court order
requiring disclosure and ensuring that the material
turned over did not include privileged attorney work
product (Doc. 19, p. 61). Petitioner argues that she
was prejudiced by trial counsel’s failure to protect
this privileged information because the prosecution
used information from Dr. McCoy’s report to cross-

73a
examine the witnesses that testified during the
penalty phase of her trial (Id. at 62).
In considering this claim, the TCCA found that
Petitioner had not carried her burden of proof
establishing either deficient performance or
prejudice. Pike, 2011 WL 1544207, at *55.
Particularly, the TCCA found that the essence of
Petitioner’s claim was that the record did not
establish that the trial court ordered trial counsel to
turn over the reports to the prosecution. Id. However,
the TCCA held that its interpretation of the facts did
not support Petitioner’s theory; rather, the record
seemed to indicate that the trial court did in fact
order disclosure. Id. Furthermore, the TCCA found
that Petitioner failed to prove prejudice because even
the trial prosecutor could not recall whether his
cross-examination of Petitioner’s witnesses during
the penalty phase was based on evidence he obtained
from Dr. McCoy’s reports, or whether they were
obtained independently. Id. Additionally, the TCCA
found that Petitioner did not establish that the result
of her trial would have been different absent the
testimony elicited by the prosecution. Id.
Petitioner now argues that the TCCA’s decision
was unreasonable because the issue was not whether
trial counsel was required to comply with the orders
of the court (Doc. 46, p. 80). Rather, Petitioner
contends that counsel was required to make a
reasonable argument that discovery was to be
conducted according to procedural rules, and further
ensure that an appropriate objection was on the
record and preserved for appellate review (Id.).
According to Petitioner, under the Tennessee Rules of
Evidence, Dr. McCoy’s mitigation report and social
history was not discoverable until and unless she

74a
testified, and even if she did testify, only upon an
order from the court after the court had reviewed the
reports (Id. at 78).
On post-conviction, trial counsel testified that he
did not recall the exact details of how Dr. McCoy’s
reports were turned over the to the Prosecution, but
that he did remember the in-chambers conference
where he turned over the reports (Addendum No. 5,
Doc. 15, Vol. 4, p. 374). According to Mr. Talman, he
believed that they had a discussion about whether
the prosecution was entitled to the reports, and also
believed that he was ordered to turn them over to the
state, although he equivocated, stating that he could
be wrong (Id. at 374–75). Lead prosecutor in
Petitioner’s trial, William Crabtree, also testified that
he did not recall what objections may have been made
during the in-chambers conference where trial
counsel turned over Dr. McCoy’s reports, but that he
thought that the prosecution should have been
entitled to them under reciprocal discovery
(Addendum No. 5, Doc. 14, Vol. 3, pp. 238–40).
As previously noted, § 2254(d) is a very difficult
standard to meet; the Supreme Court has found that
it “stops just short of imposing a complete bar on
federal-court relitigation of claims already rejected in
state proceedings.” Harrington v. Richter, 562 U.S.
86, 102 (2011). Combined with the highly deferential
standard of Strickland, the burden is even more
formidable. Based on the Court’s review of the record,
the Court cannot find that the TCCA’s decision was
an unreasonable determination of the facts. The
record is certainly unclear as to what exactly
happened during the in-chambers conference, and it
is not within the Court’s province to speculate as to
what may or may not have happened. While trial

75a
counsel testified that in retrospect he should have
ensured that there was a court reporter present in
chambers and that he should not have turned over
the entirety of Dr. McCoy’s report, Strickland
counsels that every effort should be made to assess
counsel’s performance “from counsel’s perspective at
the time,” and not in hindsight. 466 U.S. at 689. Both
trial counsel and the prosecutor thought, at the time,
that Dr. McCoy’s reports should have been
discoverable. While this belief might have been
erroneous, the Court must note that “Strickland does
not guarantee perfect representation, only a
‘reasonably competent attorney.’” Richter, 562 U.S. at
110 (quoting Strickland, 466 U.S. at 687).
For these reasons, the Court finds that Petitioner
is not entitled to relief on this issue because the
TCCA’s decision was neither an unreasonable
application of federal law, nor was it an unreasonable
determination of the facts in light of the record before
the court.
d. Failure to present effective penalty phase
arguments to the jury
Petitioner’s next ineffective assistance of counsel
claim alleges that trial counsel failed to present
effective penalty phase arguments because counsel
never argued to the jury to spare Petitioner because
of her youth, nor did they discuss any of the mental
health evidence presented by Dr. Engum (Doc. 46, p.
81). Petitioner also argues that counsel was
ineffective for failing to mention Petitioner’s mental
illness or her history of abuse and neglect (Id.). The
TCCA found that this claim had been waived because
Petitioner failed to present it to the post-conviction
trial court. Pike, 2011 WL 1544207, at *56. Petitioner

76a
now argues that the TCCA’s review of the postconviction trial court record was erroneous because
the claim that counsel was ineffective for failing to
mention mental health evidence during their penalty
phase closing argument was actually presented, and
in the alternative, that Petitioner is entitled to review
of this claim under Martinez v. Ryan, 132 S. Ct. 1309
(2012).
Under the procedural default doctrine, a federal
court cannot grant a state prisoner’s petition for
habeas relief unless each and every claim set forth in
the habeas petition has been fairly presented to the
state courts. Satterlee v. Wolfenbarger, 453 F.3d 362,
365 (6th Cir. 2006) (citing Baldwin v. Reese, 541 U.S.
27, 29 (2004)). The petitioner must present the same
claim under the same theory presented to the state
courts. Wagner v. Smith, 581 F.3d 410, 418 (6th Cir.
2009). Based on its review of the record, the Court
cannot find that this claim was fairly presented to the
state post-conviction trial court. While Petitioner
alluded to counsel’s failure to present the jury with
evidence of her mental illness, the remainder of the
facts asserted under this claim were not presented to
the state court under the theory for which Petitioner
now seeks relief. As such, the claim is procedurally
defaulted.
To overcome a procedural default, a petitioner
must show cause and actual prejudice to excuse the
failure to present the claim in state court. See Gray v.
Netherland, 518 U.S. 152, 162 (1996). In Martinez,
the Supreme Court created a “narrow exception” to
the general rule of Coleman v. Thompson that a
habeas petitioner cannot use ineffective assistance of
collateral review counsel as cause to excuse a
procedural default. 501 U.S. 722, 756–57 (1991). The

77a
Sixth Circuit, in Sutton v. Carpenter, 745 F.3d 787,
795–96 (6th Cir. 2014), held that Martinez, as
expanded by Trevino v. Thaler, 133 S. Ct. 1911, 1921
(2013), applies in Tennessee. Martinez permits a
petitioner to establish cause to excuse a procedural
default of an ineffective assistance of trial counsel
claim by showing that he received ineffective
assistance by post-conviction counsel. See Martinez v.
Ryan, 132 S. Ct. 1309, 1320 (2012). This holding,
however, does not dispense with the “actual
prejudice” requirement established by the Supreme
Court in Coleman. 501 U.S. at 750. To successfully
establish cause and prejudice under Martinez, a
petitioner must show a substantial underlying claim
of ineffective assistance of trial counsel. See Trevino,
133 S. Ct. at 1918; Martinez, 132 S. Ct. at 1318–19.
As part of showing a substantial claim of
ineffective assistance of counsel, the petitioner must
prove prejudice under Strickland. See McGuire v.
Warden, Chillicothe Corr. Inst., 738 F.3d 741, 752
(6th Cir. 2013) (“To be successful under Trevino,
[petitioner] must show a ‘substantial’ claim of
ineffective assistance, and this requirement applies
as well to the prejudice portion of the ineffective
assistance claim.” (internal citations omitted)). Under
Strickland, a petitioner can prove prejudice by
showing “that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of
the proceeding would have been different.” Strickland
v. Washington, 466 U.S. 668, 694 (1984). The “actual
prejudice” requirement of Coleman and the prejudice
requirement of Strickland overlap such that
in many habeas cases seeking to
overcome procedural default under
Martinez, it will be more efficient for

78a
the reviewing court to consider in the
first instance whether the alleged
underlying ineffective assistance of
counsel was “substantial” enough to
satisfy the “actual prejudice” prong of
Coleman. If not, because the “cause and
prejudice” standard is conjunctive
rather than disjunctive, the reviewing
court would have no need consider
whether the petitioner has established
cause to overcome the procedural
default, in the form of ineffective
assistance of post-conviction counsel.
Thorne v. Hollway, No. 3:14-CV-0695, 2014 WL
4411680, at *23 (M.D. Tenn. Sept. 8, 2014)
Petitioner claims that her trial counsel was
ineffective in their penalty phase arguments (Doc.
19). Petitioner points to counsel’s statements during
his penalty phase opening statement that
Ms. Pike has a personality that she
derives and gains her self-esteem, her
self-worth from those around her. If you
sentence her to life in prison I would
suggest that what you do, that you turn
her into just any other inmate doing a
life sentence for first degree murder. If,
on the other hand, by turning her into
any other inmate serving a life sentence
that what you take from her is her
notoriety. You take her fame. She will
be just another inmate serving a life
sentence. And we suggest that if you
impose a sentence of death, or life
without the possibility of parole, you

79a
will thrust her into a spot light, a
national spot light, and I would suggest
that you consider these points.
(Addendum No. 2, Doc. 25, Vol. 25, pp. 2480–81).
Petitioner argues that this argument conceded that
Petitioner was deserving of the worst punishment
they could imagine (Doc. 19). Even further, Petitioner
argues that trial counsel failed to emphasize
statutory mitigating factors like youth, and her
mental illness in their argument.
Counsel’s statements here, when taken in
isolation, may not appear to be the most appealing
arguments counsel could have made; however, these
statements must be viewed in the context of counsel’s
entire argument. See Moore v. Mitchell, 708 F.3d 760,
790 (6th Cir. 2013) (citing United States v. Lostia, 20
F. App’x 501, 502 (6th Cir. 2001)). Based on the
review of counsel’s entire opening statement, as well
as co-counsel’s closing argument, the Court cannot
find that each statement was not a part of the
constitutionally protected strategy that counsel chose
to adopt. Counsel alluded to the availability of
statutory mitigating circumstances by reference to
the state’s argument that mentioned Petitioner’s
youth as a mitigating factor. Furthermore, cocounsel, in her closing argument, emphasized that
the jury were entitled take into account everything
they had heard in both the guilt phase and
sentencing phase in reaching their decision to not
sentence Petitioner to death (Addendum No. 2, Doc.
26, Vol. 26, p. 2564).
While Petitioner may not believe that counsel’s
arguments
were
as
stirring,
eloquent,
or
comprehensive as they could have been, the decision

80a
on how to present the available evidence in their
arguments was a matter of trial strategy which this
Court will not second guess. As such, the Court finds
that Petitioner’s claim that counsel failed to present
effective
penalty
phase
arguments
is
not
“substantial” for the purposes of Martinez.
e. Failure to conduct meaningful voir dire of
potential jurors
Petitioner’s final claim of ineffective assistance of
counsel alleges that trial counsel failed to rehabilitate
or object to the dismissal of potential juror
Rutherford, whose voir dire showed that he was
qualified to serve (Doc. 19). Petitioner also claims
that counsel was ineffective for failing to tell
potential jurors that her youth was a statutory
mitigating factor, and failed to voir dire jurors on
other prospective mitigation themes, such as mental
illness and mental health experts, in order to strike
jurors who could not consider certain mitigation
evidence (Doc. 19). Applying the standards for jury
qualification espoused by the Supreme Court in
Witherspoon v. Illinois, 391 U.S. 510 (1968) and
Wainwright v. Witt, 469 U.S. 412 (1985), the TCCA
considered and rejected this claim.
The Petitioner argues that [the]
colloquy indicates only that “Mr.
Rutherford made clear that he could
consider the death penalty for a mature
defendant, but that he had reservations
in light of the Petitioner’s youth.” We
disagree with Petitioner’s analysis and
her reliance on the statement made in
Morgan v. Illinois. As previously stated,
the Supreme Court in Morgan stated

81a
that “a juror who in no case would vote
for capital punishment, regardless of his
or her instructions, is not an impartial
juror and must be removed for cause.”
[Morgan v. Illinois, 504 U.S. 719, 728
(1992)]. According to the Petitioner, that
statement stands for the proposition
that if a potential juror could possibly
impose the death penalty in some case,
just not the instant case, then he should
not be stricken for cause an impartial
juror. We clearly disagree with that
interpretation entirely and conclude
that the statement should only be taken
as reiteration of the standard previously
stated in Wainwright and Adams that a
potential juror must have impartiality
in the case he or she is presently
involved in.
A reading of the colloquy which
occurred with Mr. Rutherford made
clear that he could not impose the death
penalty under any circumstances
because of the Petitioner’s age in this
case. As such, the statements made by
Mr. Rutherford indicate that his views
would prevent or substantially impair
his performance of his duties as a juror
in accordance with his instructions and
his oath. As such, we agree that he was
appropriately struck for cause, and no
objection
by
trial
counsel
was
warranted. While we do agree that the
statements do not necessarily indicate
an unconditional bias against capital

82a
punishment entirely, as noted, that is
not the required standard.
Pike, 2011 WL 1544207, at *58. The Court agrees
entirely
with the TCCA’s exhaustive
and
comprehensive review of this issue.
With respect to Petitioner’s claim that trial
counsel failed to question the potential jurors about
any possible bias related to mental illness,
psychologists, and mental health experts, the TCCA
found that Petitioner failed to present any evidence
that any juror harbored bias or prejudice on these
grounds. Id. at *59. The decision by the TCCA was
neither contrary to, nor did it involve an
unreasonable application of, federal law. Petitioner is
not entitled to relief on this claim.
B. Petitioner was deprived of the right to
unconflicted counsel in violation of the
Sixth and Fourteenth Amendments to the
United States Constitution.
Petitioner’s second claim for relief alleges that she
was denied the right to unconflicted counsel because
her trial counsel were burdened by a two conflicts—
i.e., Mr. Talman’s legal and ethical troubles caused by
his overbilling practices, and the release of media
rights that counsel procured from Petitioner
authorizing counsel to use or sell Petitioner’s story for
pecuniary gain.
1. Applicable Law
As a general rule, claims of ineffective assistance
of counsel under the Sixth Amendment are governed
by Strickland, and a petitioner must prove deficient
performance and prejudice in order to bring a
successful claim. 466 U.S. at 687. When dealing with

83a
ineffective assistance due to a conflict of interest, “to
establish a violation of the Sixth Amendment, a
defendant who raised no objection at trial must
demonstrate that an actual conflict of interest
adversely affected his lawyer’s performance.” Cuyler
v. Sullivan, 466 U.S. 335, 348 (1980). “A defendant
who shows that a conflict of interest actually affected
the adequacy of his representation need not
demonstrate prejudice in order to obtain relief.” Id. at
349–50. However, “until a defendant shows that his
counsel actively represented conflicting interests, he
has not established the constitutional predicate for
his claim or ineffective assistance.” Id. at 350. Absent
this showing, the Strickland standard applies. See
Stewart v. Wolfenbarger, 468 F.3d 338, 351 (6th Cir.
2006).
2. Discussion
Petitioner argued on state post-conviction appeal
to the TCCA that her lead trial counsel was conflicted
between his fear of being prosecuted by the state—
which likely involved the district attorney’s office
prosecuting her case—and his representation of
Petitioner. Pike, 2011 WL 1544207, at *46. Petitioner
further argued that counsel’s agreement to profit
from Petitioner’s story presented a conflict of interest
because it signified that counsel was motivated by
monetary gain throughout their representation of
Petitioner. Id. at *48. The TCCA, applying the
Strickland and Cuyler standards, concluded that
Petitioner did not meet her burden of showing that
an actual conflict of interest which adversely affected
her representation existed, and that Petitioner could
not prove prejudice. Id. at *48–49.

84a

a. Conflict from investigation into counsel’s
billing practices to the Indigent Defense
Fund.
Petitioner’s first claim of conflict of interest arises
from Mr. Talman’s involvement in an overbilling
investigation by the State of Tennessee. According to
Petitioner, counsel still faced the possibility of ethical
and criminal charges during the period in which he
represented her. Petitioner points to evidence that
counsel abandoned his pans to call Dr. McCoy as the
sole mitigation witness at the last minute as an
indication that counsel’s alleged conflict adversely
affected her representation. Petitioner argues, based
on Dr. McCoy’s testimony that counsel asked her to
lie about when she turned in her mitigation reports
after the prosecutor complained about receiving the
large three-volume report so late in the proceeding,
that counsel was operating under his fear of further
angering the prosecution. Petitioner further claims
that all the explanations counsel offered for his
decision not to call Dr. McCoy are implausible. In
dismissing this claim, the TCCA found that
Petitioner failed to offer more than mere speculation
as to the reason behind counsel’s actions and, as
such, did not meet her burden of establishing that an
active conflict of interest existed.
The record indicates that between 1993 and 1994,
Mr. Talman learned that the state of Tennessee
Comptroller’s Office was conducting an audit of the
indigent defense system for lawyers that had possibly
overbilled the fund (Addendum No. 5, Doc. 14, Vol. 3
p. 256). After determining that he might be one of the
attorneys implicated in the investigation, Mr. Talman

85a
self-reported to the Board of Professional
Responsibility and conducted an internal audit (Id. at
257). Mr. Talman subsequently repaid approximately
$67,000 to the indigent defense fund shortly before he
was appointed as counsel in Petitioner’s case (Id. at
259, 61). The record further indicates that the
complaint from Mr. Talman’s self-reporting was still
pending
before
the
Board
of
Professional
Responsibility during the time he represented
Petitioner, and was not fully resolved until the day
after the Tennessee Supreme Court affirmed
Petitioner’s conviction and sentence, when Mr.
Talman’s license was suspended for eleven months
and twenty-nine days (Id. at 263–64); Pike, 2011 WL
1544207, at *45. Mr. Talman testified that as far as
he was concerned, the matter was closed and
completed before he accepted the appointment to
Petitioner’s case (Id. at 263). According to Mr.
Talman, he had begun receiving appointments in
other cases and the state had resumed paying him in
his other cases (Id.). Mr. Talman also testified that he
did not believe the investigation affected his
representation of Petitioner (Id.).
A petitioner claiming ineffective assistance of
counsel due to a conflict of interest must prove that
counsel was actually burdened by a conflict which
adversely affected the lawyer’s performance. Cuyler,
446 U.S. at 348. In the absence of this, the petitioner
must prove deficient performance and prejudice
under Strickland. The TCCA found that prior to Mr.
Talman’s appointment, the trial court inquired into
the status of the investigation and learned that it had
been concluded, and that Mr. Talman remained
licensed and in good standing. Pike, 2011 WL
1544207, at *47. The TCCA also credited the post-

86a
conviction court’s finding that Mr. Talman deemed
the matter concluded prior to his appointment to
Petitioner’s case. Id.
The Court cannot find that this decision was
contrary to, or an unreasonable application of, federal
law. Petitioner points to the prosecution’s anger at
receiving Dr. McCoy’s mitigation reports just before
the penalty phase began as causing Mr. Talman to
fear further angering the prosecution or the court and
placing his interest ahead of Petitioners (Doc. 19 p.
68). While it is unclear to the Court why Dr. McCoy’s
reports, which would arguably have been rendered
unnecessary by a not-guilty verdict, would have been
discoverable to the prosecution before the close of the
guilt phase, the Court cannot find that the TCCA’s
decision that Petitioner’s allegations are mere
speculation was unreasonable in light of the record
before it. Furthermore, Petitioner appears to argue
that regardless of counsel’s belief that the overbilling
investigation was concluded, the truth is that there
remained the possibility of criminal and ethical
charges. Petitioner’s burden under Cuyler requires a
showing that counsel was burdened by an actual
conflict of interest. It does not follow that Mr. Talman
could have been burdened by the possibility of
criminal and ethical charges if he genuinely believed
that the matter had been concluded as the TCCA
found.
Because Petitioner has failed to show that her
trial counsel was burdened by an actual conflict of
interest stemming from the State of Tennessee’s
investigation into his billing practices, Petitioner
must prove deficient performance and prejudice
under Strickland. See Stewart, 468 F.3d at 381. The
Court has previously found that state court’s decision

87a
that Petitioner failed to demonstrate ineffective
assistance of counsel for failure to present mitigating
evidence was not unreasonable. Petitioner is not
entitled to relief.
b. Conflict from counsel’s procurement of a
release of media rights from Petitioner
Petitioner’s second claim of conflict of interest
alleges that counsel was conflicted by their interest in
monetary gain from selling Petitioner’s story, based
on the waiver releasing all media rights to her story
signed by Petitioner (Doc. 19 p. 69). Petitioner argues
that the adverse effect to her representation is
evidenced by counsel’s failure to seek a continuance
of Petitioner’s trial date after lead counsel had only
been on the case for ten months, and co-counsel for
less than two months (Id. at 70). Petitioner further
argues that this failure to seek a continuance aligns
with counsel’s pecuniary interest in having a rapid
trial so as to capitalize on Petitioner’s story while it
was still publicly relevant (Id. at 71). The TCCA
dismissed this claim, agreeing with the state that
because the release at issue was not signed until
after Petitioner had been found guilty and sentenced,
it was unreasonable to suggest that Petitioner had
been adversely affected by the post-trial agreement.
Pike, 2011 WL 1544207, at *49. The TCCA also found
that although a conflict of interest existed during
counsel’s of Petitioner on appeal, Petitioner failed to
show either an adverse effect or prejudice. Id.
Mr. Talman testified during the sate postconviction hearing that at some point after the trial,
he discussed with Petitioner’s aunt, Carrie Ross, the
possibility of writing a book on Petitioner’s case;
however, nothing was ever done about it (Addendum

88a
No. 5, Doc. 16, Vol. 5, p. 410). According to Mr.
Talman, in a follow-up from his discussion with Ms.
Ross, they obtained the media release from Petitioner
(Id. at 141). Mr. Talman testified that his intent was
to show that there was a whole other side of
Petitioner that people did not really get to see (Id. at
411). Ms. Rice also testified that the intention behind
obtaining the release from Petitioner was not
particularly for pecuniary gain; rather, they believed
that the public aspects of Petitioner’s trial could have
been useful in the future as a teaching tool
(Addendum No. 5, Doc. 13, Vol. 2, p. 159). Ms. Rice
further testified that the purpose of the agreement
was to make sure that things were clear and that
Petitioner understood that if a story about the trial
was eventually told, no attorney-client privileged
information would be used, just public information
(Id. at 159–60).
As previously noted, Cuyler requires a petitioner
to show that an actual conflict of interest adversely
affected his lawyer’s performance. 446 U.S. at 348.
The Supreme Court has held that “the mere
possibility of a conflict is insufficient to impugn a
criminal conviction.” Id. at 350. Like the TCCA, the
Court cannot find that Petitioner has carried her
burden of proving that an actual conflict of interest
affected her trial counsel’s performance. As an initial
matter, the TCCA’s decision that it is improbable
that a media release agreement signed after the
completion of Petitioner’s trial and sentencing could
somehow have affected counsel’s decisions during the
trial is not an unreasonable determination of the
facts. Any suggestion from Petitioner that the
potential pecuniary benefit counsel could get from retelling her story affected the adequacy of counsel’s

89a
representation is merely speculative and such a
“possibility” is not sufficient to meet the
constitutional standard under Cuyler. In the absence
of proving a conflict of interest under Culyer, the
Court also agrees with the TCCA that Petitioner
cannot show prejudice to meet her burden of proving
ineffective assistance of counsel under Strickland.
Because the TCCA did not incorrectly apply federal
law, nor unreasonably determine the facts from the
record before it, Petitioner is not entitled to habeas
relief on this claim.
C. Petitioner’s attorneys were
constitutionally ineffective during the
guilt/innocence phase of her capital trial
for failing to present evidence that
Petitioner did not form the requisite mens
rea for first-degree murder, and her rights
under the Sixth, Eight, and Fourteenth
Amendments to the United States
Constitution were violated.
Petitioner’s next claim for relief alleges that trial
counsel were ineffective for failing to present an
effective case to undermine the state’s proof of
deliberate and premediated murder. Petitioner
argues that this was as a result of two fundamental
errors—to wit, failure to make appropriate use of
expert witnesses, and failure to discover relevant lay
testimony.
1. Applicable Law
As previously stated, the Supreme Court has set
forth the test required to bring a successful
ineffective assistance of counsel claim in Strickland v.
Washington, 466 U.S. 668 (1984). A petitioner
claiming ineffective assistance of counsel under the

90a
Sixth Amendment must show that counsel’s
performance was deficient, and that this deficient
performance prejudiced the defense. Id. at 687. 3
2. Discussion
Petitioner
challenged
her
trial
counsel’s
effectiveness during the guilt phase of her trial to the
TCCA, arguing that counsel presented scant evidence
of her mental state during the crime only through Dr.
Engum, and that his testimony was insufficiently
substantiated. According to Petitioner, had trial
counsel presented lay witness testimony, as well as
provided Dr. Engum with Petitioner’s social history,
his testimony would have carried more weight with
the jury. Petitioner also argued that counsel was
ineffective for presenting Dr. Bernet as a witness
because his testimony offered no apparent benefit to
the defense. Pike, 2011 WL 1544207, at *61. In
dismissing this claim, the TCCA found that
Petitioner failed to carry her burden of establishing
entitlement to relief. Id. Particularly, the TCCA held
that Petitioner’s argument that the jury would have
credited Dr. Engum’s testimony if it was supported
by lay testimony was mere supposition, and was “not
sufficient to substantiate a claim for post-conviction
relief,” because Petitioner “failed to argue how any
specific lay witness would have sufficiently
substantiated the testimony in order to improve its
weight before the jury.” Id.
Under Strickland, a petitioner claiming ineffective
assistance of counsel must show both deficient
performance and prejudice. 466 U.S. at 687–88.
“Counsel is constitutionally ineffective only if
3

See supra Part III.A.1.

91a
performance below professional standards caused the
defendant to lose what he otherwise would have
won.” United States v. Morrow, 977 F.2d 222, 229
(6th Cir. 1992). To show prejudice, “[i]t is not enough
for the defendant to show that the errors had some
conceivable effect on the outcome of the proceeding.
Virtually every act or omission of counsel would meet
that test, and not every error that conceivably could
have influenced the outcome undermines the
reliability of the result of the proceeding.” Strickland,
466 U.S. at 693 (internal citations omitted). Rather,
“[t]he defendant must show that there is a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” Id. at 394. “A reasonable probability is
something more than a ‘conceivable effect’ on the
verdict but ‘a probability to undermine confidence in
the outcome.’” Payne v. Warden, Lebanon Corr. Inst.,
543 F. App’x 435, 489 (6th Cir. 2013) (citing
Strickland, 466 U.S. at 693).
The TCCA held that Petitioner failed to show that
she suffered prejudice because there was no evidence
that supporting Dr. Engum’s testimony with lay
witnesses would have carried more sway with the
jury. This decision is neither contrary to, nor an
unreasonable application of, federal law. This is not a
case where Petitioner’s conviction was only weakly
supported by the record; rather, in light of the
compelling
evidence
supporting
Petitioner’s
conviction in the record, the state court did not
violate clearly established federal law in rejecting
Petitioner’s ineffective assistance claim for lack of
prejudice. Because Petitioner has failed to show
prejudice under Strickland, the Court need not reach
the issue of deficient performance. See Strickland,

92a
466 U.S. at 697 (concluding that since both the
prejudice and performance prongs must be met, if a
petitioner cannot satisfy one prong, the other need
not be examined). Petitioner is not entitled to relief
on this claim.
D. Imposition of the death penalty on
Petitioner violates the Eighth Amendment
to the U.S. Constitution because Petitioner
is an immature, mentally ill, and braindamaged eighteen-year old.
In her next claim for relief, Petitioner contends
that Roper v. Simmons, 543 U.S. 551 (2005) and
Atkins v. Virginia, 536 U.S. 304 (2002) support a
categorical bar to the death penalty for immature,
mentally ill, and brain-damaged eighteen year olds
(Doc. 19). Petitioner argues that immature, mentally
ill, and brain-damaged eighteen year olds face the
same culpability limitations that the Supreme Court
has found to plague minor and mentally retarded
defendants and, as such, the same exemption should
be extended to them.
In addressing and dismissing this claim, the
TCCA engaged in an extensive examination of
applicable Supreme Court precedent, including Roper
and Atkins. See Pike, 2011 WL 1544207, at *62–68.
The TCCA found that Petitioner failed to persuade
the court that a new national consensus exists to
extend the holding of Roper to persons over the age of
eighteen, or that there is a consensus in state
legislation supporting a categorical exclusion for the
mentally ill. Id. at *67–68. In conclusion, the TCCA
stated:
While this court appreciates the novelty
of
the
Petitioner’s
argument,

93a
practicality precludes its acceptance.
The court can envision a multitude of
specifically created exemptions based
upon the unique circumstances of an
individual defendant. These particular
circumstances were not what was
envisioned as being encompassed
within a categorical bar. Rather, this
specific grouping of traits is captured
within the individualized sentencing
mandate of the capital sentencing
scheme.
Id. at *68.
As previously outlined, a federal court may not
grant habeas relief under § 2254(d) unless the
petitioner shows that the “state court’s decision was
contrary to federal law then clearly established in the
holdings of [the Supreme Court]; or that it involved
an unreasonable application of such law; or that it
was based on an unreasonable determination of the
facts in light of the record before the state court.”
Harrington v. Richter, 562 U.S. 86, 100 (2011)
(internal citations and quotation marks omitted).
This standard is highly deferential and difficult to
meet. Id. at 102. Having found that the TCCA
identified the proper governing Supreme Court
precedent, the Court must determine whether the
TCCA’s decision was an unreasonable application of
the law, or an unreasonable determination of the
facts. The proper inquiry here is not whether the
state court’s decision was merely erroneous or
incorrect, but whether it was “objectively
unreasonable.” Lordi v. Ishee, 384 F.3d 189, 195 (6th
Cir. 2004) (citing Middleton v. McNeil, 541 U.S. 433
(2004)).

94a
While a state court’s unreasonable refusal to
extend a legal principle from Supreme Court
precedent to a new context may be considered an
unreasonable application of § 2254(d), see Williams v.
Taylor, 529 U.S. 3632, 407 (2000), that is not the case
here. The TCCA engaged in a thorough analysis of
the law and the facts in the record before it. Its
decision was neither an unreasonable application of
the law, nor was it an unreasonable determination of
the facts. Petitioner is, therefore, not entitled to relief
on this claim.
E. Trial court’s dismissal of a qualified juror
denied Petitioner of her right to trial by a
fair jury.
Petitioner’s next claim alleges that her right to a
fair jury was violated because the trial court
dismissed potential juror Rutherford for cause even
though he was qualified to serve (Doc. 19).
Petitioner’s claim here is based on the same facts
under which she alleged ineffective assistance of
counsel for trial counsel’s failure to object to Juror
Rutherford’s dismissal. According to Petitioner, Juror
Rutherford never said that he would be unable to
follow instructions and conscientiously follow the law,
and that the trial court never told Juror Rutherford
that Petitioner’s youth was a statutory mitigating
factor (Id.). Furthermore, Petitioner argues that
Juror Rutherford’s hesitation to impose the death
penalty here was constitutionally permissible because
he could accord as much weight as he desired to
Petitioner’s age and immaturity as mitigating factors
(Id.).
The TCCA addressed this claim together with
Petitioner’s claim for ineffective assistance of counsel

95a
for failure to conduct a meaningful voir dire of
potential jurors. Analyzing Witherspoon and
Wainwright, the TCCA found that Juror Rutherford
was properly excused for cause. In Witherspoon v.
Illinois, the Supreme Court held that a state cannot
strike a potential juror merely because that juror has
a conscientious or religious opposition to capital
punishment, or all who opposed it on principle, if that
juror could, nevertheless, consider the punishment.
391 U.S. 510, 520–23 (1968). In Wainwright v. Witt,
the Court clarified its holding in Witherspoon, and
stated that the “standard is whether the juror’s views
would prevent or substantially impair the
performance of his duties as a juror in accordance
with his instructions and his oath.” 469 U.S. 412, 424
(1985) (internal quotation marks omitted). The Court
further stated that “the quest is for jurors who will
conscientiously apply the law and find the facts. That
is what an ‘impartial’ jury consists of, and we do not
think, simply because a defendant is being trying for
a capital crime, that he is entitled to a legal
presumption or standard that allows juror to be
seated who quite likely will be biased in his favor.”
Id. at 423.
During the voir dire of Juror Rutherford, the trial
court explained to him that he would be instructed as
to the factors he may consider, which may include
age, and that he would be instructed on the
mitigating
and
aggravating
circumstances
(Addendum No. 2, Doc. 16, Vol. 16, p. 1511). The
court then asked him if the one issue of Petitioner’s
age would keep him from following the court’s
instructions (Id.). In follow up, the state asked if he
absolutely could not return a sentence of death solely
because of Petitioner’s age, and he answered that he

96a
did not think he could (Id. at 1512). In an attempt to
clarify his stance, Petitioner’s trial counsel asked
juror Rutherford if regardless of any aggravating
circumstance that was proven in this case, he would
still not be able to vote for the death penalty (Id. at
1514). Juror Rutherford answered that he did not
think he could (Id.).
Based on the standard set forth in Wainwright,
the TCCA did not unreasonably determine the facts
based on the record before it. While Juror Rutherford
did not express a hesitation to impose the death
penalty in every single case, he implied on more than
one occasion that he could not follow the court’s
instructions to weigh the aggravating circumstances
against the mitigating circumstances to reach a
decision on the applicability of the death penalty in
this case. In certain cases, “it does not make sense to
require simply that a juror not ‘automatically’ vote
against the death penalty; whether or not a
venireman might vote for death under certain
personal standards, the State still may properly
challenge that venireman if he refuses to follow the
statutory scheme.” Wainwright, 469 U.S. at 422. As
the Court previously found with respect to
Petitioner’s ineffective assistance of counsel claim,
the TCCA’s decision was not an unreasonable
application of clearly established law; therefore,
Petitioner is not entitled to relief on this claim.
F. Appointment of counsel with active conflict
of interest known to trial court violated
Petitioner’s Sixth Amendment right to
counsel.
Next, Petitioner alleges that the state court’s
appointment of Mr. Talman, knowing that he had a

97a
high risk of a conflict of interest, constitutes a
structural error and requires that her conviction and
sentence be set aside (Doc. 19 p. 84). Petitioner
appears to argue that the TCCA, by finding that no
conflict of interest existed because of Petitioner’s
failure to show prejudice, failed to address the
structural nature of the claim (Id. at 85). Petitioner
further argues that although this claim has not been
procedurally defaulted, there is no state court
decision to defer to, and the Court must address it de
novo (Id.).
Petitioner is correct that where a petitioner has
demonstrated that an actual conflict of interest
exists, that petitioner need not demonstrate prejudice
because the conflict itself demonstrates a denial of
the right to have ineffective assistance of counsel.
Glasser v. United States, 315 U.S. 60, 72 (1942).
However, Petitioner incorrectly states that the TCCA
dismissed her claim based solely on her failure to
show prejudice. In its opinion, the TCCA clearly
credited the post-conviction court’s finding that the
proof did not establish an actual conflict of interest
which adversely affected lead counsel’s performance.
Pike, 2011 WL 1544207, at *47. The TCCA went on to
state that “Petitioner offers only speculation as the
reason for ‘counsel’s penalty phase collapse.’ This
speculation as to what might have been the reason
for the decisions made is not sufficient [to] meet her
burden of establishing that a conflict excused.” Id. at
*48. It is clear from the TCCA’s opinion that it
directly addressed the merits of Petitioner’s
structural claim by finding that no actual conflict of
interest existed.
As the Court has previously found, this decision is
not contrary to or an unreasonable application of

98a
clearly established federal law, and was reasonably
supported by the evidence presented to the state
court. Petitioner is not entitled to habeas relief on
this claim.
G. Allowing television and photographic
coverage of the pretrial proceedings
violated Petitioner’s rights to due process
under the Fourteenth Amendment to the
U.S. Constitution.
Petitioner next argues that her due process rights
were violated because the trial court allowed
television and photographic coverage of the pretrial
proceedings in her case (Doc. 19). According to
Petitioner, this extensive pretrial publicity, which
continued throughout the trial, made jury selection
extremely difficult and resulted in a jury panel that
was already familiar with the facts of the case as
reported by the media (Id.). Petitioner presented this
claim to the TCCA and the TSC on direct appeal.
Petitioner now argues that the TSC failed to
engage in a fact-specific analysis of the effect of
continuing media coverage in her trial, and that to
the extent that it did, its analysis was unreasonable
(Id.). The TSC found that Petitioner failed to point to
any portion of the record or offer specific evidence
indicating how witness testimony was affected or the
proceedings disrupted, that Petitioner did not explain
how media coverage of the crime would have been
less intense had cameras been excluded from the
courtroom, and that there was generally no indication
from the transcripts that the media coverage itself
was disruptive or that any disruptive events occurred
during the proceedings. Pike, 978 S.W.2d at 917.
Citing to Chandler v. Florida, 449 U.S. 560, 581–82

99a
(1981), the TSC concluded that Petitioner failed to
show either that the media coverage of the pretrial
and trial proceedings impaired the jurors’ ability to
decide the case on the evidence alone, or adversely
impacted one or more of the trial participants. Pike,
978 S.W.2d at 917.
In Chandler, the Supreme Court refused to
promulgate a per se constitutional ban on
photographic or broadcast coverage of criminal trials,
finding that “[a]n absolute ban on broadcast coverage
of trials cannot be justified simply because there is a
danger that, in some cases, prejudicial broadcast
accounts of pretrial and trial events may impair the
ability of jurors to decide the issue of guilt or
innocence uninfluenced by extraneous matter.” 449
U.S. at 575. Rather, the Court held that a defendant
must show that media coverage compromised the
ability of the jury to judge him fairly, or in the
alternative, that the “broadcast coverage of his
particular case had an adverse impact on the trial
participants sufficient to constitute a denial of due
process.” Id. at 581.
As the state court noted, Petitioner has not
pointed to any evidence that leads the Court to infer
that the media coverage had an adverse impact on
her trial. “To demonstrate prejudice in a specific case,
a defendant must show something more than juror
awareness that the trial is such as to attract the
attention of broadcasters.” Id. Petitioner has not done
so here. Petitioner further argues that the state
court’s reliance on Chandler is misguided because the
Supreme Court limited its holding in that case to the
authority of the Florida Supreme Court to
promulgate the rule allowing media coverage of
judicial proceedings, and did not examine the

100a
application of such a rule to specific facts (Doc. 19).
While the Supreme Court noted its limitation with
exercising supervisory jurisdiction over state courts,
Chandler, 449 U.S. at 570, the Court did not limit its
holding to the extent Petitioner contends it did.
Rather, the Court set out the standard for
determining whether a petitioner has shown
prejudice from media presence during pretrial and
trial proceedings, which the state court correctly
applied in Petitioner’s case. The TSC decision was not
an unreasonable application of clearly established
federal law; as such, Petitioner is not entitled to relief
on this claim.
H. Trial court’s denial of Petitioner’s motion
for a change of venue denied Petitioner of
her right to a fair and impartial jury.
Petitioner’s eighth ground for habeas relief asserts
that the trial court erred by failing to grant her
motion for a change of venue (Doc. 19). Petitioner
argues that the extensive pretrial publicity generated
in her case exposed an overwhelming majority of the
prospective jurors to detailed information about the
case, and that voir dire indicated that many of the
jurors remembered specific details (Id.). Petitioner
presented this claim on direct appeal to the TCCA
and TSC. Although the TSC did not specifically
address the claim, it expressly adopted the findings of
the TCCA. Pike, 978 S.W.2d at 923. The TCCA, citing
to Irwin v. Dowd, 366 U.S. 717 (1961), found that
every juror who admitted to familiarity with the case
said that he or she could disregard the reports and
make an impartial decision. Pike, 978 S.W.2d at 924.
The TCCA also found that Petitioner had failed to
cite any specific response from any seated juror that
was troublesome. Id.

101a
The decision of the state court was neither
contrary to, nor did it involve an unreasonable
application of, federal law. In Irwin, the Supreme
Court found that because of the “pattern of deep and
bitter prejudice shown to be present throughout the
community,” very little weight could be given to each
juror’s declaration to remain impartial. Irwin, 366
U.S. at 727–28. Regardless, the Court acknowledged
that in general,
[i]t is not required, however, that the
jurors be totally ignorant of the facts
and issues involved. In these days of
swift, widespread and diverse methods
of communication, an important case
can be expected to arouse the interest of
the public in the vicinity, and scarcely
any of those best qualified to serve as
jurors will not have formed some
impression or opinion as to the merits
of the case. This is particularly true in
criminal cases. To hold that the mere
existence of any preconceived notion as
to the guilt or innocence of an accused,
without more, is sufficient to rebut the
presumption of a prospective juror’s
impartiality would be to establish an
impossible standard. It is sufficient if
the juror can lay aside his impression or
opinion and render a verdict based on
the evidence presented in court.
Irwin, 366 U.S. at 722.
The TCCA found that all potential jurors who said
they could not disregard the reports were excused for
cause. The Court cannot find that this decision was

102a
an unreasonable determination of the facts based on
the record before the TCCA. While Petitioner alleges
that several potential jurors remembered specific
facts about her case, she has not shown the “actual
existence of such an opinion in the mind of [a] juror
as will raise the presumption of partiality.” Id. at
723. As such, Petitioner is not entitled to relief on
this claim.
I. The new law concerning the number of
peremptory challenges awarded to the
State constituted an ex post facto change in
violation of Petitioner’s right to a fair and
impartial jury.
Petitioner next argues that her right to an
impartial jury was violated because the trial court
applied a new law that gave the prosecution the same
number of peremptory challenges as the defense.
According to Petitioner, because this law was not in
effect at the time the crime was committed, its
application to her case constituted an ex post facto
violation. The TCCA addressed this claim on direct
appeal and found that there was no ex post facto
violation, because the law was a procedural change
and did not affect Petitioner’s substantial rights.
In Dobbert v. Florida, the Supreme Court held
that “[e]ven though it may work to the disadvantage
of a defendant, a procedural change is not ex post
facto.” 432 U.S. 282, 293 (1977); see also Miller v.
Florida, 482 U.S. 423, 433 (1987), abrogated on other
grounds by Peugh v. United States, 133 S. Ct. 2072
(2013) (“[N]o ex post facto violation occurs if the
change in the law is merely procedural and does not
increase the punishment, nor change the ingredients
of the offence or the ultimate facts necessary to

103a
establish guilt.”). Applying Dobbert, the TCCA found
that the trial court merely applied a procedural rule
that had been amended after the commission of the
crimes in question. Pike, 378 S.W.2d at 926.
The law giving the prosecution the same number
of peremptory strikes as the defense was a procedural
rule that merely implicated the number of jurors the
prosecution could strike without cause. The law did
not effect a change in the quantum of punishment
attached to Petitioner’s crime. The Court finds that
the TCCA’s decision denying this claim was neither
contrary to, nor was it an unreasonable application of
clearly established law.
J. The Tennessee death penalty scheme
violates the Eighth Amendment to the
United States Constitution.
1. Tennessee’s death penalty scheme fails to
meaningfully narrow the class of death eligible
defendants.
2. The death penalty is imposed capriciously and
arbitrarily under the Tennessee statute
3. Execution by Tennessee’s protocol for lethal
injection would violate Petitioner’s rights under
the Eighth and Fourteenth Amendments
4. The death sentence is unconstitutional because
it infringes on Petitioner’s fundamental right to
life, and imposition of the death penalty is not
necessary to promote any compelling state interest.
5. The indictment returned by the Grand Jury was
unconstitutional
Petitioner contends that Tennessee’s death
penalty scheme is unconstitutional for the foregoing

104a
reasons. However, she has failed to cite any authority
holding the Tennessee Death Penalty Act
unconstitutional and the Court notes that the Sixth
Circuit has held that Tennessee’s death penalty
statute is constitutional. Workman v. Bell, 178 F.3d
759, 778 (6th Cir. 1998); see also Blystone v.
Pennsylvania, 494 U.S. 299, 305 (1990) (holding that
the Eighth Amendment is satisfied by a scheme that
mandates a death penalty if a jury finds one
aggravating circumstance and no mitigating ones or
none that outweigh it).
The TCCA rejected Petitioner’s allegations that
the death penalty scheme is unconstitutional, finding
that the TSC has repeatedly upheld Tennessee’s
proportionality review as meeting constitutional
standards, that Tennessee’s lethal injection protocol
is consistent with contemporary standards of
decency, and that the United States Constitution
does not require the state to charge aggravating
factors to be relied upon in the indictment. Pike, 2011
WL 1544207, at * 69–70. This decision is not contrary
to clearly established law; Petitioner is not entitled to
relief on this claim.
K. The cumulative effect of all the errors
which occurred during Petitioner’s trial
constituted a denial of her due process
rights.
Petitioner’s final claim alleges that the cumulative
effect of the errors that occurred during her trial
demonstrates a fundamental denial of due process of
law. This claim lacks merit.
The Supreme Court has not held that a district
court may look to the cumulative effects of trial
courts in deciding whether to grant habeas corpus

105a
relief. See Williams v. Anderson, 460 F.3d 789, 816
(6th Cir. 2006) (“[T]he law of this Circuit is that
cumulative error claims are not cognizable on habeas
because the Supreme Court has not spoken on this
issue. No matter how misguided this case law may be
it binds us.”); Moore v. Parker, 425 F.3d 250, 256 (6th
Cir. 2005) (“[W]e have held that, post-AEDPA, not
even constitutional errors that would not individually
support habeas relief can be cumulated to support
habeas relief.”); Scott v. Elo, 302 F.3d 598, 607 (6th
Cir. 2002) (“The Supreme Court has not held that
constitutional claims that would not individually
support habeas relief may be cumulated in order to
support relief.”); Lorraine v. Coyle, 291 F.3d 416, 447
(6th Cir. 2002) (“The Supreme Court has not held
that distinct constitutional claims can be cumulated
to grant habeas relief.”). As such, Petitioner is not
entitled to relief on this claim.
V. CONCLUSION
For the reasons stated above, the Court finds that
Petitioner is not entitled to relief under 28 U.S.C. §
2254 and her motion for partial summary judgment
(Doc. 45) will be DENIED. Respondent’s motion for
summary judgment (Doc. 42) will be GRANTED, and
the petition for a writ of habeas corpus (Doc. 19) will
be DENIED.
VI. CERTIFICATE OF APPEALABILITY
The Court must consider whether to issue a
Certificate
of Appealability (“COA”),
should
Petitioner file a notice of appeal. Under 28 U.S.C. §
2253(a) and (c), a petitioner may appeal a final order
in a habeas proceeding only if he is issued a COA,
and a COA may only be issued where a petitioner has
made a showing of the denial of a constitutional

106a
right. See 28 U.S.C. § 2253(c)(2). Where a claim has
been dismissed on the merits, a substantial showing
is made if reasonable jurists could conclude that the
issues raised are adequate to deserve further review.
See Miller-El v. Cockrell, 537 U.S. 322, 327, 336
(2003); Slack v. McDaniel, 529 U.S. 473, 484 (2000).
When a claim has been dismissed on procedural
grounds, a substantial showing is demonstrated when
it is shown that reasonable jurists would debate
whether a valid claim has been stated and whether
the court’s procedural ruling is correct. Slack, 529
U.S. at 484.
After reviewing each of Petitioner’s claims, the
Court finds that reasonable jurists could not conclude
that Petitioner’s claims are adequate to deserve
further review, nor would reasonable jurists debate
the correctness of the Court’s procedural ruling. As
such, because Petitioner has failed to make a
substantial showing of the denial of a constitutional
right, a COA will not issue.
A SEPARATE
ISSUE.

JUDGMENT

ORDER

WILL

107a
APPENDIX C
SUPREME COURT OF TENNESSEE
SUPREME COURT DISCRETIONARY APPEALS
Grants & Denials List
Monday, November 21, 2011
***
DENIALS
Style/
Appeal
Number

County
Trial
Judge

Appellate
Judge
Judgment

Nature
of
Appeal

Action

Rule
11

Denied
Applicat
ion of
Christa
Gail
Pike

Trial
Court
No.
***
Christa
Gail
Pike v.
State of
Tenness
ee
E200900016SC-R11PD

Knox
County
Crimin
al
Court

Williams,
J.,
Affirmed

Judge
Mary
Beth
Leibow
itz

(Order
filed
11-152011)

No.
68280
***

108a
APPENDIX D
IN THE COURT OF CRIMINAL APPEALS OF
TENNESSEE AT KNOXVILLE
(HEARD AT JACKSON)
No: E2009–00016–CCA–R3–PD
CHRISTA GAIL PIKE,
v.
STATE OF TENNESSEE.
April 25, 2011
Application for Permission to Appeal
Denied by Supreme Court
November 15, 2011.
Direct Appeal from the Criminal Court for Knox
County, No. 68280 Mary; Beth Leibowitz, Judge.
JOHN EVERETT WILLIAMS, delivered the opinion
of the Court, in which NORMA McGEE OGLE and
ALAN E. GLENN, JJ., joined.
OPINION
JOHN EVERETT WILLIAMS
The Petitioner, Christa Gail Pike, appeals as of
right the judgment of the Knox County Criminal
Court denying her petition for post-conviction relief.
A Knox County jury found the Petitioner guilty of
premeditated first degree murder and conspiracy to
commit first degree murder. The jury further found
two statutory aggravating circumstances: (1) “[t]he
murder was especially heinous, atrocious or cruel in
that it involved torture or serious physical abuse
beyond that necessary to produce death”; and (2)
“[t]he murder was committed for the purpose of
avoiding, interfering with or preventing a lawful

109a
arrest or prosecution of the defendant or another.”
T.C.A. § 39–13–204(i)(5), (6) (2006). The jury further
found that these two aggravating circumstances
outweighed mitigating circumstances beyond a
reasonable doubt. The jury then sentenced the
Petitioner to death. The Petitioner’s conviction and
sentence were affirmed on direct appeal by the
Tennessee Supreme Court. State v. Pike, 978 S.W.2d
904 (Tenn.1998), cert. denied, 526 U.S. 1147, 119
S.Ct. 2025, 143 L.Ed.2d 1036 (1999). On June 3,
1999, the Petitioner timely filed a pro se petition for
post-conviction relief. In 2001, the Petitioner advised
the trial court that she desired to withdraw her postconviction petition. In 2002, the lower court
dismissed the petition for post-conviction relief. The
Petitioner then sought to reinstate her postconviction petition. Litigation ensued, after which the
Tennessee Supreme Court ultimately determined
that the motion to vacate the dismissal order should
be granted and remanded the matter to the lower
court to reinstate the Petitioner’s post-conviction
petition. Pike v. State, 164 S.W.3d 257 (Tenn.2005).
Evidentiary hearings were conducted in January
2007, July 2007, and August 2008. On December 10,
2008, the post-conviction court entered an order
denying the Petitioner post-conviction relief. On
appeal to this court, the Petitioner presents a number
of claims that can be characterized in the following
categories: (1) the post-conviction court should have
recused itself; (2) the Petitioner’s trial and appellate
counsel were ineffective; (3) the Petitioner is
ineligible for the death penalty; and (4) the death
penalty is unconstitutional. Following a thorough
review of the record and the applicable law, we affirm
the judgment of the post-conviction court.

110a
Facts Underlying the Petitioner’s
Convictions
The following facts are excerpted from our
supreme court’s opinion affirming the Petitioner’s
conviction and sentence:
The proof presented by the State at the
guilt phase of the trial established that
on January 11, 1995, the [Petitioner],
Christa Gail Pike, a student at the Job
Corps Center in Knoxville, told her
friend Kim Iloilo, who was also a
student at the facility, that she intended
to kill another student, Colleen
Slemmer, because she “had just felt
mean that day.” The next day, January
12, 1995, at approximately 8:00 p.m.,
Iloilo observed [the Petitioner], along
with Slemmer, and two other Job Corps
students,
Shadolla
Peterson
and
Tadaryl
Shipp,
[the
Petitioner’s]
boyfriend, walking away from the Job
Corps center toward 17th Street. At
approximately 10:15 p.m ., Iloilo
observed [the Petitioner], Peterson, and
Shipp return to the Center. Slemmer
was not with them.
Later that night, [the Petitioner] went
to Iloilo’s room and told Iloilo that she
had just killed Slemmer and that she
had brought back a piece of the victim’s
skull as a souvenir. [The Petitioner]
showed Iloilo the piece of skull and told
her that she had cut the victim’s throat
six times, beaten her, and thrown
asphalt at the victim’s head. [The
Petitioner] told Iloilo that the victim

111a
had begged “them” to stop cutting and
beating her, but [the Petitioner] did not
stop because the victim continued to
talk. [The Petitioner] told Iloilo that she
had thrown a large piece of asphalt at
the victim’s head, and when it broke
into smaller pieces, she had thrown
those at the victim as well. [The
Petitioner] told Iloilo that a meat
cleaver had been used to cut the victim’s
back and a box cutter had been used to
cut her throat. Finally, [the Petitioner]
said that a pentagram had been carved
onto the victim’s forehead and chest.
Iloilo said that [the Petitioner] was
dancing in a circle, smiling, and singing
“la, la, la” while she related these
details about the murder. When Iloilo
saw [the Petitioner] at breakfast the
next morning, she asked [the Petitioner]
what she had done with the piece of the
victim’s skull. [The Petitioner] replied
that it was in her pocket and then said,
“And, yes, I’m eating breakfast with it.”
During a class later that morning, [the
Petitioner] made a similar statement to
Stephanie Wilson, another Job Corps
student. [The Petitioner] pointed to
brown spots on her shoes and said, “that
ain’t mud on my shoes, that’s blood.”
[The Petitioner] then pulled a napkin
from her pocket and showed Wilson a
piece of bone which [the Petitioner] said
was a piece of Slemmer’s skull. [The
Petitioner] also told Wilson that she had
slashed Slemmer’s throat six times and

112a
had beaten Slemmer in the head with a
rock. [The Petitioner] told Wilson that
the victim’s blood and brains had been
pouring out and that she had picked up
the piece of skull when she left the
scene.
Though neither Iloilo nor Wilson
immediately reported [the Petitioner’s]
statements to police, on the day after
the
murder,
January
13,
at
approximately 8:05 a.m., an employee of
the University of Tennessee Grounds
Department,
discovered
Slemmer’s
semi-nude, slashed, and badly beaten
body near the greenhouses on the
agricultural campus. He testified that
the body was so badly beaten that he
had first mistaken it for the corpse of an
animal. Upon closer inspection, he saw
the victim’s clothes and her nude breast
and realized it was the body of a human
female. He immediately notified law
enforcement officials.
Officers from the Knoxville Police
Department and the U.T. Police
Department were summoned to the
scene. Officer John Terry Johnson
testified at trial that the body he found
was lying on debris and was nude from
the waist up. Blood and dirt covered the
body and remaining clothing. The
victim’s head had been bludgeoned.
Multiple cuts and slashes appeared on
her torso. Officer Johnson stated that he
thought he was looking at the victim’s
face but he could not be sure because it

113a
was extremely mutilated. Johnson
removed all civilians from the area and
secured the scene surrounding the body.
As other officers arrived, they began
securing the crime area. As officers
discovered other areas of blood, articles
of clothing, footprints, and broken
foliage, the crime scene tripled in size,
eventually encompassing an area 100
feet long by 60 feet wide. The crime
scene was wet and muddy, and there
was evidence of a scuffle, with trampled
bushes, hand and knee prints in the
mud, and drag marks. A large pool of
blood was found about 30 feet from the
victim’s body.
The victim’s body was actually lying
face down on a pile of debris. When
officers turned the body over, they
discovered that the victim’s throat had
been slashed. A bloody rag was around
her neck. Detective Donald R. Cook, of
the
U.T.
Police
Department,
accompanied the body to the morgue.
He observed the body after it had been
cleaned and noticed that a five pointed
star in a circle, commonly known as a
pentagram, had been carved onto the
victim’s chest.
Randy York, a criminal investigator
with the Knoxville Police Department,
began investigating this case on
January 13, the day the victim’s body
was
discovered.
York
separately
interviewed the defendant and Shipp at
the Knoxville Police Department on

114a
January
14th.
Investigator
York
advised [the Petitioner] of her Miranda
rights, but she chose to waive them and
make a statement. [The Petitioner]
explained in detail how the killing had
occurred. [The Petitioner’s] statement
was tape-recorded and transcribed in
some forty-six pages. Copies of the
transcription were given to the jury, and
the jurors were allowed to listen to the
tape through individual headphones.
In her statement, [the Petitioner] said
that she and Slemmer had been having
problems for some time. [The Petitioner]
claimed to have awakened one night to
find Slemmer standing over her with a
box cutter. [The Petitioner] told
Investigator York that Slemmer had
been “trying to get [her] boyfriend” and
had been “running her mouth”
everywhere. [The Petitioner] said that
Slemmer had deliberately provoked her
because Slemmer realized that [the
Petitioner] would be terminated from
the Job Corps program the next time
she became involved in a fight or
similar incident.
[The Petitioner] claimed that she had
not planned to kill Slemmer, but she
had instead planned only to fight
Slemmer and let her know “to leave me
the
hell
alone.”
However,
[the
Petitioner] admitted that she had taken
a box cutter and a miniature meat
cleaver with her when she and the
victim left the Job Corps Center. [The

115a
Petitioner] said she had borrowed the
miniature meat cleaver, but refused to
identify the person who had loaned it to
her.
According to [the Petitioner], she asked
Slemmer to accompany her to the
Blockbuster Music Store, and as they
were walking, [the Petitioner] told
Slemmer that she had a bag of “weed”
hidden in Tyson Park. Though [the
Petitioner] refused to name the other
parties involved in the incident, she said
the group began walking toward the
U.T. campus. Upon arriving at the
steam plant on U.T.’s agricultural
campus, [the Petitioner] and Slemmer
exchanged words. [The Petitioner] then
began hitting Slemmer and banging
Slemmer’s head on her knee. [The
Petitioner] threw Slemmer to the
ground and kicked her repeatedly.
According to [the Petitioner], as she
slammed Slemmer’s head against the
concrete, Slemmer repeatedly asked,
“Why are you doing this to me?” When
Slemmer threatened to report [the
Petitioner] so she would be terminated
from the Job Corps program, [the
Petitioner] again repeatedly kicked
Slemmer in the face and side. Slemmer
lay on the ground and cried for a time
and then tried to run away, but another
person with [the Petitioner] caught
Slemmer and pushed her to the ground.
[The Petitioner] and the other person,
who [the Petitioner] referred to as “he,”

116a
held Slemmer down until she stopped
struggling, then dragged her to another
area where [the Petitioner] cut
Slemmer’s stomach with the box cutter.
As Slemmer “screamed and screamed,”
[the Petitioner] recounted how she
began to hear voices telling her that she
had to do something to prevent
Slemmer from telling on her and
sending her to prison for attempted
murder.
At this point [the Petitioner] said she
was just looking at Slemmer and “just
watching her bleed.” When Slemmer
rolled over, stood up and tried to run
away again, [the Petitioner] cut
Slemmer’s back, “the big long cut on her
back.” [The Petitioner] said Slemmer
repeatedly tried to get up and run. [The
Petitioner] recounted how Slemmer
bargained for her life, begging [the
Petitioner] to talk to her and telling [the
Petitioner] that if she would just let her
go, she would walk back to her home in
Florida without returning to the Job
Corps facility for her belongings. [The
Petitioner] told Slemmer to “shut up”
because it “was harder to hurt
somebody when they’re talking to you.”
[The Petitioner] said the more Slemmer
talked, the more she kicked Slemmer in
the face.
Slemmer asked [the Petitioner] what
she was going to do to her, at which
point [the Petitioner] thought she heard
a noise. [The Petitioner] left the scene to

117a
check out the surrounding area to make
sure no one was around. When she
returned, [the Petitioner] began cutting
Slemmer across the throat. When
Slemmer continued to talk and beg for
her life, [the Petitioner] cut Slemmer’s
throat several other times. [The
Petitioner] said that Slemmer continued
to talk and tried to sit up even though
her throat had been cut several times,
and that [the Petitioner] and the other
person would push her back on the
ground.
Slemmer attempted to run away again,
and [the Petitioner] threw a rock which
hit Slemmer in the back of the head.
[The Petitioner] stated that “the other
person” also hit Slemmer in the head
with a rock. When Slemmer fell to the
ground, [the Petitioner] continued to hit
her. Eventually [the Petitioner] said she
could hear Slemmer “breathing blood in
and out,” and she could see Slemmer
“jerking,” but [the Petitioner] “kept
hitting her and hitting her and hitting
her.” [The Petitioner] eventually asked
Slemmer, “Colleen, do you know who’s
doing this to you?” Slemmer’s only
response was groaning noises. At this
point, [the Petitioner] said she and the
other person each grabbed one of
Slemmer’s feet and dragged her to an
area near some trees, leaving her body
on a pile of dirt and debris. They left
Slemmer’s clothing in the surrounding
bushes. [The Petitioner] said the

118a
episode lasted “for about thirty minutes
to an hour.” [The Petitioner] admitted
that she and the other person had
forced the victim to remove her blouse
and bra during the incident to keep
Slemmer from running away. [The
Petitioner] also admitted that she had
removed a rag from her hair and tied it
around Slemmer’s mouth at one point to
prevent Slemmer from talking. [The
Petitioner] denied carving a pentagram
in the victim’s chest but said that the
other person had cut the victim on her
chest.
After disposing of Slemmer’s body, [the
Petitioner] and the other person washed
their hands and shoes in a mud puddle.
They discarded the box cutter, and [the
Petitioner] returned the miniature meat
cleaver to the person at Job Corps from
whom she had borrowed it. [The
Petitioner]
never
identified
that
individual.
[The
Petitioner]
told
Investigator York that the bloodstained
jeans she had worn during the incident
were still in her room. She said they
were covered in mud because she had
rubbed the mud from the bottom of her
shoes onto the jeans to conceal the
blood. [The Petitioner] also admitted to
Investigator York that she had
discarded two forms of identification
belonging to the victim and the victim’s
black gloves in a trash can at a Texaco
station on Cumberland Avenue. [The
Petitioner] gave Investigator York

119a
consent to search her room and then
accompanied him to the Job Corps
Center. From there [the Petitioner]
retraced her steps, describing what had
occurred on the night of the killing.
Investigator York testified that [the
Petitioner] eventually directed him to
the exact location where the victim’s
body was found.
After [the Petitioner’s] statement was
played for the jury, the State introduced
pictures of [the Petitioner] and Shipp
taken
at
the
Knoxville
Police
Department on the day the statement
was given, January 14, 1995, two days
after the murder. In the pictures, both
[the Petitioner] and Shipp were wearing
pentagram necklaces.
Mark A. Waggoner, an officer with the
Knoxville Police Department, testified
that he had retrieved a pair of black
gloves and two of Slemmer’s I.D. cards
from the Texaco station on Cumberland
Avenue. These items were also made
exhibits.
Another
officer,
Lanny
Janeway, used a chart to illustrate each
of the locations where blood or evidence
was found. Photographs of bloody
chunks of asphalt, blood drippings on
leaves, and pools of blood were
introduced into evidence. The bloody
piece of asphalt and the victim’s bloody
clothing were also introduced into
evidence.
Special Agent Raymond A. DePriest, a
forensic scientist employed by the

120a
Tennessee Bureau of Investigation,
testified that he had received blood
samples taken from the shoes and
clothing of [the Petitioner] and Shipp.
Those items that he determined had
human blood on them were sent to the
DNA unit. Margaret Bush, an employee
of
the
Tennessee
Bureau
of
Investigation assigned to the DNA unit,
testified that she had been unable to
perform a DNA analysis on the blood
taken from the shoes of [the Petitioner]
and Shipp, but she had determined that
the blood samples taken from the
clothing of both [the Petitioner] and
Shipp matched the DNA profile of the
victim.
Dr. Sandra Elkins, the Knox County
Medical Examiner, performed the
autopsy on the victim, who was later
identified by dental records as Colleen
Slemmer, a nineteen-year-old Job Corps
student. Dr. Elkins described the
victim’s body as covered with dirt and
twigs. Slemmer was nude from the
waist up [and] clothed only with jeans,
socks, and shoes. After removing the
victim’s clothing and cleaning the body,
Dr. Elkins had attempted to catalog the
slash and stab wounds on the victim’s
torso by assigning a letter of the
alphabet. There were so many wounds
that eventually Dr. Elkins decided to
catalog only the most serious and major
wounds. Dr. Elkins explained that to
catalog every wound she would have

121a
been required to go through the
alphabet again, and stay in the morgue
for “three days.” Eventually, Dr. Elkins
said she “basically threw up [her] hands
and just said, enumerable [sic] more
superficial slash wounds on the back,
arms and chest.” In addition, Dr. Elkins
said the victim had purple contusions on
her knees, indicating fresh bruising
consistent with crawling, and defensive
wounds on her right arm.
Dr. Elkins described the major slash
and stab wounds she had cataloged on
the victim’s back, arms, abdomen, and
chest. She found a six-inch gaping
wound across the middle of the victim’s
neck which had penetrated the fat and
muscles of the neck. In addition, Dr.
Elkins had found ten other slash
wounds on the victim’s throat. Other
slash wounds were on the victim’s face,
and Dr. Elkins observed what appeared
to be a pentagram carved onto the
victim’s chest. Because the area around
each wound was red in appearance, Dr.
Elkins concluded that the victim’s heart
had been beating when the wounds
were inflicted, and she said the victim
would not have been rendered
unconscious by any of the stab or slash
wounds.
Dr. Elkins determined that the victim’s
death was caused by blunt force injuries
to the head. The victim had suffered
multiple and extensive skull fractures.
From
the
autopsy,
Dr.
Elkins

122a
determined that the victim had
sustained a minimum of four blows to
her head; two to the left side of the
head, one over the right eye, and one in
the nose area. The right frontal area of
the victim’s skull had been fractured as
had the bridge of her nose. However, the
major wound, labeled as injury “W”,
involved most of the left side of the
victim’s head. Dr. Elkins said that this
injury, caused by blunt force to the left
side of the victim’s head while the right
side of the victim’s head was against a
firm surface, also had fractured the
right side of the skull and imbedded a
portion of the skull into the victim’s
brain. Dr. Elkins found small divots in
the victim’s skull containing black
particles from an asphalt chunk which
was later determined to have been used
to administer the blows. Finally, Dr.
Elkins testified that blood in the
victim’s sinus cavity indicated she had
been alive and probably conscious when
the injuries were inflicted.
During her testimony, Dr. Elkins
utilized the victim’s skull to describe the
injuries. She testified that in order to
determine the cause of death, it was
necessary to remove the head of the
victim and have the skull prepared by
Dr.
Murray
Marks,
a
forensic
anthropologist at the University of
Tennessee. She explained that she had
removed the top of the victim’s skull in
order to remove the brain. Embedded

123a
inside the victim’s brain as a result of
the blunt force were portions of the
victim’s skull. Dr. Elkins removed those
embedded pieces and forwarded them to
Dr. Marks. Dr. Marks reconstructed the
skull, fitting those loose portions into
the left side area of the skull. However,
those pieces had not completely filled
one area on the left side of the victim’s
skull. Dr. Elkins then showed the jury a
piece of skull that had been given to her
shortly
before
the
trial
and
demonstrated that it fit perfectly into
the remaining area of the victim’s skull.
The piece of skull utilized by Dr. Elkins
had been taken from the pocket of a
jacket which witnesses identified as
belonging to [the Petitioner].
[The Petitioner’s] jacket had been
turned over to law enforcement officials
by Job Corps employees. Robert A.
Pollock,
orientation
specialist
at
Knoxville Job Corps, testified that he
had spoken with [the Petitioner] on
January 13, 1995, concerning a
misplaced I.D. card. After [the
Petitioner] left his office, Pollock noticed
a black leather jacket hanging on the
chair where she had sat. The jacket had
been hanging on the chair when Pollock
locked the room at approximately 4:00
p.m. on January 13th, and it was still
there when he returned at 7:30 a.m. on
January 17th. Because he had heard
over the weekend that [the Petitioner]
was a suspect in this murder

124a
investigation,
Pollock
immediately
turned the jacket over to the Job Corps’
Safety and Security Captain, William
Hudson. Hudson called the Knoxville
Police Department and turned the
jacket over to Officer Arthur Bohanan
when he arrived a short time later.
Officer Bohanan identified the jacket,
and it was introduced into evidence. He
testified that he had discovered a small
piece of bone in the inside pocket of the
jacket and had immediately taken it to
Dr. Marks at the University of
Tennessee.
Dr.
Marks
testified
concerning the process by which the
victim’s skull had been prepared and
again demonstrated that the bone
fragment given to him by Officer
Bohanan fit perfectly into the bone
reconstruction of the skull of the victim.
Following the introduction into evidence
of the victim’s skull, numerous
photographs, and items of the victim’s
clothing, the State rested its case-inchief.
Dr. Eric Engum, a clinical psychologist,
testified for the defense and stated that
he had conducted a clinical interview
and had administered a battery of tests
to the [Petitioner]. Dr. Engum described
[the Petitioner] as an “extremely bright
young woman.” Dr. Engum explained
that [the Petitioner] “is excellent in
problem solving, reasoning, analysis,
ah, can pay attention, sustains
concentration, can sequence, ah, has

125a
excellent receptive and expressive
language skills.” [The Petitioner] had a
full scale IQ score of 111 which is in the
77th percentile and which was
characterized as “remarkable” by Dr.
Engum since she had only completed
the ninth grade. According to Dr.
Engum, the tests unequivocally showed
that [the Petitioner] had no symptoms
of brain damage and that she was not
insane. However, Dr. Engum concluded
that the [Petitioner] suffers from a very
severe borderline personality disorder
and exhibits signs of cannabis
(marijuana) dependence and inhalant
abuse. He testified that the [Petitioner]
is not so dysfunctional that she needs to
be institutionalized, but instead opined
that she has a multiplicity of problems
in interpersonal relationships, in
controlling her behavior, and in
achieving vocational and academic
goals.
During direct examination, Dr. Engum
opined that the [Petitioner] had not
acted with deliberation or premeditation
in killing Slemmer. Instead Dr. Engum
said she had acted in a manner
consistent with his diagnosis of
borderline personality disorder; she had
lost control. He explained that she had
danced around when relating the
murder to Iloilo because of the
emotional release she experienced from
having assured through the killing of
Slemmer that she could maintain her

126a
relationship
with
Shipp.
When
questioned about the piece of skull
found in the [Petitioner’s ]coat, Dr.
Engum explained that the [Petitioner]
actually has no identity and the action
of taking and displaying a piece of
Slemmer’s skull to her friends was the
[Petitioner’s] way of getting recognition,
“no
matter
how
distorted”
the
recognition.
On cross-examination, Dr. Engum
stated that there was no question that
the [Petitioner] had killed Slemmer. He
reiterated that in his opinion that once
the attack began, [the Petitioner] had
literally lost control. However, Dr.
Engum admitted that [the Petitioner]
had deliberately enticed Slemmer to the
park, carved a pentagram onto
Slemmer’s chest, bashed Slemmer’s
head against the concrete, and beaten
Slemmer’s head with the asphalt. Dr.
Engum agreed that [the Petitioner’s] act
of carrying weapons with her indicates
deliberation. Finally, Dr. Engum
conceded that [the Petitioner] had time
to calm down and consider her actions
when she left Slemmer during the
attack to investigate a noise and
determine whether anyone else was in
the area.
William Bernet, medical director of the
psychiatric hospital at Vanderbilt
University, testified that he had
reviewed the statements of the
[Petitioner] and Kimberly Iloilo and the

127a
reports of Dr Engum, Dr. Elkins, and
Dr. Marks. He concluded that although
there were satanic elements in this
crime, the pattern was that of an
adolescent dabbling in Satanism. He
then described the phenomenon of
collective aggression, whereby a group
of
people
gather
and
become
emotionally aroused and the end result
is that they engage in some kind of
violent behavior. On cross-examination,
Dr. Bernet admitted that he had spoken
neither with the [Petitioner] nor any of
the other witnesses. Dr. Bernet
admitted that he did not have enough
information to offer an expert opinion as
to whether [the Petitioner] acted with
intent or premeditation in killing the
victim.
Based on this evidence offered during
the guilt phase of the trial, the jury
found [the Petitioner] guilty of first
degree murder and conspiracy to
commit first degree murder.
In the sentencing phase of the trial, the
State relied on the evidence presented
at the guilt phase and presented no
further
proof.
The
defense,
in
mitigation, called Carrie Ross, [the
Petitioner’s] aunt as a witness. Ross
testified that the [Petitioner] had
experienced no maternal bonding
because she was premature and was
raised by her paternal grandmother
until she died in 1988. Ross said that
[the Petitioner’s] family has a history of

128a
substance abuse and that [the
Petitioner’s] maternal grandmother was
an alcoholic who was verbally abusive to
[the Petitioner]. Following the death of
[the Petitioner’s] paternal grandmother,
[the Petitioner] was shuffled between
her mother and father. According to
Ross, [the Petitioner’s] mother’s home
was very dirty. [The Petitioner’s]
mother set no rules for her, and on the
occasions that [the Petitioner] had
visited Ross, the [Petitioner] had
behaved as a “little girl,” playing Barbie
and dress-up with her eleven-year-old
cousin.
On cross-examination, Ross admitted
that she had previously described [the
Petitioner] as a pathological liar and
that she had been afraid to allow [the
Petitioner] to associate with her own
children. Ross also admitted that [the
Petitioner] had been out of control since
she was twelve years old.
Glenn Pike, the [Petitioner’s] father,
testified that he had kicked the
[Petitioner] out of his house twice, the
last time in 1989. He admitted that he
had signed adoption papers for the
[Petitioner] prior to her eighteenth
birthday. On cross-examination, he
admitted that he had forced [the
Petitioner] to leave his home in 1989
because there had been an allegation
that the [Petitioner] had sexually
abused his two-year-old daughter from
his second marriage. According to her

129a
father, [the Petitioner] had been
disobedient,
dishonest,
and
manipulative when she had lived with
him.
The [Petitioner’s] mother, Carissa
Hansen, a licensed practical nurse,
testified that [the Petitioner] had lived
with her 95 percent of the time since
her paternal grandmother’s death.
Hansen admitted that she had smoked
marijuana with the [Petitioner] in order
to “establish a friendship.” Hansen
related that the [Petitioner] had
attempted suicide by taking an overdose
shortly after the death of her paternal
grandmother. Hansen also testified that
one of her boyfriends had whipped [the
Petitioner] with a belt. Hansen had the
boyfriend arrested.
On cross-examination, Hansen admitted
that [the Petitioner’s] behavior had been
problematic for years. The [Petitioner]
had begun growing marijuana in pots in
her home at age nine. After threatening
to run away from home and live on the
street, [the Petitioner] had been allowed
to have a live-in boyfriend at age
fourteen. Hansen admitted that [the
Petitioner] had wielded a “butcherknife”
against the boyfriend, who had been
arrested for whipping her. Hansen also
said [the Petitioner] had lied to her and
stolen from her on numerous occasions
and had quit high school. Hansen
conceded that [the Petitioner] had been
out of control since she was eight years

130a
old. Following Hansen’s testimony, the
defense rested its case.
In rebuttal, the State presented the
testimony of Harold James Underwood,
Jr., a University of Tennessee police
officer who was assigned to secure the
crime scene on January 13, 1995.
Underwood
testified
that
the
[Petitioner] came to the scene with
three to five other females between four
and five p.m. that day. [The Petitioner]
asked Underwood why the area had
been marked off and questioned him
concerning the identity of the victim
and whether or not the police had any
suspects. None of the other females
spoke during the fifteen minutes the
group was there. Underwood said [the
Petitioner] appeared amused and
giggled and moved around. Underwood
noticed that [the Petitioner] was
wearing an unusual necklace in the
shape of a pentagram. After learning at
roll call on January 14, 1995, that the
victim of the murder had a pentagram
carved on her chest, he reported [the
Petitioner’s] strange behavior and
unusual necklace to his superior
officers.
Based on the proof submitted at the
sentencing hearing, the jury found the
existence
of
the
following
two
aggravating circumstances beyond a
reasonable doubt: (1) “[t]he murder was
especially heinous, atrocious or cruel in
that it involved torture or serious

131a
physical abuse beyond that necessary to
produce death;” and (2) “[t]he murder
was committed for the purpose of
avoiding, interfering with or preventing
a lawful arrest or prosecution of the
defendant or another.” T.C.A. § 39–13–
204(i)(5) and (6) (1997 Repl .). In
addition, the jury found that the State
had proven that the aggravating
circumstances
outweighed
any
mitigating circumstances beyond a
reasonable doubt. As a result, the jury
sentenced the [Petitioner] to death by
electrocution. The trial court entered a
judgment in accordance with the jury’s
verdict and the Court of Criminal
Appeals affirmed.
Pike, 978 S.W.2d at 907–14.
Proof at the Post–Conviction Evidentiary
Hearing
At the post-conviction hearing, the Petitioner
presented numerous witnesses in support of her case.
First, Carissa Henson, the mother of the Petitioner,
testified that, at the time of the Petitioner’s arrest,
Ms. Henson had been living in Cedar Grove, North
Carolina. She stated that lead counsel represented
the Petitioner and that she had spoken with him on
the telephone and had met with him in Knoxville.
Ms. Henson recalled meeting with lead counsel on
only two occasions prior to trial, having one meeting
in Knoxville and one meeting in Raleigh, North
Carolina. However, Ms. Henson testified that she also
spoke with Dr. Diana McCoy and Barry Rice,
members of the defense team. Further, she explained
that she had lunch with lead counsel and the other
members of the defense team during the trial.

132a
Ms. Henson testified that, during the guilt phase
of the trial, she was the only family member present.
However, during the penalty phase, Ms. Henson’s
husband, Gerard Hensen; the Petitioner’s biological
father, Glenn Pike; and the Petitioner’s aunt, Carrie
Ross, were also present. Ms. Henson, Glenn Pike, and
Carrie Ross testified during the penalty phase. Ms.
Henson testified that she did not learn that she was
going to testify until the second week of the trial. She
stated that she was advised that “they were going to
make the family look bad because that would help
[the Petitioner’s] case.” Ms. Henson explained, “[Lead
counsel and co-counsel] told us to make it look as bad
as we could, to exaggerate anything bad that was
wrong with our family because the jury would—the
jury would look at [the Petitioner] and think, ‘The
poor girl, she grew up in a family like this; no wonder
she turned out the way she did.’ So that’s what we
did.”
Ms. Henson testified that she married Glenn Pike
in 1975, and that the Petitioner was born in March
1976. Ms. Henson stated that the Petitioner had an
older half-sister, Alicia. She testified she and Glenn
Pike were married for two years, were divorced for a
year, and then were remarried for two more years.
The family lived in Beckley, West Virginia.
Ms. Henson, a licensed practical nurse, explained
that, while pregnant with the Petitioner, she worked
the evening shift on a psychiatric unit. One evening,
an alcoholic was admitted with delirium tremens.
The patient “threw [Ms. Henson] through some
double swinging doors and [she] landed on a supply
cart....” Ms. Henson began leaking amniotic fluid
after this incident and was not permitted to work.
Ms. Henson testified that the Petitioner was born
prematurely via Caesarean section. She was born

133a
with a condition known as hyaline membrane disease
where the lungs are not fully developed and had
bilateral hip dysplasias, which occurs when the hip
sockets are not fully formed. The Petitioner was
taken to Charleston Area Medical Center neonatal
intensive care unit where she remained hospitalized
for two weeks.
In 1982, Ms. Henson moved to North Carolina but
returned to West Virginia for two years to assist her
ailing mother. After Ms. Henson’s mother died in
1985, she moved back to North Carolina. Ms. Henson
explained that her move was due to her marriage to
Danny Thompson.
Ms. Henson testified that “during their growingup years,” the Petitioner and her half-sister, Alicia,
spent a lot of time with their grandmother. She
explained that when they moved to North Carolina,
both girls were “really unhappy” and that both girls
“ended up going back to West Virginia.” The
Petitioner moved back to North Carolina when she
was in the fourth or fifth grade.
Ms. Henson testified that her oldest daughter,
Alicia, got pregnant when she was fifteen years old.
After the baby was born, Alicia and her fiance, Bryan
Hammond, moved to North Carolina and lived with
Ms. Henson. Alicia, her baby, and Hammond lived in
Ms. Henson’s home for two years. Ms. Henson
testified that she was separated from Danny
Thompson during this time period.
Ms. Henson testified that she had a relationship
with Steve Kyaw when the Petitioner was twelve
years old. She stated that the Petitioner never got
along with Steve Kyaw. On one occasion, they went to
court because Steve Kyaw “punched” the Petitioner.
Ms. Henson denied knowledge of any other incidents

134a
of abuse by any of the Petitioner’s other stepfathers.
Ms. Henson later married Gerard Henson. After
this marriage, Ms. Henson learned that the
Petitioner was pregnant. Ms. Henson testified that
she also learned that the Petitioner was using
cocaine. Ms. Henson told the Petitioner that, if she
had the baby, she would have to get a job. Ms.
Henson testified that the Petitioner had an abortion.
She stated that did not know the identity of the
baby’s father. Ms. Henson also testified that she had
smoked marijuana with the Petitioner and her
friends on occasion when the Petitioner was
seventeen years old. Ms. Henson denied that the
Petitioner was pregnant at this time and denied that
she encouraged the use of marijuana to develop the
Petitioner’s appetite.
Ms. Henson testified that, when the Petitioner
was in the third grade, the Petitioner took an
overdose of Tylenol. The Petitioner was placed in
outpatient psychiatric treatment, and Ms. Henson
was advised that the Petitioner was “depressed.” The
psychiatrist prescribed medicine that “made [the
Petitioner] feel worse instead of better so she didn’t
take them.” The therapist agreed to allow the
Petitioner to discontinue the medication and
eventually discharged her from treatment. However,
Ms. Henson added that “over the course of the years,
we saw therapists, psychologists after that.”
Ms. Henson testified that the Petitioner reported
being raped after school one day. This incident
occurred during the same time period as the
Petitioner’s suicide attempt. Ms. Henson stated that,
after being informed by the school about this
incident, she did not observe anything unusual about
the Petitioner. Ms. Henson recalled that Claude
Davis was arrested for the incident, but the

135a
Petitioner was not able to identify him in the lineup
so he was not charged. Ms. Henson also testified that
the Petitioner reported being sexually molested when
she sixteen years old. Ms. Henson stated that the
Petitioner said she was walking to the store when a
man grabbed her, pulled her into the woods, and
sexually molested her. Ms. Henson could not recall
whether this incident involved penetration.
Ms. Henson testified that the Petitioner held
various jobs, including positions at Waffle House and
a steak house. She stated that the Petitioner dated a
homeless young man, Brian Wilson, who lived at the
Henson residence for a period of time. Ms. Henson
stated that Brian Wilson did not live with them long
because he was unable to obtain employment and
was very sloppy. Ms. Henson and her husband made
him leave. When Brian Wilson moved out of their
home, the Petitioner moved out as well. The
Petitioner and Brian Wilson rented a trailer together.
Ms. Henson testified that the Petitioner
repeatedly ran away from school and home and that
the Petitioner skipped school habitually. Ms. Henson
testified that the Petitioner lived in a group facility
on two different occasions. When the Petitioner was
in the tenth grade, she was sent to Swannoa, a
juvenile facility, for “about a year.” After her return
from Swannoa, the Petitioner became interested in
the Job Corp Program. The Petitioner advised her
mother and stepfather that the Job Corp Program
would enable her to get her GED and would train her
to be a nursing assistant. Ms. Henson and her
husband decided to allow the Petitioner to participate
in the Job Corp Program, and the Petitioner arrived
there during the fall of 1994.
Ms. Henson testified that she visited the
Petitioner at the Job Corp Program, meeting several

136a
of the Petitioner’s friends and touring the school and
the dormitory. Ms. Henson described the dormitories
as “dirty.”
There was graffiti painted on the walls.
There was blood on the walls, and [the
Petitioner] told me that there had been
a boy stabbed in the bathroom like the
weekend before, I think, and the blood
was still there. And that’s when we
tried to talk [the Petitioner] into coming
home with us, but she wanted to stay.
Ms. Henson reported that, when the Petitioner
was home for Christmas, she told her that a girl had
been threatening her. The Petitioner told Ms. Henson
that this girl would be “hovering over her bed at
night with a knife or something threatening her.” The
Petitioner also told Ms. Henson that Tadaryl Shipp
was her friend and would protect her. Ms. Henson
testified that the Petitioner was not afraid to go back
to the Job Corp Program.
On cross-examination, Ms. Henson did not deny
that the Petitioner’s life had been traumatic. She did
deny, however, that there was an incident in which
the Petitioner alleged that she had been sexually
abused and that Ms. Henson had observed the blood
on the Petitioner’s person. Ms. Henson testified that
her father, Chris Fotos, owned a meat packing plant
and that the petitioner would have seen animals
being slaughtered and processed.
Ms. Henson related an incident during which a
man named Kenny Clyde telephoned her and told her
that he was going to rape her. Ms. Henson’s husband
searched for him but could not find him. The
Petitioner and a friend found him in the McDonald’s
parking lot and “beat him up with a stick.” Ms.

137a
Henson did not dispute that the Petitioner was
“always in some sort of trouble.” She also
characterized the Petitioner as “having had a bad
temper.” Ms. Henson described their home as a
“continuous battle zone.” She added that the
Petitioner was notorious for lying. Regarding the
incident with Steve Kyaw, Ms. Henson admitted that
the Petitioner had chased Steve Kyaw with a butter
knife. Ms. Henson related that the Petitioner’s friend,
Breanna, moved in with them for a period of time.
Ms. Henson stated that Breanna, who came from an
abusive home, and the Petitioner argued about
something and that the Petitioner “beat Breanna up
and pushed her down the stairs.” After this
altercation, Breanna moved out of their home.
Ms. Henson reported that the Petitioner brought
some crystals home with her on her Christmas break
from the Job Corp Program. The Petitioner told her
that Tadaryl Shipp “could make the clouds move and
make the sky open up” with the crystals. Ms. Henson
could not recall making a previous statement
affirming that the Petitioner had told her that she
was involved in a WICCA group. Ms. Henson
admitted that she was aware that the Petitioner had
a tattoo of the devil on her chest; however, she
described the tattoo as a “cute little cartoon” and not
as a wicked devil.
Gerard Henson, the Petitioner’s stepfather,
testified that he married Carissa Henson in 1992. Mr.
Henson testified that entering the Job Corp Program
was the Petitioner’s idea. Mr. Henson and his wife
visited the Petitioner at the Job Corp, but he was not
permitted to enter the dormitory because he was a
male. Mr. Henson described the Petitioner as “open
and friendly.” Mr. Henson stated that he did not
testify at the Petitioner’s trial.

138a
Mr. Henson denied making statements that the
Petitioner was out of control or that the Petitioner
had pushed her friend Breanna down the stairs. He
admitted that he made a statement that the
Petitioner liked the attention she received as a result
of her behavior.
Carrie Ross, the Petitioner’s aunt, stated that she
testified at the Petitioner’s 1996 trial. At that time,
Ms. Ross was employed as an intensive care unit
nurse. She was currently certified in neonatal
intensive care. Ms. Ross testified that, at the time of
the Petitioner’s birth, she worked in the pathology
department as a histology technician and had not yet
attended nursing school. In 1990, Ms. Ross earned
her bachelor of science degree in nursing. When
questioned about the circumstances of the
Petitioner’s birth, Ms. Ross stated that the Petitioner
was born via caesarean section and had respiratory
arrest. The Petitioner was moved to a neonatal
intensive care unit at a different hospital where she
was placed on a ventilator for three to four days.
Ms. Ross testified that lead counsel visited her at
work to ask her for background information on the
Petitioner. Ms. Ross also met with Dr. McCoy a few
months before trial. Ms. Ross stated that she was not
subpoenaed as a witness but that “[lead counsel and
cocounsel] suggested sort of that I be here.”
Ms. Ross stated that she grew up in Beckley, West
Virginia, and confirmed that her parents were Chris
and Zola Fotos. She further confirmed that she had
an aunt named Norma Privett. Ms. Ross stated that
Norma Privett had often babysat her and her sister,
Carissa Henson. Ms. Ross described Norma Privett as
“abusive.” She explained:
She was always very nice to us when my

139a
mother was around. But as soon as she
was left to babysit us, she would do
things that ... she would pull me around
by the hair ... literally, drag me through
the house by my hair and very abusive
personality, yes.
Ms. Ross testified that Norma Privett also babysat
the Petitioner and her sister, Alicia. Eventually,
Norma Privett stopped babysitting the Petitioner
because Privett “was very abusive” and because Ms.
Ross informed her sister of the abuse she suffered as
a child.
Chris Fotos, the father of Ms. Ross and Ms.
Henson, owned a butcher shop and slaughter house.
Ms. Ross and her sister spent a lot of time at their
father’s business, and this was not considered
unusual. Ms. Ross testified that her father was
addicted to Talwin for a long period of time. She
stated that, while on the Talwin, her father “had no
concept of who he was, where he was. He was just out
of touch with reality.” Ms. Ross related that he once
pulled a gun on her. She related that, if someone
“crossed” her father, “he would sort of bluster and
threaten to kill them.” Ms. Ross also related that her
father was investigated by the Internal Revenue
Service. Related to that investigation, her father took
a gun into a federal courtroom and told the judge that
he had the gun “to unseat him.”
Ms. Ross testified that her mother was an
alcoholic. She explained that her mother was very
loving and nurturing toward Alicia. However, her
mother resented having the Petitioner at her home.
Ms. Ross explained that Alicia was the first
grandchild and that, when the Petitioner was born,
her mother’s alcoholism was getting worse and she
was drinking more. She explained that her mother

140a
was angry at Carissa for becoming pregnant with the
Petitioner.
Ms. Ross testified that her sister, Carissa Henson,
also threatened to harm people. She related that her
sister would tell others that “she was going to whip
their—butt.” Ms. Ross explained that it was the
accepted “cultural thing” that violence would solve
“everything,” “[t]he Hatfields and McCoys.” Ms. Ross
related that, when they were teenagers, she and her
sister would sneak into bars, smoke marijuana, skip
school, and “do whatever we could find to do, drugs,
alcohol, whatever.” Ms. Ross stated that she would
now describe her sister as an alcoholic. She also
described her sister as “very immature and
irresponsible.” Ms. Ross testified that she raised
Alicia during the time that her sister was married to
Danny Thompson because he did not like children.
However, Ms. Ross stated that she could not afford to
raise both Alicia and the Petitioner. Ms. Ross
commented that “[Carissa’s] children were never
[Carissa’s] first priority.” She explained that her
sister put “men” first and that Carissa Henson had
been married five times.
Ms. Ross testified that “there was always a
problem with [the Petitioner], because [the
Petitioner] didn’t seem to understand when you
would tell her things.” Ms. Ross stated that the
Petitioner was a very difficult child to watch. She
stated that the Petitioner “never could understand
what the word ‘no’ meant.” Ms. Ross testified that the
Petitioner “had a very flat affect,” explaining that
“she showed little or no emotion.” Ms. Ross recalled
an incident when the Petitioner was in the first grade
and drew a picture of a penis. Ms. Ross related that
the Petitioner’s teacher reported that the Petitioner
had been drawing pornographic pictures in class and

141a
that there was a recommendation that the Petitioner
see a counselor.
Ms. Ross testified that the entire family thought
that the Petitioner’s joining the Job Corp Program
was a good way for her to straighten out her life.
However, Ms. Ross stated that, during the
Petitioner’s trip home for Christmas, the Petitioner
indicated to her that she was afraid to return to the
Job Corp Program. The Petitioner remarked, “Well, I
want everybody to be proud of me, but people get hurt
there.” Ms. Ross stated that the Petitioner’s family
would not have approved of the Petitioner’s
relationship with Tadaryl Shipp because he was
African–American.
Dr. Jonathan Henry Pincus, an expert in
neurology, testified that he was retained to examine
the Petitioner in March 2001. Dr. Pincus reviewed
her history and data, which was given to him. Dr.
Pincus identified the components of his examination
as: (1) the Petitioner’s history; (2) a physical
neurological examination; (3) neuropsychological
testing; (4) tests of brain functions including an EEG;
and (5) tests of the brain’s structure, including an
MRI. Dr. Pincus also conducted a physical
examination of the Petitioner. Dr. Pincus reported
that the physical examination was normal, “but there
were certain abnormalities that I think can only be
characterized as minor.” Specifically, Dr. Pincus
stated that “there was generalized hyperreflexia, that
is to say her deep tendon reflexes were too active.” He
also noted that “[t]here was spooning of her
outstretched hands,” explaining that “her fingers
extended at the metacarpal phalangeal joint in that
manner.” He noted that this was a “sign that there is
something not quite right about the basal ganglia ...
which are gray matter masses at the center of the

142a
brain that influence movement and to some degree
thinking.” The Petitioner also could not hold her
fingers still. Dr. Pincus remarked that this also
signaled that the basal ganglia were not working
properly. Dr. Pincus testified that “there was a
positive nuchocephalic reflex.” He explained that this
meant that “there is an interruption of fibers that are
coming from the motor area—supplementary motor
areas of the brain stem, possibly at the level of the
basal ganglia....” Based on these observations, Dr.
Pincus concluded that “there was subcortical
dysfunction involving the basal ganglia and possibly
the thalamus.” Dr. Pincus further noted that the MRI
“showed an abnormality that was just lateral to the
ventricle in the frontal lobe.” Dr. Pincus stated that
“my
physical
examination
with its
minor
abnormalities, the MRI, and the EEG are all pointing
to the same place.”
Dr. Pincus testified that the MRI revealed a small
heterotopia. He explained that the brain is formed
during fetal development. A heterotopia is caused by
clumps of gray matter being located in the wrong part
of the brain. He attributed the heterotopia to “some
maternal factor. The mother was exposed to radiation
or she was ill .” He stated that the most common
cause of the heterotopia was a mother’s exposure to
alcohol. Dr. Pincus testified that mental retardation
and epilepsy are associated with a heterotopia. Dr.
Pincus related that this affected the frontal lobes and
explained that a person could have an IQ of 120 or
130 and be a “social imbecile” due to frontal lobe
disease. He stated that the Petitioner’s “frontal lobes
[are not] put together properly.” Dr. Pincus related
that it was significant that the Petitioner’s
heterotopia was visible on the MRI because most are
invisible. He stated that an important feature of the

143a
frontal lobes is “moral and ethical standards.” He
explained that “human beings are not born with an
ethical and moral sense.” “[You are] born with a
capacity to develop one, but they must be exposed to
the right influences in order for that to happen.”
Dr. Pincus stated that the Petitioner had
previously been diagnosed with epilepsy but that she
no longer had epilepsy. He added that “people
outgrow epilepsy.” He explained that, at birth, the
brain is almost completely unmyelinated. Myelin is a
fatty substance that insulates nerves. He stated that
the last part of the brain to become myelinated is the
frontal lobe and that does not happen fully until a
person’s early twenties. Dr. Pincus related that an
MRI was done on April 2, 2001, and the EEG was
done when the Petitioner was fourteen months old.
He stated that based on his assessment, the
Petitioner had a damaged brain. Dr. Pincus testified
that the fact that Dr. Engum had previously found
that there was no brain damage did not negate or
contradict his findings. He explained that the area in
which the Petitioner’s heretopia was located was
“notoriously difficult to test.”
Dr. Pincus stated that a common finding in his
examination of convicted murderers is the “big
triumvirate of brain damage, history of abuse, and
presence of mental illness.” Dr. Pincus stated that the
Petitioner had a history of abuse. He explained that
the Petitioner self-reported abuse, that there were
scars present on her body, and that verification was
made through interviews with the Petitioner’s family
members. Dr. Pincus also reported that the Petitioner
had been raped by a neighbor. The incident involved
the neighbor inserting sticks into her vagina and
having his dog lick her genitals. The Petitioner
reported the incident to her sister and mother, but

144a
neither believed her. Dr. Pincus stated that the
Petitioner reported “boxes of pornography, sadistic
pornography” in the home. She reported incidents of
“wrestling” with her mother’s boyfriend when she
was thirteen or fourteen years old. Dr. Pincus stated
that the Petitioner’s mother acknowledged that there
were pornographic videotapes but explained that
“[a]ll men have those.” The Petitioner reported an
incident where her mother’s boyfriend “twist[ed] her
nipples painfully,” and, in response, the Petitioner
“twist[ed] his scrotum....” The Petitioner’s mother
denied that this happened. According to the
Petitioner, this same boyfriend “slugged [the
Petitioner] in full view of her neighbor.” Criminal
charges were filed as a result of this incident but
were later dropped as a result of a negotiation that
the boyfriend would move out of the home. Dr. Pincus
stated that the Petitioner reported yet another rape
when she was seventeen. The Petitioner reported
that Kenny Clyde began stalking her and later
sexually assaulted her. The Petitioner searched for
Kenny Clyde and beat him with a stick. Dr. Pincus
noted that this incident should have been a red flag
that the Petitioner could not control herself. Dr.
Pincus related that this incident was a sign that the
Petitioner’s frontal lobes were not working.
Dr. Pincus stated that he found evidence to
confirm Dr. Kenner’s diagnosis of bipolar disorder.
Specifically, he stated:
[T]here’s spending. She was working at
one point two full-time jobs and a parttime job, and what did she spend money
on? Candles, trinkets, shoes. She didn’t
have food! She would go days without
eating. She would see other people
eating.
Sometimes
the
mother’s

145a
boyfriend would come in with food and
eat it with the mother and not give it to
her. She had no appetite. That’s what
happens during periods of mania.
She would go for two or three or four
days without sleeping or sleeping
[ninety] minutes here and [ninety]
minutes there, sleeping on the ground,
sleeping on the street. And it didn’t
bother her. Didn’t wash ... she used
drugs; she used alcohol. Those are signs
of bipolar. She had periods of lots of
sexual activity, and then long periods
when she would be depressed of none,
where she couldn’t get out of bed for
[fourteen to eighteen] hours a day and
just would sit there.
She lost a lot of school time because of
depression.... Her weight fluctuated.
She’s been from 92 to 170.... That kind
of weight fluctuation occurs in people
with bipolar disorder.
....
And she has periods when she can’t get
out of bed, and she can’t move, and she’s
[fourteen to eighteen] hours a day in
bed. And she’s feeling crying, and she
wants—is suicidal, two suicide attempts
by over dosage. And a family history ...
it is a hereditary disease, bipolar illness.
Oh my God, that family history on the
mother’s side is spectacular! Maternal
grandfather ... was addicted to Talwin
by injection.... The [grand]mother ... was
no great shakes either. She was an

146a
alcoholic who grew marijuana, died of
cirrhosis of the liver.
And there’s a maternal great aunt,
Norma, who attempted murder.... [A]nd
there was a great aunt, Geraldine, who
God spoke to. Maternal great ... great
aunt, Nola, who went to a mental
hospital.
Dr. Pincus stated that the Petitioner’s sister,
Alicia, was not brain damaged, although she suffered
through the abuse. He stated that one of the
components was not enough to be dangerous. He
explained that if you put these things together, i.e.,
the abuse, the brain damage, and the mental illness,
you have a dangerous person.
Next, Dr. Pincus discussed the events preceding
January 12, 1995. He explained that the Petitioner
had not slept well for the three days prior to the 12th.
The Petitioner was in an “excited period” and was
very irritable and angry. The victim had reportedly
been calling the Petitioner and saying that the
Petitioner was a whore and a slut. Dr. Pincus stated
that it was intolerable for the Petitioner to hear these
words. Dr. Pincus opined that the Petitioner did not
start out wanting to kill the victim. In his view, the
Petitioner “lost control of herself and she did want to
kill her and did do it.” Dr. Pincus concluded that:
[the Petitioner] was ... under the
influence of a mental disease and defect
that prevented her from being able to
consider what she was doing, and to
prevent herself from giving in to this
impulse of killing.
He stated that the origin of the mental disease
occurred in utero and that the bipolar illness was

147a
hereditary. Finally, he stated that the Petitioner
could not control the abuse. Dr. Pincus stated that
evidence of all three of these factors: abuse, mental
illness, and brain damage, were present in 1995.
On cross-examination, Dr. Pincus conceded that
Dr. Eric Engum testified at the Petitioner’s trial that
there was no brain damage to the Petitioner. Dr.
Engum had been retained by trial counsel. Dr. Pincus
stated that Dr. Engum’s diagnosis was wrong and
that he had failed to obtain an MRI. Dr. Pincus
stated that the trial attorneys may have been
incompetent but that Dr. Engum was “just wrong.”
Alicia Wills, the Petitioner’s half-sister, testified
that she and the Petitioner have the same mother but
different fathers. When the Petitioner was born, Ms.
Wills began spending more time with her
grandmother and grandfather. She explained that
she was raised by her maternal grandmother, Zola
Fotos. Ms. Wills loved her grandmother and knew
that her grandmother loved her. She explained,
however, that her grandmother physically disciplined
the Petitioner. Ms. Wills also testified that her
grandmother “drank every day,” stating that she
would start the day with whiskey in the morning.
However, Ms. Wills explained that she was never
aware that her grandmother was drunk. Ms. Wills
stated that her grandmother’s death impacted her
tremendously. Ms. Wills explained that she felt that
no one else cared for her the way her grandmother
did. Ms. Wills stated that, at this point in her life, she
started getting into fights and started using drugs.
Ms. Wills testified that she was twelve or thirteen
years old when her grandmother died.
Ms. Wills described her Grandfather Fotos as
“fun.” She stated that he would give the Petitioner
and her candy and that he spoiled them. She denied

148a
any allegation that Grandfather Fotos mistreated the
Petitioner. She conceded that he was a butcher and
owned a slaughter house and that they visited the
slaughter house. Ms. Willis stated that she did not
feel that she had any emotional scars from witnessing
the animal processing.
Ms. Wills testified that her mother announced one
day that she was marrying Danny Thompson and
that they were all moving to North Carolina. Ms.
Willis stated that her new stepfather was “mean to
us.” She denied that he ever physically harmed her
but stated that he would get fast food and eat it in
front of them without offering them any. Ms. Wills
stated that she was angry at her mother for
“shack[ing] up with” this man and for pushing her
own children to the side. Ms. Wills was also angry
about the move to North Carolina, where she felt that
she did not fit in. Ms. Wills testified that she “became
completely depressed and extremely angry .” Ms.
Wills stated that her mother placed her own
pleasures and happiness before that of her children.
Ms. Wills also testified regarding her parents’
marriage. She stated that, during the marriage, her
father would lose his temper and hit her mother.
However, she explained that “[her mother] was
running around having affairs with men while she
was supposed to be at church....” Ms. Wills also
described her mother as an alcoholic. She stated that
“parties were a big part of our life” and that her
mother let her take “sips of her beer.” On one
occasion when Ms. Wills was in the second grade, her
mother packed her lunch for school and included a
beer. She stated that she could not recall ever sitting
on her mother’s lap or getting a hug from her mother.
Ms. Wills testified that her mother’s treatment of the
Petitioner was probably similar, although she

149a
described their relationship as closer than her own
with her mother. She described the relationship
between the Petitioner and her mother as more of a
friendship than a mother-daughter relationship. She
added that she “always felt like [she] was the
mother....” Ms. Wills testified that she never saw the
Petitioner’s father, Glenn Pike, physically discipline
her.
Ms. Wills testified that, when she was in the fifth
grade, she and the Petitioner went to the mall and
spent all of the child support money Glenn Pike had
given to the Petitioner to give to her mother. She
stated that, during the shopping spree, she had
shoplifted one pair of earrings. Ms. Wills stated that
the Petitioner, who was approximately six years old,
had shoplifted at least twenty pieces of jewelry. Ms.
Wills further testified that the Petitioner read horror
stories, like Stephen King, when she was very young.
Ms. Wills stated that she liked to watch her
mother and her friends get ready to go out to parties.
She stated that this appealed to her because she
looked forward to living a similar lifestyle. Ms. Wills
admitted that she started smoking marijuana when
she was twelve years old. Ms. Wills became pregnant
at age fifteen and stopped smoking marijuana until
she was seventeen.
Ms. Wills described the Petitioner as having a big
heart and stated that the Petitioner “loves people.”
She added that the Petitioner had dreams of
becoming a nurse. Ms. Wills testified that the
Petitioner was “very messy” and would sometimes
have a “blank look.” Ms. Wills stated that, in
retrospect, she could see that “there were things that
were not normal about [the Petitioner].” Specifically,
she acknowledged that the Petitioner would have
episodes of sudden rage. Ms. Wills testified that the

150a
Petitioner loved Ms. Wills’ son Keith and would act
like his mother. Ms. Wills was unaware of any
allegations that the Petitioner had abused her son.
Ms. Wills stated that the Petitioner always wanted to
give Keith a bath but that she was not comfortable
with the Petitioner giving her son a bath. Ms. Wills
testified that any statement that Dr. McCoy had
made regarding allegations of the Petitioner’s sexual
abuse of Keith were untrue and unfounded.
Ms. Wills testified that she was aware that the
Petitioner was “drawing dirty pictures at school at a
very young age.” However, she stated that she had no
knowledge as to whether the Petitioner had been
sexually abused. Ms. Wills stated that she did not
believe the Petitioner’s accusations that a man had
raped her.
Ms. Wills denied any allegation that she had
abused the Petitioner. Ms. Wills specifically denied
that she intentionally burned her sister with a
curling iron. She explained that the girls were
playing beauty shop when she accidentally burned
the Petitioner with the curling iron. She further
explained that the curling iron incident occurred
when the Petitioner was three or four years old. Ms.
Wills also denied slamming the Petitioner’s fingers in
a door. Ms. Wills denied holding the Petitioner down
and scraping the bottom of her foot with an electric
plug.
Ms. Wills testified that she was not subpoenaed by
either the State or the defense team for the
Petitioner’s trial. She indicated that she had
anticipated being called as a witness because the
Petitioner was her sister. Ms. Wills testified that, in
her opinion, the Petitioner “never had a [fair] shake
from the day she was born.” Ms. Wills stated that, at
the time of the trial, she was living in Dallas, Texas,

151a
and that she currently had “a great life.” She owned
her own business and had been married for twelve
years. She stated that she had “peace inside.”
Emil Glenn Pike, the Petitioner’s father, stated
that he testified during the 1996 penalty phase of the
Petitioner’s trial. He testified that he had been
interviewed by Dr. Diana McCoy prior to his
testimony. Mr. Pike stated that he was born and
raised in Beckley, West Virginia. He related that his
father had worked as coal miner and a plumber and
that his mother was a housewife. He testified that his
parents disciplined him by using a switch or a belt.
As a result of this discipline, Mr. Pike “swore to never
... put a switch to my children.” Mr. Pike testified
that his father died when he was thirteen years old.
After his father’s death, the family moved to Indiana
to find work. Mr. Pike testified that, in 1966, he was
drafted and sent to Vietnam, where he contracted
hepatitis and was wounded. Mr. Pike re-enlisted in
the service in 1973, because he could not find a job in
West Virginia. Mr. Pike testified that, during his
time in Vietnam, he was exposed to agent orange. He
was provided information that his exposure may
cause birth defects in children, specifically, spina
bifida.
Mr. Pike testified that in 1974, he married Joanne
Lily. After their divorce, he married the Petitioner’s
mother in 1975. He stated that his social life with the
Petitioner’s mother involved drinking alcohol. Mr.
Pike testified that the Petitioner’s mother got
pregnant soon after their marriage. After his
discharge from the service, he returned to Beckley,
West Virginia, and opened a motorcross race track on
the family farm. Mr. Pike recalled the day the
Petitioner was born. He stated that the Petitioner’s
mother had a caesarean section and that the

152a
Petitioner had hyaline membrane disease and was
taken to a hospital in Charleston.
Mr. Pike reported that he began working road
construction and was often away from home. When
he learned that the Petitioner’s mother was seeing
other men during this time, the couple divorced.
However, after the Petitioner’s mother attempted
suicide, the couple remarried. Afterward, the
Petitioner’s mother resumed her previous ways of
partying, and the couple grew apart.
Mr. Pike related that his mother would often
babysit the Petitioner. According to Mr. Pike, his
mother loved the Petitioner and spent a lot of time
with her. He testified, however, that his wife’s mother
did not appear to like either him or the Petitioner. He
presumed that his mother-in-law felt that he was of a
lower social class.
Mr. Pike stated that he would use either his hand
or a belt to discipline the Petitioner. At most, he
struck her with the belt three or four times in the
same day. Mr. Pike denied that he ever made the
Petitioner remove her clothing for the spankings and
stated that any scars on the Petitioner’s back were
not the result of any spankings he gave her. He
recalled that, after the Petitioner’s mother married
Danny Thompson, she contacted him regarding the
Petitioner’s behavior. The Petitioner’s mother
informed Mr. Pike that she was having disciplinary
problems with the Petitioner and asked that he try to
take care of her. He stated that the Petitioner would
come live with him for a while, but then he would
start having problems with the Petitioner and she
would be returned to her mother.
Mr. Pike testified that he later married Kathleen
Almond and that they had two children together. He

153a
confirmed that there had been an allegation that the
Petitioner had sexually abused his younger daughter.
Mr. Pike stated that his wife had told the therapist
she was seeing that his younger daughter had
reported that the Petitioner had “licked her” and had
pointed “towards her belly or towards her genitals
and said, ‘There?’.” The therapist told Mr. Pike’s wife
that the Petitioner was not to be around the younger
daughter. The Petitioner denied any wrongdoing, and
Mr. Pike stated that he had never observed any
inappropriate behavior between the Petitioner and
his other children. He stated that he did not believe
the Petitioner had molested his younger daughter.
Mr. Pike stated that he was aware that the
Petitioner spent time at a juvenile facility in North
Carolina. He further stated that he did not visit her
during her time at that facility. Mr. Pike testified
that he was not aware that the Petitioner was
entering the Job Corp Program until after she had
already entered the program.
Mr. Pike denied that he had previously described
the Petitioner as a manipulator but conceded that he
had described her as a liar. He also admitted that on
one occasion, the Petitioner had forged her teacher’s
name.
Faye Johnson Guy testified that she was a
neighbor of the Petitioner’s family and that she also
worked with the Petitioner’s mother. Ms. Guy
testified that she frequently spent time with the
Petitioner and her family on a social basis and
observed that the Petitioner’s mother, Carissa,
abused alcohol. Ms. Guy related that Carissa was
married to Danny Thompson when they first met.
She stated that she met Danny Thompson only once
or twice and that he was drunk and appeared violent
on those occasions. After Carissa left Danny

154a
Thompson, she moved close to Ms. Guy. Ms. Guy
stated that Carissa began seeing other men shortly
after she separated from Danny Thompson. She
stated that Carissa was involved with a married man.
Ms. Guy also confirmed that Carissa dated a man
named Steve Kyaw and that shortly after she began
seeing him, Kyaw moved into her home.
Ms. Guy testified that she often included the
Petitioner in her family’s outings because the
Petitioner was often left home alone. She stated that
the Petitioner told her that she had access to
pornographic movies that belonged to either her
mother or to Steve Kyaw. Ms. Guy had also observed
the Petitioner watch horror movies with her mother,
Carissa. Ms. Guy stated that she had told Carissa
that she felt that it was inappropriate for the
Petitioner to be watching these horror movies. Ms.
Guy recalled that Carissa just laughed and stated
that the Petitioner enjoyed these movies and had
been watching them since she was two or three years
old. Ms. Guy testified that the Petitioner and Carissa
had more of a friend relationship than a motherdaughter relationship. She stated that Carissa would
discuss inappropriate things with the Petitioner, e.g.,
sex with her boyfriends.
Ms. Guy testified that both the Petitioner and
Carissa participated in her wedding. She recalled
that, at the rehearsal dinner, Carissa was caught
having sexual intercourse in the bathroom with Ms.
Guy’s future brother-in-law. Ms. Guy testified that,
later that same evening, she again caught Carissa
having sexual intercourse with her future brother-inlaw, who was married. Ms. Guy stated that she and
Carissa were friends with Ann Marie Hansen and her
husband, Gerard. Ann Marie Hansen worked with
Ms. Guy and Carissa. Carissa had an affair with

155a
Gerard Hansen. He eventually left his wife and
moved in with Carissa. They later married. After this
event, Ms. Guy began to sever her relationship with
Carissa.
Ms. Guy testified that the Petitioner had mood
swings. The Petitioner would be happy and cheerful
and could quickly become sad and depressed. Ms.
Guy initially thought that the mood swings were due
to hormones. Ms. Guy later recognized the signs of
bipolar disorder. She explained that her mother was
bipolar and that the Petitioner’s symptoms reminded
her of her mother. Ms. Guy also testified that, in her
opinion, the Petitioner’s sister, Alicia, seemed to pick
on the Petitioner.
Ms. Guy testified that she had met Carissa’s
father, Chris Fotos. She stated that Chris Fotos
“scared me a bit,” was very prejudiced against
African–Americans, and often talked about violence.
Orlando Powell testified that he was formerly the
manager of a Pizza Hut in Durham, North Carolina,
where the Petitioner would come with her friends. He
explained that “she grew towards me and the more
she grew towards me, I just grew towards her.” Mr.
Powell explained that their relationship eventually
became a romantic one. He stated that the Petitioner
was with him most of the time. Mr. Powell met the
Petitioner’s mother, and he stated that he could tell
there was not much of a relationship between the
Petitioner and her mother.
Mr. Powell described the Petitioner as “a little fire
ball.” He stated that she had a temper. Mr. Powell
testified that the Petitioner’s temper would just erupt
and that he “want[ed] to save [the Petitioner] because
jail is not a place for her at this time.” He also
described her as being “wired” or full of energy. Mr.

156a
Powell stated that he knew the Petitioner smoked
marijuana and drank alcohol. Mr. Powell stated that
their relationship lasted a year to a year and a half.
Mr. Powell stated that they were still dating when
she made the decision to enter the Job Corp Program.
He explained that, during her Christmas break from
Job Corp, he tried to make her stay in North
Carolina. Mr. Powell stated the Petitioner was never
violent toward him; however, he did observe the
Petitioner become violent toward others. Mr. Powell
stated that no one from the Petitioner’s defense team
contacted him prior to her trial and that no one
contacted him until 2000.
Carol Goehring testified that she first met the
Petitioner when they were in the seventh grade. Ms.
Goehring stated that she and the Petitioner became
friends and that she had occasion to visit the
Petitioner in her home. Ms. Goehring stated that
Steve Kyaw was living with the Petitioner’s mother
at the time. During one visit, Steve Kyaw began
yelling at the Petitioner. The Petitioner told Ms.
Goehring to “go out back....” Ms. Goehring saw Steve
Kyaw “nudge [the Petitioner] to the room.” She then
saw the Petitioner running from the room. Ms.
Goehring heard bumping and yelling, and she then
saw the Petitioner with “a knife in her hand and her
face was all red and she was trying to adjust her
pants.” Ms. Goehring described the Petitioner as
“very panicked.” Ms. Goehring called her mother to
come get her and the Petitioner. After this incident,
Ms. Goehring was no longer permitted to visit the
Petitioner’s home. Ms. Goehring stated that, a month
later, the Petitioner’s mother moved and that she left
Steve Kyaw. Ms. Goehring described the Petitioner as
a very loyal person. She stated that the Petitioner
was “very happy,” “very energetic.”

157a
Jamie Robinson testified that the Petitioner’s exboyfriend, Brian Wilson, and her ex-boyfriend, Jeffrey
Crank, were best friends. Ms. Robinson stated that
the four of them ended up living on the streets for a
while. Ms. Robinson explained that, in her situation,
her parents did not approve of Jeffrey Crank and
gave her an ultimatum. Ms. Robinson stated that the
four of them would sleep in hospitals and hotels and
would run the streets a lot of nights, just walking.
She explained that Brian Wilson and Jeffrey Crank
would often sell their plasma to get money for a hotel
room. She recalled that there were times when they
had nothing to eat except ketchup and hot sauce from
packets.
Ms. Robinson stated that she spent the night at
the Petitioner’s home on one occasion, but she could
not recall meeting the Petitioner’s mother. She stated
that, in her opinion, the Petitioner and her stepfather
did not get along. Ms. Robinson observed that the
Petitioner’s parents had no food in the house. She
also observed that the Petitioner did not have sheets
on her bed. This same evening, the Petitioner and
Ms. Robinson snuck Jeffrey Crank into the home, and
the Petitioner’s parents never knew he was there.
Ms. Robinson recalled an incident where she and
the Petitioner shoplifted some shirts for Jeff Crank
and Brian Wilson. The Petitioner told Ms. Robinson
to run and took off running herself. Ms. Robinson
stated that she did not run. Ms. Robinson was not
arrested, but the Petitioner was arrested and placed
in a police car. Ms. Robinson recalled that the
Petitioner was laughing after she was caught. Ms.
Robinson also recalled an incident where the security
officers at the mall called their parents because they
had been at the mall “a very long time.” Ms. Robinson
stated that the officers were on the telephone with

158a
her mother for a very long time. She stated that her
mother asked the officers about Ms. Robinson’s
condition. Ms. Robinson related that the officers were
only on the telephone with the Petitioner’s mother for
“two seconds.”
Ms. Robinson related that the Petitioner “seemed
to be okay with the way things were for her....” Ms.
Robinson stated that she could not have dealt with
the situation the way the Petitioner did. Ms.
Robinson learned that the Petitioner had been raped.
Ms. Robinson stated that the Petitioner “never
showed any emotion.” She did, however, acknowledge
that the Petitioner and Brian Wilson fought a lot. Ms.
Robinson recalled an incident where the Petitioner
and a new boyfriend “beat Brian up pretty badly, and
I remember [the Petitioner] throwing a beer bottle at
him.” This incident occurred after the Petitioner and
Brian Wilson had ended their relationship and the
four of them were no longer hanging around one
another. Ms. Robinson stated that she was never
contacted by the Petitioner’s defense team.
Kerry Sherrill testified that she was a treatment
worker for the Child Protective Services Unit of
Orange County, North Carolina and that she was
assigned the Petitioner’s case following an allegation
of child abuse and neglect. Ms. Sherrill testified that
she observed that the Petitioner, who was in middle
school at the time, was a “bright and warm young
woman, easy to get along with, [and] enjoyed the
attention of adults.” Ms. Sherrill related that the
initial allegation involved the Petitioner’s mother’s
boyfriend, Steve Kyaw, and a report of inappropriate
discipline. She reported that “the plan was to keep
[the Petitioner] safe when she was in the home and if
Steve [was] going to be present in the home.” Ms.
Sherrill reported that the Petitioner was eventually

159a
placed at Shaeffer House, due to the Petitioner’s
truancy and running away. She also reported that it
appeared that the Petitioner’s mother was “not doing
what she needed to meet [the Petitioner’s] needs.”
Ms. Sherrill testified that, while at Shaeffer House,
the Petitioner wrote a letter to her friend, Brandy,
expressing that “she was very unhappy with her life
and had made a plan to commit suicide....” The
Petitioner enumerated her reasons for wanting to kill
herself, including the assertion that she had been
raped by Claude Davis. Ms. Sherrill stated that the
Petitioner’s case was closed after Steve Kyaw moved
out of the family home.
Peggy Hamlett testified that she is a counselor
with the North Carolina Department of Juvenile
Justice. Ms. Hamlett testified that the Petitioner was
initially charged with a felony breaking and entering
and larceny of a community center during which the
Petitioner stole some candy. As a result of this
incident, the Petitioner was adjudicated delinquent
and was placed under Ms. Hamlett’s supervision. Ms.
Hamlett stated that the Petitioner’s probation was
later revoked and that she was sent to a juvenile
detention center. Ms. Hamlett explained that the
Petitioner’s initial term in the facility would have
been six months. However, the Petitioner was at the
facility for more than a year because she kept
receiving infractions. Ms. Hamlett testified that the
Petitioner’s juvenile records would have been
destroyed when she reached the age of eighteen.
Ms. Hamlett described the Petitioner as a “smart
girl” with “a lot of potential.” She also stated that the
Petitioner was “out of control.” Ms. Hamlett stated
that the Petitioner was drinking and “huffing” and,
perhaps, doing other drugs. Ms. Hamlett described
“huffing” as when one would “huff the fumes that

160a
come from an aerosol can ... and get high.” She stated
that huffing was very dangerous. Ms. Hamlett also
stated that the Petitioner was not an aggressive
person.
Ms. Hamlett testified that she was contacted by
the Petitioner’s counsel and by Dr. McCoy prior to the
Petitioner’s trial. However, she stated that she was
not asked to attend the Petitioner’s trial.
Debby Howell Burchfield was employed at the
Juvenile Evaluation Center in Swannoa in the 1990s.
Ms. Burchfield explained that the Juvenile
Evaluation Center was a state training school for
youths who had been committed by the courts due to
delinquent behavior. She stated that she was the
Petitioner’s social worker. Ms. Burchfield explained
that her office was in the living quarters for the girls,
so she had direct contact with them every day. Ms.
Burchfield testified that the Petitioner remained
confined at Swannoa from November 1991 until
March 1993. She stated that this was a longer period
of time than usual but was because the Petitioner
was unable to maintain or achieve the level of points
necessary to be released. Ms. Burchfield described
the Petitioner’s actions as “sabotaging” herself.
Ms. Burchfield testified that, while at Swannoa, a
juvenile could have one visit per week. She stated
that the Petitioner was at Swannoa for about fifteen
months; thus, she was eligible for sixty visits during
that time period. The Petitioner received only eight
visits during this time.
Ms. Burchfield testified that the Petitioner related
that she never felt close to either of her parents. She
stated that the Petitioner felt that she had been
emotionally abused by her father and that her
mother was not a real parent to her. Ms. Burchfield

161a
testified that there were incidents in which the
Petitioner engaged in self-mutilation and tattooing of
her body. She stated that the Petitioner had also
reported being a victim of abuse by her older sister.
She admitted that she had previously indicated to
post-conviction counsel’s investigator that the
Petitioner “was known to have dabbled with devil
worship. She would draw pictures and talk about
that, and she also dressed in gothic.” Ms. Burchfield
also admitted that it was important for the Petitioner
to get her way but explained that this was common in
adolescents. Ms. Burchfield testified that, upon her
release from Swannoa, the Petitioner planned to
enroll at Almance Technical College to study nursing.
The staff at Swannoa attempted to assist the
Petitioner in reaching her goals. Ms. Burchfield noted
that the Petitioner had completed the GED program
and that the staff assisted in preparing her
application to the Job Corp Program.
Ms. Burchfield testified that, in 1996, she was
contacted by a psychiatrist involved in the
Petitioner’s case. She stated that records were sent to
the psychiatrist by her office.
Kristina Hargis, a social worker with the North
Carolina Department of Juvenile Justice, testified
that she was assigned to the Swannoa Youth
Development Center as a house parent and counselor.
She stated that she was with the juveniles eight
hours a day. She added that she spent one hour a
week with the Petitioner individually, talking about
her feelings and problems. Ms. Hargis stated that she
was not contacted by the Petitioner’s trial attorneys.
Ms. Hargis described the Petitioner as
“struggling” and “depressed.” She stated that the
Petitioner was upset that she got into trouble. She
opined that the Petitioner could not understand why

162a
she was doing the things to get herself in trouble. Ms.
Hargis confirmed that the Petitioner was at Swannoa
longer than she needed to be because she continued
to get into trouble. She surmised that the Petitioner
was intentionally sabotaging herself in order not to
be released.
Ms. Hargis explained that Swannoa’s student
body was both male and female. She stated that there
were 180 males and 45 females. Ms. Hargis stated
that the juveniles had to do chores and attend school
and treatment programs. The juveniles also had
structured recreation programs. Ms. Hargis opined
that there was little free time.
Frederic Marshall Muse testified that he was
employed as a teacher at Swannoa during the 1990s
and that the Petitioner was assigned to his class. Mr.
Muse testified that the Petitioner was initially
defiant in his class. However, when she learned who
was in charge, her attitude changed, and she began to
work. Mr. Muse recommended the Petitioner for
various teacher aid positions. He stated that the
Petitioner became a teacher’s aide and remained in
that position for the duration of her stay. He
explained that the Petitioner had the “run of the
campus” when she was running errands for the
teacher. He described the Petitioner as being
respectful. Mr. Muse remarked that he and the
Petitioner developed a respectful relationship, and he
described the Petitioner as having “a delightful sense
of humor.”
Mr. Muse stated that he could not recall telling
the post-conviction investigator that the Petitioner
“seemed to have two faces.” He explained that the
Petitioner had one of the higher intellects at
Swannoa. He explained that the Petitioner could
feign getting along and being happy when, in reality,

163a
she was not. Mr. Muse stated that he was not
contacted by the Petitioner’s trial team.
Andrew Drace was in the Job Corp with the
Petitioner. He arrived at the center in October 1994,
and was enrolled in the certified nursing assistant
program. He stated that Swannoa was small and that
“everyone knew everybody.” Mr. Drace described the
Job Corp Program as a “pretty rough, violent place.”
He stated that there were gangs and people who
picked on other people. He stated that gang members
would come into students’ rooms, place sheets over
them, and beat them up, mainly because they were
white. There were less than ten white male students
at the center. He stated that Tadaryl Shipp was one
of the gang members and that he was “in fear of him
on a daily basis.” He stated that, on one occasion,
Tadaryl Shipp attempted to throw him from a bridge
near the center. Mr. Drace explained that, out of fear
for their own safety, many students hid in their
rooms.
Mr. Drace testified that on the morning of
January 12, 1995, he saw Colleen Slimmer, and she
asked whether he had seen Tadaryl Shipp. This was
the last time that Mr. Drace saw Ms. Slemmer. The
next day, Mr. Drace and his friend Anthony
purchased some liquor and were walking along
Cumberland Avenue when they ran into the
Petitioner. Mr. Drace stated that the Petitioner
started drinking with them. He stated that the
Petitioner drank two plastic fountain cups of Mad
Dog 20/20. He stated that the Petitioner was
definitely intoxicated when she left but had indicated
that she wanted to drink some more.
After the murder of Ms. Slemmer, the center was
placed on lockdown, and no one was permitted to
leave. The students stopped going to their classes.

164a
Mr. Drace reported that he lost his job at Wendy’s.
He stated that they were all questioned. Mr. Drace
later contacted the Petitioner’s attorneys but
observed that the Petitioner’s attorney “didn’t seem
to care.”
Mr. Drace testified that after the murder, the Job
Corp Center closed and the students were “shipped”
to Gulfport, Mississippi. He stated that he did not
complete the program in Mississippi. He explained
that he left because he was told that he would have to
restart the entire program. He added that the group
from Knoxville had the stigma of being “evil, terrible
people.”
Onas Perry was employed at the Juvenile
Evaluation Center in Swannoa, North Carolina, in
the 1990s. She stated that she supervised sixteen
girls, including the Petitioner. Ms. Perry testified
that the Petitioner would stay up at night and help
clean. The Petitioner would also want to talk about
her family problems. The Petitioner related that she
wanted a better relationship with her mother and
wished that her mother loved her more. Ms. Perry
testified that the Petitioner reported verbal, physical,
and sexual abuse. Ms. Perry stated that she believed
the Petitioner’s reports. Ms. Perry related that, in her
opinion, the Petitioner sabotaged herself to be able to
stay at Swannoa.
Ms. Perry testified that she had observed the
Petitioner “in the hobby room doing some Satanic
stuff I guess” with some of the other girls. Ms. Perry
related that she noticed the light go off in the hobby
room and that when she went to see what was going
on, she observed the girls sitting down, holding
hands, and chanting. She did not understand what
they were chanting. Ms. Perry also observed a
pentagram on a piece of paper. Ms. Perry stated that

165a
she believed that the Petitioner “was just searching,
experimenting or trying to find out who she was....”
Ms. Perry stated that the Petitioner had different
moods that were not normal. She explained that
“[s]ometimes [the Petitioner] would be calm, and
sometimes she would just be like just kind of out of
control....”
William Joseph Mode testified that, in the fall of
1994, he was employed as an instructor at Job Corp
on Rutledge Pike. Mr. Mode taught cultural
awareness, reading, AODA (a class on drugs and
alcohol), and parenting. Mr. Mode recalled that
Colleen Slemmer was “a very sweet young lady.” Mr.
Mode testified that, although he was under the
impression that the Job Corp students did not have
violent criminal backgrounds, this impression was
contradicted by the actions of the students. He
described incidents of being slapped and hit by
students. He also recalled an incident where a
student threatened to kill him.
Mr. Mode testified that Tadaryl Shipp often came
to class high, hung over, or drunk, when he came at
all. He described Tadaryl Shipp as disrespectful. He
stated that there was little discipline by the Job Corp
supervisors. He stated that, from what he had heard
from the students, the Job Corp dormitories were
unsafe. Mr. Mode stated that he knew Shadolla
Peterson and the Petitioner and that he knew about
the “devil worshiping business.”
Jacqueline Olebe was employed at Knoxville Job
Corp as a health instructor in 1994 and 1995. She
described the Petitioner as a non-violent student who
completed her course requirements. She noted that
the Petitioner often slept in her classes but that she
participated when she was awake. Ms. Olebe stated
that the Petitioner was smart and wanted to be a

166a
nurse. She also testified that she came into contact
with the Petitioner through her position on the Drug
Abuse Panel and was aware that the Petitioner used
marijuana and alcohol. She also acknowledged a
conversation she had with the Petitioner regarding
voodoo in which the petitioner told her that it
worked.
Ms. Olebe testified that Mr. Shipp rarely attended
her classes but when he did he was loud and
disrespectful. She described the victim as very
respectful and skilled. Finally, she stated that she
was not contacted by anyone regarding the Petitioner
until after the conviction.
Next to testify was Kim Rhodes, a fellow student
in the Job Corp Program, who testified for the State
at trial. Ms. Rhodes described the environment at the
Job Corp as “scary,” with a great deal of animosity
between different groups. She also related that there
was a lot of drug use at the Center.
Ms. Rhodes testified that she had a great
relationship with the Petitioner and that she felt safe
with her. She stated that both felt like they did not fit
in with others. She specifically testified that she
never saw the Petitioner act violent. She testified
that she was shocked when the Petitioner made the
statement to her that the victim had been killed. She
also stated that after giving her statement in the
case, she was informed by the State’s attorney that
she would not be allowed to see the Petitioner. She
said that she missed her friend.
The next witness to testify was Judge Matthew
Martin from North Carolina. Prior to becoming a
judge, he represented the Petitioner, who was a
juvenile at the time, on multiple occasions. Judge
Martin testified that he felt that sending the

167a
Petitioner to training school was a mistake and that
he had, in fact, found an alternative which he
recommended to the sentencing judge. He felt that
the Petitioner would have benefitted more from
another type of service. Judge Martin testified that
he believed the Petitioner was an abused child and
that he was not surprised to learn that she was
diagnosed with bipolar disorder. Finally, Judge
Martin testified that after the Petitioner was charged
in this case, he contacted trial counsel and supplied
them with his file.
Next, Tadaryl Shipp, the Petitioner’s co-defendant
and former boyfriend, was called to testify. He began
his testimony by acknowledging his membership in
the Gangster Disciples, as well as the membership of
the third co-defendant Peterson. He testified that the
Petitioner was not a member of the gang. Shipp also
acknowledged his romantic involvement with the
Petitioner and described her as his best friend. He
stated that the Petitioner was a caring person but
that she was “edgy” and had mood swings. Shipp
testified that during her moods, she often hit him for
no apparent reason. He testified that the Petitioner
was like two different people depending on whether
she was agitated or calm. He estimated that the mood
swings could last from two to three minutes up to an
hour. During these periods, the Petitioner just went
into a rage. Shipp further indicated that the
Petitioner was particularly agitated just prior to the
murder.
Shipp testified that the Petitioner took the
relationship more seriously than he did, and he
acknowledged that he was seeing other girls at the
time. He stated that he did not believe the Petitioner
had been aware of that fact. He also testified that the
Petitioner continued to write him three to four letters

168a
per week after the offense occurred.
Shipp acknowledged that he was the one who
carved the pentagram on the victim’s chest and
stated that he did so because he felt like it. He
acknowledged that this varied from his original
statement to police that the Petitioner brought the
weapons and helped carve the pentagram. Shipp
further testified that he was unable to recall whose
idea it had been to take the victim to the scene,
although he acknowledged that he had previously
indicated in a statement to police that it was the
Petitioner’s idea. Shipp stated, however, that he was
intoxicated when he gave the statement and that the
police were harassing him. Finally, Shipp testified
that he would have testified for the Petitioner at trial
if he had been asked, even if it conflicted with his
own attorney’s advice.
Tyrone Comfort also testified and stated he was at
the Job Corp Center with the Petitioner and that she
was one of his best friends. He indicated that the
Petitioner would sometimes be “overly happy” and
then suddenly very sad. He described one incident
when he observed her in the hall crying, screaming,
and pulling out her hair. Mr. Comfort indicated that
he did not know Shipp well, but he did not like the
way that Shipp treated the Petitioner. He testified
that he heard the Petitioner and Shipp argue on
multiple occasions, and he recalled seeing bruises and
marks on the Petitioner at times. He indicated that
Shipp was the one controlling the relationship, even
going so far as to threaten Mr. Comfort.
The next two witnesses to testify, DeAndrea Gates
and Amanda Robertson, were both former girlfriends
of Shipp. Both indicated that he was abusive to them,
as well as manipulative and controlling. Ms. Gates
indicated that she believed that Shipp preyed on

169a
women he could control. She further indicated that
she was not contacted by the Petitioner’s defense
team. Ms. Robertson said that she was not contacted
until 1995 or 1996.
Jermaine Bishop, another former student at the
Job Corp, indicated that, at the time of the hearing,
he was incarcerated for especially aggravated
kidnapping and especially aggravated robbery. He
testified that met Shipp in the program and described
him as “weird.” Mr. Bishop testified that he was
aware that the Petitioner and Shipp were dating, and
he felt that Shipp was in control of the relationship.
He further testified that the Petitioner and Shipp
fought often.
Co-counsel was the next witness, and she stated
that she had been licensed to practice law since 1992,
and that she had been appointed to the Petitioner’s
case on January 23, 1996. At the time, her practice
consisted primarily of criminal cases. She also
indicated that she had previously served as an
assistance public defender and had handled felony
and misdemeanor trials. Co-counsel acknowledged
that the Petitioner’s case was her first murder case.
She indicated that her primary role in the case was
research and the drafting of motions. She also stated
that she was responsible for preparing voir dire,
conducting some cross-examination in the guilt
phase, and handling the family witnesses in the
penalty phase.
Co-counsel testified that she was appointed to
replace prior co-counsel and that much of the
groundwork had already been done when she was
appointed. She indicated that her initial thoughts
upon reviewing the case were that it might be
possible to prove second degree murder based upon
“the frenzy” at the murder scene combined with the

170a
Petitioner’s mental health issues. However, she noted
that she saw sentencing as the critical phase and,
from the beginning, began analyzing what proof
would be needed.
Co-counsel stated that Dr. McCoy had been
retained as the mitigation expert prior to co-counsel’s
own appointment. She met with Dr. McCoy and lead
counsel in March and reviewed the materials which
had been prepared by Dr. McCoy. Co-counsel further
indicated that she presumed these materials were
also shared with Dr. Engum, who had produced a
diagnosis of severe borderline personality disorder.
Co-counsel testified that, in the penalty phase, the
goal was to establish that the Petitioner came from a
dysfunctional family with a history of drug and
alcohol abuse. In hope of establishing this, the initial
strategy was to call Dr. McCoy and to introduce her
report. However, at the “ninth hour,” a decision was
made against having Dr. McCoy testify in the penalty
phase. Co-counsel indicated that this decision was
made because of several problems which arose with
Dr. McCoy, namely her relationship with the
prosecutor in the case and her statement that she
was not in agreement with Dr. Engum’s report.
Despite the decision against calling Dr. McCoy, the
defense team unsuccessfully attempted to get her
report admitted into evidence, as well as the charts
which had been prepared. Co-counsel acknowledged
that only three witnesses were called to testify and
stated that it might have been more helpful to the
case to call other lay witnesses. However, by the time
the decision was made not to use Dr. McCoy, it was
too late. Co-counsel said that she attempted to
present their mitigation theme as well as she could
using the lay witnesses but acknowledged that they
had no expert “to connect the dots.” However, she

171a
stated that she attempted to do so in her closing
argument.
Co-counsel testified that she was aware that much
of the material contained in the report by Dr. McCoy,
including the incidents of the Petitioner’s prior
violence, were a “two-edged sword.” She stated that
they felt the defense had to be careful about the type
of mitigation evidence which was presented because
some of the proof “could hurt them as much as it
helped.” She stated that they were faced with “a
horrible case with horrible facts and someone that
confessed ad nauseam and kept confessing over and
over and over in letters that she was passing out.”
Co-counsel acknowledged that they had filed a
“don’t ask/don’t tell” motion regarding the death
penalty issue with the jury. According to her, the
strategy was to get one person on the jury who was
totally opposed to the death penalty. She
acknowledged that this decision involved the risk of
getting twelve jurors who were all in favor of the
death penalty. She also acknowledged that Dr.
McCoy’s entire report was given to the prosecution
despite the fact that it contained information which
would have been privileged, especially in light of the
decision not to call Dr. McCoy to the stand. She
further acknowledged that the prosecution’s crossexamination of the witnesses, utilizing information
contained in the report, was damaging to their case.
However, she also testified that the decision not to
call Dr. McCoy resulted in the State not being able to
use many other damaging facts which were contained
in the report. Co-counsel also testified that she could
not recall why there was no objection made to the
inconsistent theories utilized by the State based upon
the charge of conspiracy and then the application of
the aggravating factor that the killing was done, in

172a
part, to avoid arrest.
On cross-examination, co-counsel stated that she
was aware of lead counsel’s overbilling issues but did
not discuss it with him. She testified that she did not
think the issue affected lead-counsel’s representation
of the Petitioner and described him as very zealous.
Co-counsel acknowledged that she and lead counsel
had the Petitioner sign a release which would allow
them to profit from the Petitioner’s story. However,
she explained that the document only referred to
public aspects, not information protected by the
attorney/client privilege. She testified that the main
purpose of the document was to protect the
Petitioner’s rights and eliminate any ethical
concerns. Co-counsel specifically testified that the
release in no way affected any trial strategy or
decision.
Co-counsel reiterated that the goal in the guilt
phase was to try to convince the jury to convict the
Petitioner of second degree murder based upon the
frenzy of the scene and the controlling nature of the
Petitioner’s relationship with Shipp. However, she
acknowledged that some witnesses, as well as the
Petitioner’s own statement, undercut the theory that
Shipp had committed most of the acts during the
murder. In addition, co-counsel stated that some
aspects of Dr. McCoy’s report also undermined this
theory.
Co-counsel testified that she had met with the
Post–Conviction Defender’s Office on one occasion in
1999 and had given them her entire file. She
indicated that, despite requests to do so, she had not
met with them again as she believed that everything
had been covered.
Next, the Petitioner called William Crabtree to

173a
testify. General Crabtree testified that he had been
employed as a District Attorney General for more
than thirty years and had been the lead prosecutor in
the Petitioner’s trial. He also indicated that knew Dr.
Diana McCoy, the mitigation expert employed by the
defense team, and had dated her for a period of time.
General Crabtree indicated that the relationship had
occurred prior to the Petitioner’s trial and that he
and Dr. McCoy were not involved at all during the
trial. Further, General Crabtree testified that he was
not aware that Dr. McCoy was employed in the
Petitioner’s case until he received her notebooks and
report during the penalty phase of the Petitioner’s
trial. He also indicated that he was not happy to get
the large report so late in the proceeding. He was
unable to recall what information was contained in
the report or if he found specific information in it that
he used to cross-examine the Petitioner’s witnesses.
General Crabtree testified that he saw no reason
to withdraw as the prosecutor because of his previous
relationship with Dr. McCoy. He indicated that he
did not see that a conflict of interest was created. He
testified that he had prosecuted several other cases in
which Dr. McCoy was involved. He indicated that
only in one instance did he withdraw and that was
because he had generally discussed the facts of that
case with her prior to learning of her involvement.
Next, the Petitioner’s lead counsel at trial testified
that he had been practicing law in Knoxville since
1986. He indicated that his practice was exclusively
criminal defense at the time and that, prior to his
appointment in the Petitioner’s case, he had handled
several murders cases but had not previously handled
a capital case.
In 1993 or 1994, lead counsel learned from an
article in the newspaper that the Comptroller’s Office

174a
was conducting an audit of the indigent defense
system and that he would likely be one of the
attorneys involved in the audit. As a result, he
conducted a “self-audit” and discovered that, in
certain instances, he had billed more than twentyfour hours in a day. He self-reported to the Board of
Professional Responsibility on the advice of counsel.
In April of 1995, one month prior to his appointment
in the Petitioner’s case, he had to repay
approximately $67,000 to the fund. Prior to
repayment, he had refrained from taking any
appointments and withdrew from some cases to avoid
an appearance of impropriety. Lead counsel testified
that he was not concerned that the investigation
would affect his representation of the Petitioner
because he had been “cleared to practice law” at the
time of the appointment. Despite the fact that his
name had been in the newspaper, he was not
concerned about the issue affecting potential jurors
during voir dire. At the time of the appointment, the
only complaint pending was the disciplinary
complaint, which he had self-reported. That issue was
not resolved until 1998, and lead counsel never
received an active suspension nor was his practice
interrupted.
Lead counsel testified that he had several murder
cases prior to his involvement in the Petitioner’s case.
He estimated he had taken a dozen or more felony
cases to jury trial. He could not recall whether he had
called an expert witness to testify in those trials, but
he did indicate that he often used investigators,
pathologists, and psychologists. He also stated that,
at some point prior to trial, he contacted the Capital
Case Resource Center.
Lead counsel testified that early in his
representation, he engaged Dr. Engum to do

175a
psychological testing on the Petitioner. He met with
Dr. Engum on several occasions to discuss the
findings. In the late summer or early fall of 1995,
lead counsel also engaged the services of Dr. Diana
McCoy as a mitigation specialist and indicated that
he communicated with Dr. McCoy frequently.
According to lead counsel, his strategy was that he
and Dr. Engum would concentrate on the guilt phase
where he knew they would “take a beating” and then
Dr. McCoy would “come out and save the day” in the
penalty phase. Lead counsel indicated that he looked
at the social history as a tool to be used in the penalty
phase because he wanted Dr. McCoy to take the
social history and tie it back to Dr. Engum’s report.
However, he specifically recalled at least one meeting
during trial preparation when both doctors were
present.
Lead counsel also employed the services of Dr.
Bernet, a psychiatrist, in the case, but he was not a
“member of the team.” He was hired solely for the
purpose of giving background on the Satanic aspect of
the case. He was to testify that the murder was not a
ritualistic killing and that the Petitioner had just
been a “kid dabbling in Satanism.” Mr. Talman did
not ask Dr. Bernet to conduct an evaluation.
Lead counsel indicated that co-counsel was
appointed after previous co-counsel requested to
withdraw. Lead counsel had not previously worked
with co-counsel, but he was aware that she had
previously handled criminal cases while with the
Public Defender’s Office. He indicated that he was
aware that co-counsel had never been involved in a
capital case, but he stated that he was not aware that
she had never been involved in a murder case. Lead
counsel testified that co-counsel handled the penalty
phase of the case because he thought it might be

176a
better with a female attorney. Nonetheless, he stated
that he was lead counsel and was involved personally
in both phases of the trial.
Lead counsel indicated that he was aware that the
case was complex. While the Petitioner was very
cooperative, it was not a “who done it.” The Petitioner
had confessed to a “grizzly murder,” and lead counsel
indicated that going into trial, he was fairly certain
that there would be a penalty phase. Therefore, in his
mind, sentencing issues were the most important,
and he would have considered it a victory if the
Petitioner did not receive death. Lead counsel
acknowledged that, in hindsight, there were things
he wished he had done differently. While not
specifically recalling a discussion with Dr. McCoy of
which witnesses to call, he assumed that he did
discuss this with her. Lead counsel also indicated
that he was not dissatisfied with Dr. McCoy’s work.
Lead counsel testified that during the guilt phase
of the proceeding, he tried to attack the elements of
intent and premeditation. The defense team
attempted to “soften [the Petitioner] as best we could,
make her a person.” Lead counsel indicated that he
spent a great deal of time investigating the case, even
traveling to North Carolina to interview family and
friends of the Petitioner.
According to lead counsel, the strategy of using
Dr. McCoy during the penalty phase to give an
overview of the Petitioner’s life remained in place
throughout the trial. He also indicated that he had
planned to call the Petitioner’s parents and aunt as
witnesses. At the time, he believed that was a
sufficient number of witnesses. Despite his intent to
use Dr. McCoy as a witness, lead counsel made clear
that there were certain things contained in her report
that he had concerns about being admitted into

177a
evidence. According to lead counsel, the decision not
to call Dr. McCoy was based on multiple reasons,
with the primary reason being that she would not
corroborate Dr. Engum’s report because she did not
personally conduct an evaluation of the Petitioner.
He testified that, until that moment after the penalty
phase when he spoke with Dr. McCoy about this, he
had believed that the two doctors were in agreement.
Lead counsel also indicated that he was
uncomfortable with Dr. McCoy’s relationship with
General Crabtree, although he did not doubt Dr.
McCoy’s integrity. Lead counsel testified that he had
been aware of the relationship which, according to
Dr. McCoy, had involved some anger and jealousy.
The final decision not to use Dr. McCoy was a last
minute decision, which lead counsel acknowledged
“could” have been wrong. He testified that he wished
that he had called additional witness, but he did not
know if it would have made a difference in the
outcome. Lead counsel could not recall exactly when
the decision was made to proceed with only three
witnesses.
Lead counsel was unable to recall when he
received a copy of Dr. McCoy’s final report, although
Dr. McCoy’s billing records indicate that the report
was bound on March 20, after jury selection in the
trial. Lead counsel testified that he did not recall
reviewing the entire report before trial, but he stated
that he had seen prior drafts. Lead counsel did recall
an in-camera hearing during which he gave Dr.
McCoy’s report to the State. He recalled that General
Crabtree was unhappy with the timing as it only gave
the State one night to review the report prior to the
opening of the penalty phase. He acknowledged that
he turned over the final report, as well as the notes of
interviews and other information contained in Dr.

178a
McCoy’s folder, because he was still planned to use
Dr. McCoy at that point. Lead counsel stated that, in
retrospect, he probably should have just given the
report only, as he did not plan to use the other
supporting documents. At the time, he believed they
were not protected under the privilege.
Lead counsel testified that he made no challenge
to the State using inconsistent theories with regard
to the conspiracy conviction as opposed to the
aggravator that the murder was done to avoid arrest.
While at the time he did not see those as inconsistent
theories, he now does.
Lead counsel further testified that, during voir
dire, the publicity of the case was extensive and that
almost all of the potential jurors had heard
something
about
the
case.
Lead
counsel
acknowledged that his line of questioning may have
reinforced the information the jurors had seen in the
news. He also acknowledged the risk in pursuing the
strategy of the “don’t ask don’t tell” with regard to
death qualifying the jury. Lead counsel could not
recall if he asked questions to “life qualify” the jury.
Lead counsel also testified that, after the case, he
talked with the Petitioner’s aunt, Carrie Ross, about
the possibility of writing a book. However, nothing
ever became of the idea. He specifically testified that
he never profited from the Petitioner’s story,
although he acknowledged that a document had been
signed by the Petitioner which would have allowed
him to do so.
Lead counsel indicated that the State had offered
the Petitioner a guilty plea deal to life without the
possibility of parole. The Petitioner did not accept the
offer because “she did not want to grow old in jail.”
During his testimony, lead counsel indicated that he

179a
probably should have pushed the Petitioner harder to
accept the deal.
Lead counsel testified that he did not recall asking
Dr. McCoy to lie. He did recall receiving an angry
letter from her after trial alleging that he was
responsible for her not being hired to work on
another capital case.
Lead counsel acknowledged that the Petitioner did
not receive a “perfect defense.” He said that, in
retrospect, there were things which could have been
done differently. However, given the sheer brutality
of case, he was unable to say that doing anything
different would have resulted in a different outcome.
On cross-examination, lead counsel again
addressed the overbilling issue and stated that he
had considered the matter closed prior to his
appointment in the Petitioner’s case. A settlement
had been reached, and he had paid it. The State was
again paying him for appointments, and the
Tennessee Supreme Court had appointed him in
another case prior to his taking the Petitioner’s case.
There was no issue of criminal liability pending at
the time. Furthermore, lead counsel testified that he
had discussed the matter with the Petitioner, and she
was not bothered by it. Lead counsel stated that the
billing issue had no affect on his performance or
zealousness in his representation of the Petitioner.
Lead counsel also testified to the reasoning behind
the decision not to seek a continuance because of the
short time that co-counsel had been on the case. He
stated that a great deal of work had been done prior
to her appointment and that co-counsel worked hard
and felt prepared. Moreover, the decision was
affected by their hope that the State would be unable
to locate key witnesses against the Petitioner. Lead

180a
counsel also testified that he saw no specific legal
reason to file a motion to suppress the statement
given by the Petitioner. He also reiterated that the
timing of Dr. McCoy’s report had no bearing on the
decision not to call her as a witness. Lead counsel
stated that he felt that the damaging information in
Dr. McCoy’s report was too prejudicial to present to
the jury if Dr. McCoy was not going to support Dr.
Engum’s diagnosis. Lead counsel acknowledged that
the decision to give the State the report did allow
some damaging information to be used on crossexamination; however, by not calling Dr. McCoy,
other damaging evidence was kept out.
Lead counsel indicated that neither Dr. Engum
nor Dr. McCoy suggested involving another mental
health professional in the case. Lead counsel
acknowledged that, looking back, retaining the
services of a psychiatrist might have been beneficial.
Following lead counsel’s testimony, Carrie Ross,
the Petitioner’s aunt, was recalled to the stand. She
indicated that, while she was in Knoxville for the
trial, lead counsel had discussed with her the
possibility of a book deal about the case. According to
Ms. Ross, lead counsel also made the statement to
her that there was no way the Petitioner would avoid
receiving the death penalty but that he was leaving
room for appeal or “leaving holes in the case.”
Ms. Ross again reiterated the violent nature and
various abuses of the Petitioner’s parents and
grandparents. She testified again as to the
environment in which the Petitioner had grown up in,
indicating violence was a way of life. She also
indicated that in her opinion, the questions she was
asked during the penalty phase of the trial did not
allow her to convey the person the Petitioner really
was.

181a
The next witness to take the stand was Dr. Diana
McCoy, the mitigation expert employed to handle the
Petitioner’s case at trial. She testified that her role in
the case was to collect information by interviewing
people and reviewing records and to analyze that
information in order to develop themes for the
attorneys to present in the penalty phase. She also
testified that it was her responsibility to assist in
choosing additional lay witnesses who would show
the jury the Petitioner’s human side during the
penalty phase. However, she testified that, in this
case, her job did not involve forming a diagnosis for
any conditions from which the Petitioner might
suffer. She indicated that she was retained by lead
counsel in this case.
Dr. McCoy indicated that she recalled only one
meeting between the entire defense team. She stated
that most of her interaction was with lead counsel,
with the record indicating at least fourteen face-toface meetings and more than forty telephone
conversations. She testified that they worked
together a great deal and had good interaction. She
indicated that she was specifically told to prepare a
report, not an opinion, in the case. She testified that
she provided the final bound version of her report to
the attorneys on March 24, 1996, although she had
previously gone over the material contained in the
report with the attorneys. She stated that lead
counsel was as familiar with the materials as she.
Dr. McCoy testified that she met with the
Petitioner on nine occasions prior to trial in order to
build a rapport with the Petitioner so that she might
gain the entire truth of the Petitioner’s life. She
indicated that she was aware of Dr. Engum’s
diagnosis of borderline personality disorder and that
she was in agreement with that diagnosis. Dr. McCoy

182a
testified that she reviewed her report with lead
counsel and co-counsel on March 15, and that they
had previously discussed who should be called to
testify as lay witnesses. At this meeting, Dr. McCoy
indicated to them that the final report would soon be
done. According to Dr. McCoy, lead counsel indicated
that there was no hurry, as he planned to wait till the
last possible minute to give the report to the
prosecution.
She went on to note that, in her opinion, family
members alone would not be able to sufficiently
explain who the Petitioner was and why she had
committed the crime. Dr. McCoy indicated that
although she was not specifically informed, she
assumed that these witnesses had been subpoenaed
or that arrangements had been made for them to be
at the trial. She testified that several of the
professionals from Swannoa and Shaeffer, who had
worked with the Petitioner and liked her, would have
been greatly beneficial to call as witnesses. She also
testified that Matthew Martin and the Petitioner’s
aunt would be good witnesses, but the Petitioner’s
mother would not make a positive witness for the
defense. Dr. McCoy testified that, as of March 14, she
was under the impression that several lay witnesses
would be called to testify and that she would then
testify in order to tie the diagnosis together.
Dr. McCoy indicated that her work developed into
a three-volume social history. She testified that she
was in agreement with the diagnosis of borderline
personality disorder and never told either attorney
that she disagreed with the diagnosis. As part of her
testimony, Dr. McCoy explained some of the
characteristics of borderline personality disorder,
such as fear of abandonment, unstable relationships,
mood swings, unstable self-image, and impulsivity.

183a
Dr. McCoy had prepared various charts to show such
things as substance abuse in the Petitioner’s family, a
family chart showing the large number of people in
and out of the Petitioner’s life, and the Petitioner’s
education history. She testified that all of these
influences tied into the development of the
Petitioner’s
borderline
personality
disorder,
indicating that the Petitioner’s fear of abandonment
was the overriding concern. She also testified
regarding the “tough girl image” which the Petitioner
presented and opined that this was cultivated in
order for the Petitioner to appear fearless when, in
fact, she was just a “scared kid.” Dr. McCoy also
referenced the Petitioner’s tendencies toward selfdestruction, testifying with regard to specific
instances in her history of self-sabotage and suicide
attempts. She further testified regarding the
unstable relationships experienced by the Petitioner
and her drastic mood swings. Dr. McCoy discussed
the Petitioner’s acknowledged lying, which was
usually done to make herself look better. She said
this was an indication that the Petitioner was starved
for attention, and she referenced the multiple
witnesses who had indicated that if the Petitioner
was ever shown attention, she would “talk and talk.”
Finally, Dr. McCoy discussed the poor parental role
models which the Petitioner had while growing up.
She indicated that the Petitioner grew up in an
environment where drugs and alcohol were used,
where sex was glamorized, where violence was seen
as a solution to problems, and where no limits were
set.
Next, Dr. McCoy discussed a March 24th meeting
in which she was informed that she would be the only
witness to testify during the penalty phase. She
believed that the decision to rely strictly on her

184a
testimony was a bad one. Dr. McCoy testified that, in
her opinion, the mitigation evidence which she had
gathered was relatively strong, but she felt that she
could not convey that alone. According to her, it
would take a number of people to “paint the whole
picture.” She also opined that it was important to
show the early physical and emotional abuse with the
true depth of the problems. She indicated that it was
important to include the negative aspects of the
Petitioner’s life and that the jury would not be
expecting her to be a “girl scout” if she had already
been convicted of first degree murder.
Dr. McCoy also discussed the Petitioner’s
relationship with Shipp. She described the Petitioner
as hungry for attention and very intense about the
relationship, stating that it made her feel like
somebody. She stated that the Petitioner basked in
the glow of Shipp’s attention. Dr. McCoy also opined
that the Petitioner’s prior rejections had led her to
Shipp.
Dr. McCoy testified that she recommended that
Dr. Bernet be used as an expert in regard to the
Satanism aspect of the case. She testified that lead
counsel had expressed some concern because of the
reference to Satanism in the report from Swannoa.
However, Dr. McCoy testified that she felt that it was
fairly normal under the circumstances and that she
saw the Petitioner as struggling with spirituality.
Dr. McCoy testified that she learned on Friday
following the guilty verdict that she would not be
called to testify. According to her, lead counsel, who
was very upset, telephoned her after an in-camera
conference with the trial court and the State. He
informed her that the prosecutor had gone “ballastic”
about receiving the mitigation report so late and that
the prosecutor believed it was all hearsay. Dr. McCoy

185a
testified that lead counsel then asked her to lie and
say she had just given him the report the previous
day, but she refused. Dr. McCoy testified that she
asked lead counsel if he would like her to call Herb
Moncier, a local attorney, to ask his opinion. When
Dr. McCoy was unable to reach Mr. Moncier, lead
counsel informed her that he would not have her
testify in the case.
Despite being informed that she would not be
called to testify, she met with lead counsel later that
evening to discuss the options. Dr. McCoy stated that
they talked for several hours and that lead counsel
was upset, saying they will “probably post-convict me
on this.” After their discussion, the decision was
made to call three witnesses to testify, those being
the Petitioner’s parents and her aunt. Dr. McCoy met
with the witnesses the next morning to prepare them
to testify. Dr. McCoy stated that it was extremely
important to show the reasons the Petitioner had
turned out the way she had. She stated that it was
impossible to do so by calling only three family
members. She described the mitigation presented as
“punnie and pathetic.”
Dr. McCoy also testified regarding a situation
which arose post-trial. She indicated that she was
contacted by the victim’s attorneys, who were asking
for a copy of her report. She telephoned lead counsel
for advice, and he advised her against disclosing the
report. He later sent her a letter in which he
questioned her ethics, and Dr. McCoy sought the
advice of counsel. In order to set the record straight,
her attorney helped her draft a letter in response to
lead counsel. Lead counsel then telephoned her and
stated that he just wanted to drop the issue, as they
had previously gotten along.
Dr. McCoy also testified that she had engaged in a

186a
brief dating relationship with General Crabtree. She
stated, however, that the relationship was over prior
to her beginning to work on the Petitioner’s case. She
indicated that, early on in the case, she informed lead
counsel of this fact, and he said he had no problem
with it. When Dr. McCoy heard rumors that lead
counsel and co-counsel were indicating she had
withheld this information, leading to their decision
not to call her as a witness, she contacted Herb
Moncier. He advised her to let it go, as it would come
out on post-conviction.
Although Dr. McCoy was not asked to prepare an
opinion for the trial, she did prepare one for the postconviction hearing. She used charts and graphs to
support the borderline personality diagnosis. Her
general conclusions were:
(1) The Petitioner came from a highly
dysfunctional family and that many of
her subsequent developmental issues
stemmed from this;
(2) The Petitioner experienced multiple
traumatic events during her childhood
and adolescence, including rapes and
physical abuse by multiple parties,
which
also
contributed
to
the
exacerbation
of
her
psychiatric
problems;
(3) The Petitioner’s parents did not
sufficiently address and handle her
emotional and psychological problems;
(4) The Petitioner had multiple
psychological problems including:
(a)
attachment
issues
which
significantly
contributed
to
her

187a
dysfunctional relationships;
(b) an inability to maintain emotional
control, particularly during periods of
stress, and a reliance on others to help
her maintain control;
(c) a constant need for attention;
(d) an assumption of a tough-girl image
to compensate for her lack of self-esteem
and self-respect; and
(e) a need to please others and a
willingness to be influenced by others,
regardless of the cost to herself.
(5) The Petitioner was experiencing
great stress at the time of the homicide,
which contributed to her participation.
Dr. McCoy stated that, at the time of the murder,
the Petitioner felt that her identity, which she felt
centered around Shipp, was slipping away. She also
opined that because of the Petitioner’s problems at
the Job Corp and her problems with the victim, the
Petitioner felt that she was losing her sense of selfesteem and identity. Because of the Petitioner’s
borderline personality disorder, she felt frantic and
experienced irrational anger. Dr. McCoy referenced
and discussed prior times in the Petitioner’s life when
she became extremely angry and stated that the
Petitioner simply did not have the control of a normal
person.
On cross-examination, Dr. McCoy acknowledged
that, although she had previous capital case
experience as a mitigation specialist, she had never
testified in any of those trials. She reiterated that she
was comfortable with Dr. Engum’s diagnosis and
again stated that it was not her responsibility to

188a
reach a diagnosis in this case. She acknowledged that
she did not necessarily look for things which would
contradict Dr. Engum’s conclusions. She also testified
that because Dr. Engum was a neuropsychologist, she
assumed that if a neurologist was needed, he would
have made that suggestion.
Herb Moncier, a Knoxville attorney, testified that
he spoke with Dr. McCoy about her relationship with
General Crabtree after she sought his advice on
whether it created a problem with her working on the
Petitioner’s case. He informed her that it should not
be a problem but that she should inform lead counsel.
Mr. Moncier also testified that sometime after the
trial began, Dr. McCoy called him, upset, and
informed him that Mr. Talman had asked her to say
something that was untrue. Mr. Moncier advised her
not to lie and that the issue would be raised in postconviction. Mr. Moncier also testified that Knoxville
had an excellent bar and that any number of
attorneys would have happily assisted lead counsel if
he had asked.
Gregory Isaacs, another local attorney, testified
next. He stated that he had been involved in two
capital cases and a number of homicide cases and
that he had occasionally used Dr. McCoy. He testified
that she was very competent and made a good
witness. Mr. Isaacs also testified that he dealt with
Dr. McCoy in a representative capacity following the
Petitioner’s trial. He testified that he assisted her in
drafting a response to lead counsel’s letter to Dr.
McCoy questioning her ethics.
The final witness to testify was Dr. William
Kenner, an expert in forensic psychiatry. He testified
that he was appointed by the court in 2001 to conduct
a competency evaluation of the Petitioner in order to
see if she could waive her post-conviction appeals. In

189a
performing his evaluation for the court, Dr. Kenner
met with the Petitioner on five occasions and,
afterward, an additional two times. He testified that
he also reviewed extensive records, including medical
records of some of the Petitioner’s family members.
He ultimately diagnosed the Petitioner as suffering
from:
Axis I (active
diagnosis)

Bipolar Disorder
hypomanic
recurrent

Axis II
(personality
disorder)

Borderline
Personality
Disorder
Antisocial
Personality
Disorder

Axis III (active
von Willibrand
medical condition) Disease
Alix IV
(psychosocial
stressors)

Problems with
primary support
group, social
environment,
incarceration

Axis V (global
assessment)

15

Dr. Kenner testified that in his first meeting with
the Petitioner, there were some suggestions of bipolar
disorder, but it “didn’t sort of knock me over” that
way. He opined that the diagnosis requires multiple
observations over time because people with bipolar
disorder cycle. Dr. Kenner indicated that his second

190a
meeting with the Petitioner was completely different
and that it became clear that sleep deprivation
affected her. In prison, it showed up as irritability.
The Petitioner told Dr. Kenner that she did “stupid”
stuff when she was not in prison.
In 2002, the Petitioner was prescribed Lithium,
and her reaction to the drug was dramatic. According
to Dr. Kenner, her major improvement after taking
the drug is what would be expected from someone
with bipolar disorder. Following another evaluation
in 2002, he re-diagnosed the Petitioner and concluded
that she did not suffer from borderline personality
disorder as he had previously concluded but rather it
was part of her bipolar spectrum disorder. He
acknowledged that bipolar disorder is an illness
which “doesn’t have terribly clear borders.” Dr.
Kenner also concluded that the Petitioner was not
antisocial. Dr. Kenner further acknowledged an
ongoing debate in the mental health community as to
whether
borderline
personality
disorder
is
misdiagnosed bipolar disorder or whether there is, in
fact, borderline personality disorder. He also
indicated that new diagnoses are constantly emerging
in this field.
According to Dr. Kenner, he felt that there was
data available at the time of trial which could have
been discovered if a competent physician had
conducted an examination of the Petitioner. He
specifically noted that there was significant data to
suggest early onset bipolar disorder, based upon the
Petitioner’s history. He indicated that it was critical
to explain this to the jury, tying it back into the
Petitioner’s personal history. He explained that this
was so important because, at the time of the murder,
the Petitioner was experiencing a two-to-four day
cycle of sleep deprivation with increasing irritability,

191a
which peaked at the time of the murder.
Dr. Kenner further testified that there were
records available for raising the medical question of
whether the Petitioner had brain damage, based
upon her seizures, her abnormal test results, and the
head injury she suffered as an adolescent. He
suggested that medical testing, such as an MRI,
should have been done on the Petitioner prior to a
final diagnosis. Dr. Kenner acknowledged that, given
the information the defense team possessed,
borderline personality disorder was a reasonable
diagnosis when the trial was held.
Dr. Kenner said that, in his opinion, the structure
of the defense team was odd. He asserted that the
lines of communication all went to lead counsel and
that there appeared to be little expert information
shared. He noted that Dr. Bernet never saw the
Petitioner and that, from what he learned, Dr.
Engum never reviewed Dr. McCoy’s work. Dr. Kenner
also noted that the fact that Mr. Talman attempted to
solicit a medical opinion from Dr. Bernet, who had to
then answer that he had not examined the Petitioner,
made Dr. Bernet’s entire theory seem more suspect to
the jury.
After hearing the evidence presented, the postconviction court, by written order, denied relief. The
Petitioner has timely appealed.
Analysis
On appeal to this court, the Petitioner presents a
number of claims that can be characterized in the
following categories: (1) the post-conviction court
should have recused itself; (2) the Petitioner’s trial
counsel were ineffective; (3) the Petitioner is
ineligible for the death penalty; and (4) the death
penalty is unconstitutional.

192a
Standard of Review for Post–Conviction Cases
Post-conviction relief is only warranted when a
petitioner establishes that his or her conviction is
void or voidable because of an abridgement of a
constitutional right. T.C.A § . 40–30–103. The
petition challenging the Petitioner’s convictions is
governed by the 1995 Post–Conviction Act, which
requires that allegations be proven by clear and
convincing evidence. See T.C.A. § 40–30–110(f).
Evidence is clear and convincing when there is no
serious or substantial doubt about the accuracy of the
conclusions drawn from the evidence. Hicks v. State,
983 S.W.2d 240, 245 (Tenn.Crim.App.1998).
Once the post-conviction court has ruled upon a
petition, its findings of fact are conclusive on appeal
unless the evidence in the record preponderates
against them. Wallace v. State, 121 S.W.3d 652, 656
(Tenn.2003); State v. Nichols, 90 S.W.3d 576, 586
(Tenn.2002) (citing State v. Burns, 6 S.W.3d 453, 461
(Tenn.1999)). This court may not reweigh or
reevaluate the evidence or substitute its inference for
those drawn by the post-conviction court. Nichols, 90
S.W.3d at 586. Questions concerning the credibility of
witnesses and the weight to be given their testimony
are for resolution by the post-conviction court. Id.
(citing Henley v. State, 960 S.W.2d 572, 579
(Tenn.1997), reh’g denied, (1998), cert. denied, 525
U.S. 830, 119 S.Ct. 82, 142 L.Ed.2d 64 (1998)). It is,
therefore, the burden of the petitioner to show that
the evidence preponderated against those findings.
Clenny
v.
State,
576
S.W.2d
12,
14
(Tenn.Crim.App.1978).
Notwithstanding, determinations of whether
counsel provided a petitioner constitutionally
deficient assistance present mixed questions of law
and fact. Wallace, 121 S.W.3d at 656; Nichols, 90

193a
S.W.3d at 586. As such, the findings of fact are
reviewed under a de novo standard, accompanied
with a presumption that those findings are correct
unless the preponderance of the evidence is
otherwise. See Fields v. State, 40 S.W.3d 450, 458
(Tenn.2001) (citations omitted). In clarifying the
standard, our supreme court explained that the
standard for reviewing the factual findings of a trial
court has always been in accordance with the
requirements of the Tennessee Rules of Appellate
Procedure, specifically Rule 13(d). Id. at 456.
I. Recusal of Post–Conviction Court
The Petitioner contends that the post-conviction
court, who also served as the trial court, committed
constitutional error by failing to recuse itself from the
post-conviction
proceedings.
Specifically,
the
Petitioner asserts that “the post-conviction court was
disqualified from deciding [the] Petitioner’s postconviction claim because [the court] had personal
knowledge of material facts in dispute.” The
Petitioner further contends that “in light of [the
Petitioner’s] post-conviction claims [, namely the
asserted conflict of interest of trial counsel,] a
reasonable person would have considered the postconviction court incapable of impartial adjudication of
[the Petitioner’s] post-conviction petition.”
At a hearing held on February 26, 2007, the
Petitioner’s post-conviction counsel argued that the
post-conviction court had a duty to recuse itself
because the post-conviction court had appointed lead
counsel to represent the Petitioner, knowing of
counsel’s potential conflict created by the overbilling
issue. Counsel for the Petitioner further asserted that
the post-conviction court should recuse itself because
there was an appearance of impropriety regarding
the court’s presiding over matters involving trial

194a
counsel and overbilling. Finally, counsel for the
Petitioner argued that the court was a necessary
witness at an unrecorded hearing in chambers after
the return of the guilt phase verdict.
The post-conviction court made the following
findings of fact and conclusions of law relative to the
motion for recusal:
... it’s discretionary ... with the statute.
But a judge should hear their own
petitions for post-conviction relief.... The
reason why is because the judge knows
better what happened in these cases
than anybody else ... and can
understand the issues better without
having to go backwards and learn them.
...
....
In this case I think it’s pretty obvious
that everyone in Knox County knew
that [lead counsel] had problems with
his billing. He also had been appointed
... by Judge Jenkins.... And he was a
death-qualified attorney with an active
law license without restrictions. He too
was presumed innocent until proven
guilty. As it turned out he was never
prosecuted in this case.... And he kept
his law license all the way through until
you said there had been a suspension at
some time later. But he did have a
problem ... it was generally known in
the courts in Knox County.
Evidently, it was also generally known
in the Supreme Court of Tennessee—...

195a
the Supreme Court appointed him to
represent Mr. Irick in what was a death
case.
And
he
represented
[the
Petitioner]....
Now, whether or not [lead counsel] had
a cloud over him that so inhibited his
ability to practice law that it affected
[the Petitioner’s] representation is an
issue for post-conviction.... But I don’t ...
think that I had had or have now any
interest in protecting my rulings,
protecting myself that was placed above
any interest to do justice in this case. So
with
respect
to
a
mandatory
disqualification, I don’t think I’m
obliged to be disqualified because I
knew or ... we all knew that [lead
counsel] had his own problems.
....
... And I don’t think that there’s any
reason that I should recuse myself as a
mandatory obligation based upon the
Tennessee Constitution....
....
Having a lot of knowledge about this
case doesn’t make me less than
impartial. And when I say me this isn’t
a personal ruling as we’ve discussed.
This is a judicial ruling.
Now, as to whether or not there’s an
appearance
of
impropriety
and,
therefore, based upon the cannons I
should recuse myself ... Miss Pike ...
raised the issue of the appointment of

196a
[lead counsel] as discretionary issue.
And ... I understand why the issue was
raised....[I]t’s not a personal issue.... If I
have opinions or knowledge and,
obviously, ... I have more knowledge of
this case than anyone else in this room
is not a ground to recuse myself....
....
... So I don’t think I have any interest in
the outcome other than to get this postconviction petition on the road....
....
I’ve been sitting here for seventeen
years. I’ve been reversed. I’ve gone back
and started again. In fact, I was
reversed in Tadaryl Shipp’s case as to
sentencing.... [T]hat doesn’t give me any
reason not to do my job in this case. I
have thought very hard the last couple
of
weeks—whether
or
not
my
involvement in this case has taken me
to the level that I should recuse. I don’t
find that to be the case.
....
And that’s what a post-conviction
petition is. It asks the Court to go back
and review everything and make sure
that it was done properly, and if it
wasn’t it is the duty of the Court to
review and to overturn a conviction. It’s
my obligation; that’s my job. And I don’t
see a reason why—and if I don’t do that
job properly, somebody else is going to
reverse it. So I don’t see a reason to

197a
recuse myself for that reason either.
On appeal, the Petitioner relates that her
“foremost claim for post-conviction relief is that her
trial counsel [, lead counsel,] was ineffective in light
of a conflict of interest” created by his being under
investigation by the Indigent Defense Fund and that
he had disciplinary sanctions pending at the time of
his representation of the Petitioner. She further
relates that “as a result, it was in [lead counsel’s]
pecuniary and penological interest to avoid agitation
of either the prosecutor or the trial court in the trial.”
Her argument with regard to the post-conviction
court’s recusal appears to center around the incamera meeting held in the court’s chambers, off the
record, immediately preceding the penalty phase of
the trial. The Petitioner contends that the events of
that meeting substantiate a claim of conflict which
mandates vacating her sentence based on her theory
that lead counsel turned over the mitigation
materials at that time to placate the State, a theory
supported by the testimony of Dr. McCoy and two
Knoxville attorneys. With regard to the present
argument, the Petitioner contends that “what is
critical is that the post-conviction court ... was a party
to the unrecorded in camera meeting.”
It is not disputed that the post-conviction court
was qualified to preside over the post-conviction
proceedings and, generally, adjudication of a postconviction petition by the same court which presided
over a petitioner’s trial is both proper and expedient.
State
v.
Garrard,
693
S.W.2d
921,
922
(Tenn.Crim.App.1985); T.C .A. § 40–30–105(b) (1995).
Nor is recusal automatically required when a judge is
called upon to review their own order. Additionally,
our supreme court has held that prior knowledge of
facts about a case is not sufficient, in and of itself, to

198a
require disqualification. State v. Paul Dennis Reid,
213 S.W.3d 792, 815 (Tenn.2006). The Petitioner
contends, however, that this case is distinguishable
from the general because her claim “involves the
court itself being instrumental in denying [the
Petitioner] a fair trial,” thus taking this claim
“outside the normal presumption of impartiality that
attaches to post-conviction adjudication by the same
court that presided at trial.”
The Petitioner centers her argument around
statements made by the post-conviction court at the
hearing in which she quashed the subpoena which
had been issued to the court and denied the motion to
recuse:
I have no independent memory [of the
meeting] other than that there was
three volumes. I remember that there
were volumes—and I’m not trying to
testify; I’m just trying to—trying to
make a ruling here—of mitigation
materials. Those were turned over to
the State as required after the verdict.
The State had no—not enough time.
And then—and I can’t imagine why—
why there would even be an issue about
when [lead counsel] received those
materials because they didn’t go to the
State anyway at that point. And maybe
the State was arguing that they were
entitled and I ordered them turned over.
....
Again, for the purposes of your Motion
for a Subpoena, a judge speaks through
their rulings. So you can take those
rulings and say, “Okay. These are the

199a
grounds for post-conviction petition.”
But you can’t subpoena me to ask me
what I thought or what I think or what
I remember. I’ve told you as much as I
can in order to make this case go
forward.
I remember that evening. I remember
that verdict coming in. I remember us
having a discussion, and I remember us
discussing whether—when the State got
its materials. And everything is spoken
for through the transcript, I think. And
if there isn’t—and if there’s anything
else we’re going to get it out of those
transcripts that we have.
The Petitioner points to numerous alleged
misstatements of law and a myriad of ways which
these statements indicate the post-conviction court’s
knowledge of facts which would affect her decision on
the merits of the Petitioner’s claim. The Petitioner
asserts that “because [the post-conviction court]
presided over [the Petitioner’s] post-conviction
petition as post-conviction court, [the court] served as
witness, judge, and jury” in violation of the
Petitioner’s constitutional right to confront witnesses.
We cannot agree with the Petitioner’s contention
that the post-conviction court should have recused
itself based solely on the ground that the court was
party to an in-camera meeting between the parties.
The Petitioner puts forth mere allegations as to how
this affected the court’s impartiality with regard to
deciding the conflict of interest claim. Nothing in the
record supports the Petitioner’s theory or supposition.
The post-conviction court’s comment in no way leads
us to conclude that it was harboring under a veil of
impartiality with regard to the decision. Nor are we

200a
convinced that the court’s mere presence at the
meeting is a sufficient reason to force the court’s
disqualification. The Petitioner has failed in her
burden of establishing this claim.
As a separate, yet related argument, the
Petitioner contends that, based upon the recent
holding in Frazier v. State, 303 S.W.3d 674
(Tenn.2010), the Petitioner’s conviction and sentence
must be set aside because the trial court failed to
follow the requisite procedures if it is aware that
counsel is operating in a conflict of interest. The
Petitioner contends that the failure results in
structural error. While we do not dispute the
Petitioner’s interpretation of the Frazier holding, we
find her reliance upon it misplaced. The premise in
Frazier requires that trial counsel be operating under
a conflict of interest. As expressed infra, that is not
the case before us.
II. Ineffective Assistance of Counsel
A. Standard of Review
The Sixth Amendment provides, in pertinent part,
that, “[i]n all criminal prosecutions, the accused shall
enjoy the right ... to have the Assistance of Counsel
for his defense.” U.S. Const. amend. VI. This right to
counsel is “so fundamental and essential to a fair
trial, and so, to due process of law, that it is made
obligatory upon the States by the Fourteenth
Amendment.” Gideon v. Wainwright, 372 U.S. 335,
350, 83 S.Ct. 792, 9 L.Ed.2d 799 (1963) (quoting Betts
v. Brady, 316 U.S. 455, 465, 62 S.Ct. 1252, 86 L.Ed.
1595 (1942)). Inherent in the right to counsel is the
right to effective assistance of counsel. Cuyler v.
Sullivan, 446 U.S. 335, 344, 100 S.Ct. 1708, 64
L.Ed.2d 333 (1980); McMann v. Richardson, 397 U.S.
759, 771 n. 14, 90 S.Ct. 1441, 25 L.Ed.2d 763 (1970);

201a
see also Strickland v. Washington, 466 U.S. 668, 686,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984).
“The benchmark for judging any claim of
ineffectiveness must be whether counsel’s conduct so
undermined the proper functioning of the adversarial
process that the trial cannot be relied on as having
produced a just result.” Strickland, 466 U.S. at 686;
Combs v. Coyle, 205 F.3d 269, 277 (6th Cir.2000). A
two-prong test directs a court’s evaluation of a claim
of ineffectiveness:
First, the defendant must show that
counsel’s performance was deficient.
This requires showing that counsel
made errors so serious that counsel was
not functioning as the “counsel”
guaranteed the [petitioner] by the Sixth
Amendment. Second, the [petitioner]
must
show
that
the
deficient
performance prejudiced the defense.
This requires showing that counsel’s
errors were so serious as to deprive the
[petitioner] of a fair trial, a trial whose
result is reliable.
Strickland, 466 U.S. at 687; see also Combs, 205 F.3d
at 277.
The performance prong of the Strickland test
requires a petitioner raising a claim of ineffectiveness
to show that counsel’s representation fell below an
objective standard of reasonableness, or “outside the
range of professionally competent assistance.”
Strickland, 466 U.S. at 690; see also Kimmelman v.
Morrison, 477 U.S. 365, 386, 106 S.Ct. 2574, 91
L.Ed.2d 305 (1986). “Judicial scrutiny of performance
is highly deferential, and ‘[a] fair assessment of
attorney performance requires that every effort be

202a
made to eliminate the distorting effects of hindsight,
to reconstruct the circumstances of counsel’s
challenged conduct, and to evaluate the conduct from
counsel’s perspective at the time.” Combs, 205 F.3d at
278. Upon reviewing claims of ineffective assistance
of counsel, the court “must indulge a strong
presumption that counsel’s conduct falls within the
wide range of reasonable professional assistance; that
is, the [petitioner] must overcome the presumption
that, under the circumstances, the challenged actions
‘might be considered sound trial strategy.’ “
Strickland, 466 U .S. at 689. Additionally, courts
should defer to trial strategy or tactical choices if
they are informed ones based upon adequate
preparation. Hellard v. State, 629 S.W.2d 4, 9
(Tenn.1982). Finally, it is acknowledged that criminal
defendants are not entitled to perfect representation,
only constitutionally adequate representation. Denton
v. State, 945 S.W.2d 793, 796 (Tenn.Crim.App.1996).
In other words, “in considering claims of ineffective
assistance of counsel, ‘we address not what is prudent
or appropriate, but only what is constitutionally
compelled.’ “ Burger v. Kemp, 483 U.S. 776, 794, 107
S.Ct. 3114, 97 L.Ed.2d 638 (1987). Notwithstanding,
it is the duty of this court to “search for constitutional
[deficiencies] with painstaking care” as this
responsibility is “never more exacting than it is in a
capital case.” Id. at 785.
B. Denied Right to Unconflicted Counsel
The Petitioner contends that she received
ineffective assistance of counsel because of two
distinct conflicts of interests. Specifically, the
Petitioner claims that lead counsel was hampered by
actual conflicts of interest in that he:
1. stole from the indigent defense fund and lied to
the court.

203a
2. procured a release of media rights from the
Petitioner.
The Petitioner asserts that these two distinct
conflicts of interest rendered the representation
received constitutionally inadequate. She further
contends that no showing of prejudice is required
with regard to these claims.
1. Defense Fund Investigation
The Petitioner’s first contention of a conflict is
based upon the Comptroller’s investigation into lead
counsel’s prior billings to the indigent defense fund.
There is no dispute in the facts that lead counsel was
investigated for overbilling the Indigent Defense
Fund and repaid more than $60,000 to the fund. Nor
is it disputed that lead counsel self-reported to the
Board of Professional Responsibility and that the
claim remained unresolved at the time of trial.
Eventually, as a result, the Tennessee Supreme
Court suspended lead counsel’s license for eleven
months, twenty-nine days. The sanction, however,
was not entered until November 24, 1998, one day
after the supreme court affirmed the Petitioner’s
conviction and sentence. Neither lead counsel nor any
other attorney involved in the fraudulent billing was
prosecuted criminally for their actions.
The Petitioner’s claim on appeal, although
somewhat unclear, appears to be that lead counsel
was conflicted between his representation of the
Petitioner and his own fear of being prosecuted by the
State. The argument centers around the in-camera
meeting in which lead counsel turned over Dr.
McCoy’s report and, at least according to the
testimony of Dr. McCoy, later asked her to lie about
when the report was delivered to him because the
State was “furious” at receiving the materials at the

204a
late date. The Petitioner contends this resulted in
lead counsel not calling Dr. McCoy, the key
mitigation witness, allegedly because of his own fear
of angering the court or the State. The Petitioner also
contends that any testimony by lead counsel
regarding other possible reasons as to why Dr. McCoy
was not called was not credible and not supported by
the testimony of other witnesses. The Petitioner
asserts that “given this understanding of the facts,
[lead counsel’s] penalty phase decisions must be
considered as products of a conflict of interest.”
A conflict of interest does not, in and of itself,
constitute ineffective assistance of counsel. In order
to establish a violation of the Sixth Amendment, a
[petitioner] who raises no objection at trial must
demonstrate that an actual conflict of interest
adversely affected his lawyer’s performance. Cuyler v.
Sullivan, 446 U.S. 335, 348, 100 S.Ct. 1708, 64
L.Ed.2d 333 (1980) (holding that the mere possibility
of a conflict of interest is not enough to establish
ineffective assistance of counsel where the defendant
raised no objection to multiple representation at
trial.) However, unless the petitioner establishes that
counsel was burdened by an actual conflict of
interest, he must prove both deficient performance
and that he was prejudiced by the deficiency.
Strickland v. Washington, 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed.2d 674. Prejudice is presumed only if
the petitioner demonstrates that counsel “actively
represented conflicting interests” and that “an actual
conflict of interest adversely affected his lawyer’s
performance.” Cuyler, 446 U.S. at 350. Until a
petitioner shows that his counsel actively represented
conflicting interests, he has not established the
constitutional predicate for his claim. Id.
Where an attorney is placed in a position of

205a
divided loyalties between himself and his client, an
actual conflict is created. State v. Culbreath, 30
S.W.3d 309. 315 (Tenn.2000). Among the class of
potentially conflicting interests are the personal
interests of defense counsel. McCullough v. State, 144
S.W.3d 382, 385 (Tenn.Crim.App.2003). Yet another
recognized conflicting interest is preoccupation with
fear of instigating prosecution for one’s own
misdeeds. U.S. v. Montana, 199 F.3d 947, 949 (7th
Cir .1992).
First, as an aside, the Petitioner contends that the
post-conviction court erred in finding the conflict
claims waived. The court found that “[lead counsel]
testified that he had informed [the Petitioner] of the
issue and that she actually liked him more because of
it. No issue was raised either pretrial or at trial.” As
such, the court found the issue waived but,
nonetheless, ruled on the issue and found it to be
without merit. Likewise, we also elect to review the
issue, so it is not necessary to rule on the issue of
waiver.
In denying relief on this claim, the post-conviction
court found that the proof did not establish an actual
conflict of interest which adversely affected lead
counsel’s performance. The court entered multiple
findings of fact, upon which it based this conclusion.
Prior to the lead counsel’s appointment to the
Petitioner’s case, the trial court inquired into the
status of the investigation and discovered that the
reimbursement had been paid in full. The actual
investigation had concluded prior to lead counsel’s
appointment as the Petitioner’s attorney. Lead
counsel had been appointed by the Tennessee
Supreme Court in another matter in March 1995, two
months prior to his appointment in this case. Lead
counsel remained a licensed attorney, in good

206a
standing, throughout the entire investigation. Lead
counsel stated that he had deemed the matter
concluded prior to his appointment in the Petitioner’s
case. Lead counsel further testified that he informed
the Petitioner of the investigation and that she
“seemed to like him more because of it.”
The Petitioner has failed to provide any proof
which preponderates against these findings. See
Henley v. State, 960 S.W.2d at 579. The record simply
fails to offer anything more than supposition that the
overbilling
issue
affected
lead
counsel’s
representation of the Petitioner. All the evidence
presented appears to support lead counsel’s own
testimony that the investigation was concluded and
the matter settled prior to his appointment in this
case. Lead counsel consistently testified that he
considered the matter concluded prior to appointment
in the case and that he never spoke with anyone in
the district attorney’s office regarding the matter. He
further indicated that he never would have settled
the matter civilly if there were potential criminal
charges pending.
Moreover, the assertion that fear of prosecution
led lead counsel to lie to the court at the in-camera
meeting and then deciding not to call Dr. McCoy is
mere supposition as the allegations rest on
speculation and disputed testimony. Each witness
who was present at the in-camera hearing testified
that they were unable to recall what occurred in that
meeting. Lead counsel testified that he had never
asked Dr. McCoy to lie, and the court accredited this
testimony. As noted, questions concerning the
credibility of witnesses, the weight and value to be
given their testimony, and the factual issues raised
by the evidence are to be resolved by the trial court.
Henley, 960 S.W.2d st 579. This court does not

207a
reweigh such determinations. Lead counsel, along
with co-counsel, testified that there were multiple
reasons as to why the decision was made to not use
Dr. McCoy as a witness, the primary one being that
she could not corroborate the testimony of Dr.
Engum. The post-conviction court also noted that the
record did not support Dr. McCoy’s testimony based
upon a statement made on the record following the
in-camera meeting in which lead counsel stated he
had received the documentation from Dr. McCoy
“earlier this week,” not the day prior as Dr. McCoy
indicated lead counsel wanted her to say.
The Petitioner offers only speculation as the
reason for “counsel’s penalty phase collapse.” This
speculation as to what might have been the reason
for the decisions made is not sufficient meet her
burden of establishing that a conflict existed.
2. Media Rights
Next, the Petitioner asserts that a conflict of
interest existed based upon a release of media rights
from the Petitioner to lead counsel and co-counsel
regarding the Petitioner’s story. It is not disputed
that lead counsel spoke with the Petitioner’s aunt,
Carrie Ross, about authoring a book with her about
the Petitioner’s life and criminal prosecution.
Moreover, on May 1, 1996, after the Petitioner was
found guilty and sentenced to death but prior to
direct appeal, she signed a release giving the
attorneys permission to retell her story. The release
was “limited to information which is public
information, e.g., evidence at trial and in my court
file, and their own personal experiences while
working on [the Petitioner’s] behalf.” The release
further acknowledged that the attorneys may
“eventually gain a pecuniary benefit from the
retelling on [the Petitioner’s] story.”

208a
Rule 1.8(a) of the Tennessee Rules of Professional
Conduct, dictates that “[a] lawyer shall not enter into
a business transaction with a client or knowingly
acquire an ownership, possessory, security or other
pecuniary interest adverse to a client ” unless there is
full disclosure, the client is given the opportunity to
seek independent counsel, and the agreement is in
writing and signed. Tenn. Sup.Ct. R. 8, RPC 1.8(d).
Generally, an agreement by which a lawyer acquires
literary or media rights concerning the conduct of the
representation creates a conflict of interest between
the attorney and the client. (emphasis added). See Id.
If such conflict is proven, it is still necessary “for [the]
petitioner to establish that the conflict of interest
adversely affected his counsel’s performance.”
Mickens v. Taylor, 525 U.S. at 174.
On appeal, the Petitioner contends that “[lead
counsel]’s discussions with Ms. Ross make evident his
interest in profiting from [the Petitioner’s] story from
the earliest stages of his representation of [the
Petitioner].
Because
counsel
handled
[the
Petitioner’s] direct appeal, counsel’s conduct in
obtaining a waiver also occurred in the course of [the
Petitioner’s] trial. This conduct also casts a shadow
backwards across [the Petitioner’s] trial, suggesting
that defense counsel were motivated by monetary
gain throughout.” The Petitioner further contends
that because she established a conflict, the required
showing again is adverse effect rather than prejudice.
Finally, she asserts that the adverse effect is shown
by the Petitioner’s failure to seek a continuance when
effective representation of the Petitioner mandated
delay for two reasons. According to the Petitioner,
trial counsel’s failure to seek a continuance is
consistent with their pecuniary interest in selling the
story, which was generating a great deal of media

209a
attention at the time. Although contending that a
showing of prejudice is not required, “the evidence of
prejudice is immediately apparent; failure to gain a
continuance resulted in poor preparation that
undermined [the Petitioner’s] defense in totality.”
The State counters that trial counsel did not enter
into such an agreement with the Petitioner prior to or
during trial. The State acknowledges that lead
counsel did, in fact, have a discussion with Ms. Ross
regarding the writing of the Petitioner’s story;
however, Ms. Ross had no legal rights to the
Petitioner’s story. The State contends, and the postconviction court found, that there is no evidence to
indicate that trial counsels entered into any
agreement with the Petitioner prior to or during the
trial. The State further asserts that as the only
release at issue in this case was signed by the
Petitioner after she was found guilty and sentenced,
although prior to the direct appeal, “it is irrational to
suggest that the [Petitioner] was adversely affected
by the conduct of the attorneys during trial as a
result of this post-trial agreement.” We agree with
the State.
The Petitioner did not put on any evidence which
preponderates against the post-conviction court’s
findings. A mere discussion of a book, which even Ms.
Rose was somewhat unclear on the timing of, is not
sufficient to establish the existence of a conflict of
interest. As noted by the State, at the time the waiver
was signed by the Petitioner, which is the only firm
indication that trial counsel was considering
pursuing a book deal, which as an aside never
occurred, the trial and sentencing phases were
completed. The Petitioner may not now rely on
something which occurred after the trial to establish
a conflict which affected counsel’s performance

210a
during the trial.
Though not specifically asserted by the Petitioner,
with regard to counsel’s representation of the
Petitioner on appeal, we conclude that a possible
conflict
existed,
as
counsel
continued
the
representation on direct appeal. However, contrary to
the Petitioner’s assertions, we conclude that a
showing of prejudice is required in this case to
establish ineffective assistance of counsel. Moreover,
as did the post-conviction court, we conclude that no
prejudice has been shown. Ms. Ross testified that the
only reason presented to her for the book was so that
others could see a different side of the Petitioner.
Both attorneys denied any hopes of pecuniary gain.
Co-counsel indicated that they had discussed doing a
publication for a seminar on death penalty cases.
Moreover, there is no indication from any party that
anything was ever done to further the actual goal.
After review, we conclude that the Petitioner has
failed to show even adverse affect from these actions,
let alone prejudice.
C. Penalty Phase Deficiencies
The Petitioner claims that trial counsel failed to
function as effective counsel as guaranteed by both
the Tennessee and United States Constitutions. The
Petitioner asserts that “[t]he penalty phase verdict
was less an appropriate response to the facts than an
indictment of the performance of defense counsel.”
She asserts that her death sentence was the direct
result of counsel’s: (1) failure to present mitigation
evidence in their actual possession; (2) failure to
discover relevant mitigation evidence; (3) counsel’s
surrender of privileged information to the State; (4)
counsel’s failure to make effective opening and
closing arguments; (5) counsel’s failure to conduct
effective voir dire; and (6) counsel’s failure to object to

211a
a legally inconsistent aggravator.
1. Failure to Present Mitigation Evidence
in Counsel’s Possession
At the post-conviction hearing, trial counsel
conceded that he should have called many of the
individuals interviewed by Dr. McCoy, including the
juvenile detention workers and the Petitioner’s
friends from Job Corps. Trial counsel further
acknowledged that he did not, in fact, subpoena any
lay witnesses to testify, planning instead to use Dr.
McCoy as the only witness, presenting the social
history of the Petitioner and utilizing the charts and
materials she had prepared to support her testimony.
The Petitioner first contends that trial counsel’s
strategy to use Dr. McCoy as the sole witness to
present the Petitioner’s social history was ineffective
assistance of counsel because a social history is more
properly presented through multiple lay witnesses.
She further argues, however, that the decision not to
utilize the testimony of Dr. McCoy compounded the
problem and was separately ineffective.
The Petitioner acknowledges that trial counsel
provided four alternative reasons for the decision not
to have Dr. McCoy testify, but she asserts that each
justification is implausible. With regard to counsel’s
asserted reason not to have Dr. McCoy testify
because she could not corroborate Dr. Engum’s
diagnosis, the Petitioner asserts the reason is simply
untrue as Dr. McCoy testified otherwise and her
prepared report supported the diagnosis. With regard
to the asserted reason that Dr. McCoy’s materials
contained “double-edged” information, the Petitioner
contends that: trial counsel should have already been
aware of this information from discussions with Dr.
McCoy; the negative information could have been
presented in a way to strengthen the mental illness

212a
diagnosis; and the decision to turn the materials over
to the State allowed the information in anyway. With
regard to trial counsel’s third explanation for not
calling Dr. McCoy, her relationship with General
Crabtree, the Petitioner contends that trial counsel
undermined his own justification by admitting his
knowledge of the relationship months in advance.
Finally, the Petitioner argues that the explanation
that the decision was based in part on the fact that
General Crabtree showed up that morning with the
report covered in “yellow stickies” and appeared
“loaded for bear” was not rational, as it was
undisputed that the decision not to call Dr. McCoy
was made the prior evening. The Petitioner argues
that “[b]ecause each of counsel’s proffered
explanations fall flat, there is no reasonable strategic
basis on which counsel could have decided to pull Dr.
McCoy’s testimony from the penalty phase.”
When analyzing a claim of ineffective assistance
as a result of failing to present mitigating evidence,
the courts apply the three-pronged test set forth by
our supreme court in Goad v. State, 938 S.W.2d 363,
371 (Tenn.1996):(1) the reviewing court must first
analyze the nature and extent of the mitigating
evidence that was available and not presented; (2) the
court must then determine whether substantially
similar mitigating evidence was presented to the jury
during either the guilt phase or the sentencing phase
of the proceedings; and (3) the court must consider
whether there was such strong evidence of applicable
aggravating factors that the mitigating evidence
would not have affected the jury’s determination. Id.
at 371. In denying the Petitioner post-conviction
relief on this issue, the post-conviction court properly
analyzed the issue and supported its reasoning on the
record.

213a
First, the post-conviction court analyzed the
mitigating evidence known to the defense team at the
time of trial, specifically, Dr. McCoy’s report.
Afterward, the court found that the first Goad factor
had not been satisfied. In reaching its decision, the
court recognized that:
Dr. McCoy testified concerning various
themes of mitigation that she thought
should have been presented to the jury
during ... the trial. While this court
finds that there may have been
mitigating evidence that was not
presented to the jury, this court has
previously discussed counsel’s decision
to limit some mitigation and the
negative aspect of some of that
evidence.
Review of the record reveals that the court had
indeed earlier discussed, and found reasonable, lead
counsel’s decisions regarding the available evidence
in light of the negative aspects. Next, the court looked
to the evidence and found that the information in Dr.
McCoy’s report was substantially similar to
mitigation evidence which was presented during the
guilt and penalty phases of the trial. Specifically, the
court stated:
Much of the evidence presented by the
petitioner here was presented to the
jury in one of the phases of trial, but
this court notes that it was not to the
extent that the petitioner now asserts
that she thinks it should have been.
Some of the witnesses would have been
redundant while others would have
included
some
very
negative
information about the petitioner.

214a
Finally, the post-conviction court determined that
there was “such strong evidence of applicable
aggravating factors that the mitigating evidence
would not have affected the jury’s determination .”
See Goad, 938 S.W.2d at 371. Additionally, the court
made the following comments on the record.
Considering all the circumstances and
evidence, this court cannot fault counsel
for having chosen not to use Dr. McCoy
as a witness at the penalty phase of the
petitioner’s trial. [Lead counsel] was
understandably uncomfortable with Dr.
McCoy’s statements and materials and
while a different decision may seem best
in hindsight, this court cannot judge
counsel’s decision with the situation
with 20–20 hindsight and find fault
merely because another choice may
seem to be preferable today. Counsel’s
decision was not unreasonable.
The post-conviction court also noted in its order
the problematic information that lay witnesses called
to testify could put before the jury and noted that:
With the potential for much of this plus
other information to harm the
petitioner’s case in mitigation, counsel
made a reasonable choice to try to limit
what came before the jury and from
whom. Counsel’s original choice to have
the information explained by an expert
rather than lay witnesses who could not
explain the petitioner’s behavior was
understandable. Once the exigent
decision was made that Dr. McCoy
would not testify, counsel strategically
decided to have the petitioner’s parents

215a
and aunt testify to bring out the
petitioner’s life history to be considered
in combination with the information
that had already been provided to the
jury
regarding
her
Borderline
Personality Disorder.
Following review of the record, we cannot
conclude that the Petitioner has put forth sufficient
evidence to preponderate against the trial court’s
findings. The court made clear its findings on the
record after applying the appropriate analysis, and
we agree with the post-conviction court.
The post-conviction court, again specifically
accrediting lead counsel’s testimony, stated that he
did not call Dr. McCoy because she told him that she
could not corroborate Dr. Engum’s report. As
previously noted, it is not the province of this court to
reweigh such determinations. Lead counsel also
testified that he had never been completely
comfortable with the use of Dr. McCoy’s materials as
they contained a lot of material which he did not
want the jury to hear. He explained that the decision
was made to have Dr. McCoy testify, but some
discomfort still remained with the decision. According
to lead counsel, when he learned that Dr. McCoy
would not corroborate the diagnosis, this was the
final straw, and, when considered in combination
with his original discomfort and other minor
concerns, the decision was made. The court noted
that while Dr. McCoy’s testimony contradicted these
statements, this could easily be explained as a
misunderstanding between the two. With regard to
lay witnesses who could possibly have been called,
the court again, based on the testimony which was
given, stated that the decision was a tactical one
based on the negative nature of some of the

216a
statements. The Petitioner has failed to carry her
burden for relief.
Based upon the clear finding by the trial court
that the mitigation evidence which was omitted
would not have outweighed the aggravating factors,
the Petitioner is essentially precluded from
establishing prejudice. Even trial counsel himself,
while admitting that in hind sight he wished he had
called more mitigation witnesses, stated that he was
not sure it would have made a difference based upon
the horrible facts of the case. However, as noted by
the post-conviction court, these decisions cannot be
judged in hindsight.
2. Failure
to
Discover
Mitigation Evidence

Relevant

The Petitioner also finds fault with trial counsel
for failing to discover critical mitigation evidence in
this case. Specifically, she asserts that trial counsel
failed to discover evidence of the Petitioner’s brain
damage and Bipolar Disorder. Additionally, she
asserts that trial counsel failed to discover numerous
lay witnesses who could have testified in her defense.
She contends that trial counsel was in possession of
numerous “red flags” that should have alerted
counsel of the need to discover and present evidence
of the alleged brain damage.
The Petitioner bases her argument with regard to
brain damage and mental illness on the testimony of
Drs. Pincus and Kenner. Dr. Pincus testified that the
most significant indication of the Petitioner’s brain
damage was her history of seizures dating from
infancy. Dr. Kenner testified that because of the
abnormal EEG done when the Petitioner was
fourteen months old, the history of seizures, and the
traumatic head injury at age fourteen, “ample

217a
evidence existed at the time of [the Petitioner’s] trial
to suggest the need for a neurological examination.”
Additionally, trial counsel was aware of lay witness
testimony regarding the Petitioner’s mother’s
alcoholism and the Petitioner’s exposure in-utero,
which can result in neurological impairment. The
Petitioner asserts that, despite all this evidence
which suggested brain damage, the defense team
conducted no neurological investigation. As such,
counsel failed to discover the Petitioner’s neurological
disabilities, namely, an abnormality in the brain that
impairs her impulse control.
The Petitioner contends that the psychological
evaluation conducted by Dr. Engum was not
sufficient for two reasons. First, she contends it is
insufficient
because
Dr.
Engum
is
a
neuropsychologist, and the type of brain damage
suffered by the Petitioner does not show up in
neuropsychological testing. Dr. Pincus testified that
no evidence of brain damage could have been
discovered by Dr. Engum because of the type of
testing he utilized. The Petitioner does not contend
that trial counsel should be held to a standard of
neurological knowledge on par with Dr. Pincus, but
argues that counsel should have known that: (1) the
available evidence suggests physiological damage;
and (2) Dr. Engum was not a medical doctor.
“Competent counsel would have known that different
areas of expertise are needed to conclude that there is
no brain damage.” The second reason the Petitioner
contends that it was unreasonable for trial counsel to
rely on Dr. Engum’s opinion is that Dr. Engum
provided no explanation for the myriad indications of
brain damage. “Minimal diligence required a second
opinion from a medical professional with a different
specialty.”

218a
The Petitioner further asserts that the trial
diagnosis of borderline personality disorder was
incorrect. Rather, the proper diagnosis, as testified to
at the post-conviction hearing, was bipolar disorder,
as confirmed by her positive response to moodstabilizing drugs. Additionally, she asserts that
counsel failed to discover her post-traumatic stress
disorder. The Petitioner contends this failure to
discover the proper diagnosis was ineffective
assistance because the diagnosis was readily
discoverable at the time of trial. Dr. Kenner testified
that reports of the Petitioner’s family and friends of
her behavior, the Petitioner’s three suicide attempts,
the Petitioner’s belief that she was invincible, and her
EEG at fourteen months of age were all indicators of
bipolar disorder. Dr. Kenner acknowledged that there
is a danger of misdiagnosing bipolar individuals as
someone who has borderline personality disorder, and
to achieve the correct diagnosis, repeated clinical
interviews are necessary. He opined that Dr. Engum
reached the wrong diagnosis because he met with the
Petitioner only four times. The Petitioner further
contends that Dr. Engum’s diagnosis was wrong
because he knew little about the Petitioner’s life, a
fact directly attributable to trial counsel because
their team was structured so that their experts
worked in isolation with respect to the others.
As a third assertion of failure to discover
mitigation evidence, the Petitioner also asserts that
trial counsel was in possession of numerous “red flags
in the form of information obtained from prospective
lay witnesses” that should have alerted counsel for
the need to discover and present evidence of the
alleged brain damage. She also faults counsel for
failing to investigate witnesses who could testify to
the Petitioner’s family relationships and the

219a
institutions in which the Petitioner spent a great
portion of her life.
In denying relief on this issue, the post-conviction
court made the following findings:
Counsel relied upon the experience of
Dr. Engum to perform the appropriate
testing. When Dr. Engum indicated that
there were no signs of brain damage,
counsel relied on this information. Dr.
Engum did not testify here and there is
no indication that he advised that other
experts were needed. [Lead counsel]
testified that he did not recall either Dr.
Engum or Dr. McCoy suggesting that a
psychiatrist needed to evaluate the
petitioner. Dr. McCoy also testified that
because
Dr.
Engum
was
a
neurophsychologist that she would have
assumed he would have been the person
to make the call if a neurologist was
needed. This court finds no deficiency in
counsel for not instructing the defense
experts in how to do their jobs in areas
to which they are supposed to be experts
or for not having questioned their
opinions.
The experts at all the proceedings
opined that the petitioner acted without
premeditation. Drs. Engum, Pincus, and
Kenner all testified that the petitioner
lost control. Dr. Pincus specifically
testified, as did Dr. Engum, to the
petitioner’s
premeditation
and
deliberation in planning the beating,
taking weapons, getting to the park,
carving a pentagram, and delivering

220a
blows to the victim. They both opined
that the petitioner had not, however,
premeditatedly and deliberately murder
the victim. They opined, as did Dr.
Kenner, that once the beating began,
she lost control and could not stop. Drs.
Pincus and Engum also agreed that
while they did not think a cooling off
period had occurred, there had been
time for that to occur. Dr. Pincus also
admitted that the fact that the
petitioner had told someone the day
before the murder that she was going to
kill the victim and then did in fact kill
the
victim
makes
it
appear
premeditated. This court will not fault
counsel because the specific diagnosis
by different experts differed. Counsel
appropriately relied upon the retained
expert’s opinion. As made clear by Dr.
Kenner’s own testimony, the area of
mental health is constantly changing.
Dr.
Kenner even had included
borderline personality disorder in his
diagnoses and stated that it was a
reasonable diagnosis at the time with
what the defense had.
Following a thorough review, we must agree with
the post-conviction court. Trial counsel was not an
expert in the field of psychology or neurology, and, as
conceded by the Petitioner, such expertise is not
required. Lead counsel retained multiple experts to
examine the Petitioner, and a diagnosis was reached.
A defense attorney is not required to question a
diagnosis put forth by a professional expert in the
field. Lead counsel was asked at the post-conviction

221a
hearing if any of the retained experts had
recommended additional testing, and he answered in
the negative. Lead counsel specifically stated that if
such recommendation had been made, he would have
pursued it. Moreover, the court concluded that “no
relief is warranted based on the fact that the opinions
of Drs. Pincus and Kenner differed somewhat from
that of Dr. Engum.” While the actual diagnosis is
somewhat varied, the essential facts, i.e., the
concession to premeditation, are very similar. And, as
further noted, the Petitioner’s own expert conceded
that the diagnosis reached by Dr. Engum was
reasonable at the time. This issue was properly
denied by the post-conviction court, and the
Petitioner has failed to demonstrate that the evidence
preponderates against the court’s findings.
3. Disclosure of Protected Work Product
to the Prosecution
The Petitioner next asserts that counsel’s
representation was ineffective because lead counsel
turned three volumes of Dr. McCoy’s work product
over to the prosecutor immediately prior to the
penalty phase. The Petitioner’s argument first
centers around whether counsel was ordered by the
trial court to produce these documents. She asserts
that because the record does not support the
existence of a court order, then trial counsel was
ineffective because he was not required to turn the
documents over pursuant to Rules 16(b) and 26.2 of
the Tennessee Rules of Criminal Procedure and Rule
705 of the Tennessee Rules of Evidence.
As noted by the State, the Petitioner’s argument
appears to rest solely on whether lead counsel was
ordered by the court to turn over the documents. She
notes the testimony of lead counsel during which he
stated that he turned over the materials because “the

222a
Court said we had to give them to him.” However, the
Petitioner states that later statements by lead
counsel cast doubt upon the existence of such an
order. Namely, she noted that lead counsel later
stated that he “could be mistaken as to whether it
was actually a ruling” by the court. She also
references a statement in which lead counsel stated,
“in retrospect, I probably would not have given the
entire thing and made the Court specifically order me
to do that.” Moreover, the Petitioner points out that
no written order appears in the record ordering
production of Dr. McCoy’s work.
We must agree with the State and conclude that
the Petitioner has failed to carry her burden of
establishing either deficient performance or
prejudice. The Petitioner is not asserting that lead
counsel is duty bound to comply with the orders of a
court. The Petitioner’s argument is merely that the
record does not establish that such an order existed.
We disagree, however, with the Petitioner’s
interpretation of the evidence presented. In fact, the
only evidence presented is basically the testimony of
lead counsel, which appears to indicate that he would
have turned the material over only upon order of the
court. While lead counsel did not specifically recall
such an order, the record still seems to indicate that
the court, during the in-camera hearing, did, in fact,
order production. Nothing in the testimony of
General Crabtree, the only other person present
during the meeting other than the trial court,
contradicts the testimony of lead counsel. On this
record, we cannot conclude that the Petitioner has
carried her burden of showing that counsel’s
performance fell below “the range of competence
demanded of attorneys in criminal cases.” See Baxter
v. Rose, 523 S.W.2d at 936.

223a
Additionally, the Petitioner has failed to prove
that she was prejudiced by anything in the mitigation
report that was turned over to the State. While some
testimony was elicited at the post-conviction hearing
with regard to the State utilizing some of the
information contained therein in cross-examination of
three witnesses who testified at the sentencing
hearing, the Petitioner has not established that this
affected the outcome of the trial or that a different
result would have been reached absent the
information. When questioned at the post-conviction
hearing, General Crabtree was unable to recall what,
if any, of the information he learned for the first time
by reading the report, rather than it being
information he was already in possession of from
other sources. The Petitioner has simply failed to put
forth any evidence which preponderates against the
findings of the post-conviction court.
4. Failure to Present Effective Penalty
Phase Arguments
Next, the Petitioner contends that trial counsels’
penalty
phase
arguments
highlighted
and
compounded counsels’ poor preparation. With regard
to the opening statement, the Petitioner asserts that
lead counsel failed to highlight the Petitioner’s age at
the time of the crime and that counsel neglected to
explain that the Petitioner had acted in concert with
two violent gang members who shared significant
culpability for the crime. Moreover, he failed to
discuss any of the evidence discovered by Drs. Engum
and McCoy or to even mention the Petitioner’s
mental illness or history of abuse and neglect. With
regard to the co-counsel’s penalty phase closing
argument, the Petitioner contends that she, likewise,
was “equally fault worthy” because she failed to
allude to any of the mitigation themes of mental

224a
illness, lack of significant prior criminal activity, that
the murder was committed under extreme mental or
emotional disturbance, or the Petitioner’s youth at
the time. The State contends that this issue is being
raised for the first time on appeal and is, therefore,
waived.
Like the State, we can find nothing in the record
to support that these arguments have been
previously presented as the argument was not raised
in either the Petitioner’s post-conviction petition or
argued before the post-conviction court. While some
questions were asked of lead counsel and co-counsel
with regard to their strategy and thinking during
closing, no argument was made before the postconviction court. Moreover, we can find nowhere in
the post-conviction court’s order of denial addressing
the issue. As such, we must agree with the State that
these claims are waived for the purposes of appellate
review. See T.C.A. § 40–30–106(g) (a ground for postconviction relief is waived “if the petitioner personally
or through an attorney failed to present it for
determination in any proceeding before a court of
competent jurisdiction in which the ground could
have been presented[.]”; see also Workman v. State,
868 S.W.2d 705, 709 (Tenn.Crim.App.1993).
5. Failure to Conduct Meaningful Voir
Dire
The Petitioner next contends that trial counsel
was ineffective in failing to conduct meaningful voir
dire. Specifically, she contends that counsel was
ineffective for failing to object to the striking of a
juror who indicated that he could not return a death
sentence solely based on the Petitioner’s age at the
time of trial. The Petitioner also argues that counsel
was ineffective for failing to adequately voir dire
prospective jurors regarding racial biases or “fears or

225a
prejudices involving Satanism.”
The United States Supreme court has examined
the issue of capital juror selection in great detail and
has refined it through several opinions. Tennessee
courts have followed the Supreme Court’s analysis.
See State v. Alley, 776 S.W.2d 506, 518 (Tenn.1989),
cert. denied, 493 U.S. 1036, 110 S.Ct. 758, 107
L.Ed.2d 775 (1989). The issue was first discussed at
length in Witherspoon v. Illinois, 391 U.S. 510, 88
S.Ct. 1770, 20 L.Ed.2d 776 (1968). At the time of trial
in Witherspoon, Illinois juries had complete discretion
as to when to impose the death penalty, and the jury
assessed punishment at the same time it rendered its
verdict as to guilt. Adams v. Texas, 448 U.S. 38, 43–
44, 100 S.Ct. 2521, 65 L.Ed.2d 581 (1980). By statute,
Illinois allowed unlimited challenges for cause by the
State to any juror who stated that he had
conscientious scruples against capital punishment or
that he was opposed to capital punishment.
Witherspoon, 391 U.S. at 513. In the trial at issue in
Witherspoon, forty-seven members of the venire were
successfully challenged for cause under the statute.
Id. at 514. The court held that the selection process
violated the defendant’s Sixth Amendment right to a
fair and impartial jury because the jury eventually
selected was not representative of the community. Id.
at 518. The Court found that much of the
constitutional harm occurred because many of the
jurors were excluded without knowing whether they
could put their beliefs aside and still follow the law.
Id. at 519–20. The Court held that by its statute
providing for such challenges, Illinois had crossed the
line of neutrality; the State could not entrust the
determination of whether a man should live or die to
a “tribunal organized to determine a verdict of
death.” Id. at 521.

226a
Later, the Court in Wainwright v. Witt, 469 U.S.
412, 105 S.Ct. 844, 83 L.Ed.2d 841 (1985), clarified
some of the confusion that had arisen from
Witherspoon and some of its other prior decisions on
the matter. Wainwright involved a Florida capital
case where one juror expressed personal opposition to
the death penalty and further stated that she felt her
view would influence her decision on guilt or
innocence. That juror had been dismissed for cause
on the basis of Witherspoon. The United State
Supreme Court reversed the Eleventh Circuit, finding
that the juror had been properly dismissed for cause.
Id. In correcting some of the misapprehensions of the
Eleventh Circuit, the Court lamented that, despite
Witherspoon’s limited holding, courts had applied it
too broadly. Id. at 420–21.
The Court explained that Witherspoon had to be
understood within the context of the issues
presented. Much had changed in the field of capital
litigation since the time of Witherspoon. Juries no
longer had unlimited discretion in imposing capital
punishment. Furthermore, Witherspoon dealt with
circumstances under which jurors could not be
excluded, but did not explain when jurors could
properly be excluded. Id. at 422. The Court explained
that Witherspoon had to be understood in accordance
with the traditional reasons for excluding jurors. As
Justice Rehnquist noted, there is nothing talismanic
about juror exclusions under Witherspoon merely
because it involves capital sentencing juries. Id. at
423. Witherspoon was not grounded in the Eighth
Amendment’s prohibition against cruel and unusual
punishment, but in the Sixth Amendment’s right to a
fair and impartial jury. Id. The key to the analysis is
not what a juror believes about the death penalty, but
whether, because of those beliefs, a potential juror

227a
lacks impartiality. Id. at 423–24. Based on this
understanding of its prior opinions, the Court
announced that the standards for determining
whether a juror could be properly excluded was
whether the juror’s views would prevent or
substantially impair the performance of his duties as
a juror in accordance with his instructions and his
oath. Id. at 424.
The Wainwright standard does not require that a
juror’s bias be proven with “unmistakable clarity”
because determinations of juror bias cannot be
reduced to question and answer sessions that obtain
results in the manner of a catechism. Id. Accordingly,
the parties attempting to select the jury, as well as
the trial judge, must be intently attuned to the jurors’
responses to determine potential bias. As the
Wainwright court noted, even when the printed
record may not be particularly clear, there will be
situations where the trial judge is left with a definite
impression that a prospective juror would be unable
to faithfully and impartially apply the law. Id. at
425–26. For that reason, the Supreme Court
demanded that deference be paid to the trial judge
who sees and hears the potential jurors. Id. at 426.
Thereafter, in Morgan v. Illinois, 504 U.S. 719, 728,
112 S.Ct. 2222, 119 L.Ed.2d 492 (1992), the Court
reiterated the standard: “[I]t is clear from Witt and
Adams, the progeny of Witherspoon, that a juror who
in no case would vote for capital punishment,
regardless of his or her instructions, is not an
impartial juror and must be removed for cause.”
Applying these standards to the facts of this case,
we must conclude that the trial court was acting
entirely within its discretion when removing
Prospective juror Mr. Rutherford for cause. The
following exchange occurred on the record:

228a
Trial Court: Ah, are you telling me that
you don’t know if you can [give the
death penalty], or you think you can, or
you think you can’t, I need you to tell
me how you feel.
Mr. Rutherford: I think it would make a
big difference with her age whether or
not, you know, she would get the death
penalty or not.
...
General Crabtree: ... And, frankly, one
mitigating factor that the Court could
choose to charge you on, that you could
consider, is the age factor.
Would that factor in and of itself alone
make it difficult, or, in fact, impossible
for you to weigh the aggravating
circumstances against that?
Mr. Rutherford: I have problems just
because of the death penalty.
General Crabtree: That’s what we are
talking about. I’m not talking about
anything else now. I’m talking about the
death penalty. Are you saying because
of this individual’s age you could not
return a death penalty?
Mr. Rutherford: I, I don’t think I could.
General Crabtree: ... So let’s see if we
can make it clear—as far as her, the
sole factor of her age, that would be
something that you could not do?
Mr. Rutherford: If I felt like, you know,
someone that was more mature and

229a
stuff like that I wouldn’t have a problem
with that, but the immaturity is a
problem—
General Crabtree: I understand you are
saying that because of her age that one
factor would keep you from returning
the death penalty, is that correct?
Mr. Rutherford: I think so.
The Petitioner argues that this colloquy indicates
only that “Mr. Rutherford made clear that he could
consider the death penalty for a mature defendant,
but that he had reservations in light of [the
Petitioner’s] youth.” We disagree with the Petitioner’s
analysis and her reliance on the statement made in
Morgan v. Illinois. As previously stated, the Supreme
Court in Morgan stated that “a juror who in no case
would vote for capital punishment, regardless of his
or her instructions, is not an impartial juror and
must be removed for cause.” Morgan v. Illinois, 504
U.S. at 728 (emphasis added). According to the
Petitioner, that statement stands for the proposition
that if a potential juror could possibly impose the
death penalty in some case, just not the instant case,
then he should not be stricken for cause an impartial
juror. We clearly disagree with that interpretation
entirely and conclude that the statement should only
be taken as a reiteration of the standard previously
stated in Wainwright and Adams that a potential
juror must have impartiality in the case he or she is
presently involved with.
A reading of the colloquy which occurred with Mr.
Rutherford made clear that he could not impose the
death penalty under any circumstances because of
the Petitioner’s age in this case. As such, the
statements made by Mr. Rutherford indicate that his

230a
views would prevent or substantially impair his
performance of his duties as a juror in accordance
with his instructions and his oath. As such, we agree
that he was appropriately struck for cause, and no
objection by trial counsel was warranted. While we do
agree that the statements do not necessarily indicate
an unconditional bias against capital punishment
entirely, as noted, that is not the required standard.
The Petitioner also challenges Mr. Rutherford
being struck for cause on grounds that a “juror is
entitled to find that any one mitigating factor
outweighs all aggravating evidence, and thus a juror
could not have been disqualified” for stating he could
not apply the death penalty because of age, i.e. the
mitigating factor at issue. We agree with the State
that this argument does not comport with the
rationale in Wainwright that the focus of voir dire is
to determine potential bias. Mr. Rutherford’s remarks
again clearly indicate that he was giving a definitive
refusal in this case to impose the death penalty.
With regard to voir dire, the Petitioner further
asserts that trial counsel were ineffective because
they failed to tell the jury that the Petitioner’s youth
was a statutory mitigating factor; discuss and
question the prospective jurors on the mitigation
themes of mental illness, psychology, and mental
health experts; and failed to question the prospective
jurors with regard to their beliefs on interracial
dating and Satanism. The Petitioner also contests
counsels’ failure to question the pool to ascertain
their knowledge of the lead counsel’s overbilling
problem. However, we again must agree with the
State, that the Petitioner has failed to put forth any
evidence to show that any prospective juror harbored
any bias or prejudice on these grounds or that anyone
was improperly excluded in this regard. As such, the

231a
Petitioner has simply failed to meet her burden of
establishing ineffective assistance of counsel for the
aforementioned lack of discussion during voir dire. As
noted by the post-conviction court:
The length and scope of voir dire is an
individual decision made by counsel on
a case by case basis. The attorneys
voiced no dissatisfaction with the jury
ultimately selected. Petitioner also
failed any proof that any particular
juror was ... not qualified.
The Petitioner has failed to put forth evidence
which preponderates against the findings of the postconviction court.
6. Failure
to
Object
Inconsistent Aggravator

to

Legally

The Petitioner next asserts that counsel was
ineffective for failing to object to the State’s use of a
legally inconsistent aggravating factor. Specifically,
the Petitioner contends that her “simultaneous
convictions of conspiracy and capital murder using
the avoid-the-arrest aggravator violated [her] rights
under
the
Sixth,
Eighth
and
Fourteenth
Amendments to the United States Constitution and
[Article] I, [sections] 8, 9, and 16, of the Tennessee
Constitution.” The Petitioner argues that because her
convictions for premeditated first-degree murder and
conspiracy to commit such is predicated on her
forming intent prior to the acts, it is “legally
inconsistent” to also find that she committed murder
to avoid arrest. The State asserts that this is
mistaken.
The question of whether trial counsel was
ineffective for failing to object to this alleged
inconsistency depends upon whether the use of the

232a
factor was, in fact, “legally inconsistent.” In its order
denying relief on this issue, the post-conviction court
specifically found:
While this court understands the
petitioner’s position, the evidence
supported both the conspiracy charge as
well as the factor that the petitioner
committed the act to avoid arrest. By
her own statement, the petitioner
established proof of this factor. The law
does not require that the petitioner’s
motive to avoid arrest be her sole
motive. The evidence established that
this motive was present at the time of
the murder. Under these circumstances,
clearly
no
prejudice
has
been
established and the petitioner is not
entitled to relief on this issue.
Following review of the record, we agree with the
post-conviction court and conclude that nothing
preponderates against these findings. To establish
the applicability of the “avoid arrest” aggravating
factor, the State is required to prove that the
avoidance of prosecution or arrest was one of the
purposes motivating the killing. State v. Bush, 942
S.W.2d 489, 504 (Tenn.1997); State v. Smith, 868
S.W.2d 561, 581 (Tenn.1993). Avoidance of arrest
need not be the sole motive for the murder. State v.
Carter, 714 S.W.2d 241, 250 (Tenn.1986).
The record sufficiently establishes the existence of
two separate motives in this case at different times.
Each is applicable based upon the evidence
presented. Intent to commit the murder was
established by telling a friend on the day prior that
she was going to kill the victim, luring the victim to
the remote area, coming armed with weapons used to

233a
commit the murder, and attacking an unarmed
victim with multiple weapons. Likewise, the
conspiracy was supported by evidence of the
petitioner leaving the Center with her two coconspirators, the three accompanying the victim to
the isolated area, and two of the three wearing
pentagram necklaces. However, by her own
admission, the Petitioner stated that during the
murder she heard voices in her head telling her that
she had to do something to keep the victim from
going to the police. Thus, the “avoid arrest”
aggravator is supported as one of the motives for the
murder. Again, as noted supra, to use the
aggravating factor does not require proof that it was
the sole purpose for the killing. The Petitioner is not
entitled to relief.
D. Guilt Phase Deficiencies
The Petitioner claims that trial counsel failed to
function as effective counsel as guaranteed by both
the Tennessee and United States Constitutions. In
this regard, the Petitioner asserts that counsel denied
her effective representation by breaching acceptable
standards for capital representation at the guilt
phase in that:
1. Trial counsel failed to present evidence to
undermine a conviction of first degree murder.
2. Trial counsel
arguments.

failed

to

make

effective

3. Trial counsel failed to make effective use of voir
dire.
1. Failure to Present Evidence
Undermine the Elements

to

The Petitioner initially contends that the “killing
of Ms. Slemmer was neither deliberate or

234a
premeditated. As [the Petitioner] proved on postconviction, ... the facts establish that [the Petitioner]
participated in Ms. Slemmer’s killing in the midst of
a hypomanic, psychotic break.” The Petitioner asserts
that counsel “failed to present an effective case to
undermine the State’s proof of deliberate and
premeditated murder” The Petitioner contends that
counsel failed to make appropriate use of expert
witnesses and failed to discover relevant lay witness
testimony, “the same fundamental errors that
plagued [her] representation in the penalty phase.”
Specifically, the Petitioner contends that trial
counsel presented “scant expert testimony with
regard to [her] mental state surrounding the killing
of Ms. Slemmer.” The only expert proof presented
was that of Dr. Engum, who testified that “she
basically did not act with deliberation, with
premeditation, but instead, acted in a manner
consistent with her diagnosis, Borderline Personality
Disorder, which meant that she basically went out of
control.” The Petitioner asserts that Dr. Engum’s
testimony was “sufficiently on point,” but was
“insufficiently substantiated,” as it was dependent
solely upon self-reports of the Petitioner. The State,
therefore, was able to diminish the weight of Dr.
Engum’s
testimony
considerably
on
crossexamination by pointing out that the factual basis for
his opinion was limited to statements made by the
Petitioner herself.
The Petitioner also asserts that had trial counsel
introduced the testimony of lay witnesses to
substantiate Dr. Engum’s conclusion, Dr. Engum’s
opinion
would
have
carried
more
weight.
Additionally, the Petitioner argues that trial counsel
was ineffective for presenting the testimony of Dr.
Bernet. Dr. Bernet was called on to testify that Ms.

235a
Slemmer’s killing was not a satanic ritual, but,
rather, was consistent with a phenomenon called
“collective aggression.” The Petitioner asserts that
Dr. Bernet’s testimony offered no apparent benefit to
the defense and was highly prejudicial in that it
opened the door to a lengthy discussion of Satanism
and the various details of the killing that bore satanic
overtones.
Citing to no legal authority, the Petitioner has
made the above contentions. Like the State and postconviction court, we must conclude that she has failed
to carry her burden of establishing her entitlement to
relief. The Petitioner’s main complaint with Dr.
Engum’s testimony, which she concedes was
“sufficiently on point,” was that it was not
substantiated by lay witness testimony, which the
Petitioner contends would have given it more weight
before a jury. This is mere supposition. The Petitioner
argues that lay witnesses interviewed by Dr. McCoy,
as well as others, could have testified that the
Petitioner had lost complete control in the past,
nearly killing a man before she was held back. The
Petitioner also asserts lay witnesses could have
testified that the Petitioner was incapable of calming
down on her own. Initially, we are somewhat unclear
as to how these statements would have bolstered her
defense, but, regardless, this argument is not
sufficient to substantiate a claim for post-conviction
relief. The Petitioner has failed to argue how any
specific lay witness would have sufficiently
substantiated the testimony in order to improve its
weight before the jury, as much of the information
was introduced through Dr. Engum. Absent such a
showing, prejudice is not established.
We must also reject the Petitioner’s complaint
that calling Dr. Bernet to the stand was “a wasted

236a
opportunity.” Both lead counsel and Dr. McCoy stated
that Dr. Bernet was not part of the defense team and
was utilized in the case for one specific purpose. As
previously noted, neither of the experts who were
employed by the defense team recommended that
another expert be retained. As such, we have
previously concluded that trial counsel was not
deficient for not having Dr. Bernet examine the
Petitioner.
2. Failure to Make Effective Arguments
The Petitioner next asserts that she was deprived
of her right to effective assistance of counsel based
upon trial counsel’s failure to make effective opening
and closing arguments to the jury. Specifically, she
contends that the arguments “failed to address the
only significant issue concerning [the Petitioner’s]
guilt for first degree murder: whether evidence of
mental illness negated the State’s assertion that the
killing of Ms. Slemmer was deliberate and
premeditated.” She contends that neither lead
counsel nor co-counsel put forth sufficient argument
to negate the Petitioner’s ability to form intent.
As discussed in the previous section with regard to
the arguments presented during the penalty phase,
we must again find this issue waived as it was not
raised in the petition or addressed by the postconviction court. See T.C.A. § 40–30–106(g) (a ground
for post-conviction relief is waived “if the petitioner
personally or through an attorney failed to present it
for determination in any proceeding before a court of
competent jurisdiction in which the ground could
have been presented[.]”; see also Workman v. State,
868 S.W.2d 705, 709 (Tenn.Crim.App.1993).

237a
3. Failure to Make Effective use of Voir
Dire
Finally, the Petitioner contends that she was denied
the effective assistance of counsel based upon trial
counsel’s failure to make effective use of voir dire.
However, her entire argument in this regard in this
section is that:
[The Petitioner] has demonstrated
above that defense counsel squandered
voir dire as an opportunity to select a
jury sensitive to issues of mental illness,
and without prejudice against [the
Petitioner] or her counsel. These same
deficiencies were equally detrimental to
[the Petitioner’s] defense during the
guilt/innocence phase.
As such, we conclude that the Petitioner has
raised no additional arguments other than those
which were raised in the section regarding penalty
phase deficiencies. As we have concluded supra that
trial counsel was not deficient in this regard, we
conclude that no additional review is required here.
V. Petitioner is Ineligible for Death Penalty
The Petitioner asserts that, under the
constitutional understanding of the requirements for
a categorical bar to execution established by Atkins v.
Virginia and Roper v. Simmons, an immature,
mentally ill, brain damaged eighteen-year-old is not
eligible for the death penalty. The Petitioner’s
support of her argument relies upon the general
consensus that the death penalty must be reserved
for “the worst of the worst.” Kansas v. Marsh, 548
U.S. 163, 126 S.Ct. 2516, 165 L.Ed.2d 429 (2006)
(Souter, J., dissenting) (citation omitted).

238a
“Death is different.” The penalty of death is
qualitatively different from every other sentence,
however long. Woodson v. North Carolina, 428 U.S.
280, 96 S.Ct. 2978, 49 L.Ed.2d 944 (1976). Because of
the qualitative difference, there exists the
corresponding need in capital cases for reliability in
the determination that death is the appropriate
punishment in a specific case. Id. at 305. In Furman
v. Georgia, Justice Stewart expressed what has come
to be the longstanding view of the United States
Supreme Court:
The penalty of death differs from all
other forms of criminal punishment, not
in degree but in kind. It is unique in its
total irrevocability. It is unique in its
rejections of rehabilitation of the convict
as a basic purpose of criminal justice.
And it is unique, finally, in its absolute
renunciation of all that is embodied in
our concept of humanity.
Furman v. Georgia, 408 U.S. 238, 92 S.Ct. 2726, 33
L.Ed.2d 346 (Stewart, J., concurring). Justice Stewart
concluded that “the Eighth and Fourteenth
Amendments cannot tolerate the infliction of a
sentence of death under legal systems that permit
this unique penalty to be so wantonly and so
freakishly imposed.” Id.
The “death is different” principle led to the Court’s
cases condemning the mandatory imposition of the
death penalty. See, e.g., Roberts v. Louisiana, 431
U.S. 633, 97 S.Ct. 1993, 52 L.Ed.2d 637 (1977) (per
curiam); Woodson v. North Carolina, 428 U.S. 280, 96
S.Ct. 2978, 49 L.Ed.2d 944 (1976) (plurality opinion).
The “death is different” principle also led to the
recognition that the arbitrary imposition of the death
penalty violates the Eighth Amendment. See, e.g.,

239a
Zant v. Stephens, 462 U.S. 862, 874, 103 S.Ct. 2733,
77 L.Ed.2d 235 (1983); Gregg v. Georgia, 428 U.S.
153, 96 S.Ct. 2909, 49 L.Ed.2d 859 (1976). The “death
is different” principle established the guarantee of
full consideration of mitigating evidence. See, e.g.,
Eddings v. Oklahoma, 455 U.S. 104, 102 S.Ct. 869, 71
L.Ed.2d 1 (1982); Lockett v. Ohio, 428 U.S. 586 (1978)
(plurality opinion). Lockett and Eddings reflect the
belief that punishment should be directly related to
the personal culpability of the criminal defendant.
That is, the sentence imposed “should reflect a
reasoned moral response to the [petitioner’s]
background, character, and crime rather than mere
sympathy or emotion.” California v. Brown, 479 U.S.
538, 545–46, 107 S.Ct. 837, 93 L.Ed.2d 934 (1987)
(O’Connor, J., concurring).
The “death is different” principle also led the
Court to carve out exemptions from eligibility for
capital punishment. In this regard, a national
consensus may develop which holds that an
immutable characteristic of the defendant so affects
his individual responsibility and moral guilt that it
precludes finding his “consciousness [is] materially
more ‘depraved’ than that of any person guilty of
murder,” as is required for capital punishment to be
lawful. See Godfrey v. Georgia, 446 U.S. 420, 433, 100
S.Ct. 1759, 64 L.Ed.2d 398 (1980). A group of
offenders may be excluded from capital punishment
under the Eighth Amendment only if a national
consensus barring the execution of such offenders
exists. The United States Supreme Court set out four
indicia to consider in determining the existence of
such a consensus: (1) legislation enacted by the
country’s legislatures, including whether there is a
pattern of movement towards precluding the
execution of members of a particular group; (2) the

240a
decisions of sentencing juries, appellate courts, and
governors about whether to execute defendants in
that group; (3) where appropriate, other indicia of
national and international opinion; and (4) the court’s
own judgment. See Roper v. Simmons, 543 U.S. 543
U.S. 551, 563–65, 125 S.Ct. 1183, 161 L.Ed.2d 1
(2005). The United States Supreme Court has carved
out exempted classes of persons from execution. See,
e.g., Roper, 543 U.S. at 551 (2005) (execution of
prisoners who were under eighteen years of age at
time of crime barred by Eighth Amendment); Atkins
v. Virginia, 536 U.S. 304, 122 S.Ct. 2242, 153 L.Ed.2d
335 (2002) (execution of mentally retarded persons
unconstitutional); Ford v. Wainwright, 477 U.S. 399,
106 S.Ct. 2595, 91 L.Ed.2d 335 (1986) (Eighth
Amendment prohibits execution of insane persons).
Because the “national consensus” is temporally
situated, the list of exempted classes is not stagnant
and must be revisited under standards that currently
prevail.
The Petitioner now asks this Court to “carve out”
another excepted class of persons exempted from the
death penalty, i.e., immature, mentally ill, brain
damaged eighteen-year-olds. In support of her
position, the Petitioner cites language in both
opinions of the United States Supreme Court and the
Tennessee Supreme Court to conclude that “only
categorical exception to the death penalty can insure
the protection against cruel and unusual punishment
for certain groups of less culpable individuals.”
Appellant’s brief at 113 (citing Roper, 543 U.S. at
572–73 (noting the shortcomings of mitigation
evidence in circumstances of adolescent defendants);
Van Tran v. State, 66 S.W.2d 790 (Tenn.2001) (“jury’s
consideration of mental retardation as a mitigating
factor is by itself insufficient to address the concerns

241a
protected under the Eighth Amendment or article I, §
16.”)). The Petitioner further asserts that
“[a]dolescents lack sufficient cognitive capacities to
achieve the requisite degree of culpability for
imposition of the death penalty.” The Petitioner
states that “[eighteen] is an arbitrary number.” In
support of her assertion, the Petitioner relies upon
evidence that development of the frontal lobe of the
brain continues into the early twenties.
The State responds that the Petitioner’s issue is
waived as a result of the failure to raise the issue on
direct appeal. Alternatively, the State asserts that
the arguments are without merit. The State contends
that the United States Supreme Court rejected her
argument that “execution of older adolescents must
be categorically barred.” The State further avers that,
to the extent that the Petitioner asserts that she is
incompetent to be executed, the claim is not yet ripe.
A. Execution of Older Adolescents
The Petitioner argues that “[t]here is ... a
significant portion of individuals who lack the
requisite brain development to be fully culpable for
their crimes, and yet currently fall outside of the
absolute bar to execution imposed by Tennessee and
federal law.” She maintains that “[t]hese older
adolescents
may
have
brains
that
are
developmentally identical to or even less developed
than individuals who are shielded because of a
difference in birth date of a few years, months, or
even days.”
The Petitioner asserts that Tennessee has long
recognized the special status of young people with
regard to the death penalty. Specifically, the
Petitioner cites to Tennessee’s recognition of youth as
a statutory mitigating factor,

242a
Annotated
section
39–13–204(j)(7),
and
to
Tennessee’s statutory exemption of the death penalty
to persons under the age of eighteen, Tennessee Code
Annotated section 37–1–134(a)(1). Additionally, the
Petitioner makes the following statements:
• Tennessee has not executed anyone who was
younger than twenty-three at the time of the
offense (Coe, age 23; Alley, age 29; Workman, age
28; Holton, age 36; and Henley, age 31).
• Only 7.7% of Tennessee’s present deathsentenced inmates were nineteen or under at the
time of the crime.
• Twenty-nine of thirty-seven states with the
death penalty made youth a statutory mitigating
factor by 1989.
• In Thompson v. Oklahoma, 487 U.S. 815, 108
S.Ct. 2687, 101 L.Ed.2d 702 (1988), the United
States Supreme Court concluded that it would
violate the Eighth Amendment to execute an
offender under the age of sixteen at the time of the
offense.
• Capital Juror Project’s South Carolina jury
study suggests that jurors consider the
youthfulness of a capital defendant to be
“significantly mitigating.” Stephen P. Garvey,
Aggravation and Mitigation in Capital Cases:
What do Jurors Think?, 98 Colum. L.Rev. 1538,
1564 (1988).
• Science suggests that individuals lack the brain
capacity of full culpability until they are in their
early 20s.
In March 2005, the United States Supreme Court
ruled that the death penalty for those who had
committed their crimes at under eighteen years of

243a
age was cruel and unusual punishment and, hence,
barred by the United States Constitution. See Roper
v. Simmons, 543 U.S. at 551. Prior to this 2005
decision, the nation’s highest court had previously
determined that “our standards of decency do not
permit the execution of any offender under the age of
[sixteen] at the time of the crime.” Id. at 561 (citing
Thompson, 487 U.S. at 815 (1988)). In Thompson, the
Court stressed that “[t]he reasons why juveniles are
not trusted with the privileges and responsibilities of
an adult also explain why their irresponsible conduct
is not as morally reprehensible as that of an adult.”
Id. at 835.
In 1989, the nation’s highest court again
addressed the issue of the execution of minors. In
Stanford v. Kentucky, 492 U.S. 361, 109 S.Ct. 2969,
106 L.Ed.2d 306 (1989), the Court referred to
contemporary standards of decency in this country
and concluded that the Eighth and Fourteenth
Amendments did not proscribe the execution of
juvenile offenders over fifteen but under eighteen. In
so holding, the Court noted that twenty-two of the
thirty-seven death penalty states permitted the death
penalty for sixteen-year-old offenders, and, among
these thirty-seven states, twenty-five permitted it for
seventeen-year-old offenders. The Court concluded
that there was no national consensus “sufficient to
label a particular punishment cruel and unusual.” Id.
at 370–71.
At the time the Supreme Court was again
presented with the issue of whether juveniles are
exempt from the death penalty, thirty states had
prohibited the juvenile death penalty, comprised of
twelve that have rejected the death penalty
altogether and eighteen that maintained it but, by
express provision or judicial interpretation, excluded

244a
juveniles from its reach. Roper, 543 U.S. at 564. The
Court further acknowledged the declining use of the
death penalty from crimes committed by juveniles.
Id. at 565. The Court held that “[a] majority of States
have rejected the imposition of the death penalty on
juvenile offenders under [eighteen], and we now hold
this is required by the Eighth Amendment .” Id. at
567. In so holding, the Court recognized:
Three general differences between
juveniles under [eighteen] and adults
demonstrate that juvenile offenders
cannot with reliability be classified
among the worst offenders. First, as any
parent knows and as the scientific and
sociological studies respondent and his
amici cite tend to conform, “[a] lack of
maturity and an underdeveloped sense
of responsibility are found in youth
more often than in adults and are more
understandable among the young.
These
qualities often result
in
impetuous and ill-considered actions
and decisions.” ... It has been noted that
“adolescents
are
overrepresented
statistically in virtually every category
of reckless behavior.” ... In recognition
of the comparative immaturity and
irresponsibility of juveniles, almost
every State prohibits those under
[eighteen] years of age from voting,
serving on juries, or marrying without
parental consent....
The second area of difference is that
juveniles are more vulnerable or
susceptible to negative influences and
outside pressures, including peer

245a
pressure. Eddings, ... at 115 ... (“[Y]outh
is more than a chronological fact. It is a
time and condition of life when a person
may be most susceptible to influence
and to psychological damage.”). This is
explained in part by the prevailing
circumstance that juveniles have less
control, or less experience with control,
over their own environment....
The third broad difference is that the
character of a juvenile is not as well
formed as that of an adult. The
personality traits of juveniles are more
transitory, less fixed....
Roper, 543 U.S. at 570 (internal citations omitted).
The Court concluded that these three differences
“render suspect any conclusion that a juvenile falls
among the worst offenders.” Id. The Court further
determines that “neither retribution nor deterrence
provide[d] adequate justification for imposing the
death penalty on juvenile offenders.” Id.
Next, the Court was faced with the determination
of where to draw the line regarding the age at which
a person remains a juvenile. Essentially, the same
question is posed to this Court today. In this regard,
the Roper Court wrote:
Drawing the line at [eighteen] years of
age is subject ... to the objections always
raised against categorical rules. The
qualities that distinguish juveniles from
adults do not disappear when an
individual turns [eighteen]. By the same
token, some under [eighteen] have
already attained a level of maturity
some adults will never reach....

246a
[H]owever, a line must be drawn. The
plurality opinion in Thompson drew the
line at [sixteen]. In the intervening
years,
the
Thompson
plurality’s
conclusion ... has not been challenged.
The logic of Thompson extends to those
who are under [eighteen]. The age of
[eighteen] is the point where society
draws the line for many purposes
between childhood and adulthood. It is,
we conclude, the age at which the line
for death eligibility ought to rest.
Roper, 543 U.S. at 574.
The Petitioner has failed to persuade this court
that a new national consensus exists to extend the
holding of Roper to persons over the age of [eighteen].
Furthermore, this court has not been able to discern
that there is a national consensus to show that
evolving standards of decency require a constitutional
ban, under either the United States Constitution or
the Constitution of the State of Tennessee, on
executing persons who were between the ages of
eighteen and the early twentys at the time of the
offense. We decline to extend the holding of Roper to
include such.
B. Execution of Mentally Ill
Both the federal courts and state courts have
recognized that the mentally impaired require special
protections in the capital arena. Mental illness may
be raised to claim incompetency to stand trial and as
an affirmative defense to guilt. Under Ford v.
Wainwright, an individual must be mentally
competent at the time of the execution. Moreover, the
mentally retarded are systematically shielded from
capital prosecution under Atkins and Van Tran. The

247a
Petitioner asserts that “[t]his patchwork provides
incomplete protection for the cognitively impaired.”
In Atkins, the Supreme Court found that mentally
retarded individuals suffer significant disadvantages
during legal proceedings, which increase their risk of
wrongful execution. The Court found that mentally
retarded defendants are more susceptible to
situations generating false confessions, are unable to
provide meaningful assistance to their counsel, have
difficulty testifying on their own behalf, and create an
unwarranted impression of lack of remorse for their
crimes. The Petitioner asserts that the cognitively
impaired exhibit the same disadvantages exhibited
by the mentally retarded and that they are slipping
through the cracks. The Petitioner makes the
following statements in support of extending an
exemption against the death penalty to persons with
mental illness:
• Twelve U.S. states are abolitionist, and a
thirteenth, New York, has a de facto moratorium
on the death penalty. These states are not using
the death penalty against anyone, let alone people
with mental illness.
• Twenty-five of the thirty-seven death penalty
states, as well as the federal government, have as
statutory mitigating factors for consideration by
capital juries at sentencing either of: (1) the
defendant’s
capacity
to
appreciate
the
wrongfulness of his or her conduct or to conform
that conduct to the requirements of the law was
impaired; or (2) the defendant was acting under
extreme mental or emotional disturbance.
• In at least five states—Arizona, Florida,
Mississippi, Ohio and Nevada—a number of
inmates suffering from mental illness have been

248a
removed from death row under proportionality
review.
• Of the death penalty states which permit
defendants to plead “guilty but mentally ill,” only
four have passed death sentences in GBMI cases.
• Two states have explicitly considered abolishing
the death penalty for the severely mentally ill.
Bills were presented in Illinois and North
Carolina, but neither bill has been passed into
law.
• Congress passed the Mentally Ill Offender
Treatment and Crime Reduction Reauthorization
and Improvement Act of 2008.
• The Capital Juror Project singled out a
defendant’s history of mental illness as the most
powerful type of mitigation evidence after
evidence of mental retardation.
• The ABA passed Resolution 122A rejecting
capital punishment for the severely mentally ill
and those with similar symptoms resulting from
serious brain injury.
We do not dispute the concerns that deficiencies
and limitations inherent in those who are mentally
retarded may also be found in those who, while not
mentally retarded, are considered mentally ill or
cognitively impaired. The majority of states with
capital statutes permit the jury to consider the
[petitioner’s] capacity to appreciate the criminality of
his or her conduct or to conform his or her conduct to
the requirements of the law. However, there is no
consensus in state legislation supporting a categorical
exclusion for the mentally ill. In fact, federal and
state courts have consistently declined to extend
Atkins to the mentally ill. See, e.g., Joshua v. Adams,

249a
231 Fed. Appx. 592, 593 (9th Cir.2007); In re: Neville,
440 F.3d 220, 221 (5th Cir.2006); Lawrence v. State,
969 So.2d 294 (Fla.2007); State v. Ketterer, 111 Ohio
St.3d 70, 855 N.E.2d 48 (Ohio 2006); Matheny v.
State, 833 N.E.2d 454 (Ind.2005). Accordingly, we
decline to extend the Atkins bar to the death penalty
to persons who are cognitively impaired or suffering
from mental illness. Additionally, we acknowledge, as
does the State, that should the Petitioner seek
exemption from execution based upon a condition of
insanity, such claim is not yet ripe for review.
C. Execution of Older Adolescents Who Are
Cognitively Impaired
The Petitioner asserts that an exception to the
death penalty should be created for older adolescents
who suffer from mental illness. The Petitioner asserts
that the combination of these factors rendered the
Petitioner unable to control her emotions and actions
due to mental illness and brain damage. While this
court appreciates the unique circumstances of this
Petitioner, this court declines to create a categorical
bar to execution specifically for persons exhibiting
these specific traits. Such factors are of the nature of
those envisioned as mitigating factors. The
Petitioner’s request to create a categorical exemption
is merely an attempt to gain a second chance at
proportionality review. While this court appreciates
the novelty of the Petitioner’s argument, practicality
precludes its acceptance. The court can envision a
multitude of specifically created exemptions based
upon the unique circumstances of an individual
capital defendant. These particular circumstances
were not what was envisioned as being encompassed
within a categorical bar. Rather, this specific
grouping of traits is captured within the
individualized sentencing mandate of the capital

250a
sentencing scheme. This is the purpose of the
weighing of the mitigating and aggravating
circumstances by the jury and by proportionality
review by the courts of this state. Accordingly, we
decline to create a specifically carved out exception
for older adolescents who are cognitively impaired.
The Petitioner is not entitled to relief on this ground.
VI. Constitutional Challenges
The Petitioner challenges the legality and
constitutionality of capital punishment generally and
of lethal injection specifically. She also challenges the
structure of Tennessee’s capital sentencing system.
The Petitioner both seeks relief on these grounds and
raises them to preserve the issues for future review.
A. Death Penalty Scheme is Unconstitutional
The Petitioner asserts that Tennessee fails to
ensure a meaningful proportionality review as
required by state and federal law. Our supreme court
has
repeatedly
upheld
the
comparative
proportionality review undertaken by the appellate
courts in this state as meeting state constitutional
standards. State v. Kiser, 284 S.W.3d 227, 294
(Tenn.2009); State v. Vann, 976 S.W.2d 93, 118
(Tenn.1998) (appendix); State v. Keen, 926 S.W.2d
727, 743–44 (Tenn.1994); State v. Barber, 753 S.W.2d
659, 663–68 (Tenn.1988); State v. Coleman, 619
S.W.2d 112, 115–16 (Tenn.1981).
The Petitioner also contends that unlimited
discretion is vested in the prosecutor as to whether or
not to seek the death penalty. This argument has also
been rejected. State v. Hines, 919 S.W.2d 573, 582
(Tenn.1995). The Petitioner contends that the
unlimited discretion of the thirty-one elected District
Attorneys General violates principles set out in Bush
v. Gore, 531 U.S. 98, 121 S.Ct. 525, 148 L.Ed.2d 388

251a
(2000). This Court has previously considered and
rejected this claim. Tyrone Chalmers v. State, No.
W2006–00424–CCA–R3–PD (Tenn.Crim.App., at
Jackson, June 25, 2008), perm. app. denied (Tenn.
Dec. 22, 2008); David Keen v. State, No. W2004–
02159–CCA–R3–PD (Tenn.Crim.App., at Jackson,
June 5, 2006), perm. app. denied (Tenn. Oct. 30,
2006).
[B]. Lethal
Injection
Unconstitutional

Protocol

is

The Tennessee Supreme Court has considered this
claim and determined that Tennessee’s lethal
injection protocol is consistent with contemporary
standards of decency and with the overwhelming
majority of lethal injection protocols used by other
states and the federal government. Abdur’ Rahman v.
Bredesen, 181 S.W.3d 292, 306–07 (Tenn.2005). On
April 16, 2008, the United States Supreme Court
affirmed the use of the three-drug protocol used in
Kentucky’s lethal injection procedure. Baze v. Rees,
553 U.S. 35, 128 S.Ct. 1520, 170 L.Ed.2d 420 (2008).
Tennessee uses the same protocol as Kentucky. Id.
(citing Workman v. Bredesen, 86 F.3d 896, 902 (6th
Cir.2007)); see also Harbison v. Little, 571 F.3d 531
(6th Cir.2009), cert. denied, ––– U.S. –––– (2010). The
Petitioner is not entitled to relief on this issue.
C. Death
Penalty
Infringes
Fundamental Right to Life

upon

The Petitioner argues that the death sentence is
unconstitutional because it infringes upon her
fundamental right to life and because the death
penalty is not necessary to promote any compelling
Tennessee state interest. This complaint, that her
death sentence must be reversed because it violates
his fundamental right to life, is contrary to settled

252a
precedent as reflected in Cauthern v. State, 145
S.W.3d 571, 629 (Tenn.Crim.App.2004) (citing
Nichols, 90 S.W.3d at 604; State v. Mann, 959 S.W.2d
503, 536 (Tenn.1997) (Appendix); State v. Bush, 942
S.W.2d 489, 523 (Tenn.1997)). Accordingly, the
Petitioner is not entitled to relief on this issue.
D. Indictment returned by Grand Jury is
Unconstitutional.
The Petitioner asserts that the imposition of the
death penalty violates due process of law because the
indictment failed to set forth the aggravating
circumstance. The courts of this state have rejected
the Petitioner’s argument. Our supreme court has
held that “[n]either the United States Constitution
nor the Tennessee Constitution requires that the
State charge in the indictment the aggravating
factors to be relied upon by the State during
sentencing in a first degree murder prosecution.”
State v. Dellinger, 79 S.W.3d 458, 467 (Tenn.2002);
see also State v. Rice, 184 S.W.3d 646, 686
(Tenn.2006); State v. Holton, 126 S.W.3d 845, 862–63
(Tenn.2004). In Dellinger, the court explained that
the capital sentencing scheme in Tennessee is
consistent with Apprendi because: (1) the holding in
Apprendi applies only to enhancement factors used to
impose a sentence above the statutory maximum; (2)
the death penalty is within the statutory range of
punishment prescribed for first degree murder by the
Tennessee General Assembly; and (3) Tennessee’s
capital sentencing procedure requires both that a jury
find statutory aggravating circumstances based upon
proof beyond a reasonable doubt and that the
aggravating circumstances outweigh mitigating
circumstances beyond a reasonable doubt. Dellinger,
79 S.W.3d at 466–67. In Holton, the court addressed
whether the holding in Dellinger was correct in light

253a
of the United States Supreme Court’s decision in
Ring. The Tennessee Supreme Court held that “Ring
does not stand for the broad proposition that
aggravating circumstances must be charged in the
indictment to satisfy constitutional standards....
Therefore, Ring provides no relief to the defendant
and does not invalidate this Court’s holding in
Dellinger.” Holton, 126 S.W.3d at 863 (citing United
States v. Bernard, 299 F.3d 467, 488 (5th Cir .2002);
Porter v. Crosby, 840 So.2d 981, 986 (Fla.2003);
Terrell v. State, 276 Ga. 34, 572 S.E.2d 595, 602
(Ga.2002)); see also State v. Carter, 114 S.W.3d 895,
910 n. 4 (Tenn.2003) (applying Dellinger to reject a
claim that Ring requires aggravating circumstances
be included in the indictment). Accordingly, the
Petitioner is not entitled to relief on this issue.
CONCLUSION
Based upon the foregoing, the judgment of the
post-conviction court is affirmed.

254a
APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 16-5854
CHRISTA GAIL PIKE,
Petitioner-Appellant,
v.
GLORIA GROSS, WARDEN,
Respondent-Appellee.
[Filed: March 30, 2017]
Before: COOK, GRIFFIN, and STRANCH, Circuit
Judges.
ORDER
Christa Pike, a Tennessee prisoner under
sentence of death, appeals from a district court
judgment dismissing her petition for a writ of habeas
corpus filed pursuant to 28 U.S.C. § 2254. The case is
now pending before this court for review of Pike’s
application for a certificate of appealability (COA).
In 1995, a Tennessee jury convicted Pike of first
degree murder and conspiracy to commit first degree
murder. The jury recommended that Pike be
sentenced to death, and the trial court sentenced her
accordingly. The court also sentenced her to twentyfive years of imprisonment for the conspiracy
conviction. On direct appeal, the Tennessee Court of
Criminal Appeals affirmed her convictions and
sentences, State v. Pike, No. 03C01-9611-CR-00408,
1997 WL 732511 (Tenn. Crim. App. Nov. 26, 1997), as
did the Tennessee Supreme Court. State v. Pike, 978
S.W.2d 904, 923 (Tenn. 1998).

255a
Pike subsequently filed a petition for postconviction relief. After conducting an evidentiary
hearing, the trial court denied Pike’s post-conviction
petition. The Tennessee Court of Criminal Appeals
affirmed the trial court’s decision, Pike v. State, No.
E2009-00016-CCA-R3-PD, 2011 WL 1544207 (Tenn.
Crim. App. Apr. 25, 2011), and the Tennessee
Supreme Court denied further review.
In 2012, Pike filed her § 2254 petition, raising
eleven grounds for relief. The district court concluded
that Pike’s claims did not warrant habeas relief and
dismissed the case. Pike v. Freeman, No. 1:12-CV-35,
2016 WL 1050717 (E.D. Tenn. Mar. 11, 2016). The
district court also denied Pike a COA for all of the
issues raised in her § 2254 petition.
Under 28 U.S.C. § 2253(c)(1)(B), we grant a COA
for an issue raised in a § 2254 petition only if the
petitioner has made a substantial showing that the
denial of a federal constitutional right has occurred.
A petitioner satisfies this standard by demonstrating
that reasonable judges could disagree with the
district court’s resolution of her constitutional claims
or that judges could conclude that the issues raised
are adequate to deserve further review. Miller-El v.
Cockrell, 537 U.S. 322, 327, 336 (2003); Slack v.
McDaniel, 529 U.S. 473, 484 (2000). The petitioner is
not required to show that the appeal will succeed in
order to be granted a COA, and the court should not
deny a COA merely because it believes that the
petitioner fails to demonstrate an entitlement to
relief. Miller-El, 537 U.S. at 337.
In her application for a COA, Pike seeks a COA
for the following issues: (1) whether her counsel
rendered ineffective assistance during the trial’s

256a
penalty phase; (2) whether her counsel rendered
ineffective assistance during the trial’s guilt phase;
(3) whether the trial court improperly dismissed a
juror for cause and whether counsel rendered
ineffective assistance by not objecting to the
dismissal; and (4) whether the Eighth Amendment
prohibits the execution of an individual who was
eighteen years of age at the time of the offense and
suffered from mental health issues. In addition to
arguing these four issues specifically, Pike generally
requests a COA for the remaining claims from her
habeas petition. However, since she mentions these
remaining claims only in a perfunctory manner and
provides no developed argumentation setting forth
the reasons that they would merit a COA, she has
waived consideration of those claims. Bickerstaff v.
Lucarelli, 830 F.3d 388, 397 (6th Cir. 2016).
Upon review, we conclude that the following issue
is adequate to deserve further review and we grant a
COA for this claim: whether her counsel rendered
ineffective assistance during the trial’s penalty phase.
However, Pike has not made a substantial showing of
the denial of a federal constitutional right for any of
the other issues from her COA application.
Consequently, we deny a COA for those claims.
Accordingly, we GRANT in part and DENY in
part Pike’s application for a COA. The Clerk’s Office
shall issue a briefing schedule.
ENTERED BY ORDER
OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

257a
APPENDIX F
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 16-5854
CHRISTA GAIL PIKE,
Petitioner-Appellant,
v.
GLORIA GROSS, WARDEN,
Respondent-Appellee.
[Filed: September 26, 2019]
Before: COOK, GRIFFIN, and STRANCH, Circuit
Judges.
ORDER
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.
ENTERED BY ORDER
OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

258a
APPENDIX G
CONSTITUTIONAL PROVISIONS
U.S. Const. amend VI provides:
In all criminal prosecutions, the accused
shall enjoy the right to a speedy and
public trial, by an impartial jury of the
State and district wherein the crime
shall have been committed, which
district shall have been previously
ascertained by law, and to be informed of
the nature and cause of the accusation;
to be confronted with the witnesses
against him; to have compulsory process
for obtaining witnesses in his favor, and
to have the Assistance of Counsel for his
defence.
U.S. Const. amend VIII provides:
Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and
unusual punishments inflicted.
U.S. Const. amend XIV provides:
Section 1. All persons born or
naturalized in the United States, and
subject to the jurisdiction thereof, are
citizens of the United States and of the
State wherein they reside. No State shall
make or enforce any law which shall
abridge the privileges or immunities of
citizens of the United States; nor shall
any State deprive any person of life,
liberty, or property, without due process
of law; nor deny to any person within its

259a
jurisdiction the equal protection of the
laws.
Section 2. Representatives shall be
apportioned among the several States
according to their respective numbers,
counting the whole number of persons in
each State, excluding Indians not taxed.
But when the right to vote at any election
for the choice of electors for President
and Vice President of the United States,
Representatives in Congress, the
Executive and Judicial officers of a State,
or the members of the Legislature
thereof, is denied to any of the male
inhabitants of such State, being twentyone years of age, and citizens of the
United States, or in any way abridged,
except for participation in rebellion, or
other crime, the basis of representation
therein shall be reduced in the
proportion which the number of such
male citizens shall bear to the whole
number of male citizens twenty-one
years of age in such State.
Section 3. No person shall be a Senator
or Representative in Congress, or elector
of President and Vice President, or hold
any office, civil or military, under the
United States, or under any State, who,
having previously taken an oath, as a
member of Congress, or as an officer of
the United States, or as a member of any
State legislature, or as an executive or
judicial officer of any State, to support
the Constitution of the United States,

260a
shall have engaged in insurrection or
rebellion against the same, or given aid
or comfort to the enemies thereof. But
Congress may by a vote of two-thirds of
each House, remove such disability.
Section 4. The validity of the public debt
of the United States, authorized by law,
including debts incurred for payment of
pensions and bounties for services in
suppressing insurrection or rebellion,
shall not be questioned. But neither the
United States nor any State shall
assume or pay any debt or obligation
incurred in aid of insurrection or
rebellion against the United States, or
any claim for the loss or emancipation of
any slave; but all such debts, obligations
and claims shall be held illegal and void.
Section 5. The Congress shall have
power to enforce, by appropriate
legislation, the provisions of this article.

261a
APPENDIX H
28 U.S.C. § 2254
State custody; remedies in Federal courts
Effective: April 24, 1996
(a) The Supreme Court, a Justice thereof, a circuit
judge, or a district court shall entertain an
application for a writ of habeas corpus in behalf of a
person in custody pursuant to the judgment of a State
court only on the ground that he is in custody in
violation of the Constitution or laws or treaties of the
United States.
(b)(1) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted unless
it appears that-(A) the applicant has exhausted the remedies
available in the courts of the State; or
(B)(i) there is an absence of available State
corrective process; or
(ii) circumstances exist that render such process
ineffective to protect the rights of the applicant.
(2) An application for a writ of habeas corpus may
be denied on the merits, notwithstanding the failure
of the applicant to exhaust the remedies available
in the courts of the State.
(3) A State shall not be deemed to have waived the
exhaustion requirement or be estopped from
reliance upon the requirement unless the State,
through counsel, expressly waives the requirement.
(c) An applicant shall not be deemed to have
exhausted the remedies available in the courts of the

262a
State, within the meaning of this section, if he has
the right under the law of the State to raise, by any
available procedure, the question presented.
(d) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted with
respect to any claim that was adjudicated on the
merits in State court proceedings unless the
adjudication of the claim-(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of
the evidence presented in the State court
proceeding.
(e)(1) In a proceeding instituted by an application for
a writ of habeas corpus by a person in custody
pursuant to the judgment of a State court, a
determination of a factual issue made by a State
court shall be presumed to be correct. The applicant
shall have the burden of rebutting the presumption of
correctness by clear and convincing evidence.
(2) If the applicant has failed to develop the factual
basis of a claim in State court proceedings, the court
shall not hold an evidentiary hearing on the claim
unless the applicant shows that-(A) the claim relies on-(i) a new rule of constitutional law, made
retroactive to cases on collateral review by the
Supreme
Court,
that
was
previously
unavailable; or

263a
(ii) a factual predicate that could not have been
previously discovered through the exercise of
due diligence; and
(B) the facts underlying the claim would be
sufficient to establish by clear and convincing
evidence that but for constitutional error, no
reasonable factfinder would have found the
applicant guilty of the underlying offense.
(f) If the applicant challenges the sufficiency of the
evidence adduced in such State court proceeding to
support the State court’s determination of a factual
issue made therein, the applicant, if able, shall
produce that part of the record pertinent to a
determination of the sufficiency of the evidence to
support such determination. If the applicant, because
of indigency or other reason is unable to produce such
part of the record, then the State shall produce such
part of the record and the Federal court shall direct
the State to do so by order directed to an appropriate
State official. If the State cannot provide such
pertinent part of the record, then the court shall
determine under the existing facts and circumstances
what weight shall be given to the State court’s factual
determination.
(g) A copy of the official records of the State court,
duly certified by the clerk of such court to be a true
and correct copy of a finding, judicial opinion, or other
reliable written indicia showing such a factual
determination by the State court shall be admissible
in the Federal court proceeding.
(h) Except as provided in section 408 of the
Controlled Substances Act, in all proceedings brought
under this section, and any subsequent proceedings
on review, the court may appoint counsel for an

264a
applicant who is or becomes financially unable to
afford counsel, except as provided by a rule
promulgated by the Supreme Court pursuant to
statutory authority. Appointment of counsel under
this section shall be governed by section 3006A of
title 18.
(i) The ineffectiveness or incompetence of counsel
during Federal or State collateral post-conviction
proceedings shall not be a ground for relief in a
proceeding arising under section 2254.

